APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Resolution of the Supreme Court of Puerto Rico
(Entry: December 23, 2019) ............................... 1a
Resolution of the Court of Appeals of Puerto Rico
(Entry: October 8, 2019) ..................................... 5a
Judgement of the Court of Appeals of Puerto Rico
(Entry: September 16, 2019) ............................ 10a
Resolution and Order of the Court of First
Instance Superior Court of Caguas, Puerto
Rico (Entry: July 31, 2019) .............................. 20a
CONSTITUTIONAL AND STATUTORY PROVISIONS
Constitutional and
Statutory Provisions Involved ......................... 25a
OTHER DOCUMENTS
Petition for Writ of Certiorari filed in Puerto Rico
Supreme Court (Entry: November 5, 2019) .... 30a
Motion for Suspension of Judgment
(Entry: January 21, 2019) ................................ 67a
Complaint filed in the Court of First Instance
Superior Court of Caguas
(Entry: September 10, 2015) .......................... 131a
Answer to the Complaint and Amended
Counterclaim (Entry: August 10, 2017) ........ 166a

APPENDIX TABLE OF CONTENTS (Cont.)
Judgment of Court of First Instance Superior
Court of Caguas, Puerto Rico
(Entry: July 30, 2018)..................................... 270a
Motion for Reconsideration and Request for Initial
and/or Additional Findings of Fact and
Conclusions of Law
(Entry: August 14, 2018) ................................ 322a

App.1a
RESOLUTION OF THE
SUPREME COURT OF PUERTO RICO
(ENTRY: DECEMBER 23, 2019)
NoReply@ramajudi-cial.pr <NoReply@ramajudi-cial.pr>
To: mongelafosselaw@gmail.com
23 December 2019 at 15:16 p.m.
THE COMMONWEALTH OF PUERTO RICO
GENERAL COURT OF JUSTICE
SUPREME COURT
________________________
ORIENTAL BANK,

Respondent,
v.
MULTIVENTAS Y SERVICIOS, INC. ET AL.,

Petitioner.
________________________
Case Number: CC-2019-0839
Original: E CD2015-1017
Appeals: KLAN201900962
Collection of Monies
Civil Action or Crime
angel ramon zayas febres, esq
zayasfebreslaw@gmail.com

App.2a
Notice
I CERTIFY THAT RELATION TO PETITION FOR
CERTIORARI THE COURT ISSUED A RESOLUTION WHICH IS ATTACHED
Click here to access the electronic document to which
this notice refers. The document will be available through this link for 45 days from the time the notice was
filed in the case record.
Alfredo Fernández Martínez, Esq.
afernandez@delgadofernandez.com
Pedro Antonio Hernández Freire, Esq.
phernandez@delgadofernandez.com
IN SAN JUAN, PUERTO RICO, ON DECEMBER 23,
2019
Sonnya Isabel Ramos Zeno
Acting Supreme Court Clerk
P.P.: /s/ Rosalia Pabón Rivera
Deputy Clerk

App.3a

IN THE SUPREME COURT OF PUERTO RICO
________________________
ORIENTAL BANK,

Respondent,
v.
MULTIVENTAS Y SERVICIOS, INC.;
MULTIVENTAS Y SERVICIOS P.R., INC.
MULTI-BATTERIES & FORKLIFTS, CORP.;
AWESOME, INC.; PEDRO RIVERA CONCEPCIÓN,
MARÍA MERCEDES FELICIANO CARABALLO
AND THE CONJUGAL PARTNERSHIP
CONSTITUTED BY BOTH,

Petitioners.
________________________
No. CC-2019-0839
Panel composed of Associate Justice Martínez Torres
as President, and Associate Justices Rivera García and
Colón Pérez.
RESOLUTION
In San Juan, Puerto Rico, on December 20, 2019.
After review of the Petition for Certiorari filed in
the instant case, said petition is denied.
So determined by the Court and certified by the
Acting Supreme Court Clerk.

App.4a
/s/ Sonnya Isabel Ramos Zeno
Acting Supreme Court Clerk
====================================
CERTIFICATE OF TRANSLATOR
# JF-2020-001_APP A
I am a United States court-certified interpreter,
and I CERTIFY that the above is a faithful translation
of the Spanish source, which I have performed to the
best of my ability. It consists of Three (3) pages,
including this certification sheet, and contains no
changes or erasures.
The content of this translation is an Electronic
notice and a Resolution (Re: Certiorari) in Commonwealth of Puerto Rico Certiorari Case No. CC-2019-0839.
In Cambridge, Massachusetts, on January 19, 2020.
/s/ Joaquín Font
Joaquín Font
Font Translations
Calle Calaf 400, Suite 268
San Juan, PR 00918
Toll-Free Tel. & Fax: 1-877-JOAQUIN (562-7846)
e-mail: fonttranslations@gmail.com

App.5a
RESOLUTION OF THE
COURT OF APPEALS OF PUERTO RICO
(ENTRY: OCTOBER 8, 2019)
NoReply@ramajudi-cial.pr <NoReply@ramajudi-cial.pr>
To: mongelafosselaw@gmail.com
8 October 2019 at 16:38 p.m.
THE COMMONWEALTH OF PUERTO RICO
GENERAL COURT OF JUSTICE
COURT OF APPEALS
CAGUAS JUDICIAL REGION
________________________
ORIENTAL BANK,
v.
MULTIVENTAS Y SERVICIOS, INC.
________________________
Case Number: KLAN201900962
Re: Civil Appeal
Notice
To: Angel Ramon Zayas Febres, Esq.
zayasfebreslaw@gmail.com
Alfredo Fernández Martínez, Esq.
afernandez@delgadofernandez.com
Pedro Antonio Hernández Freire, Esq.
phernandez@delgadofernandez.com

App.6a
General Clerk, Caguas (Deputy)
Caguas Judicial Center
PO Box 491 Caguas PR 00726
THE UNDERSIGNED CLERK CERTIFIES AND
NOTIFIES YOU THAT IN RELATION TO THE: MOTION FOR RECONSIDERATION-OCTOBER 1, 2019
THIS COURT ISSUED A RESOLUTION IN RECONSIDERATION ON OCTOBER 8, 2019, OF WHICH A
COPY IS ATTACHED OR FOR WHICH A LINK IS
PROVIDED:
Click here to access the electronic document to which
this notice refers. The document will be available through this link for 45 days from the time the notice was
filed in the case record.
YOU ARE ADVISED THAT SINCE YOU ARE A
PARTY OR THE LEGAL REPRESENTATIVE THEREOF IN THE CASE SUBJECT TO THIS RESOLUTION IN RECONSIDERATION, WITH RESPECT
TO WHICH AN APPEAL OR PETITION FOR CERTIORARI MAY BE FILED, IN ACCORDANCE WITH
THE PROCEDURE AND THE TIME PERIOD ESTABLISHED BY LAW, RULE OR REGULATION, I SEND
THIS NOTICE TO YOU.
I FURTHER CERTIFY THAT TODAY I SENT COPIES OF THIS NOTICE TO THE INDIVIDUALS
INDICATED ABOVE, TO THEIR ADDRESSES OF
RECORD IN THE CASE, IN ACCORDANCE WITH
APPLICABLE REGULATIONS. ON THIS SAME
DATE, A COPY OF THIS NOTICE WAS FILED IN
THE CASE RECORD.
IN SAN JUAN, PUERTO RICO, ON OCTOBER 8, 2019

App.7a
Lilia M. Oquendo Solis
Name of the Clerk of the
Court of Appeals
P.P.: /s/ Enibeth Garcia Rivera
Name and Signature of the
Deputy Clerk of the Court

App.8a

COMMONWEALTH OF PUERTO RICO
COURT OF APPEALS
PANEL I
________________________
ORIENTAL BANK,

Respondent,
v.
MULTIVENTAS Y SERVICIOS, INC., ET AL.,

Petitioners.
________________________
No. KLAN201900962
Case No. E CD2015-1017
Re: Collection of Monies and Mortgage Foreclosure
Appeal emanating from the Court of
First Instance, Court of Caguas
Panel composed of its presiding judge, Judge
Ramírez Nazario, Judge Candelaria Rosa and Judge
Cancio Bigas.
RESOLUTION
In San Juan, Puerto Rico, on October 8, 2019.
After review of the Motion for Reconsideration
filed by the appellants on October 1, 2019, said motion
is DENIED.

App.9a
So determined by the Court and certified by the
Court of Appeals.
/s/ Lilia M. Oquendo Solís
Clerk of the Court of Appeals
====================================
CERTIFICATE OF TRANSLATOR
# JF-2020-001_APP B
I am a United States court-certified interpreter,
and I CERTIFY that the above is a faithful translation
of the Spanish source, which I have performed to the
best of my ability. It consists of Three (3) pages,
including this certification sheet, and contains no
changes or erasures.
The content of this translation is an Electronic
notice (Re: Civil Appeal) and a Resolution (Re: Collection
of Monies and Mortgage Foreclosure) in Commonwealth
of Puerto Rico Appellate Case No. KLAN201900962/
Civil Case No. E CD2015-1017.
In Cambridge, Massachusetts, on January 17,
2020.
/s/ Joaquín Font
Joaquín Font
Font Translations
Calle Calaf 400, Suite 268
San Juan, PR 00918
Toll-Free Tel. & Fax: 1-877-JOAQUIN (562-7846)
e-mail: fonttranslations@gmail.com

App.10a
JUDGEMENT OF THE
COURT OF APPEALS OF PUERTO RICO
(ENTRY: SEPTEMBER 16, 2019)
NoReply@ramajudi-cial.pr <NoReply@ramajudi-cial.pr>
To: mongelafosselaw@gmail.com
16 September 2019 at 11:56 a.m.
THE COMMONWEALTH OF PUERTO RICO
GENERAL COURT OF JUSTICE
COURT OF APPEALS
CAGUAS JUDICIAL REGION
________________________
ORIENTAL BANK,
v.
MULTIVENTAS Y SERVICIOS, INC.
________________________
Case Number: KLAN201900962
Re: Civil Appeal
Notice
To: Angel Ramon Zayas Febres, Esq
zayasfebreslaw@gmail.com
Alfredo Fernández Martínez, Esq.
afernandez@delgadofernandez.com

App.11a
Pedro Antonio Hernández Freire, Esq.
phernandez@delgadofernandez.com
General Clerk, Caguas (Deputy)
Caguas Judicial Center
PO Box 491 Caguas PR 00726
THE UNDERSIGNED CLERK CERTIFIES AND
NOTIFIES YOU THAT IN RELATION TO THE:
APPEAL-AUGUST 27, 2019 THIS COURT ISSUED A
FINAL RESOLUTION ON SEPTEMBER 16, 2019, OF
WHICH A COPY IS ATTACHED OR FOR WHICH A
LINK IS PROVIDED:
Click here to access the electronic document to which
this notice refers. The document will be available
through this link for 45 days from the time the notice
was filed in the case record.
YOU ARE ADVISED THAT SINCE YOU ARE A PARTY
OR THE LEGAL REPRESENTATIVE THEREOF IN
THE CASE SUBJECT TO THIS RESOLUTION IN
RECONSIDERATION, WITH RESPECT TO WHICH
AN APPEAL OR PETITION FOR CERTIORARI MAY
BE FILED, IN ACCORDANCE WITH THE PROCEDURE AND THE TIME PERIOD ESTABLISHED BY
LAW, RULE OR REGULATION, I SEND THIS
NOTICE TO YOU.
I FURTHER CERTIFY THAT TODAY I SENT COPIES
OF THIS NOTICE TO THE INDIVIDUALS INDICATED
ABOVE, TO THEIR ADDRESSES OF RECORD IN THE
CASE, IN ACCORDANCE WITH APPLICABLE REGULATIONS. ON THIS SAME DATE, A COPY OF THIS
NOTICE WAS FILED IN THE CASE RECORD.
IN SAN JUAN, PUERTO RICO, ON SEPTEMBER 16,
2019

App.12a

Lilia M. Oquendo Solis
Name of the Clerk of the
Court of Appeals
P.P.: /s/ Waileny Pizarro Quiñones
Name and Signature of the
Deputy Clerk of the Court

App.13a

COMMONWEALTH OF PUERTO RICO
COURT OF APPEALS
PANEL I
________________________
ORIENTAL BANK,

Appellant,
v.
MULTIVENTAS Y SERVICIOS, INC., ET. ALS.,

Appellees.
________________________
No. KLAN201900962
Civil Case No. E CD2015-1017 (Courtroom 702)
Re: Collection of Monies and Mortgage Foreclosure
Appeal (heard as Certiorari) from the Court of
First Instance, Superior Court of Caguas
Panel comprised of Chief Judge Ramírez Nazario,
Judge Candelaria Rosa and Judge Cancio Bigas.
Candelaria Rosa, Sitting Judge
RESOLUTION
In San Juan, Puerto Rico, on September 16, 2019.
The above-captioned petitioners appear by writ of

certiorari, requesting that we revoke a Resolution and
Decree issued on July 25, 2019 by the Court of First

App.14a
Instance, Superior Court of Caguas. By said judgment, the Court Denied the petition for relief from
judgment filed by the petitioners in the suit for
collection of monies and mortgage foreclosure brought
against them by Oriental Bank. We Deny.
In summary, this case revolves around a suit
brought by Oriental Bank on September 10, 2015. In
said suit, it claims to have acquired and been the bona
fide holder of certain loans obtained as a result of the
closure of operations at Eurobank, due to which it
requested the collection of outstanding amounts, which
are liquid and exigible. The appellees in turn issued
their reply and counterclaim to the suit, in which they
have denied the facts alleged therein and argued that
Oriental Bank lacks standing to sue since the promissory
notes ceased to exist upon being submitted to the
secondary mortgage market. In this manner, they
maintained that because the notes in question were
submitted to said securitization process, they t lost
their legal identity and ceased to exist.
Oriental Bank denied the allegations of the
counterclaim and argued that it did have standing to
sue because it is the holder of the promissory notes
left unpaid by the appellees. It also petitioned for a
summary judgment in its favor. The appellees voiced
their opposition, arguing that Oriental Bank’s standing
to sue was in dispute.
On July 26, 2018, the Court of First Instance issued
a summary judgment in Oriental Bank’s favor. In it,
the Court concluded that Oriental Bank’s standing to
sue through the courts is not in dispute as long as it is
in physical and legal possession of the mortgage notes
in question. It therefore sentenced the appellees to
issue payment of the sums owed plus interests, costs,

App.15a
expenses and legal fees, and ordered the mortgaged
properties sold at public auction if said payment was
not made.
However, the originating Court rejected the application of the securitization doctrine, considering that
Oriental Bank proved that the promissory notes are
in its possession and have not been sold on the
secondary market. Furthermore, it maintained that the
expert reports presented by the appellees did not
refute this fact. It therefore dismissed the counterclaim
due to insufficient grounds.
Disagreeing, the appellees came before this Court
of Appeals and reiterated their position regarding
Oriental Bank’s lack of standing to sue. In a subsequent
ruling issued on February 13, 2019 in case KLAN
201801042, a separate panel of this Appeals Court
confirmed the appealed ruling. Notwithstanding, while
the appeal in question was still pending, the appellees
filed a motion for relief from judgment before the
Court of First Instance on January 22, 2019. Because
said petition for relief was denied by the Court of First
Instance, the appellees appear before us by means of
the above-captioned appeal, and again reiterate their
position regarding Oriental Bank’s lack of standing to
sue.
The writ of certiorari is a discretionary and extraordinary appeals process through which a higher-level
court may rectify legal errors under the terms provided in Rule 52.1 of the Civil Procedural Code of
Puerto Rico, 32 LPRA Sec. V, Rule 52.1, and in
accordance with the conditions set forth in Rule 40 of
the regulations of this Appeals Court, 4 LPRA Sec.
XXII-B, Rule 40; García v. Padró, 165 DPR 324 (2005).

App.16a
In this regard, the role of the Court of Appeals concerning review of disputes by writ of certiorari requires
assessing the actions of the Court of First Instance
and predicating its intervention on whether it constituted a misuse of discretion; if said court’s discretion
has not been misused, prejudiced, erroneous or biased,
the rulings of the Court of First Instance must not be
intervened with. Zorniak v. Cessna, 132 DPR 170 (1992);
Lluch v. España Service Sta., 117 DPR 729 (1986).
Furthermore, Rule 49.2 of the Civil Procedural
Code, 32 LPRA Sec. V, Rule 49.2, establishes the
procedural mechanism available for requesting that
the court of first instance provide relief from the
effects of a judgment. De Jesús v. González Lugo, 170
DPR 499 (2007). However, the cited Rule 49.2 provides
the following clarification:
Whenever an appeal or writ of certiorari is
pending a final resolution in voluntary jurisdiction proceedings, the appealed court may
not grant any relief under this rule unless it
is so authorized by the court of appeals. Once
the appeals court has issued its judgment, no
relief that is incompatible with the order may
be granted under this rule unless permission
for it is first sought from the court of appeals.
In either case, the motion for relief must
always be brought before the appealed court
within the term indicated above, and if said
court determines that it would be willing to
grant the relief, the corresponding authorization shall be sought from the appeals court.
The above passage means that, unless otherwise
ordered, “Once the appeal has been filed, all proceedings in lower courts pertaining to the appealed ruling

App.17a
or any portion thereof shall be relieved, as shall any
matters constituted therein.” Rule 52.3(a) of the Civil
Procedural Code, 32 LPRA Sec. V, Rule 52.3(a). Furthermore, for the sentence to be relieved in accordance
with Rule 49.2 of the Civil Procedural Code ut supra,
the appellee must cite one of the reasons provided
within said rule for the relief to be granted. García
Colón et. al. v. Sucn. González, 178 DPR 527 (2010). In
such case, the court must determine whether circumstances specific to the case justify such relief. Olmeda
Nazario v. Sueiro Jiménez, 123 DPR 294 (1989).
Nevertheless, the above-mentioned rule does not constitute a master key to reopen disputes, nor does it
replace the appeals process or appeals requesting
reversal. Negrón Rivera & Bonilla, ex parte, 120 DPR
61 (1987). Similarly, the motion for relief is not available to correct legal errors or errors in the evaluation or
assessment of evidence. R. Hernández Colón, Legal
Practice in Puerto Rico, Civil Procedural Code, 4th ed.,
San Juan, P.R., LexisNexis, 2007, Sec. 4804, p. 353;
García Colón et. al. v. Sucn. González ut supra, pp.
542-543.
In the case brought for consideration of this court,
the request for relief from judgment was brought
before the originating court while an appeal was
pending before us. Per our discussion, Rule 49.2 of the
Civil Procedural Code ut supra prevents the Court of
First Instance from granting any remedy under such
a circumstance unless it has been so authorized by
this appeals court. Any determinations made under
Rule 49.2 in this case without having petitioned this
court for such an authorization are deemed inadmissible.
Notwithstanding the above, it is evident that the
appellants have reiterated their same position as in

App.18a
this appeal regarding the lack of standing to sue, both
before the initial court and before this court, always
unsuccessfully. It is therefore worth clarifying that
relief from judgment constitutes an exceptional remedy,
whose aim is not to grant the appellee an additional
opportunity to reiterate its arguments, nor to seek to
correct alleged legal errors that were already addressed
through the corresponding motions for reconsideration
and appeal proceedings.
In view of the above, we hereby conclude that
with regard to the criteria pertaining to Rule 40 of the
Regulations of this Court of Appeals, 4 LPRA Sec.
XXII-B, Rule 40, there are no reasons to intervene in
the appealed judgment.
The petitioned writ of certiorari is hereby denied
on the grounds set forth.
So determined and ordered by the Court and
certified by the Clerk of the Court of Appeals.
/s/ Lilia M. Oquendo Solís
Clerk of the Court of Appeals

App.19a
====================================
CERTIFICATE OF TRANSLATOR
# JF-2020-001_APP B
I am a United States court-certified interpreter,
and I CERTIFY that the above is a faithful translation
of the Spanish source, which I have performed to the
best of my ability. It consists of eight (8) pages,
including this certification sheet, and contains no
changes or erasures.
The content of this translation is an Electronic
Notice (Re: Civil Appeal) and a Resolution from the
Court of Appeals in Commonwealth of Puerto Rico
Appellate Case No. KLAN201900962.
In Cambridge, Massachusetts, on January 19, 2020.
/s/ Joaquín Font
Joaquín Font
Font Translations
Calle Calaf 400, Suite 268
San Juan, PR 00918
Toll-Free Tel. & Fax: 1-877-JOAQUIN (562-7846)
e-mail: fonttranslations@gmail.com

App.20a
RESOLUTION AND ORDER OF THE COURT OF
FIRST INSTANCE SUPERIOR COURT
OF CAGUAS, PUERTO RICO
(ENTRY: JULY 31, 2019)
NoReply@ramajudi-cial.pr <NoReply@ramajudi-cial.pr>
To: mongelafosselaw@gmail.com
31 July 2019 at 9:01 a.m.
THE COMMONWEALTH OF PUERTO RICO
GENERAL COURT OF JUSTICE
COURT OF FIRST INSTANCE
COURT OF CAGUAS-SUPERIOR
________________________
ORIENTAL BANK,

Plaintiff,
v.
MULTIVENTAS Y SERVICIOS, INC.

Defendant.
________________________
Case Number: E CD2015-1017
Courtroom No. 0702
Re: Mortgage Foreclosure
Notice
To: Angel Ramon Zayas Febres, Esq.
zayasfebreslaw@gmail.com

App.21a
Alfredo Fernández Martínez, Esq.
afernandez@delgadofernandez.com
Pedro Antonio Hernández Freire, Esq.
phernandez@delgadofernandez.com
THE UNDERSIGNED CLERK CERTIFIES AND
NOTIFIES YOU THAT IN RELATION TO THE:
ABOVE-CAPTIONED CASE THIS COURT ISSUED A
RESOLUTION ON JULY 25, 2019.
A COPY IS ATTACHED OR A LINK IS PROVIDED:
Click here to access the electronic document to which
this notice refers. The document will be available
through this link for 45 days from the time the notice
was filed in the case record.
/s/ Annette M Prats Palerm
Judge
YOU ARE ADVISED THAT SINCE YOU ARE A PARTY
OR THE LEGAL REPRESENTATIVE THEREOF IN
THE CASE SUBJECT TO THIS RESOLUTION, YOU
MAY FILE AN APPEAL, MOTION FOR RECONSIDERATION OR PETITION FOR CERTIORARI IN ACCORDANCE WITH THE PROCEDURE AND THE TIME
PERIOD ESTABLISHED BY LAW, RULE OR REGULATION.
I CERTIFY THAT THE DETERMINATION ISSUED
BY THE COURT WAS DULY ENTERED AND FILED
TODAY, JULY 31, 2019, AND THAT COPIES OF THIS
NOTICE WERE SENT TO THE INDIVIDUALS INDICATED ABOVE, TO THEIR ADDRESSES OF RECORD IN THE CASE, IN ACCORDANCE WITH

App.22a
APPLICABLE REGULATIONS. ON THIS SAME
DATE, A COPY OF THIS NOTICE WAS FILED IN
THE CASE RECORD.
IN CAGUAS, PUERTO RICO, ON JULY 31, 2019.
Carmen A. Pereira Ortiz
Name of the Regional Clerk
P.P.: /s/ Lili Rodriguez
Name and Signature of the
Deputy Clerk of the Court

App.23a

COMMONWEALTH OF PUERTO RICO COURT OF
FIRST INSTANCE SUPERIOR COURT OF
CAGUAS, CAGUAS, PUERTO RICO
________________________
ORIENTAL BANK,

Plaintiff,
v.
MULTIVENTAS Y SERVICIOS, INC., ET. AL.,

Defendants.
________________________
Civil Case No. E CD2015-1017 (Courtroom 702)
Re: Collection of Monies and Mortgage Foreclosure
Before: Annette Prats PALERM,
Superior Court Judge.
RESOLUTION AND ORDER
In relation to the briefs submitted by the parties
in the above-captioned case, the Court determines as
follows:
Notice to the Court and Motion Assuming Legal
Representation (filed on July 16, 2019)
➢ The legal representation of Ángel Zayas
Febres is accepted. Opposition to Motion
under Rule 49.2 (d) . . . (filed on
June 14, 2019 by the plaintiff)

App.24a
➢ The defendants’ Petition for Relief from Judgment is denied.
ORDERED TO BE NOTIFIED.
Issued in Caguas, Puerto Rico, on July 25, 2019.
/s/ Annette Prats Palerm
Superior Court Judge
====================================
CERTIFICATE OF TRANSLATOR
# JF-2020-001_APP B
I am a United States court-certified interpreter,
and I CERTIFY that the above is a faithful translation
of the Spanish source, which I have performed to the
best of my ability. It consists of Three (3) pages,
including this certification sheet, and contains no
changes or erasures.
The content of this translation is an Electronic
Notice (Re: Mortgage Foreclosure) and a Resolution and
Order (Re: Collection of Monies and Mortgage Foreclosure) in Commonwealth of Puerto Rico Civil Case No. E
CD2015-1017.
In Cambridge, Massachusetts, on January 19, 2020.
/s/ Joaquín Font
Joaquín Font
Font Translations
Calle Calaf 400, Suite 268
San Juan, PR 00918
Toll-Free Tel. & Fax: 1-877-JOAQUIN (562-7846)
e-mail: fonttranslations@gmail.com

App.25a
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Const. amend. XIV, § 1
Sec. 1. [Citizens of the United States.] All persons
born or naturalized in the United States, and subject
to the jurisdiction thereof, are citizens of the United
States and of the State wherein they reside. No State
shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States;
nor shall any State deprive any person of life, liberty,
or property, without due process of law; nor deny to
any person within its jurisdiction the equal protection of
the laws.
U.C.C. § 3-104. Negotiable Instrument
(a) Except as provided in subsections (c) and (d),
“negotiable instrument” means an unconditional promise or order to pay a fixed amount of money, with or
without interest or other charges described in the
promise or order, if it:
(1) is payable to bearer or to order at the time it
is issued or first comes into possession of a
holder;
(2) is payable on demand or at a definite time; and
(3) does not state any other undertaking or instruction by the person promising or ordering payment to do any act in addition to the
payment of money, but the promise or order
may contain (i) an undertaking or power to
give, maintain, or protect collateral to secure
payment, (ii) an authorization or power to the

App.26a
holder to confess judgment or realize on or
dispose of collateral, or (iii) a waiver of the
benefit of any law intended for the advantage
or protection of an obligor.
(b) “Instrument” means a negotiable instrument.
(c) An order that meets all of the requirements of
subsection (a), except paragraph (1), and otherwise falls
within the definition of “check” in subsection (f) is a negotiable instrument and a check.
(d) A promise or order other than a check is not
an instrument if, at the time it is issued or first comes
into possession of a holder, it contains a conspicuous
statement, however expressed, to the effect that the
promise or order is not negotiable or is not an instrument governed by this Article.
(e) An instrument is a “note” if it is a promise and
is a “draft” if it is an order. If an instrument falls within
the definition of both “note” and “draft,” a person entitled
to enforce the instrument may treat it as either.
(f) “Check” means (i) a draft, other than a documentary draft, payable on demand and drawn on a bank
or (ii) a cashier’s check or teller’s check. An instrument
may be a check even though it is described on its face
by another term, such as “money order.”
(g) “Cashier’s check” means a draft with respect
to which the drawer and drawee are the same bank or
branches of the same bank.
(h) “Teller’s check” means a draft drawn by a bank
(i) on another bank, or (ii) payable at or through a bank.
(i) “Traveler’s check” means an instrument that
(i) is payable on demand, (ii) is drawn on or payable at

App.27a
or through a bank, (iii) is designated by the term
“traveler’s check” or by a substantially similar term, and
(iv) requires, as a condition to payment, a countersignature by a person whose specimen signature appears on the instrument.
(j) “Certificate of deposit” means an instrument
containing an acknowledgment by a bank that a sum
of money has been received by the bank and a promise
by the bank to repay the sum of money. A certificate
of deposit is a note of the bank.
U.C.C. § 8-102(15). Definitions; Security
(15) “Security,” except as otherwise provided in
Section 8-103, means an obligation of an issuer or a
share, participation, or other interest in an issuer or in
property or an enterprise of an issuer:
(i)

which is represented by a security certificate
in bearer or registered form, or the transfer
of which may be registered upon books maintained for that purpose by or on behalf of the
issuer;

(ii) which is one of a class or series or by its terms
is divisible into a class or series of shares,
participations, interests, or obligations; and
(iii) which: (A) is, or is of a type, dealt in or traded
on securities exchanges or securities markets;
or (B) is a medium for investment and by its
terms expressly provides that it is a security
governed by this Article.

App.28a
U.C.C. § 8-103.
Rules for Determining Whether Certain Obligations
and Interests Are Securities or Financial Assets
(a) A share or similar equity interest issued by a
corporation, business trust, joint stock company, or
similar entity is a security.
(b) An “investment company security” is a security.
“Investment company security” means a share or similar
equity interest issued by an entity that is registered
as an investment company under the federal investment
company laws, an interest in a unit investment trust
that is so registered, or a face-amount certificate issued
by a face-amount certificate company that is so registered. Investment company security does not include
an insurance policy or endowment policy or annuity
contract issued by an insurance company.
(c) An interest in a partnership or limited liability
company is not a security unless it is dealt in or traded
on securities exchanges or in securities markets, its
terms expressly provide that it is a security governed
by this Article, or it is an investment company security.
However, an interest in a partnership or limited liability
company is a financial asset if it is held in a securities
account.
(d) A writing that is a security certificate is governed by this Article and not by Article 3, even though
it also meets the requirements of that Article. However, a negotiable instrument governed by Article 3 is
a financial asset if it is held in a securities account.
(e) An option or similar obligation issued by a
clearing corporation to its participants is not a security,
but is a financial asset.

App.29a
(f) A commodity contract, as defined in Section
9-102(a)(15), is not a security or a financial asset.
U.C.C. § 8-104.
Acquisition of Security or Financial Asset or Interest
Therein
(a) A person acquires a security or an interest
therein, under this Article, if:
(1) the person is a purchaser to whom a security
is delivered pursuant to Section 8-301; or
(2) the person acquires a security entitlement to
the security pursuant to Section 8-501.
(b) A person acquires a financial asset, other than
a security, or an interest therein, under this Article, if the
person acquires a security entitlement to the financial
asset.
(c) A person who acquires a security entitlement
to a security or other financial asset has the rights
specified in Part 5, but is a purchaser of any security,
security entitlement, or other financial asset held by
the securities intermediary only to the extent provided
in Section 8-503.
(d) Unless the context shows that a different
meaning is intended, a person who is required by other
law, regulation, rule, or agreement to transfer, deliver,
present, surrender, exchange, or otherwise put in the
possession of another person a security or financial
asset satisfies that requirement by causing the other
person to acquire an interest in the security or financial
asset pursuant to subsection (a) or (b).

App.30a
PETITION FOR WRIT OF CERTIORARI FILED
IN PUERTO RICO SUPREME COURT
(ENTRY: NOVEMBER 5, 2019)
IN THE PUERTO RICO SUPREME COURT
________________________
ORIENTAL BANK,

Plaintiff-Appellee,
v.
MULTI-VENTAS Y SERVICIOS, INC.;
MULTI-VENTAS Y SERVICIOS P.R., INC.;
MULTI-BATTERIES & FORKLIFTS, CORP.;
AWESOME, INC.; PEDRO RIVERA CONCEPCIÓN;
MARÍA MERCEDES FELICIANO CARABALLO;
AND THEIR CONJUGAL PARTNERSHIP,

Defendants-Petitioners.
________________________
Civil No. CC-2019-839
From: The Court of Appeals
KLAN-2019-00962
Of The Court of First Instance Caguas
Judicial Center Superior Court
Civil No.: ECD-2015-1017
Re: Collection of Monies and Mortgage Foreclosure
Counterclaim: Extinguishment of
Promissory Notes Extinguishment of
Pledges Extinguishment of Mortgages

App.31a
Representation of the Petitioner
Ángel R. Zayas Febres, Esq.
Monge La Fosse
Attorneys &
Counsellors at Law, LLC
PO Box 192053
San Juan, P.R. 00919-2053
Tel. (787) 765-9090
Fax: (787) 765-9035
Cell: (787) 906-9096
USDC-PR No. 21424
Email: mongelafosselaw@gmail.com
zayasfebreslaw@gmail.com
Representation of the Appellee
Alfredo Fernández Martínez, Esq.
Pedro A. Hernández Martínez, Esq.
DELGADO & FERNÁNDEZ
P.O. Box 11750
Fernández Juncos Station
San Juan, P.R. 00910-1750
Telephone: (787) 274-1414
Telefax: (787) 764-8241
License: USDC-PR No. 10632
License: USDC-PR No. 19347
E-mail: afernandez@delgadofernandez.com
phernandez@delgadofernandez.com

App.32a
TABLE OF CONTENTS
Page(s)
I.
II.

LEGAL PROVISIONS ESTABLISHING
JURISDICTION AND COMPETENCE OF
THE SUPREME COURT
LEGALLY-GROUNDED DISCUSSION
JURISDICTIONAL BASIS

III.

DECISION WHOSE REVIEW IS SOUGHT

IV.

DECISION OF THE COURT OF FIRST
INSTANCE

V.

VI.

VII.

2-3
2-3
3-4
4

FAITHFUL AND CONCISE EXPOSITION
OF THE PROCEDURAL FACTS AND
MATERIAL AND PERTINENT FACTS OF
THE CASE

5-16

ASSIGNMENT OF ERROR
THE COURT OF APPEALS ERRED BY
NOT DECREEING RELIEF FROM THE
SUMMARY JUDGMENT WAS ISSUED
WITHOUT DUE PROCESS OF LAW14TH AMENDMENT OF THE UNITED
STATES CONSTITUTION

17

DISCUSSION OF THE ASSIGNMENT OF
ERROR

17-24

VIII. PRAYER

25

IX.

25

NOTIFICATIONS

App.33a
LEGAL TABLE OF CONTENTS
Page(s)
I. CONSTITUTION AND LAWS OF PUERTO RICO
Article V Constitution Commonwealth of
Puerto Rico
Articles 3.001, 3.002(d) of the
Judiciary Act of the Commonwealth of
Puerto Rico of 2003, Law No. 201 of
August 22, 2003, 4 L.P.R.A. §§ 24r, 24s
Rules 20, 20(a) Regulations of the
Puerto Rico Supreme Court (2011), 4
L.P.R.A. App. XXI-A, R. 20
Rules 20(C) of the Regulations Puerto
Rico Supreme Court (2011), 4 L.P.R.A.
App. XXI-A, R. 20(C) Rule 84 (A) of the
Regulations of the Court of Appeals, 4
L.P.R.A. XXII-B, R. 84
Civil Procedure Rule 52.2(b), 32
L.P.R.A. App. V.
Civil Procedure Rule 36, 32 L.P.R.A.
App. V.
Civil Procedure Rule 49.2, 32 L.P.R.A.
App. V.

1

1-3
2-3

2-3
2-3
20
4,15,23,24

II. CASE LAW OF THE PUERTO RICO SUPREME COURT

Bco. Santander P.R. v. Fajardo Farms
Corp., 141 D.P.R. 237, [243-244] (1996)
Consejo Tit. C. Parkside v. MGIC Fin.
Corp., 128 D.P.R. 538 (1991)
Corp. Presiding Bishop CJC of LDS v.
Purcell, 117 D.P.R. 714 (1986)
Cuadrado Lugo v. Santiago Rodríguez,

24
20, 21
21
20

App.34a
126 D.P.R. 272 (1990)

Estado Libre Asociado v. Tribunal
Superior, 86 D.P.R. 692, 697-698
(1962)

Figueroa v. Banco de San Juan,
108 D.P.R. 680, 688 (1979)

Jusino Figueroa v. Walgreens of San
Patricio, Inc., 155 D.P.R. 560 (2001)
Maldonado Elias v. Gomales Rivera,
118 D.P.R. 260 (1987)

Mercado Vega v. U.P.R.,
128 D.P.R. 273 (1991)

Metrop. de Préstamos v. López de
Victoria, 141 D.P.R. 844 (1996)
Montañez v. Policía de Puerto Rico,
150 D.P.R. 917, 921-922 (2000)

23
24
21, 22
18
21, 22
21
24

Oriental Bank & Trust v. Perapi S.E.,
2014 PRSC 133, Decision of November
15, 2014

Rodríguez Figueroa v. Registrador de la
Propiedad, 75 D.P.R. 712, 718 (1953)
Tello, Rivera v. Eastern Airlines,
119 D.P.R. 83 (1987)

22
23
20

III. LAW AND FEDERAL CASE LAW
14th Amendment of the United States
Constitution
Armstrong v. Manzo,
380 U.S. 545, 552 (1965)
Baldwin v. Hale,
68 U.S. (1 Wall.) 223, 233 (1863)

Carey v. Piphus,

passim
20
19

435 U.S. 247, 259 (1978)

19

Cleveland Bd. of Educ. v. Loudermill,

19

App.35a
470 U.S. 532, 542, 105 S. Ct. 1487,
84 L.Ed.2d 494 (1985)

Fuentes v. Shevin,
407 U.S. 67, 81 (1972)

Gikas v. Washington School Dist.,
328 F.3d 731, 738 (3d Cir. 2003)

Graham v. City of Philadelphia,
402 F.3d 139, 145 (3d Cir. 2005)

Hoult v. Hoult,
57 F3d. 1, 6 (1995)
In re: Hunter,
66 F.3d 1002, 1005 (1995)

Medina v. California,
505 U.S. 437, 443 (1992)

Memphis Light, Gas and Water Division
v. Craft, 436 U.S. 1, 16, 98 S. Ct. 1554,
56 L.Ed.2d 30 (1978)

Morrissey v. Brewer,
408 U.S. 471, 481 (1982)

Shelley v Kraemer,
334 U.S. 1 (1948)

19
19
19
23
23
19
19
20
19

IV. FEDERAL AND STATE LEGAL AUTHORS
H.A. Kooman, Federal Civil Practice,
Atlanta, The Harrison Company Pub.,
1975, Vol. 4, sec. 60.06, p. 246
J.W. Moore, Moore’s Federal Practice,
3rd ed., San Francisco, LexisNexis, 2009,
Vol. 12, sec. 60.44(1) (b), p. 60-150
T.A. Coyne, Federal Rules of Civil
Procedure, 2nd ed., Minnesota, West
Group, 2000, sec. VII-74
Hernández Colón, Rafael, Práctica
Jurídica de Puerto Rico, Derecho

24
23, 24
23
23

App.36a
Procesal Civil, LexisNexis de Puerto
Rico, Inc., 2010, page 275
J.A. Cuevas Segarra, Tratado de
Derecho Procesal Civil, San Juan, Pubs.
JTS, 2000, Volume I p. 609

23

PETITION FOR CERTIORARI
TO THE HONORABLE SUPREME COURT:
COME NOW the above-captioned petitioners,
through their undersigned attorneys and, most respectfully, STATE, ALLEGE AND PETITION:
I.

Legal Provisions Establishing the Jurisdiction and
Competence of the Puerto Rico Supreme Court

The Puerto Rico Supreme Court has jurisdiction
and competence to hear the above–captioned Petition
for Certiorari by virtue of Article V of the Constitution
of the Commonwealth of Puerto Rico, Articles 3.001,
3.002(d) of the Judiciary Act of the Commonwealth of
Puerto Rico of 2003, Law No. 201 of August 22, 2003,
4 L.P.R.A. §§ 24r, 24s; and Rule 20 of the Regulations
of the Puerto Rico Supreme Court (2011) 4 L.P.R.A.
App. XXI-A, R.20. Also applicable are Rule 52.2(b) of
the Rules of Civil Procedure, 32 L.P.R.A. App. V, R.
52.2(b) and Rule 84 of the Regulations of the Court of
Appeals, 4 L.P.R.A. App. XXII-B, R. 84.
II.

Legally-Grounded Discussion on Jurisdictional
Basis

Article 3.002(d) of the Judiciary Act of the Commonwealth of Puerto Rico of 2003, 4 L.P.R.A § 24s (d)
confers upon the Supreme Court the authority to

App.37a
review, by means of a Writ of Certiorari, those judgments or decisions issued by the Puerto Rico Court of
Appeals within the jurisdictional term of thirty (30)
days as of the filing in the case records of a copy of the
notification of the appealed judgments. Rule 52.2(b) of
the Rules of Civil Procedure of 2009, 32 L.P.R.A. App.
V, R. 52.2(b) and Rule 20(a)(1) of the Regulations of
the Puerto Rico Supreme Court (2011), 4 L.P.R.A.
App. XXI-A, R. 20(a)(1), provides that the petition for
Certiorari to review a judgment or decision of the
Court of Appeals must be filed within the jurisdictional term of thirty (30) days as of the date a copy of
the notification of the appealed judgment is filed in
the case records. This term is interrupted with the timely
filing of a motion for reconsideration-Rule 52.2(F) of

the Rules of Civil Procedure of 2009, 32 L.P.R.A. App.
V, R. 52.2(F); Rule 84(A) of the Regulations of the
Court of Appeals, 4 L.P.R.A. XXII-B, R. 84(A) and Rule
20(C) of the Regulations of the Puerto Rico Supreme
Court (2011), 4 L.P.R.A. App. XXI-A, R. 20(C).
On August 27, 2019, the petitioner filed an appeal
before the Court of Appeals [App.19, page 3257, et
seq.]. On September 16, 2019, the Court of Appeals
served notice of the Decision of September 16, 2019
[[A
Apppp..2211,, pppp.. 33229988-- 33330055]].. O
Onn O
Occttoobbeerr 11,, 22001199,, tthhee ppeettii-ttiioonneerr filed a Motion for Reconsideration before the
Court of Appeals [App.22, pp. 3306-3316], which was
DENIED by means of the decision notified on October
8, 2019 [App.23, pp. 3317-3319].
Consequently, the term of thirty (30) days to file
this petition for certiorari began on October 8, 2019
and ended on November 7, 2019. Having filed this
petition for Certiorari on or before November 7, 2019,
before this Honorable Supreme Court, this Court

App.38a
therefore acquired jurisdiction to hear said petition
for Certiorari, given that it was filed within its jurisdictional term.
III. Decision Whose Review Is Sought
The petitions contest the ruling of the Court of
Appeals, Panel I, comprised of its chief justice, Judge
Ramírez Nazario, Judge Candelaria Rosa and Judge
Cancio Bigas, of September 16, 2019, in the case of
Oriental Bank v. MultiVentas y Servicios, Inc. et al.,
Civil No. KLAN-2019-00962, whose notification was
filed in the case records on September 16, 2019
[App.21, pp. 3299-3305]. On October 1, 2019, the petitioner filed a Motion for Reconsideration before the
Court of Appeals [App.22, pp. 3306-3316], which was
DENIED by means of the Decision of October 8, 2019,
notified on October 8, 2019 [App.23, pp. 3317-3319].
Currently, there is no other appeal sub judice related
to the original case.
IV. Decision of the Court of First Instance
It is the ruling of July 25, 2019, issued by the
Caguas Court of First Instance, in the case of Oriental
Bank v. MultiVentas y Servicios, Inc., et al., Civil
Number ECD-2015-1017, through Honorable Judge
Annette Prats Palerm, denying the petition for Relief
from Judgment [App.18, pp. 3254-3256]. This is in
spite of the expert testimony the petitioner filed with
its Motion for Relief from Judgment under Rule
49.2(d) of Civil Procedure, infra [App.8, pp. 20123195]. Said ruling of July 25, 2019 was notified and
filed in the case records on July 31, 2019 [App.18, pp.
3254-3256]. On July 31, 2019, the term began to file

App.39a
an appeal before the Court of Appeal, which was filed
in a timely manner on August 27, 2019.
V.

List of Pertinent Material and Procedural Facts

This case is a COMPLAINT for collection of monies
and mortgage foreclosure by ordinary proceedings
[App.1, pp. 1-643] and a COUNTERCLAIM containing
documentary evidence, which, on the one hand, disputed
the fundamental facts of the Complaint, and, on the
other hand, demonstrated the plaintiff’s lack of standing to bring suit [App.4, pp. 709-1916].
Following certain appeal processes with respect
to the dispute regarding the appropriateness of an
extinguishment of litigious obligation; other court proceedings relating to the petition for summary judgment and its opposition; a complicated discovery of
evidence phase; hurricane Maria; a change of Judge,
a judicial hearing on the was held on the status of the
proceedings, discussing at length the difficulties of the
Discovery Phase.
In compliance with the Order issued in Court, the
defendant–counterclaimant filed a Petition for Order,
relating to the Discovery of Evidence in particular and
regulated by the Federal Law. Consequently, the
Court of First Instance issued the Order transcribed
below. In a timely manner, the defendant-counterclaimant filed a Motion before the Lower Court to extend
the term to provide notice of the extra-judicial acts to
resolve the Discovery disputes.

App.40a

Notwithstanding, (i) the case being in the Discovery
Phase with orders of the court due to the plaintiff’s
non-compliance and its violations of federal regulations (Qualified Written Request, inter alia); (ii) the
file being Without Answer to the Amended Counterclaim
on the part of the plaintiff-counterclaim defendant
(who was to be the subject of our motion for entry of
default); and (iii) the Proceedings being full of Disputed
Facts, on July 26, 2018, the Court of First Instance

App.41a
issued a Summary Judgment for the plaintiff and dismissed, with prejudice, the Amended Counterclaim
(that was NOT answered by the plaintiff) [App.6, pp.
1919-1950]. It is ordered that judicial notice be taken of
the proceedings of CC-2019-0089.
The judgment in question was issued WITHOUT
DUE PROCESS OF LAW. This judgment was issued
summarily: (i) there being a genuine dispute in relation to the material facts of the case (whose adjudication required a hearing on the merits)1; (ii) in the
middle of the discovery of evidence phase; (iii) without
the amended Counterclaim having been answered;
and (iv) without a hearing on the merits. The defendants-counterclaimants were deprived of an individual
property interest, protected by the Fourteenth Amendment of the United States Constitution, and the civil
proceedings made available to them by the Court did
NOT afford Due Process of Law. Therefore, the State
(through the Court of Justice/its officers) deprived the
defendants-counterclaimants of their constitutional
rights protected by our Constitution and by the 14th
Amendment of the United States Constitution.
On August 14, 2018, the petitioners filed a Motion
for Reconsideration and Request for Initial and/or
Findings of Fact and Conclusions of Law [App.7, pp.

1 A review of the Answer to the Complaint and Amended Counterclaim, together with the expert testimony in the proceedings, was
enough to take note of the disputed material facts and the true
legal matters that must be decided by means of a Trial on the
Merits. Due to their length, we adopt, by way of reference, the
facts and documentary evidence of the petitioners that disputed
the allegations of the complaint, App.4, pp. 709-1916.

App.42a
1951- 2011]. In this brief, the following was established, ad verbatim, with the exclusion of some citations
that can be seen in Appendix 7, supra:
“With all due respect for the first version your
Honor has given to the processing of the plaintiff’s
petition for summary judgment, we set out the Errors
in Law that would materialize if, in Reconsideration,
your Honor were not to overturn the aforementioned
judgement. In essence: (i) contrary to our first perception,
in the instant case there is a dispute as to the material
and fundamental facts of the case that impede a summary order; (ii) the issuance of the judgment was
made without completing the Discovery phase, which
presented serious conflicts given the plaintiff’s unwillingness to answer our interrogatories, requests and
Qualified Written Request (regulated by federal law),
this being a procedural situation that we explained to
your Honor during the last Hearing on the Status of
the Proceedings. Therefore, your judicial action affected
the Due Process of Law and the constitutional rights
of the defendants-counterclaimants; (iii) the facts of
the Defense and Counterclaim of the defendant-counterclaimant were ignored, also ignoring 19 Expert
Reports in the proceedings that evidenced the irrefutable
facts regarding the sale of the promissory notes in
dispute on the Secondary Market and their Securitization, inter alia.
All of the above made it obligatory to DENY the
plaintiff’s petition for summary judgment and to go
ahead with the Discovery of Evidence in order to
channel the above-captioned case for a TRIAL ON ITS
MERITS. During said Hearing, our expert witness can
illustrate and demonstrate the details of the databases
he accesses (i.e., Bloomberg, Securities and Exchange

App.43a
Commission, as he states in his Expert Reports) in
order to find the data on the Sale and Securitization
of a certain Promissory Note. Likewise, he can explain
the alphanumeric and other codes that were summarized
in the screenshots that each Expert Report contains
in the case records, on its last page.”
REQUESTED FINDINGS OF FACT AND
CONCLUSIONS OF LAW
The requested findings of Fact are the following:
1. On SEPTEMBER 10, 2015, the counterclaim
defendant filed the complaint for collection of monies
and mortgage foreclosure of the above-captioned case.
2. On the filing date of the aforementioned complaint, the counterclaim defendant was NOT the
owner, holder, possessor of the original PROMISSORY
NOTES; nor was it the creditor of the MORTGAGES,
that are the subject matter of the above-captioned
action.
3. The counter defendant lacked standing to bring
suit when it filed the complaint of the above-captioned
case, given that it is not the owner, holder, possessor
of the aforementioned PROMISSORY NOTES; nor is
it the creditor of the MORTGAGES.
4. Between the dates of: MARCH 5, 2003 AND
JULY 9, 2009,2 i.e., during the period of: 6 to 12 years
2
NOTE #1

($180,000.00):

March 5, 2003

NOTE #2

($720,000.00):

March 5, 2003

NOTE #3

($900,000.00):

December 5, 1992

NOTE #4

($300,000.00):

March 5, 2003

App.44a
BEFORE the filing of the above-captioned complaint,
the counterclaim defendant’s predecessor sold each
original PROMISSORY NOTE on the Secondary Market
and each PROMISSORY NOTE underwent the Securitization process in the respective Trusts: EURO LOAN
CLO I-EBS OVERSEAS INC III.
5. Following the sale of each original PROMISSORY NOTE on the Secondary Market, the counterclaim
defendant’s predecessor collected the amount of each
PROMISSORY NOTE through a third party (investor
of the Secondary Market), making a profit on the sale
of each PROMISSORY NOTE on dates before the
above-captioned complaint.
NOTE #5

($300,000.00):

March 5, 2003

NOTE #6

($280,000.00):

March 5, 2003

NOTE #7

($700,000.00):

January 5, 2001

NOTE #8

($600,000.00):

March 5, 2003

NOTE #9

($1,200,000.00):

March 5, 2003

NOTE #10

($432,000.00):

February 28, 2004

NOTE #11

($800,000.00):

October 7, 2004

NOTE #12

($2,443,000.00):

December 27, 2005

NOTE #13

($680,000.00):

December 27, 2005

NOTE #14

($1,500,000.00):

July 9, 2009

NOTE #15

($1,020,000.00):

July 9, 2009

NOTE #16

($920,000.00):

July 9, 2009

NOTE #17

($550,000.00):

July 9, 2009

NOTE #18

($157,000.00):

July 9, 2009

NOTE #19

($100,000.00):

July 9, 2009

App.45a
6. As from the date of sale of each original PROMISSORY NOTE on the Secondary Mortgage Market,
between the dates of: MARCH 5, 2003 AND JULY 9,
2009, the plaintiff’s predecessor ceased to be owner,
holder, possessor and creditor of each MORTGAGE
that is the subject matter of the collection and foreclosure case.3 After the dates of each sale, the plaintiff
was also not, is it, the owner, holder, possessor of the
promissory notes in question.
7. After the Securitization process of each PROMISSORY NOTE (between the dates of: MARCH 30, 2003
AND JULY 15, 2009,4 in the respective Trusts: EURO
3 It is worth emphasizing that when promissory notes undergo
the Securitization process–which creates the so-called pool of
these promissory notes–said promissory notes are withdrawn
from circulation on the Market and, in physical terms, they are
filed in vaults as documents constituting the Pool that precedes
the Securities resulting from the Securitization process. In
accordance with federal regulations, these pooled documents (the
old promissory notes) are placed under the permanent custody of
the designated Master Document Custodian of the Secondary
Market, without them being able to be removed from his custody.
4
NOTE #1

($180,000.00):

March 30, 2003

NOTE #2

($720,000.00):

March 30, 2003

NOTE #3

($900,000.00):

December 16, 1992

NOTE #4

($300,000.00):

March 30, 2003

NOTE #5

($300,000.00):

March 30, 2003

NOTE #6

($280,000.00):

March 30, 2003

NOTE #7

($700,000.00):

January 30, 2001

NOTE #8

($600,000.00):

March 30, 2003

NOTE #9

($1,200,000.00):

March 30, 2003

App.46a
LOAN CLO I-EBS OVERSEAS INC III5), each PROMISSORY NOTE was converted into something else of
a new type, i.e., Securities.

NOTE #10

($432,000.00):

October 15, 2004

NOTE #11

($800,000.00):

October 15, 2004

NOTE #12

($2,443,000.00):

January 5, 2006

NOTE #13

($680,000.00):

January 5, 2006

NOTE #14

($1,500,000.00):

July 15, 2009

NOTE #15

($1,020,000.00):

July 15, 2009

NOTE #16

($920,000.00):

July 15, 2009

NOTE #17

($550,000.00):

July 15, 2009

NOTE #18

($157,000.00):

July 15, 2009

NOTE #19

($100,000.00):

July 15, 2009

5
NOTE #1

($180,000.00):

EURO LOAN CLO I

NOTE #2

($720,000.00):

EURO LOAN CLO I

NOTE #3

($900,000.00):

EURO MAX IV MBS

NOTE #4

($300,000.00):

EURO LOAN CLO I

NOTE #5

($300,000.00):

EURO LOAN CLO I

NOTE #6

($280,000.00):

EURO LOAN CLO I

NOTE #7

($700,000.00):

EURO MULTI CREDIT CDO

NOTE #8

($600,000.00):

EURO LOAN CLO I

NOTE #9

(1,200,000.00):

EURO LOAN CLO I

NOTE #10

($432,000.00):

EBS OVERSEAS INC I

NOTE #11

($800,000.00):

EBS OVERSEAS INC I

NOTE #12

(2,443,000.00):

EBS OVERSEAS INC II

App.47a
8. The allegations of the plaintiff-counterclaim
defendant, in the above–captioned case, that it is the
owner, holder of the PROMISSORY NOTES and creditor of the MORTGAGES, are false representations.
9. Between the dates of: MARCH 5, 2003 AND
JULY 9, 2009, the plaintiff-counterclaim defendant’s
predecessor sold each original PROMISSORY NOTE
in question on the Secondary Market and collected the
amount thereof by means of a payment by a third
party BEFORE the filing of the above-captioned Complaint (SEPTEMBER 10, 2015).
10. Following the sale of each Original PROMISSORY NOTE on the secondary mortgage market
each PROMISSORY NOTE had undergone Securitization 6 by the dates between: MARCH 30, 2003 AND
NOTE #13

($680,000.00):

EBS OVERSEAS INC II

NOTE #14

(1,500,000.00):

EBS OVERSEAS INC III

NOTE #15

($1,020,000.00):

EBS OVERSEAS INC III

NOTE #16

($920,000.00):

EBS OVERSEAS INC III

NOTE #17

($550,000.00):

EBS OVERSEAS INC III

NOTE #18

($157,000.00):

EBS OVERSEAS INC III

NOTE #19

($100,000.00):

EBS OVERSEAS INC III

6 In broad terms, Securitization means the process whereby a
pool of original promissory notes is converted into Securities. It
is well known that if a PROMISSORY NOTE is converted—
together with thousands or hundreds of others—into Securities,
then the original PROMISSORY NOTE ceases to exist due to its
conversion into something else of a new type: Securities—See:
Chapter 2, Chapter 8 of the Puerto Rico Commercial Transactions
Act, 19 L.P.R.A. Sec. 501, et seq., Sec. 1701 et seq.; 19 L.P.R.A.
§ 504; 19 L.P.R.A. § 1702(15); Article 3, Article 8 of the United
States Uniform Commercial Code, U.C.C. § 3-104; U.C.C. § 8-

App.48a
JULY 15, 2009—in other words, they were converted,
together with other hundreds or thousands of promissory notes,7 into SECURITIES.
11. Each Original PROMISSORY NOTE in dispute, after its Securitization process, lost its original
legal entity. Securities are the new thing resulting
from the pool of hundreds of promissory notes, including
each Original PROMISSORY NOTE, subject to
Securitization.8
12. Securities are the new legal entity resulting
from said Securitization process of the promissory
notes.9
102(15); and “Tax Reform Act” of 1986-REMICs, 26 CFR § 1.860
F-2, et seq.
In fact, following the Securitization process of a PROMISSORY NOTE, the Debt Holders, Note Holders cease to exist
upon the emergence of the Securities Holders. These final
investors of the chain, acquire Securities. These Securities are subject to market risks. Notwithstanding, said Securities Holders
insure their investment by means of the CDS (Credit Default
Swap) and collect the insured amount in case of a credit event.
7 Between 2,000 and 5,000 promissory notes of non conforming
loans. Among hundreds of promissory notes of conforming loans.
8 PROMISSORY NOTES and Securities are regulated, respectively, by Chapter 2 and Chapter 8 of the Puerto Rico Commercial
Transactions Act, 19 L.P.R.A. Sec. 501, et seq., Sec. 1701 et seq.;
19 L.P.R.A. § 504; 19 L.P.R.A. § 1702 (15); and by Article 3 and
Article 8, respectively, United States Uniform Commercial Code,
U.C.C. § 3-104; U.C.C. § 8-102(15); and Tax Reform Act of 1986REMICs, 26 CFR § 1.860 F-2, et seq. “Real Estate Mortgage
Investment Conduits (REMICs) came into existence through the
Tax Reform Act of 1986. Under this act, qualified residential and
commercial mortgages notes are pooled and securitized.”
9 Compare: Chapter 2, Chapter 8 of the Puerto Rico Commercial
Transactions Act, 19 L.P.R.A. Sec. 501, et seq., Sec. 1701 et seq.;

App.49a
13. Following the grouping of the Original PROMISSORY NOTE in dispute, with hundreds or thousands
of promissory notes and having carried out their
pooling in the Securitization process of the respective
Trusts: EURO LOAN CLO I-EBS OVERSEAS INC
III, between the dates of: MARCH 30, 2003 AND
JULY 15, 2009, the resulting Securities are circulated
and sold to the general public in global markets
(shares or pieces of the pool).10
14. Between the defendant-counterclaimant of
the above-captioned case and the Securities Holders
there is no contractual relationship. Investors that are
at the end of the Securitization food chain have standing to bring suit in order to seek compliance with the
terms of the Securities by the Securities Holders.11
15. None of the Securities Holders acquired any
Original PROMISSORY NOTE in question. They
acquired: Securities–financial instrument resulting
from the Securitization process of hundreds or thousands
of promissory notes.
19 L.P.R.A. § 504; 19 L.P.R.A. § 1702(15); Article 3, Article 8 of
the United States Uniform Commercial Code, U.C.C. § 3-104;
U.C.C. § 8-102(15); and “Tax Reform Act” of 1986–REMICs, 26
CFR § 1.860 F-2, et seq.
10 These buyers of securities are at the end of the Securitization
Food Chain and they are called: Securities Holders.
11 Securities resulting from the Securitization of promissory
notes are subject to market risks. Notwithstanding, Securities
Holders insure their investment by means of the CDS (Credit
Default Swap) and collect the insured amount in case of a default
on payment of the yield on Securities. Securities Holders have no
standing to bring suit to claim the principal obligation derived
from the original PROMISSORY NOTE because they acquired
Securities

App.50a
16. After the Securitization process of each Original PROMISSORY NOTE, all previous Note Holders
& Mortgage Holders of each Original PROMISSORY
NOTE collected the amount shown on each PROMISSORY NOTE upon selling it on the Secondary Mortgage
Market.
17. The Original PROMISSORY NOTES in dispute were sold by the plaintiff-counterclaimant’s predecessor to investment intermediaries of the secondary
mortgage market. In this transaction, the plaintiffcounterclaimant’s predecessor collected the amount of
each original PROMISSORY NOTE by means of
payment by a third party (first financial intermediary).
In turn, the Intermediary Investment Bank sold each
promissory note to another Intermediary Investment
Bank of greater hierarchy. In this transaction, the
first intermediary investment bank also collected the
amount of each promissory note by means of payment
by a third party (second investment intermediary).
18. The last Investment Bank that purchased
and pooled the PROMISSORY NOTES, including each
original PROMISSORY NOTE in dispute, submitted
them to the Securitization process in order to recoup
its investment in the acquisition of the PROMISSORY
NOTES and obtain more profit upon selling the
Securities resulting from the Securitization process.
Each Original PROMISSORY NOTE in dispute was
pooled with thousands or hundreds of PROMISSORY
NOTES creating the Pool that resulted in the thing of
a new type: Securities of the respective Trusts: EURO

App.51a
LOAN CLO I-EBS OVERSEAS INC III, by the dates
between: MARCH 30, 2003 AND JULY 15 2009.12
19. Prior to the conversion of each Original
PROMISSORY NOTE, together with other thousands
of promissory notes, into Securities, there had to be
actual sales of the Original PROMISSORY NOTE in
question, between the Originator and the Sponsor and
Depositor; and between the Depositor and the Trustee
to create the respective Trusts: EURO LOAN CLO IEBS OVERSEAS INC III-i.e. REMICs, “Tax Reform
Act of 1986”; U.S. Bank National Association v.
Antonio Ibañez, 941 N.E.2d 40 (Mass 2011).13
20. Under Articles 1777 and 1232 of the Civil
Code of Puerto Rico, 1930, the corresponding mortgage
loan assignment instruments had to be executed
between: (i) the original creditor and the secondary
market investment bank; (ii) between the Originator
and the Sponsor; (iii) the Sponsor and the Depositor;
and (v) the Depositor and the Trustee—REMICs, “Tax
Reform Act of 1986.” And this did not occur. See statement in: U.S. Bank National Association v. Antonio
Ibañez, 941 N.E.2d 40 (Mass 2011), 458 Mass 637
(2011).

12 The flow of sales and negotiations of the original promissory
note and the specifications and details of the resulting Securities
are evidenced with the corresponding Expert Reports prepared
by experts of the United States.
13 Simultaneously, the mortgage loan assignments or transfers
take place between the Originator and the Sponsor; between the
Sponsor and Depositor; and between the Depositor and the
Trustee—REMICs, Tax Reform Act of 1986; U.S. Bank National
Association v. Antonio Ibañez, 941 N.E.2d 40 (Mass 2011)

App.52a
21. As of the filed date of the complaint of the
above-captioned case (SEPTEMBER 10, 2015), the
plaintiff-counterclaim defendant did NOT have standing
to claim the collection of the Original PROMISSORY
NOTES under dispute, because it was not the owner,
holder or possessor of the aforesaid Original PROMISSORY NOTES; nor did the creditor of the MORTGAGES listed in its complaint, given that its predecessor
sold them on the secondary market, which collected the
amount of each PROMISSORY NOTE, and each one
underwent Securitization between the dates of MARCH
30, 2003 AND JULY 15, 2009, in the respective Trusts:
EURO LOAN CLO I-EBS OVERSEAS INC III.
22. After the date of sale of each original PROMISSORY NOTE on the Secondary Mortgage Market
(between the dates of: MARCH 5, 2003 AND JULY 9,
2009), all of their past owners and holders collected
their respective amounts due and the debt evidenced
on each original promissory note, owed thereto, was
extinguished by means of payment by a third party.
After the extinction of the debt, each mortgage that
secured the debt was also extinguished.
23. The secondary market investment intermediaries—i.e., commercial banks, investment banks,
Fannie Mae, Freddie Mac, Goldman Sachs, Morgan
Stanley, Lehman Brothers, Merryll [sic] Lynch, Bear
Stearns, Deutsche Bank, Wells Fargo—did not have
standing to claim the collection of the Original PROMISSORY NOTES because NONE of them is owner or
holder of any Original PROMISSORY NOTE given
that, in turn, they sold them on the secondary mortgage
market and collected on them by means of payment by
a third party. Furthermore, each original PROMIS-

App.53a
SORY NOTE underwent Securitization and, consequently, each Original PROMISSORY NOTE was
converted–together with other thousands or hundreds
of PROMISSORY NOTES–into something else of a
new type: Securities of the respective Trusts: EURO
LOAN CLO I-EBS OVERSEAS INC III between the
dates of: MARCH 30, 2003 AND JULY 15 2009. Thus,
the original PROMISSORY NOTES lost their legal
entity.
24. Knowing full well that its predecessor had
sold each Original PROMISSORY NOTE in dispute,
on the secondary mortgage market, and its predecessor
having collected its amount due by means of payment
by a third party, the plaintiff-counterclaim defendant,
in the above-captioned case, made the false representation that it was owner and holder of each Original
PROMISSORY NOTE and the creditor of each MORTGAGE. [ . . . ].
25. The plaintiff-counterclaim defendant did not
have standing to bring suit in the above-captioned case.
The above-captioned collection of monies and mortgage
foreclosure case is not actionable due to the plaintiffcounterclaim defendant’s lack of standing to bring suit.
It is not entitled to collect the PROMISSORY NOTES
or enforce the mortgage guarantees, given that its
predecessor collected the amount of the aforesaid
Original PROMISSORY NOTES when it sold each one
on the secondary market. By the filing date of the
above–captioned complaint, the Original PROMISSORY
NOTES had already been collected on and had lost
their legal entities by their conversion–together with
other thousands or hundreds of PROMISSORY NOTES
–into Securities and the Mortgages had lost their lien

App.54a
status by extinction of the debt by means of the
payment by a third party.
26. The abundant sworn Expert Testimony in
the proceedings inexorably demonstrates that each
PROMISSORY NOTE in dispute was sold, transferred
and underwent Securitization [together with a pool of
hundreds of promissory notes] prior to the filing date
of the above-captioned case.
27. The plaintiff-counterclaim defendant’s lack of
standing to bring suit, at the moment it filed its complaint, rendered null the jurisdiction of the Court of
First Instance in the above-captioned case. There
being no jurisdiction, the above-captioned collection
and foreclosure case is not actionable.
28. In the above-captioned case, the plaintiffcounterclaim defendant had no standing to bring suit
at the moment it filed its complaint. The plaintiffcounterclaim defendant violated the Due Process of
Law upon filing its complaint without having standing
to bring suit. Thus, it must be dismissed.
29. In other respects, the mortgage deeds listed
in the instant case suffer an irremediable defect: nonexistence of a valid upset price for the first auction.
Said defect nullifies each mortgage deed and impedes
their enforcement.
30. In each of said mortgage deeds, the “Property
Value” clause did not express any appraisal price
agreed upon between the parties for the first auction.
Instead, said clause mentioned, deceitfully, a price
imposed by the Originator in terms of the amount of
the credit granted without taking into account the
property’s appraisal value-on the date of the mortgageplus its value appreciation.

App.55a
31. An upset price, deceitfully and unilaterally
set by the originator based on the amount of the credit
granted does not constitute a valid upset price for the
first auction. This would permit the adjudication of
high-value properties for ridiculous amounts. Such
mortgage does not meet the constitutive requirement
of the upset price. Consequently, the aforementioned
mortgage deeds are null, ab initio, and cannot be
registered in the Property Registry. If, due to error or
oversight, they were registered, their respective registration entries must be cancelled.
32. The principal of each Mortgage Deed listed
in the instant complaint cannot be a valid auction
upset price because it is not in line with the property’s
appraisal-on the date of the mortgage deed-plus the
increase of value (appreciation), which is fitting to
expect, ordinarily.
33. Paragraphs 3 and 4 of Article 104 of the
Property Registry Law, 2015, are unconstitutional.
They are also contrary to the capital markets laws. Said
prices impose an auction “upset price” for all cases and
they do not provide for alternatives to adjust the upset
price in cases where there is a net equity value. The
legal provision that authorizes such a deprival of the
property’s equity is unconstitutional.
34. Between the parties there was no negotiation
or agreement as to the minimum price of the properties
listed in the complaint. This was deceitfully inserted
by the Originator in each of said mortgage deeds.
35. An upset price, deceitfully and unilaterally
inserted in the mortgage deed by the originator, based
on the amount of the credit granted, does not constitute
a valid upset price for the first auction. Such mortgage

App.56a
does not meet the constitutive requirement of the
upset price. Such mortgage deed is null.
This being the case, on January 22, 2019, the
petitioner filed a Motion under Rule 49.2(d) of Civil
Procedure for relief from the judgment issued in the
above-captioned case against Due Process of Law
[App.8, pp. 2012-3195].
With the Motion for relief from judgment, extensive
documentary evidence was submitted, providing a
new opportunity for the Court of First Instance to
afford Due Process [of] Law and, consequently, to
decree the relief from summary judgment in order to
conclude the Discovery of Evidence Phase and, for
such purpose, hold a Hearing on its Merits [App.8, pp.
2023-2025, 2076-3195].
After various court proceedings [App.10-14, pp.
3220-3237] and the Opposition to the Motion for Relief
from Judgment [App.15, pp. 3238-3246], on July 31,
2019, notice was served of the Decision issued by the
Court of First Instance on July 25, 2019, denying Relief
from the summary judgment issued without Due
Process of Law [App.18, pp. 3254-3256].
On August 27, 2019, the petitioner filed a petition
before the Court of Appeals [App.19, page 3257, et seq.].
On September 16, 2019, the Court of Appeals service
notice of the Decision of September 16, 2019, denying
the issuance of the writ of Certiorari [App.21, pp.
3298- 3305]. On October 1, 2019, the petitioner filed a
Motion for Reconsideration before the Court of Appeals
[App.22, pp. 3306-3316], which was DENIED by means
of the Decision of October 8, 2019, notified on October
8, 2019 [App.23, pp. 3317-3319].

App.57a
In view of the above and of the proceedings of the
original case, the petitioner, with the utmost respect,
assigns and discusses the following error:
VI. Assignment of Error
THE COURT OF APPEALS WAS WRONG
TO NOT DECREE RELIEF FROM A SUMMARY JUDGMENT THAT WAS ISSUED
WITHOUT DUE PROCESS OF LAW–14th
AMENDMENT OF THE UNITED STATES
CONSTITUTION
VII. Discussion of the Assignment of Error
The Court of Appeals was wrong to not decree relief
from a summary judgment that was issued without
Due Process of law-14th amendment of the United
States Constitution. The case being in the Discovery
of Evidence Phase with orders of the court due to the
plaintiff’s non-compliance and its violations of federal
regulations (Qualified Written Request, inter alia);
the file being Without Answer to the Amended Counterclaim on the part of the plaintiff-counterclaim defendant (who was to be the subject of our motion for entry
of default); and the Proceedings being full of Disputed
Facts, the Court of First Instance issued Summary
Judgment for the plaintiff, and dismissed the Amended
Counterclaim-limiting, in addition, the counterclaimants’ right to request an entry of default by the plaintiff
due to having failed to submit a responsive pleading.
The aforementioned summary judgment was
issued WITHOUT DUE PROCESS OF LAW: (i) there
being a genuine dispute in relation to the material
facts of the case (whose adjudication required a hearing
on the merits); (II) in the middle of the discovery of

App.58a
evidence phase; (III) without the amended Counterclaim
having been answered; and (iv) without a hearing on
the merits. Thus, the defendants-counterclaimants were
deprived of an individual property interest, protected
by the Fourteenth Amendment of the United States
Constitution, and the civil proceedings made available
to them by the Court did NOT afford Due Process of
Law. Therefore, the State (through the Court of Justice/
its officers) deprived the defendants-counterclaimants
of their constitutional rights protected by our Constitution and by the 14th Amendment of the United
States Constitution.
The United States Constitution includes the concept
of Due Process of Law in the Fifth and Fourteenth
Amendments, which are based on the American historical experience that fundamental rights can be protected and preserved only if there is any restriction on
arbitrary and whimsical actions of the state. The
procedural aspect of Due Process of Law establishes
the constitutional restrictions on government actions
and demands that the citizen be heard before the
State deprives him of his property or liberty.
The Right to be Heard is a fundamental Constitutional Right. The literal meaning of Due Process of
Law is a fair process. This means that no person may
be deprived of his life, liberty or property without an
opportunity to be heard in defense of his rights.
Maldonado Elias v. Gonzales Rivera, 118 D.P.R. 260
(1987)
In the case of Shelley v. Kraemer, 334 U.S. 1 (1948),
the United States Supreme Court asserted that: “the
actions of state courts and judicial officers in their
official capacities is to be regarded as action of the
state within the meaning of the 14th Amendment.”

App.59a
From the case of Medina v. California, 505 U.S. 437,
443 (1992), it is deduced that: [a] basic threshold issue
respecting whether due process is satisfied is whether
the government conduct being examined is a part of a
criminal or civil proceeding. In this sense, in the case
of Carey v. Piphus, 435 U.S. 247, 259 (1978) it was
clarified that: “procedural due process rules are meant
to protect persons not from the deprivation, but from
the mistaken or unjustified deprivation of life, liberty,
or property.”
In Fuentes v. Shevin, 407 U.S. 67, 81 (1972), the
United States Supreme Court illustrates that: [t]he
hearing is a “basic aspect of the duty of government to
follow a fair process of decision making when it acts to
deprive a person of his possessions . . . ” See also Gikas
v. Washington School Dist., 328 F.3d 731, 738 (3d Cir.
2003) (citing Cleveland Bd. of Educ. v. Loudermill,
470 U.S. 532, 542, 105 S. Ct. 1487, 84 L.Ed.2d 494
(1985)); see also Graham v. City of Philadelphia, 402
F.3d 139, 145 (3d Cir. 2005) (citing Memphis Light,
Gas and Water Division v. Craft, 436 U.S. 1, 16, 98 S.
Ct. 1554, 56 L.Ed.2d 30 (1978)). “Parties whose rights
are to be affected are entitled to be heard.” Baldwin v.
Hale, 68 U.S. (1 Wall.) 223, 233 (1863). Thus, the notice
of hearing and the opportunity to be heard “must be
granted at a meaningful time and in a meaningful
manner.” Armstrong v. Manzo, 380 U.S. 545, 552 (1965).
The language of the Fourteenth Amendment requires
the provision of due process when an interest in one’s
“life, liberty or property” is threatened. Morrissey v.
Brewer, 408 U.S. 471, 481 (1982).
As is well known, the summary judgment is a
procedural mechanism provided for by Rule 36 of Civil
Procedure, 32 L.P.R.A. App. V. By virtue of said rule,

App.60a
a court may issue summary judgment to decide a
dispute filed when the documents accompanying the
motion and opposition thereto–i.e., depositions, answers
to interrogatories, admissions, allegations, sworn statements-demonstrate that there is no substantial dispute
as to any material fact and that, as a matter of law, it
is proper to issue judgment for the movant. Cuadrado
Lugo v. Santiago Rodríguez, 126 D.P.R. 272 (1990);
Jusino Figueroa v. Walgreens of San Patricio, Inc.,
155 D.P.R. 560 (2001).
The purpose of a motion for summary judgment
is to expedite the conclusion of disputes, eliminating
the hearing on the merits, but provided there is no
legitimate dispute of material facts, in such a way that
it only remains to apply the law. In this sense, see:
Jusino Figueroa v. Walgreens of San Patricio, Inc.,
155 D.P.R. 560 (2001); Consejo Tit. C. Parkside v.
MGIC Fin. Corp., 128 D.P.R. 538 (1991); Tello, Rivera
v. Eastern Airlines, 119 D.P.R. 83 (1987). The summary judgment is an extraordinary remedy that must
only be granted when the movant has established its
right with clarity and has demonstrated that the other
party has no right of recovery under any circumstance, which results discernable from the allegations
that have not been refuted by the evidence submitted
with the motion. Consejo Tit. C. Parkside v. MGIC
Fin. Corp., 128 D.P.R. 538 (1991); Corp. Presiding
Bishop CJC of LDS v. Purcell, 117 D.P.R. 714 (1986).
A motion for summary judgment must be decided
against the movant party when the court is in doubt
as to the existence of a dispute. Consejo Tit. Parkside
v. MGIC Fin. Corp., 128 D.P.R. 538 (1991); Corp.
Presiding Bishop CJC of LDS v. Purcell, 117 D.P.R. 714
(1986). The summary judgment may only be issued in

App.61a
clear cases, when the court has before it the truth
regarding all the pertinent facts. Consejo Tit. C.
Parkside v. MGIC Fin. Corp., 128 D.P.R. 538 (1991);
Corp. Presiding Bishop CJC of LDS v. Purcell, 117
D.P.R. 714 (1986). When, in a dispute, the facts are
undisputed and only a matter of law is presented, it is
proper to decide the matter by summary judgment in
accordance with this rule. Mercado Vega v. D.P.R.,
128 P.R. 273 (1991).
A summary judgment cannot be granted when
there is not a clear certainty as to all the facts of the
dispute, which is necessary in order to preclude a
hearing on the merits. Metrop. de Préstamos v. López
de Victoria, 141 D.P.R. 844 (1996). The party that files
a motion for the issuance of a summary judgment in a
litigation is obligated to demonstrate, beyond all
doubt, the non-existence of a genuine dispute as to any
pertinent fact, which, in light of the applicable substantive law, would result in a judgment for the movant as
a matter of law. Mercado Vega v. U.P.R., 128 D.P.R.
273 (1991). The recourse of summary judgment may
be granted in cases where there are no genuine and
substantial disputes as to the material facts14,15

14 Oriental Bank & Trust v. Perapi S.E., 2014 TSPR 133, decision of November 15, 2014.
15 The Supreme Court has determined that a material fact is a
fact that may affect the result of the claim pursuant to the
applicable substantive law. Meléndez González v. M. Cuebas, Inc.,
infra; Ramos Pérez v. Univisión, infra, citing J.A. Cuevas Segarra,
Tratado de Derecho Procesal Civil, San Juan, Pubs. JTS, 2000,
Volume I p. 609. See also: Hernández Colón, Rafael, Práctica
Jurídica de Puerto Rico, Derecho Procesal Civil, LexisNexis de
Puerto Rico, Inc., 2010, page 275.

App.62a
Pursuant to this rule, and upon comparing and
contrasting the facts alleged by each party together
with the respective documentary evidence, it must be
concluded that the plaintiff’s petition for summary
judgment should NOT have been granted in light of
the facts in dispute. In addition, the instant case was
in the middle of the discovery phase and the plaintiffcounterclaim defendant had not even answered the
Amended Counterclaim.
A reading of the Answer to the Complaint and
Amended Counterclaim, together with the expert
testimony in the proceedings [App.13, pp. 1528-2629;
1441-1443], sufficed to take cognizance of the disputed
material facts that warrant a Trial on the Merits and
not a summary proceeding. The case records clearly
show the genuine DISPUTE that exists in relation to
the material facts of the case.
In view of the genuine dispute that exists in relation to the said material facts, it must be concluded
that the issued judgment is NOT pursuant to Law due
to having been issued summarily. The Lower Court
could NOT issue a summary judgment with the
existence of facts in dispute. Thus, it must be overturned.
In other respects, subsection (d) of Rule 49.2 of
Civil Procedure, supra, authorizes the Court to relieve
a party from the effects of a judgment when it is deemed
void. A judgment is void when it has been issued
without jurisdiction or when, upon issuing it, due
process of law has been violated. Figueroa v. Banco de
San Juan, 108 D.P.R. 680, 688 (1979); Estado Libre
Asociado v. Tribunal Superior, 86 D.P.R. 692, 697-698
(1962); Rodríguez Figueroa v. Registrador de la Propiedad, 75 D.P.R. 712, 718 (1953). See R. Hernández
Colón, op. cit. sec. 4807, p. 354; J.A. Cuevas Segarra,

App.63a

op. cit., V. II, pp. 795- 796. See also Hoult v. Hoult, 57
F3d. 1, 6 (1995); In re: Hunter, 66 F3d. 1002, 1005
(1995).16
It is important to point out that, under this
ground–subsection (d) of Rule 49.2 of Civil Procedurethere is no margin for discretion as there is under
other grounds of Rule 49.2 of Civil Procedure, supra;
if a judgment is void, it must be left without effect
regardless of the merits the aggrieved party’s defense
or claim may have.17 R. Hernández Colón, op. cit.,
sec. 4807, p. 355; Wright, Miller and Kane, op. cit.,
Vol. 11, sec. 2862, p. 322. On this matter, the Supreme
Court has stated:
. . . the discretion of the court, pursuant to
the provisions of the aforementioned Rule
49.2 of Civil Procedure, to relieve a party
from the effects of a judgment when it is a
judgment that is “void”; if it is void, there is
no discretion for relief; there is an obligation

16 See also J.W. Moore, Moore’s Federal Practice, 3rd ed., San
Francisco, LexisNexis, 2009, Vol. 12, sec. 60.44(1) (b), p. 60-150;
T.A. Coyne, Federal Rules of Civil Procedure, 2nd ed., Minnesota,
West Group, 2000, sec. VII-74; H.A. Kooman, Federal Civil Practice, Atlanta, The Harrison Company Pub., 1975, Vol. 4, sec.
60.06, p. 4623 upon discussing Federal Rule of Civil Procedure
60(b)(4), hch is similar to our Rule of Civil Procedure 49.2(4),
supra.
17 The author, Harold A. Kooman, points out, in his work, Federal Civil Practice, that: “An important distinction must be kept
in mind in considering the voidness of a judgment as a ground
for relief. A void judgment is theoretically no judgment at all, is
legally ineffective, and creates no rights or obligations.” H.A.
Kooman, op. cit., sec. 60.06, p. 246.

App.64a
to declare it void.18 (Citations omitted).
The conclusion is inescapable, therefore,
that, faced with the certainty of the nullity of
a judgment, it is mandatory to declare its
legal nonexistence; this is regardless of the
fact that the corresponding petition is after
the expiration of the term of six (6) months
determined in the aforementioned Rule 49.2
of Civil Procedure. Montañez v. Policía de
Puerto Rico, 150 D.P.R. 917, 921-922 (2000).

See Bco. Santander P.R. v. Fajardo Farms
Corp ., 141 D.P.R. 237, [243-244] (1996);
Figueroa v. Banco de San Juan, 108 D.P.R.
680, [689] (1979). See also H.A. Kooman, op.
cit., sec. 60.6, pp. 246-247.

In conclusion the lower Courts were wrong not to
decree relief from a summary judgment that was
issued without Due Process of Law-14th Amendment
of the United States Constitution. Consequently, it is
applicable to decree relief from the issued summary
judgment and to order the continuation of the legal
proceedings (discovery phase and trial on the merits)
VIII. Prayer
WHEREFORE, the petitioners respectfully request
the Honorable Supreme Court to issue Writ of Certiorari and, consequently, revoke the appealed Resolution
and, accordingly, decree that the summary judgment
be vacated and order the continuation of the legal proceedings.

18 See J.W. Moore, op. cit., Vol. 12, sec. 60.44(5)(a), pp. 60-163.

App.65a
RESPECTFULLY REQUESTED.
In San Juan, Puerto Rico, on November 5, 2019.
I CERTIFY: that on the same filing date, I sent a
true and exact copy of the above brief and a true and
exact digital copy of its appendixes, by certified mail
with acknowledgement of receipt, to all the attorneys
and parties of record, to their corresponding addresses
and to the Court of Appeals and the Court of First
Instance of Caguas (to these last two, without the
digitalized appendix).
/s/ Ángel R. Zayas Febres, Esq.
Monge La Fosse
Attorneys & Counsellors at Law, LLC
PO Box 192053
San Juan, P.R. 00919-2053
Tel. (787) 765-9090
Fax: (787) 765-9035
Cell: (787) 906-9096
USDC-PR No. 21424
Email: mongelafosselaw@gmail.com
zayasfebreslaw@gmail.com

App.66a
====================================
CERTIFICATE OF TRANSLATOR
# JF-2020-001_APP E
I am a United States court-certified interpreter,
and I CERTIFY that the above is a faithful translation
of the Spanish source, which I have performed to the
best of my ability. It consists of thirty-four (34) pages,
including this certification sheet, and contains no
changes or erasures.
The content of this translation is a Petition for
Certiorari in the Commonwealth of Puerto Rico Civil
Case No. 19 -839. [Re: Collection of Monies and Mortgage Foreclosure].
In Cambridge, Massachusetts, on January 19, 2020.
/s/ Joaquín Font
Joaquín Font
Font Translations
Calle Calaf 400, Suite 268
San Juan, PR 00918
Toll-Free Tel. & Fax: 1-877-JOAQUIN (562-7846)
e-mail: fonttranslations@gmail.com

App.67a
MOTION FOR SUSPENSION OF JUDGMENT
(ENTRY: JANUARY 21, 2019)
COMMONWEALTH OF PUERTO RICO
COURT OF FIRST INSTANCE
JUDICIAL CENTER OF CAGUAS
SUPERIOR COURT
________________________
ORIENTAL BANK,

Plaintiff,
v.
MULTI-VENTAS Y SERVICIOS, INC.;
MULTI-VENTAS Y SERVICIOS P.R., INC.;
MULTI-BATTERIES & FORKLIFTS, CORP.;
AWESOME, INC.; PEDRO RIVERA CONCEPCIÓN;
MARÍA MERCEDES FELICIANO CARABALLO;
AND THE CONJUGAL PARTNERSHIP
CONSTITUTED BY BOTH,

Defendants.
________________________
Civil Case No.: ECD-2015-1017
Re: Collection of Monies and Foreclosure
(Ordinary Proceedings)
Counterclaim: Absence of Promissory Note;
Termination of Promissory Note; Absence of Pledge;
Termination of Pledge; Absence of Mortgage;
In an action for collection of monies
and foreclosure, if the plaintiff is

App.68a
Neither owner, Nor holder, Nor
possessor of the promissory note,
then, the plaintiff lacks standing to
sue. If the plaintiff lacks standing,
then, the Court lacks jurisdiction. If
the Court lacks jurisdiction, then the
dismissal of the complaint is due
because the case is NOT justiciable.
In the absence thereof, it is appropriate
to relieve the Judgment. Rule 3.1
(A)(1) of Civil Procedure E.L.A. v.
Aguayo, 80 D.P.R. 552 (1958)
A plaintiff who has no standing in an
action is subject to a jurisdictional
dismissal since (1) courts have jurisdiction only over controversies that
involve the plaintiff, (2) a plaintiff
found to lack “standing” is not involved
in a controversy, and (3) the courts
therefore have no jurisdiction of the
case when such plaintiff purports to
bring it
MOTION UNDER
RULE 49.2. (D) OF CIVIL PROCEDURE, 2009.
FOR RELIEF FROM JUDGMENT AND
REQUEST FOR ORAL ARGUMENT HEARING
TO THE HONORABLE COURT:
COMES NOW the defendant by way of the undersigning attorneys, and most respectfully requests Relief
from the Judgment handed down in the above-captioned
case, to the extent that the same was issued without
jurisdiction due to the plaintiff's lack of standing to

App.69a
sue. As grounds for this request, the defendant
respectfully STATES, ALLEGES AND PETITIONS:
I.

Introduction and Preamble of Material Facts That
Require Relief from the Judgment (Spanish Judgments Inserted)

At the outset, based on the nature of the proceedings, we come to plead with your Honor that, within
the analysis of the Motion for Relief from Judgment,
under Due Process of Law and with the powers held
by this Court, AN ORAL ARGUMENT HEARING BE
SCHEDULED TO DISCUSS AND ARGUE ALL THE
ITEMS OF THE BRIEFS OF THESE PROCEDURAL
FORMALITIES UNDER RULE 49.2 OF CIVIL PROCEDURE.
Your Honor, the undersigned, personally, pleads
that we be granted an opportunity to be heard in an
Oral Argument Hearing, which is essential for the
adjudication of the sub judice process due to the high
complexity of the constructs required for analysis. It
is worth mentioning at this point that the undersigned
has more than 28 years of university studies in the
areas of Economy, International Trade, Finance,
Accounting, Management, etc., at all levels: Bachelor’s
Degree, Master’s Degree, PhD, and as a result of this
knowledge, coupled with ten years of Studies in
Comparative Law, Foreign Exchange Law, inter alia,
and based on numerous meetings with bankers,
members of Board of Directors of Banks, experts and
engineers of the Secondary Market of Puerto Rico and
the United States, we have been able to incorporate
and simplify the constructs needed to understand the
mechanics of the secondary market, its flaws and its

App.70a
effect on the standing of the plaintiff banks in actions
for collection of monies and foreclosure.
Please grant us the right to be heard, allow me,
with the greatest respect, to bring you into a position
so as to award our motion for Relief from Judgment,
all this, in accordance with law. WE ENCOURAGE
YOU, YOUR HONOR! LET US DO OUR WORK OF
JUSTICE! Your Honor, in accordance with Code 8 of
Judicial Ethics; and we humbly, in accordance with
Code 4 of Professional Ethics. For over a decade now
and focusing specifically on these types of cases, since
the market collapse in the year 2018, hundreds of
Judges and Attorneys have been edified by our
reasons during Oral Argument Hearings, and we have
received numerous recognitions from Judges and
Bank Attorneys. There are so many questions that
arise in the minds of the Judges during these Oral
Argument Hearings that, sometimes, we have spent
an entire day in Court (9:00 a.m. to 5:00 p.m.), thus, it
is our pleasure to fully answer your questions in this
regard. Likewise, we hope to do the same in this case,
after you schedule the respective Oral Argument
Hearing.
In turn, it is worth mentioning that, pursuant to
Rule 3.1 (A) (1) of Civil Procedure and case law in
jurisdiction matters, this Honorable Court must consider
whether this Court had proper jurisdiction or not to hear
this case. With all due respect, we understand that
this Court lacked jurisdiction to hear this case given
that the plaintiff (INCLUDING THE ORIGINATORSPONSOR) lacked standing in this case because IT
NEITHER OWNS, NOR IS HOLDER, NOR IS POSSESOR of each promissory note at issue. In view thereof,
the above-captioned case was NON-JUSTICIABLE

App.71a
and, therefore, the Relief from the judgment issued
without jurisdiction must apply.
This reality (lack of jurisdiction) cannot be changed
by any other factor. It is not changed by the fact that
the defendant has not previously questioned your
jurisdiction or that this Court has not considered the
same, in spite of the questioning thereof. It is not
changed by the fact that this case has reached the
appellate courts. It is not changed by the fact of the
rulings of such appellate courts. It is not changed by
the fact that the defendant has reached an agreement.
It is not changed by the fact of the passage of time. IF
THIS COURT DID NOT HAVE JURISDICTION, AS
IN FACT IT DID NOT HAVE, SINCE THE BEGINNING OF THE CASE, EVERYTHING RULED BY
THE SAME IS NULL AND VOID-including the judgment.
To be more specific, any provision, any agreement,
as the case may be, which has mediated between the
parties in this case, is EQUALLY NULL AND VOID
due to lack of cause, which is a constitutive element of
the Settlement Agreement. What is certain is that the
defendants in the cases of collection of monies and
foreclosure ARE UNAWARE that the plaintiff lacks
standing to sue.
During the Oral Argument Hearing, we will explain
how the plaintiff, in this case, created the appearance
of being the owner, holder, and possessor of the
promissory notes that were securitized and, therefore,
were removed from circulation on the market and
archived and placed under custody of the Master Documents Custodian, as documents which constitute the
Securities issued after the Securitization process of

App.72a
each promissory note in question, along with other
hundreds/thousands of promissory notes.
It is undeniable that, in the above-captioned case,
this Court did Not have a justiciable case at hand,
given that the plaintiff lacked standing when it filed its
complaint because, in reality, it was Not the owner,
Nor the holder, Nor the possessor of the above
promissory notes; nor was it the creditor of such
mortgages because the ORIGINATOR-SPONSOR of
each promissory note in question sold it on the
secondary mortgage market, which was subject to
Securitization.1 See Exhibits 1-19.
1 That is to say, it was converted, along with other hundreds or
thousands of promissory notes (“pool”), into any of the following
Securities: “Mortgage-Backed Securities” (“MBSs”); “Asset-Backed
Securities; “DS” (“Debt Securities”); “CDOs” (“Collateralized Debt
Obligations”); “CMOs” (“Collateralized Mortgage Obligations”);
“Whole Loan CMOs” (“Whole Loan Collateralized Mortgage Obligations”). The foregoing, under the USA “Tax Reform Act, 1986”,
through the REMICs instrument. These Securities are security
instruments arising from the pool generated from the amalgam
of hundreds or thousands of original PROMISSORY NOTES.
In a broader sense, Securitization means the process by which
a set of original promissory notes is converted into securities. A
known fact is that if an original PROMISSORY NOTE is converted—along with other hundreds or thousands-into Securities,
then the original PROMISSORY NOTE is no longer a negotiable
instrument, thus losing its original legal identity due to its
conversion into a new kind of species: “Securities”—Cf: Chapter
2, Chapter 8 of the Law on Commercial Transactions of Puerto
Rico, 19 L.P.R.A. Sec.501, et seq., Sec. 1701 et seq.; Article 3,
Article 8 of the Uniform Commercial Code of the United States
of America; and the “Tax Reform Act” of 1986-REMICs.

De facto, after the “securitization” process of a PROMISSORY
NOTE, the “Debt Holders”, “Note Holders” cease to exist given
that their claim is duly satisfied through the sale of the

App.73a
At the time of the sale of each PROMISSORY
NOTE, i.e., BEFORE filing the complaint in the abovecaptioned case, the ORIGINATOR-SPONSOR of each
promissory note collected its amount through a thirdparty payment. The third party (Secondary Market
investor) who acquired it, paid its value to the
ORIGINATOR-SPONSOR.
In view of these facts, at the time the complaint
was filed in the above-captioned case, the plaintiff was
NEITHER the owner, NOR the holder, NOR the
possessor of the aforementioned promissory note, nor
was it the mortgage creditor, since the ORIGINATORSPONSOR had previously sold each promissory note
(prior to the complaint) on the secondary market, and
each mortgage loan was securitized, i.e., it underwent
the securitization process.2 [See Exhibits 1-19].
promissory note on the Secondary Market and its eventual
Securitization. After the Securitization process of the promissory
notes and the issuance and sale of the Securities, the figure of
the “Securities Holders” is birthed. These final investors at the end
of the chain, acquired the “Securities”. The resulting “Securities”
are subject to the market risks. However, these “Securities
Holders” ensure their investment through “CDS” (“Credit
Default Swap”) and charge the insured amount against the failure
to pay the performance of the Securities.
2 It is worth noting that when the promissory notes go through
the securitization process-where the mass of these promissory
notes is generated (called “Pool”) and result in securities-, these
promissory notes are withdrawn from circulation on the market
and, in physical terms, they are archived in a vault as documents
constituting the Pool that precedes the securities resulting from
the securitization process. In accordance with federal regulations,
these resulting documents (the former promissory notes) are
placed under the permanent custody of the designated “Master
Documents Custodian” of the Secondary Market, from whose
custody they cannot be removed. This custodian NEITHER owns,

App.74a
Therefore, the court action filed by the plaintiff
was NOT justiciable, given that the plaintiff lacked
standing at the time it submitted its complaint. It
lacked standing because it was NEITHER the owner,
NOR the holder, NOR the possessor of the abovementioned promissory notes; nor was it a mortgage
creditor and, in addition, the mortgage loans were
securitized. Thus, the Lower Court lacked jurisdiction
to award the action for the collection of monies and
foreclosure filed by the plaintiff. Hence, the judgment
is null and void by issuing a ruling without jurisdiction.
In view thereof, the relief from the judgment is appropriate. Let us see.
APPARENTLY, in the above-captioned case, this
Court of First Instance was presented with a case for
collection of monies and foreclosure where, in the complaint dated September 10, 2015, the plaintiff, on one
hand, claimed to be the creditor of every mortgage and
holder of each promissory note listed in the complaint;
and, on the other hand, it requested the foreclosure of
each mortgage to collect its claim.
IN FACT, in the above-captioned case, this Court
was Not presented a justiciable case, since the plaintiff lacked standing when it filed the its complaint on
September 10, 2015, because, in reality, it was NEITHER the owner, NOR the holder, NOR the possessor
of each aforementioned promissory note; nor was it
NOR is holder, NOR is possessor of the promissory notes subject
to Securitization. This custody is imposed by federal regulations
so that, on one hand, the securitized promissory notes and the
resulting securities do not coexist in circulation; and, on the
other hand, to comply with the Federal Internal Revenue Code
requirements, so that the taxable process of the Trust can allow
the issuance of the resulting securities.

App.75a
the creditor of each of these mortgages, because, previously (between the dates of: MARCH 5, 2003 AND
JULY 9, 2009), infra, the ORIGINATOR-SPONSOR
sold each aforementioned promissory note on the
secondary mortgage market, which were subject to
Securitization between the dates of: MARCH 30, 2003
AND JULY 15, 2009,3 infra.
At the time of the sale of each promissory note,

infra, PRIOR to the filing of the complaint in the abovecaptioned case (September 10, 2015), the ORIGINATOR-SPONSOR collected the amount of each aforementioned PROMISSORY NOTE by third-party payment.
The third party (Secondary Market investor) who
acquired it, paid the ORIGINATOR-SPONSOR the
amount of each PROMISSORY NOTE. In view of
these facts, at the time the complaint was filed in the
above-captioned case (September 10, 2015), the plaintiff was NEITHER the owner, NOR the holder, NOR
the possessor of the aforementioned promissory note,
nor was it the creditor for each mortgage, since the
ORIGINATOR-SPONSOR had previously sold each
promissory note, infra, on the Secondary Market, and
each mortgage loan was securitized, i.e., it went
through the securitization process. [See Exhibits 1-19,
Expert Evidence Sworn Statement with Apostille].
Therefore, the court action filed by the plaintiff
was NOT justiciable, given that the plaintiff lacked
standing at because it was NEITHER the owner, NOR
the holder, NOR the possessor of each aforementioned
promissory note; nor was it a creditor of each mortgage
and, in addition, each mortgage loan was securitized.
3 See Exhibits 1-19-Expert Evidence with Sworn Statement and
Apostille.

App.76a
Thus, the Lower Court lacked jurisdiction to award the
action for the collection of monies and foreclosure filed
by the plaintiff. Hence, the judgment is null and void
by issuing a ruling without jurisdiction. In view thereof,
relief from the judgment must be granted.

See Exhibits 1-19.

App.77a

App.78a

App.79a

App.80a
II.

Law on Jurisdiction Matters [Justiciability and
Standing of a Plaintiff in Cases of Collection of
Monies and Foreclosure]

As is known, jurisdiction is the primary source for
court authority to interpret and enforce the laws in
our system of government. This is governed by the
application of the various doctrines which give life to
the principle of justiciability: standing, mootness and
public policy issues, P.P.D. vs. Gobernador I, 139 D.P.R.
643, 666 (1995).
It is a repeated rule governing the constitutional
concept of justiciability in our jurisdiction, which
requires the existence of a case or a real dispute for
the valid exercise of judicial power. Ortiz v. Panel
F.E.I., 155 D.P.R. 219 (2001). By virtue thereof, the
Courts must ensure that the matters brought into
consideration are “justiciable”, that is to say: (1) The
same do not involve public policy issues put forward
by the Executive Branch; (2) that the parties have
active capacity or standing to sue; (3) that the dispute
is not moot or advisory in nature; and (4) that the
dispute is ripe. Acevedo Vilá v. Meléndez Ortiz, 164
D.P.R., 2005 T.S.P.R. 79, 2005 JTS 80; Com. de la Mujer
v. Srio. de Justicia, 109 D.P.R. 715, 720-725 (1980).
One of the axioms derived from this prudential
approach is the one designated as standing, which
focuses mainly on the person who files the action and
secondarily on issues to be awarded. Hernández
Torres v. Hernández Collin, 129 D.P.R. 824 (1992).
One of the requirements for justiciability in disputes
is that the parties must have the legal capacity to act
as such. Hernández Agosto v. Romero Barceló, 112
D.P.R. 407, 413 (1982). Lack of jurisdiction cannot be
remedied, nor can the Court claim it, in which case,

App.81a
the courts are bound by the unavoidable duty of examining their own jurisdiction. Pagán Navedo vs. Alcalde
Mun. de Cataño, 143 D.P.R. 314, 326 (1997).
Rule 3.1 (a) (1) of Civil Procedure, 32 L.P.R.A. Ap. V,
Rule 3.1, which in turn, provides in its relevant parts:
(a) The General Court of Justice shall have
jurisdiction:
(1) On any matter, case or dispute arising
within the territorial limits of the
Commonwealth of Puerto Rico, and . . .
In Puerto Rico, since 1958, the Supreme Court
recognized the doctrine of case and dispute. See E.L.A.
v. Aguayo, 80 D.P.R. 552, 558 (1958), explained the
authority of the courts to determine whether or not
the cases brought before them are collusive, moot or
fictitious. The doctrine is birthed from the basic
principle that the courts exist only to resolve genuine
disputes arising between opposing parties that have
real interest in obtaining a remedy affecting legal
relations. The Supreme Court stated that this requirement is a derivative of the anthropological origin of
judicial bodies. It is jurisdictional in nature and has
constitutional rank in various countries. An essential
complement to this limitation has to be the inherent
power and duty of each court to investigate, as often
as required, the circumstances in which the disputes
arise and develop. This power has been recognized
long ago in the Anglo-Saxon system of justice and
numerous judgments support the same. Id. p. 559.
The requirement of standing for justiciability of a
dispute, or for a dispute being acceptable for judicial
awarding, is meant primarily to assure the Court that
the filing party has an interest in such action, to the

App.82a
extent that, in all probability, it will pursue its cause
of action vigorously and that, consequently, it will bring
the matters in dispute to the attention of the Court.

Asociación de Fotoperiodismo de P.R., Inc. and others
v. Rivera Schatz, 180 D.P.R. 920 (2011); Romero Barceló
v. E.L.A., 169 D.P.R. 460, 470 (2006).

In response to this doctrine, criteria of justiciability
have been developed that delimit the powers of the
Courts to hear and judge in the matters submitted to
them. Romero Barceló v. E.L.A., supra. Included among
these criteria is that of legal standing. In the absence
of law which expressly confers standing to sue, the
party filing an action will have access to the Court if
it meets the following requirements: (1) It has suffered
clear and palpable damage; (2) the damage is real,
immediate and specific, not abstract and hypothetical;
(3) that there is a connection between the damage
suffered and the cause of action, and (4) that the cause
of action arises under issues covered by the Constitution or law. Id. p. 470-471; Col. Peritos Elec. v. A.E.E.,
150 D.P.R. 327, 341 (2000).
As is the case of federal jurisdiction, in Puerto
Rico, the exercise of justiciability as self-limitation in
the exercise of judicial power, responds to a large
extent to the role assigned to the judiciary in a
tripartite distribution of powers. Judicial review can
only be exercised in a case or dispute. Asociación de

Fotoperiodismo de P.R., Inc. and others v. Rivera Schatz,
supra; Fundación Surfrider and others v. Administración, 178 D.P.R. 563 (2010).

Courts can only review those cases which are
justiciable. Asoc. Fotoperiodistas v. Rivera Schatz, 180
DPR 920 (2011). A dispute is NOT justiciable when:
(1) the intention is to resolve public policy issues; (2)

App.83a
one of the parties lacks standing to sue; (3) events
subsequent to the commencement of the lawsuit have
caused the dispute to become moot; (4) the parties are
endeavoring to obtain an advisory opinion, or (5)
where attempts are made to promote a lawsuit that is
not ripe. Id. Bhatia Gautier v. Rosselló Nevares, 2017
TSPR 173; 198 D.P.R. ___ (2017).
Given that the state and federal courts of the
United States of North America have taken the lead
in the awarding of thousands of cases where it has been
stated that the plaintiff, in the action for collection of
monies and foreclosure, lacks standing for not being
the holder of each promissory note or the mortgage
creditor, such conclusions of law will be provided,
which for the most part, are quoted in the English language further below.
Prior to this, we should note that, in Spain, a new
financial field in matters of mortgage loan securitization,
if we compare it with the United States, its Courts
already suspend foreclosures and order the dismissal
of the claim for collection of monies and foreclosure,
the foregoing, in cases where there is proof that the
mortgage loan has been securitized (referred to in the
United States as Securitization). To the extent eve,
that the Courts of Spain have declared the nullity of
judgments for collection of monies and foreclosure in
cases where, in the action for nullity of judgment,
there is a demonstration that the mortgage loan has
been securitized.
COURT OF FIRST INSTANCE AND PRELIMINARY INVESTIGATION No. 2
VILLACARRILLO
Proceedings: Foreclosure No. 408/2010.

App.84a
Proceedings No. 10716
Facts
ONE.-In these foreclosure proceedings, the execution debtor presented a brief dated May 5, 2016, concerning the nullity of the enforcement order and the
integrity of the proceedings, based on the securitization
of the same.
TWO.-With due regard to the action for nullity
filed, notice thereof was served to the opposing party
in order to submit allegations; leaving the proceedings
open for resolution.
THREE.-The legal requirements have been complied with in the processing of this trial.
Legal Basis
ONE.-Article 225 of the LEC provides that: “Procedural acts shall be null and void by operation of law
in the following cases:
1.

Where these acts occur by or before the Court
with lack of jurisdiction or of objective or
functional jurisdiction.

2.

Where these acts are carried out under violence
or intimidation.

3.

Where these acts waive essential rules of
procedure, provided that, for that reason,
defenselessness has occurred.

4.

Where these acts are carried out without the
intervention of attorneys, in cases where the
law requires their presence.

App.85a
5.

Where these cases involve hearings without
the required intervention of the Court Clerk.

6.

Where these cases are resolved through court
orders or by decree, which, according to law,
must be resolved by means of court ruling,
order or judgment.

7.

In all other cases regulated by this law.

Adding the second section, first paragraph of
Article 227 of the same

Legal text: “Without prejudice to the foregoing,

the Court may, ex officio or at the request of a party,
prior to issuing any decision to end the process, and
provided that remedy is not due, to declare, after
hearing the parties, the nullity of all the proceedings
or of any in particular.”
In view thereof, these can be considered possible
procedural nullities that cannot be invoked by way of
appeal, provided that they have caused defenselessness
to the party filing for nullity.
TWO.-Securitization consists of a bank action
through which the financial institution or bank divides
the loans into homogeneous holdings, grouping these
into an Asset Securitization Trust for the purpose of
avoiding risk. The Securitization Trust is set up legally
as an entity without legal status managed and admin-

App.86a
istered by a corporation specializing in the management of third-party business, a company specializing
in Asset Securitization Trusts, operating with them in
the securities market where these shares are acquired
by investors.
Law 19/1992, on the regime of companies and real
estate investment trusts and on mortgage-backed
securities funds, clarifies that through the securitization
of a loan, the entity that granted the same, ceases to be
the creditor of the loan, even though it retains by law
the ownership by registration and continues, unless
otherwise agreed, with the management thereof.
Concerning the invocation of the nullity made,
certain courts have issued rulings by declaring that,
with regard to the securitized loan, the originator
loses its condition as creditor, based on the argument
“It expressly means that the creditor of the same has

taken the position of creditor in the complaint, as the
holder of the loan. Based on these statements, it is
inferred therein that it has not been assigned to any
Mortgage-Backed Securities Fund. It is clear that if
the assignment had taken place, the plaintiff of the
proceedings could only act as administrator of the
assigned loans and would lack the intended standing.
As a result, the creditor is hereby notified that, in the
event it does not hold such standing, the nullity of the
actions filed will be declared and the complaint will be
inadmissible with effects ex tune” (in that sense, Proceedings of March 6, 2015, of Court No. 1 Fuenlabrada;
Proceedings of January 20, of Court No. 8 Málaga;
Proceedings of October 5, 2015, of Court No. 7 Granollers; Proceedings of May 12, 2015, of Court No. 6
Arganda del Rey; Proceedings of April 13, 2016, of
Court No.5 Gijon; Proceedings of March 15, 2016, of

App.87a
Court No. 3 Picassent; Proceedings of March 11, 2016,
of Court No. 4 Collado Villaba; Proceedings of January
20, 2016, of Court of First Instance No. 2 Barcelona;
Judgment of the AP de Valentía, of June 14, 2005 and
AAP de Castellón, of July 12, 2012 and July 24, 2012).
As the execution debtor clearly states, the Bank
of Spain, in a non-binding document, in reference to
consultation, expressed the lack of standing in that
case.
Our Supreme Court has already established that
the assignee of a mortgage loan that has not registered
the assignment of the mortgage in the Property
Register, has legal standing to file foreclosure proceedings, given that, in its understanding, the registration
of the assignment of the mortgage loan in the Property
Registry is declaratory and not constitutive. It understands, therefore, that the assignee is subrogated to
the rights of the assignor as creditor and has legal
standing to file foreclosure proceedings; all the foregoing,
without requiring registration (STS 6/29/1989, 11/23/
1993 and 11/23/2007, among others).
THREE.-On the basis of the assumptions outlined
above, we will enter into the analysis of this instant
case.
The execution creditor refuses the loan securitization by reference to the transaction number recorded
in the list provided by the execution creditor, without
such reason being sufficient and decisive for the
dismissal of the claim of the execution debtor. As can
be seen in the list of loans of the Fund “Toncaixa
Andalucía Ftempresa 1”, Asset-Backed Securities Fund,
dated 2/26/2010, specifically the last of the loans,
which was concluded in favor of the borrowers, given

App.88a
that it coincides with the amount of the loan (€27,000),
the address of the borrower appearing in the deed of
constitution and the date of the deed, February 13,
2006; data which matches with the public instrument
provided as an enforceable order with the complaint
and which serves as basis for the enforcement thereof.
Therefore, it is understood that the loan was securitized;
which is the basis for determining that the execution
creditor, Caja de Ahorros y Pensiones de Barcelona (La
Caixa), lacked standing, by the Fund being subordinated
to the position of creditor; which leads to the nullity of
the case.
FOUR.-No statement was made on court costs.
In the view of the legal precepts and others of
general application to the case;
I HEREBY DECREE
THE NULLITY OF THE ENFORCEMENT ORDER,
dated June 8, 2010, AND OF EVERYTHING ACTED
UPON THEREAFTER, thus ordering the dismissal of
the proceedings, once the final resolution has been
issued; all the foregoing, without imposition.

App.89a

Proceedings No. 000221/2016
Most Illustrious, Mr.: Dr. Alfonso Franco Docavo
In BENIDORM, on the tenth of June of two thousand
sixteen.
Findings of Fact
SOLE PROVISION.-Having heard the facts after
the execution debtor informed about the loan securitization, subject of this enforcement order, the same
was forwarded to the parties for claiming their rights
regarding the possible ruling on the lack of standing
of the execution creditor, then proceeding, as appropriate, to declare the nullity of the enforcement order
and thereafter, the dismissal of the proceedings.
Legal Basis
ONE.-In the instant case, a suit for execution was
filed by the entity BANKIA SA, duly verifying that,
once the enforcement order was issued, the loan or
credit of these proceedings has been securitized, as
was admitted by the execution creditor itself.
Loan securitization means that the bank or
financial institution, as holder of the same, divides the
loans into homogeneous holdings, grouping these
shares into an Asset-Backed Securities Fund, which is
legally set up as an entity without legal status, which

App.90a
is managed and administered by a corporation
specializing in the management of third-party business matters, a company that manages asset-backed
securities funds, operating with them in the securities
market where these shares are acquired by investors.
In this way, liquid assets are transformed into
marketable financial assets, which implies the
possibility of cleaning up the balance sheets of financial
institutions by releasing the liabilities that served as
the basis for the assigned assets. Investment management firms are created with the sole purpose of the
constitution, administration and legal representation
of the securitization funds and for defending the
interests of holders of the securities issued by the
funds they manage.
The first regulation of asset-backed securities
funds was issued by Law 15/92, of July 7, on
the Regime of Real Estate Investment Trusts
and Firms and on Mortgage-Backed Securities
Funds. Subsequently, Law 5/15 of April 27,
for the promotion of corporate finance, in
Article 15, establishes the regulation of
securitization funds:
1.

“I. Securitization funds are separate estates,

lacking legal status as such, with null net
equity value, integrated:
a)

In terms of their assets, by credit claims,
present or future, which are grouped
together in accordance with the provisions
of Article 16 and,

b)

in terms of their liabilities, based on
fixed-income securities issued and, on
the loans, granted by any third party,

App.91a
2.

The estate of the securitization funds may,
where thus provided in the deed of constitution, be divided into independent sections,
out of which different classes of securities
may be issued or obligations may be assumed
that can be settled independently.”

Art. 16.2 of this rule stipulates that: “2. Secu-

ritization funds may acquire the ownership
of the assets by any method, either through
their assignment, their purchase, their subscription on primary markets or through any
other way permitted by law.”
Based on the above, it should be noted that the
aim of the foreclosure procedure is to obtain the payment
of the mortgage-backed debt, pursuant to Art. 681
LEC, so that the real property right is not independent,
but accessory or related to the loan secured thereby,
in which case, Art. 685.2 LEC requires the provision
of the negotiable instrument with the suit for execution.
In this case, such instrument is the deed of incorporation of the mortgage in favor of *, but indicating that
the loan is securitized, thus assigning the assets of*
(bank) to the securitization fund. In this sense, it can
be said that the legal business of loan securitization is
the total assignment of the credit claim subject of
these proceedings.
Bankia SA, filed the foreclosure proceedings acting
on its own behalf and without indicating, until it was
thus requested by the Court, that securitization and
assignment of the credit claims had taken place in
favor of an Asset-Backed Securities Fund, and without
providing, at the beginning, the deed of constitution of
the asset-backed securities fund and the assignment
of credit claims.

App.92a
In the full assignment of the credit claims, as
appropriate, the ordinary standing for the actions
arising out of the mortgage loan would correspond to
the participant, in which case, the issuing entity,
which is the execution creditor in these proceedings,
would not have standing. The issuing entity has not
assigned to a third party a part or share of its
mortgage rights, but these are grouped into several
mortgage loans, and are assigned in their entirety to
an Asset-Backed Securities Fund. Therefore, it is not
possible to apply Art. 15 of the Mortgage Market Law,
nor Art. 61 and 65.3 RD 685/82, which would only
have sense, when a portion of the credit claims is
assigned, and that, in any case, the share that could
correspond to the participant and the assignor should
be distributed according to each share.
In cases where the mortgage loan is assigned to a
third party, the execution creditor would have lost its
status as holder and creditor of the loan, and thus
assuming the actions aimed at its restitution, including
foreclosure. On the basis of Art 149 LH, the credit or
loan secured by a mortgage may be assigned in whole
or in part, in accordance with Art. 1,526 Cc, in which
case, the assignee is subrogated to all the rights of the
assignor. In turn, Art. 1528 Cc, states that the sale or
assignment of a loan includes all the accessory rights,
such as the bond, mortgage, pledge or lien.
Also, in this regard, the Bank of Spain, in its
response, dated March 26, 2015, to a query made
through the CNMV, establishes that: “ . . . in accordance
with Law 19/1992, on the regime of real estate investment trusts and firms on mortgage-backed securities

funds, the securitization of a loan means that the
entity that granted the same ceases to be the creditor

App.93a

of the loan, even though it retains by law the ownership by registration and continues, unless otherwise
agreed, with the management thereof.”
In view of the foregoing, the lack of standing of
the execution creditor should be noted, given that it
lacks the legal standing to request the payment of the
claim, subject of this enforcement order, in accordance
with Art. 10 LEC. Lack of standing is an irremediable
procedural defect, recognizable ex officio at any time in
the proceedings, as provided by Art, 9 LEC.
In this sense. Proceedings of Court of First
Instance No. 5 Gijori, No. 67/2016, of April 13, 2016,
Proceedings of Court of First Instance No. 6 of
Arganda del Rey on November 12, 2015, Proceedings
of Court of First Instance No. 2 of Arganda del Rey of
December 2, 2015, Proceedings of Court of First Instance
No. 4 of Collado Villalba, of March 11, 2.016, Proceedings of Court of First Instance No. 8 of Málaga, No.
20/2015, of January 14, 2015, Proceedings of Court of
First Instance No. 1 of Fuenlabrada, among others.
As a result, the enforcement order in favor of the
party that does not hold legal standing should be
declared null and void, by failure to follow the essential
rules of procedure in the absence of one of the fundamental requirements of the filed action, i.e., the plaintiff was not the holder of the loan that it intended to
enforce, pursuant to Art 225.3 LEC, and based on the
above, these proceedings must be dismissed.
In view of the foregoing;
I HEREBY DECREE: That the corporation,
BANKIA SA, lacks standing in this foreclosure proceeding to claim the loan subject of the proceedings, in view

App.94a
of which, the enforcement order is declared null and
void, and the proceedings must be dismissed.
Issue the timely order to the Property Registry to
proceed to cancel the marginal note placed on the
margin of the mortgage under foreclosure, after the
issuing of certificate of ownership and liens: notes to
be delivered to the execution creditor to use in its presentation and return once these are completed, at
which time the documents submitted with the complaint will be examined and returned as appropriate.
Three essential elements are extracted from the
conclusions of law on the aforesaid decisions at federal
level, which apply to the case under discussion. These
elements are: (1) “[a] crucial element in any mortgage
foreclosure proceeding is that the party seeking foreclosure must demonstrate that it has standing to
foreclose.” Rigby v. Wells Fargo Bank, 84 So.3d 1195,
1196 (Fla. 4th DCA 2012) (quoting: McLean, 79 So.3d
at 173); McLean v. JP Morgan Chase Bank Nat’l Ass’n,
79 So.3d 170, 173 (Fla. 4th DCA 2012); (2) “the party
seeking foreclosure must demonstrate that it owns and
holds the note and mortgage in question—otherwise,
the plaintiff lacks standing to foreclose”. Lizio v.
McCullom, 36 So.3d 927, 929 (Fla. 4th DCA 2010);
Verizzo v. Bank of N.Y., 28 So.3d 976, 978 (Fla. 2d
DCA 2010); Philogene v. ABN Amro Mortg. “Group
Inc., 948 So.2d 45, 46 (Fla. 4th DCA 2006); (3) “[a]
plaintiff seeking foreclosure in a mortgage proceeding
must establish that it had standing to foreclose at the
time it filed suit”. McLean v. JP Morgan Chase Bank
Nat’l Ass’n, 79 So.3d 170, 173 (Fla. 4th DCA 2012).
A plaintiff who has no standing in an action is
subject to a jurisdictional dismissal since (1) courts
have jurisdiction only over controversies that involve

App.95a
the plaintiff, (2) a plaintiff found to lack “standing is
not involved in a controversy, and (3) the courts
therefore have no jurisdiction of the case when such
plaintiff purports to bring it. See: New York Mtge.
Trust Inc. v. Dasdemir, 37 Misc. 3d 1226(A) (2012);
GE Capital Mtge. Servs., Inc v. Powell, 18 Misc. 3d
228 (2007); Strunk v. New York State Bd. Of Elections,
35 Misc. 3d 1208(A) (2012); Bank of NY v. Mulligan,
28 Misc. 3d 1226(A) (2010); Aurora Loan Servs., LLC
v. Sattar, 17 Misc. 3d 1109(A)(2007); Campbell v.
Barclays Bank PLC, 24 Misc. 3d 1210(A); Indy Mac
Fed. Bank, FSB v. Meisels, 37 Misc. 3d 1206(A)(2012);
JP Morgan Chase Bank, N.A. v. George, 27 Misc. 3d
1217(A)(2010); GECMC 2007-C1 Ditmars Lodging, LLC
v. Mohola, LLC, 2010 N.Y. Mic. Lexis 3218 (2010);
Wells Fargo Bank, Natl. Assn. v. Reyes, 20 Misc. 3d
1104(A)(2008); United States Bank Natl Assn. v.
White, 22 Misc. 3d 1112(A)(2009); Indymac Bank v.
Bethley, 22 Misc. 3d 1119(A)(2009); Matter of Ungar
v. Feller, 24 Misc. 3d 1222(A)(2009); Deutsche Bank
Natl. Trst Co. v. Francis, 30 Misc. 3d 1241(A)(2011);
Ameriquest Mtge. Co. v. Basevich, 16 Misc. 3d 1104(A)(
2007); Credit-Based Asset Servicing & Securitization,
LLC v. Akitoye, 22 Misc. 3d 1110(A)(2009); Deutsche
Bank Natl. Trust Co v. Castellano, 15 Misc. 3d
1134(A)(2007); Option One Mtge. Corp. v. Duke, 24
Misc. 3d 1237(A)(2009); HSBC Bank USA, N.A. v.
Valentin, 2014 N.Y. Misc. LEXIS 1347 (2014); Indymac
Bank, FSB v. Boyd, 22 Misc. 3d 1112(A) (2009);
Deutsche Bank Natl. Trust Co. v. Bailey, 22 Misc. 3d
1119(A)(2009).
With regard to the standing to sue, the Supreme
Court of the United States gave an illustration thereof,

App.96a
in the case of Steel Co. v. Citizens for a Better Environment, 523 U.S. 83, 102, 118 S. Ct. 1003, 140 L.Ed.2d 210
(1998), that “[s]tanding to sue is part of the common
understanding of what it takes to make a justiciable
case.” Therefore, “standing is a ‘jurisdictional requirement’”, State ex rel. Dallman v. Franklin Cty. Court
of Common Pleas, 35 Ohio St.2d 176, 179, 298 N.E.2d
515 (1973). In view of the foregoing, “the issue of
standing, inasmuch as it is jurisdictional in nature,
may be raised at any time during the pendency of the
proceedings”, New Boston Coke Corp. v. Tyler, 32
Ohio St.3d 216, 218, 513 N.E.2d 302 (1987). See also:
Fed. Home Loan Mtge. Corp. v. Schwartzwald, 134
Ohio St.3d 13, 2012 Ohio 5017, ¶ 22, 979 N.E.2d 1214.
In 1992, the Supreme Court of the United States
established that “[b]ecause standing to sue is required
to invoke the jurisdiction of the common pleas court,
“standing is to be determined as of the commencement
of suit.”, Lujan v. Defenders of Wildlife, 504 U.S. 555,
570-571, 112 S. Ct. 2130, 119 L.Ed.2d 351, fn. 5 (1992);
See also: Friends of the Earth, Inc. v. Laidlaw Environmental Servs. (TOC), 528 U.S. 167, 180, 120 S. Ct.
693, 145 L.Ed.2d 610 (2000); Nova Health Sys. v.
Gandy, 416 F.3d 1149, 1154-1155 (10th Cir. 2005); Focus
on the Family v. Pinellas Suncoast Transit Auth., 344
F.3d 1263, 1275 (11th Cir. 2003); Perry v. Arlington
Hts., 186 F.3d 826, 830 (7th Cir. 1999); Carr v. Alta
Verde Industries, Inc., 931 F.2d 1055, 1061 (5th Cir.
1991).
To be more specific, “[s]tanding is the legal right
to set judicial machinery in motion”, Hiland v. Ives, 28
Conn.Supp. 243, 245, 257 A.2d 822 (1966). Thus, “[t]he
plaintiff must prove that it had standing to foreclose
when the complaint was filed”, McLean v. JP Morgan

App.97a

Chase Bank Natl. Assn., 79 So.3d 170, 173 (Fla. App.
2012). See also: Burley v. Douglas, 26 So.3d 1013, 1019
(Miss. 2009), quoting Lujan v. Defenders of Wildlife,
504 U.S. 555, 571, 112 S. Ct. 2130, 119 L.Ed.2d 351,
fn. 5 (1992); Deutsche Bank Nat’l Trust Co. v. Mitchell,
422 N.J. Super. 214, 224, 27 A.3d 1229 (App. Div. 2011).
See also: McLean v. JP Morgan Chase Bank Nat’l
Ass’n, 2011 Fla. App. LEXIS 19931, 36 Fla. L. Weekly
D2728a (Fla. 4th DCA Dec. 14, 2011); Taylor v.
Deutsche Bank Nat’l Trust Co., 44 So.3d 618 (Fla. 5th
DCA 2010).
In Saratoga County Chamber of Commerce, Inc.
v. Pataki, 100 N.Y.2d 801, 812, 798 N.E.2d 1047, 766
N.Y.S.2d 654 (2003), cert denied 540 U.S. 1017, 124 S.
Ct. 570, 157 L.Ed.2d 430 (2003), it was ruled that
“standing to sue is critical to the proper functioning of
the judicial system. It is a threshold issue. If standing
is denied, the pathway to the courthouse is blocked.
The plaintiff who has standing, however, may cross
the threshold and seek judicial redress.”
In Fed. Home Loan Mtge. Corp. v. Schwartzwald,
134 Ohio St.3d 13, 2012 Ohio 5017, 979 N.E.2d 1214,
the Supreme Court of Ohio ruled that “a plaintiff in a
foreclosure action must have standing at the time it
files the complaint in order to invoke the jurisdiction
of the court”. Schwartzwald at ¶ 41-42. See also: In re

2007 Administration of Appropriations of Water of the
Niobrara, 278 Neb. 137, 145, 768 N.W.2d 420 (2009);
Country Place Cmty. Ass’n v. J.P. Morgan Mortg.
Acquisition Corp., 51 So.3d 1176, 1179 (Fla. 2d DCA
2010). “Standing to sue is jurisdictional in nature as
it concerns a party’s capacity to invoke the jurisdiction

App.98a
of the court, and, therefore, whether a party has standing is evaluated at the time of the filing of the complaint”.
Id. at ¶ 24.
It is clear that “[i]n a mortgage foreclosure action,
a plaintiff has standing where it is both the holder and
assignee of the subject mortgage and the holder or
assignee of the underlying note at the time the action
is commenced.” Homecomings Fin., LLC v. Guldi, 108
A.D.3d 506, 507-508, 969 N.Y.S.2d 470 (2nd Dep’t
2013), quoting: Bank of N.Y. v. Silverberg, 86 A.D.3d
274, 279, 926 N.Y.S.2d 532 (2nd Dep’t 2011); See also:
Bank of N. Y. Mellon Trust Co. NA v. Sachar, 95 A.D.
3d 695, 695, 943 N.Y.S.2d 893 (1st Dep’t 2012); US
Bank N.A. v. Cange, 96 A.D.3d 825, 826, 947 N.Y.S.2d
522 [2d Dept 2012]; U.S. Bank, N.A. v. Collymore, 68
A.D.3d at 753-754 [2009]; Countrywide Home Loans,
Inc. v. Gress, 68 A.D.3d 709, 888 N.Y.S.2d 914 [2d Dept
2009]); HSBC Bank USA v. Hernandez, 92 A.D.3d
843, 843, 939 N.Y.S.2d 120; Aurora Loan Servs., LLC
v. Taylor, 114 A.D.3d 627, 980 N.Y.S.2d 475 [2d Dept
2014]; Deutsche Bank Natl. Trust Co. v. Whalen, 107
A.D.3d 931, 932, 969 N.Y.S.2d 82 [2d Dept 2013].
Thus, “[a] plaintiff has standing to maintain the
action only where the plaintiff is the proper assignee
of the mortgage and the underlying note at the time
the foreclosure action was commenced”. U.S. Bank,
N.A. v. Collymore, 68 A.D.3d 752, 890 N.Y.S.2d 578 [2d
Dept 2009]; Federal Natl. Mtge. Assn. v. Youkelsone,
303 A.D.2d 546, 755 N.Y.S.2d 730 [2d Dept 2003];
Wells Fargo Bank, N.A. v. Marchione, 69 A.D.3d 204,
887 N.Y.S.2d 615 [2d Dept 2009]; First Trust Nat’l
Ass’n v. Meisels, 234 A.D.2d 414, 651 N.Y.S.2d 121 [2d
Dept 1996]). “A party cannot foreclose on a mortgage
without having title, giving it standing to bring the

App.99a
action”. See: Kluge v. Fugazy, 145 A.D.2d 537, 538, 536
N.Y.S.2d 92 [2nd Dept 1988].
In an action for collection of monies and foreclosure,
the plaintiff has standing to sue when “it is both the
holder or assignee of the subject mortgage and the
holder or assignee of the underlying note at the time
the action is commenced.” See: Mortgage Elec. Registration Sys., Inc. v. Coakley, 41 A.D.3d 674, 838 N.Y.S.
2d 622 [2007]; Federal Natl. Mtge. Assn. v. Youkelsone, 303 A.D.2d 546, 546-547, 755 N.Y.S.2d 730
[2003]; First Trust Natl. Assn. v. Meisels, 234 A.D.2d
414, 651 N.Y.S.2d 121 [1996]); HSBC Bank USA v.
Hernandez, 92 A.D.3d 843, 939 N.Y.S.2d 120 [2d Dept
2012]; US Bank, NA v. Collymore, 68 A.D.3d at 753;
Countrywide Home Loans, Inc. v. Gress, 68 A.D.3d
709, 888 N.Y.S.2d 914 [2d Dept 2009]. Denaro 98 A.D.3d
at 964; Dellarmo, 94 A.D.3d at 748; Bank of New York,
86 A.D.3d at 279; Collymore, 68 A.D.3d at 753; Wells
Fargo Bank, N.A. v. Marchione, 69 A.D.3d 204, 207,
887 N.Y.S.2d 615 [2d Dept 2009]; Bank of New York
v. Silverberg, 86 A.D.3d 274, 279, 926 N.Y.S.2d 532
[2d Dept 2011]; Aurora Loan Servs., LLC v. Weisblum,
85 A.D.3d 95, 108, 923 N.Y.S.2d 609 [2d Dept 2011].
Thus, “[t]o have standing to foreclose, it must be
demonstrated that the plaintiff holds the note and
mortgage in question.” Mazine v. M & I Bank, 67
So.3d 1129, 1132 (Fla. 1st DCA 2011); See also: BAC
Funding Consortium, Inc. v. Jean-Jacques, 28 So.3d
936, 938 (Fla. 2d DCA 2010). The plaintiff must have
the requisite standing when the foreclosure complaint
is filed. See, Rigby v. Wells Fargo Bank, N.A., 84 So.3d
1195, 1196 (Fla. 4th DCA 2012) (quoting: Venture

Holdings & Acquisitions Grp., LLC v. A.I.M. Funding
Grp., LLC, 75 So.3d 773, 776 (Fla. 4th DCA 2011)). “It

App.100a
is axiomatic that plaintiff has standing to sue if it was
the lawful holder of the note and mortgage when the
action was commenced”. Mortgage Electronic Registration Systems, Inc. v. Coakley, 41 A.D.3d 674, 838
N.Y.S.2d 622 (2nd Dept 2007).
“The doctrine of standing is designed to preclude
persons who have no interest in a controversy from
bringing suit.” Raintree Homes, Inc. v. Village of Long
Grove, 209 Ill. 2d 248, 262, 807 N.E.2d 439, 282 Ill.
Dec. 815 (2004).
“A party’s standing to sue must be determined as
of the time the suit is filed”. Village of Kildeer v.
Village of Lake Zurich, 167 Ill. App.3d 783, 786, 521
N.E.2d 1252, 118 Ill. Dec. 559 (1988). “[A] party either
has standing at the time the suit is brought or it does
not.” Id.
Prior to the case of Schwartzwald, supra, the
Court of Appeals of Ohio, also found that:-in order to
have a real interest in a foreclosure action, a party
must be the owner and holder of the note and the
mortgage at the time it commences the action”, U.S.
Bank, N.A. v. Richards, 189 Ohio App.3d 276, 2010
Ohio 3981, ¶ 13, 938 N.E.2d 74 (9th Dist), quoting:
Everhome Mtge. Co. v. Rowland, 10 Dist. Franklin No.
07AP-615, 2008 Ohio 1282, ¶ 12 (“In foreclosure actions,
the real party in interest is the current holder of the
note and mortgage”); Wells Fargo Bank, N.A. v.
Sessley, Franklin App. No. 09AP-178, 188 Ohio App.
3d 213, 2010 Ohio 2902, ¶ 11, 935 N.E.2d 70; Quantum
Servicing Corp. v. Haugabrook, 9th Dist. Summit No.
26542, 2013-Ohio-3516, ¶ 8; Wells Fargo Bank N.A. v.
Horn, 9th Dist. Lorain No. 12CA010230, 2013-Ohio2374, ¶ 10; BAC Home Loan Serv. v. McFerren, 9th
Dist. Summit No. 26384, 2013-Ohio-3228, ¶ 13; Wells

App.101a

Fargo Bank, N.A. v. Stovall, Cuyahoga App. No.
91802, 2010 Ohio 236.
“A plaintiff seeking foreclosure must establish
that it was the owner or holder of the note and
mortgage at the time that it commenced the foreclosure
action”. See: Mortgage Elec. Registration Sys. v.
Coakley, 41 A.D.3d 674, 838 N.Y.S.2d 622 [2nd Dept
2007]; Federal Natl. Mtge. Assn. v. Youkelsone, 303
A.D.2d 546, 755 N.Y.S.2d 730 [2nd Dept 2003]; See
also: Wells Fargo Bank, N.A. v. Marchione, 69 A.D.3d
204, 887 N.Y.S.2d 615 [2nd Dept 2009].
“In order to commence a foreclosure action, a
plaintiff must have a legal or equitable interest in the
mortgage. A plaintiff has standing where it is the
holder or assignee of both the subject mortgage and of
the underlying note at the time the action is commenced”, Bank of N.Y. v. Silverberg, 86 A.D.3d 274,
926 N.Y.S.2d 532 [2011]; Aurora Loan Servs., LLC v.
Weisblum, 85 A.D.3d 95, 923 N.Y.S.2d 609 [2011];
Wells Fargo Bank, N.A. v. Marchione, 69 A.D.3d 204,
207, 887 N.Y.S.2d 615 [2009]; U.S. Bank, N.A. v.
Collymore, 68 A.D.3d 752, 890 N.Y.S.2d 578 [2009];
Countrywide Home Loans, Inc. v. Gress, 68 A.D.3d
709, 888 N.Y.S.2d 914 [2009]); Deutsche Bank Natl.
Trust Co. v. Spanos, 102 A.D.3d 909, 911, 961
N.Y.S.2d 200; OneWest Bank FSB v. Carey, 104
A.D.3d 444, 960 N.Y.S.2d 306 [1st Dept 2013]; Bank
of New York Mellon Trust Co. NA v. Sachar, 95 A.D.3d
695, 943 N.Y.S.2d 893 [1st Dept 2012]; GRP Loan,
LLC v. Taylor, 95 A.D.3d 1172, 945 N.Y.S.2d 336 [2nd
Dept 2012]. The decision in Bank of New York v.
Silverberg, 86 A.D.3d at 280, (2nd Dep’t, 2011) upheld
that: “a plaintiff does not have standing to bring a
foreclosure action if does not own the note.

App.102a
In Kluge v. Fugazy et al., 145 A.D.2d 537; 536
N.Y.S.2d 92 (N.Y, 1988), it was ruled that: “foreclosure

of a mortgage may not be brought by one who has no
title to it and absent transfer of the debt, the assignment
of the mortgage is a nullity [Emphasis added]. Essentially, Kluge’s decision found that, due to the fact that
the plaintiff was not the holder of each promissory
note and the assignee of the mortgage, it lacked standing to file the action for collection and foreclosure. See
also: Deutsche Bank Nat’l Trust Co. v. Barnett, 88
A.D.3d 636, 637, 931 N.Y.S.2d 630; Bank of NY v.
Silverberg, 86 A.D.3d 274, 926 N.Y.S.2d 532; Campaign
v. Barba, (23 A.D.3d 327, 805 N.Y.S.2d 86 [2d Dept
2005].
“The transfer of a mortgage without a note is a
nullity and insufficient to confer standing to foreclose”.
See: U.S. Bank N.A. v. Dellarmo, 94 A.D.3d 746, 748,
942 N.Y.S.2d 122 (2nd Dep’t 2012); Deutsche Bank
Nat’l Trust Co. v. Barnett, 88 A.D.3d 636, 637, 931
N.Y.S.2d 630 (2nd Dep’t 2011); Bank of N.Y. v.
Silverberg, 86 A.D.3d at 280. “An assignment of a
mortgage without assignment of the underlying note
or bond is a nullity, and no interest is acquired by it”.
Merritt v. Bartholick, 36 NY 44, 45, 34 How. Pr. 129,
1 Transc. App. 63 [1867]; Bank of N.Y. v. Silverberg,
86 A.D.3d 274, 926 N.Y.S.2d 532 [2011]; LaSalle Bank
Natl. Assn. v. Ahearn, 59 A.D.3d 911, 912, 875
N.Y.S.2d 595 [2009].
“The collateral lien of the mortgage could have no
legal existence when separated from the note and
transferred to others than the holder of the note, but
so long as the two remain together, owned and
possessed by the same person, they operate together
and are obligations for the payment of the same

App.103a
indebtedness.” Matter of Pirie, 198 NY 209, 91 N.E.
587 (1910). A party who only has the mortgage but no

note has not suffered any injury given that bare
possession of the mortgage does not endow its possessor
with any enforceable right absent possession of the note.
See: Restatement of the Law 3d, Property, Mortgages,
Section 5.4(e), at 385 (1996) (“[I]n general a mortgage
is unenforceable if it is held by one who has no right
to enforce the secured obligation.”).
In Carpenter v. Longan, 83 U.S. 271, 274, 21 L Ed
313 [1873], the Supreme Court of the United States
ruled that: “an assignment of the mortgage without
the note is a nullity”. See: US Bank N.A. v. Madero,
80 A.D.3d 751, 752, 915 N.Y.S.2d 612 [2011]; US
Bank, N.A. v. Collymore, 68 A.D.3d at 754; Kluge v.
Fugazy, 145 A.D.2d 537, 538, 536 N.Y.S.2d 92 [1988]
[plaintiff, the assignee of a mortgage without the
underlying note, could not bring a foreclosure action];
See also: Flyer v. Sullivan, 284 App Div 697, 698, 134
N.Y.S.2d 521 [1954]; Beak v. Walts, 266 App Div. 900,
42 N.Y.S.2d 652 [1943].
“[O]wnership of the note is part of a Plaintiff’s
prima facie case and its burden of proof” Wells Fargo
Bank, N.A., v. Cohen, 80 A.D.3d 753, 915 N.Y.S.2d 569
(2d Dept 2011); Argent Mtge. Co., LLC v. Mentesana,
79 A.D.3d 1079, 915 N.Y.S.2d 591 (2d Dept 2010);
Campaign v. Barba, 23 A.D.3d 327, 805 N.Y.S.2d 86
(2nd Dept 2005).
In Deutsche Bank National Trust v. Brumbaugh,
2012 OK 3, 270 P.3d 151, ¶ 11, it was ruled that: [t]o
commence a foreclosure action, a plaintiff must demon-

strate it has a right to enforce the note and, absent a
showing of ownership, the plaintiff lacks standing.

App.104a

See: Gill v. First Nat. Bank & Trust Co. of Oklahoma
City, 1945 OK 181, 195 Okla. 607, 159 P.2d 717.
Thus, “[t]he party seeking foreclosure must present
evidence that it owns and holds the note and mortgage
in question in order to proceed with a foreclosure
action.” Lizio v. McCullom, 36 So.3d 927, 929 (Fla. 4th
DCA 2010). “To establish a prima facie case in an action
to foreclose a mortgage, the plaintiff must establish
the existence of the mortgage and mortgage note,
ownership of the mortgage and note”. Household Fin.
Realty Corp. of N.Y. v. Winn, 19 A.D.3d 545, 796
N.Y.S.2d 533 [2005]; Sears Mtge. Corp. v. Yaghobi, 19
A.D.3d 402, 796 N.Y.S.2d 392 [2005]; Ocwen Fed.
Bank FSB v. Miller, 18 A.D.3d 527, 794 N.Y.S.2d 650
[2005]; U.S. Bank Trust N.A. Trustee v. Butti, 16
A.D.3d 408, 792 N.Y.S.2d 505 [2005]). First Union
Mortgage Corp. v. Fern, 298 A.D.2d 490, 749 N.Y.S.2d
42 [2d Dept 2002]; Village Bank v. Wild Oaks,
Holding, Inc., 196 A.D.2d 812, 601 N.Y.S.2d 940 [2d
Dept 1993]).
“A plaintiff must demonstrate it has a right to
enforce the note and, absent a showing of ownership,
the plaintiff lacks standing”. Gill v. First Nat. Bank &
Trust Co. of Oklahoma City, 1945 OK 181, 195 Okla.
607, 159 P.2d 717. “To foreclose a mortgage, a plaintiff
must demonstrate that it has a right to enforce the
note, and without such ownership, the plaintiff lacks
standing”. Wells Fargo Bank, N.A. v. Ford, 418 N.J.
Super. 592, 15 A.3d 327, 329 (N.J. Super. Ct. App. Div.
2011).
“[T]he plaintiff failed to demonstrate its prima
facie entitlement to judgment as a matter of law
because it did not establish that it had standing as the
lawful holder or assignee of the subject note on the

App.105a
date it commenced this action”. See: Deutsche Bank
Nat’l Trust Co. v. Barnett, 88 A.D.3d 636, 931
N.Y.S.2d 630; U.S. Bank N.A. v. Madero, 80 A.D.3d
751, 915 N.Y.S.2d 612; U.S. Bank, N.A. v. Collymore,
68 A.D.3d 752, 890 N.Y.S.2d 578.
In these actions for collection and foreclosure, the
real party in interest is the current holder of each
promissory note and mortgage. See: Chase Manhattan
Mtge. Corp. v. Smith, Hamilton App. No. C-061069,
2007 Ohio 5874, at P18; Kramer v. Millott, (Sept. 23,
1994), Erie App. No. E-94-5, 1994 Ohio App. LEXIS
4454 (“because the plaintiff did not prove that she was
the holder of the note and mortgage, she did not
establish herself as a real party in interest”). “A party
who fails to establish itself as the current holder is not
entitled to judgment as a matter of law”. First Union
Nat’l Bank v. Hufford, (2001), 146 Ohio App.3d 673,
677, 679-680, 2001 Ohio 2271, 767 N.E.2d 1206.
“To foreclose upon a promissory note, the plaintiff
must be the ‘holder’ in order to be the real party in
interest.” Troupe v. Redner, 652 So.2d 394, 395-96
(Fla. 2d DCA 1995); Mortg. Elec. Registration Sys. v.
Azize, 965 So.2d 151, 153 (Fla. 2d DCA 2007).
Now then, “[w]here standing is put into issue by
a defendant’s answer, a plaintiff must prove its standing
if it is to be entitled to relief. Standing is an aspect of
justiciability which, when challenged, must be considered at the outset of any litigation”. See: Wells
Fargo Bank Minnesota National Association, 42 A.D.3d
239, 837 N.Y.S.2d 247 [2nd Dept 2007]. “If a plaintiff
lacks standing to sue, the plaintiff may not proceed in
the action”, Deutsche Bank National Trust Company,
et al. v. Campbell et al, 21 Misc. 3d 1145[A], 875

App.106a
N.Y.S.2d 819, 2008 NY Slip Op 52506[U] [Supreme
Court of New York, Kings County 2008].
“Where the defendant denies that the party
seeking foreclosure has an ownership interest in the
mortgage, the issue of ownership becomes an issue the
plaintiff must prove. Carapezza v. Pate, 143 So.2d 346,
347 (Fla. 3d DCA 1962).
“Where standing is put into issue by a defendant,
the plaintiff must prove its standing in order to be
entitled to relief”. See: US Bank N.A. v. Madero, 80
A.D.3d 751, 752, 915 N.Y.S.2d 612 (2nd Dep’t 2011);
U.S. Bank, N.A. v. Collymore, 68 A.D.3d 752, 753, 890
N.Y.S.2d 578 (2nd Dep’t 2009); Deutsche Bank Natl.
Trust Co. v. Haller, 100 A.D.3d 680, 954 N.Y.S.2d 551
[2d Dept 2012]. TPZ Corp. v. Dabbs, 25 A.D.3d 787,
789, 808 N.Y.S.2d 746 [2006]; See also: Society of
Plastics Indus. v. County of Suffolk, 77 NY2d 761, 769,
573 N.E.2d 1034, 570 N.Y.S.2d 778 [1991]). CitiMortgage, Inc. v. Rosenthal, 88 A.D.3d 759, 931 N.Y.S.2d
638 [2011]. “Where a plaintiff standing to commence
a foreclosure action is placed in issue by a defendant,
it is incumbent upon the plaintiff to prove its standing
to be entitled to relief”. See: CitiMortgage, Inc. v.
Stosel, 89 A.D.3d 887, 934 N.Y.S.2d 182 [2d Dept 2011].
Where standing is raised as a defense by the
defendant, the plaintiff is required to prove its standing
before it may be determined whether the plaintiff is
entitled to relief. See: U.S. Bank, N.A. v. Collymore,
68 A.D.3d 752, 753, 890 N.Y.S.2d 578 [2d Dept 2009].
Said in other terms: “Where a defendant raises the
issue of standing, the plaintiff must prove its standing
to be entitled to relief.” (U.S. Bank, N.A. v. Dellarmo,
94 A.D.3d 746, 748, 942 N.Y.S.2d 122 [2d Dept 2012];
U.S. Bank, N.A. v. Sharif, 89 A.D.3d 723, 724, 933

App.107a
N.Y.S.2d 293 [2d Dept 2011]; Bank of New York v.
Silverberg, 86 A.D.3d 274, 279, 926 N.Y.S.2d 532 [2d
Dept 2011]; U.S. Bank, N.A. v. Collymore, 68 A.D.3d
752, 753, 890 N.Y.S.2d 578 [2d Dept 2009].)
“The party seeking foreclosure must present
evidence that it owns and holds the note and mortgage
in question in order to proceed with a foreclosure
action. Verizzo v. Bank of N.Y., 28 So.3d 976, 978 (Fla.
2d DCA 2010); Philogene v. ABN Amro Mortgage Group
Inc., 948 So.2d 45, 46 (Fla. 4th DCA 2006); Lizio v.
McCullom, 36 So.3d 927, 929 (Fla. 4th DCA 2010). As
we have pointed out before: “[a] party must have the note
and the mortgage in order to demonstrate standing”.
See: Richards, 189 Ohio App.3d 276, 2010 Ohio 3981,
at ¶ 13, 938 N.E.2d 74; Losantiville Holdings L.L.C. v.
Kashanian, 1st Dist. Hamilton No. C-110865, 2012
Ohio 3435, ¶ 17; Arch Bay Holdings, L.L.C. v. Brown,
2d Dist. Montgomery No. 25073, 2012 Ohio 4966, ¶ 16;
U.S. Bank Natl. Assn. v. Marcino, 181 Ohio App.3d
328, 2009 Ohio 1178, ¶ 32, 908 N.E.2d 1032 (7th Dist.);
Rowland, 2008 Ohio 1282, at ¶ 12. “The party seeking
foreclosure must present evidence that it owns and
holds the note and mortgage in question in order to
proceed with a foreclosure action.” Lizio v. McCullom,
36 So.3d 927, 929 (Fla. 4th DCA 2010). “It is wellestablished precedent requiring the party seeking
foreclosure to present evidence that it owns and holds
the note and mortgage in question in order to proceed
with a foreclosure action. See: Verizzo, 28 So.3d at
978; Philogene v. ABN Amro Mortg. Group Inc., 948
So.2d 45, 46 (Fla. 4th DCA 2006).
In the case of collection of monies and foreclosure,
“the plaintiff must plead and prove as part of its prima
facie case that it owns the note and mortgage and has

App.108a
the right to foreclose”. Wells Fargo Bank, N.A., 80 A.D.3d
753, 915 N.Y.S.2d 569 (2d Dept 2011); Argent Mtge.
Co., LLC v. Mentesana, 79 A.D.3d 1079, 915 N.Y.S.2d
591 (2d Dept 2010); Campaign v. Barba, 23 A.D.3d
327, 805 N.Y.S.2d 86 (2nd Dept 2005).
In Wells Fargo Bank, N.A. v. Jordan, Cuyahoga
App. No. 91675, 2009 Ohio 1092, it was ruled that: “a
party lacks standing to bring a foreclosure action if
the party cannot prove that it owned the note and
mortgage on the date the complaint was filed”.
“It is well established that in a foreclosure action
it is plaintiff’s burden to provide admissible evidence
of its standing as the lawful holder of the subject note
and mortgage at the time the action was commenced”.
See: U.S. Bank Nat’l Asso’n. v. Madero, 80 A.D.3d 751,
915 N.Y.S.2d 612 (2d Dept. 2011); Aurora Loan Services,
LLC v. Weisblum, 85 A.D.3d 95, 923 N.Y.S.2d 609 (2d
Dept. 2011); Bank of New York v. Silverberg, 86
A.D.3d 274, 926 N.Y.S.2d 532, 2011 NY Slip Op 5002
(2d Dept. 2011); U.S. Bank, N.A. v. Collymore, 68 A.D.3d
752, 890 N.Y.S.2d 578 (2d Dept. 2009).
To be more specific, the lack of standing cannot
be remedied after the filing of the complaint. Along
these lines: “[i]f, at the commencement of the action,
a plaintiff does not have standing to invoke the court’s
jurisdiction, the plaintiff cannot “cure the lack of
standing by [subsequently] obtaining an interest in the
subject of the litigation and substituting itself as the
real party in interest”. Fed. Home Loan Mtge. Corp. v.
Schwartzwald, Slip Opinion No. 134 Ohio St.3d 13,
2012 Ohio 5017, 979 N.E.2d 1214.
Thus, “a retroactive assignment cannot be used to
confer standing upon the assignee in a foreclosure

App.109a
action commenced prior to the execution of an assignment.” Wells Fargo Bank, N.A. v. Marchione, 69
A.D.3d 204, 210, 887 N.Y.S.2d 615 [2d Dept 2009].
“A plaintiff’s lack of standing at the time a complaint is filed in a foreclosure action cannot be cured
by substituting the real party in interest for an
original party. Wells Fargo Bank, N.A. v. Jordan, 8th
Dist. No. 91675, 2009 Ohio 1092, ¶ 24. “[I]n a foreclosure
action, a bank that was not the mortgagee when suit
was filed cannot cure its lack of standing by subsequently
obtaining an interest in the mortgage.” Id. at 24; See
also: Deutsche Bank Natl. Trust Co. v. Triplett, 8th
Dist. No. 94924, 2011 Ohio 478, ¶ 12; Wells Fargo Bank
N.A. v. Byrd, 178 Ohio App.3d 285, 2008 Ohio 4603,
897 N.E.2d 722 (1st Dist.).
“A plaintiff cannot rely on procedural rules
similar to cure a lack of standing at the commencement
of litigation”, Davis v. Yageo Corp., 481 F.3d 661, 678
(9th Cir. 2007) (“whether or not Dux was the realparty-in-interest, it does not have standing, and it
cannot cure its standing problem through an invocation
of Fed. R. Civ. P. 17(a)”); Clark v. Trailiner Corp., 242
F.3d 388 (10th Cir. 2000) (table), opinion reported at
2000 U.S. App. LEXIS 29006, 2000 WL 1694299
(noting that the plaintiff cannot “retroactively become
the real-party-in-interest” in order to cure a lack of
standing at the filing of the complaint [emphasis sic]);
State v. Property at 2018 Rainbow Drive, 740 So.2d
1025, 1027-1028 (Ala. 1999) (rejecting the argument
that a lack of standing can be cured after the filing of
the complaint); Consumer Fedn. of Am. v. Upjohn Co.,
346 A.2d 725, 729 (D.C. App. 1975). See also: McLean
v. JP Morgan Chase Bank Natl. Assn., 79 So.3d 170,
173 (Fla. App. 2012) (“a party is not permitted to

App.110a
establish the right to maintain an action retroactively
by acquiring standing to file a lawsuit after the fact”).
In other words, “the plaintiff’s lack of standing at
the inception of the case is not a defect that may be
cured by the acquisition of standing after the case is
filed.” Progressive Exp. Ins. Co. v. McGrath Comty.
Chiropractic, 913 So.2d 1281, 1286 (Fla. 2d DCA 2005).
“Thus, a party is not permitted to establish the right
to maintain an action retroactively by acquiring
standing to file a lawsuit after the fact”. Id. at 1286.
“Where a valid cause of action is not stated, the
party moving for judgment is not entitled to the
requested relief, even on default.” Green v. Dolphy
Constr. Co., 187 A.D.2d 635, 590 N.Y.S.2d 238 (2nd
Dep’t, 1992); Citigroup Global Mkts. Realty Corp. v.
Smith, 33 Misc. 3d 1234(A); 943 N.Y.S.2d 790; 2011 N.Y.
Thus, “it becomes essential to establish that the
person who demands payment of a negotiable note, or
to whom payment is made, is the duly qualified
holder. Otherwise, the obligor is exposed to the risk of
DOUBLE PAYMENT, or at least to the expense of litigation incurred to prevent duplicative satisfaction of
the instrument. These risks provide makers with a
recognizable interest in demanding proof of the CHAIN
OF TITLE.” Adams v. Madison Realty & Development,
Inc. (C.A.3, 1988), 853 F.2d 163, 168.
“Standing is a threshold question for the court to
decide in order for it to proceed to adjudicate the
action.” State ex rel. Jones v. Suster, 84 Ohio St.3d 70,
77, 1998 Ohio 275, 701 N.E.2d 1002.
“If a plaintiff lacks standing to sue, the plaintiff
may not proceed in the action”. Stark v. Goldberg, 297
A.D.2d 203, 746 N.Y.S.2d 280 (1st Dept 2002).

App.111a
“Even without opposition, a plaintiff in a foreclosure
action must satisfy a court that it has proper standing
or title to bring the action, that the mortgage and note
was actually funded by the plaintiff, and that the
transaction itself, the one sued upon, has the indicia
of reliability and is free of fraud. Kluge v. Fugazy, 145
A.D.2d 537, 536 N.Y.S.2d 92 (2nd Dep’t 1988); Katz v.
East-Ville Realty Co, 249 A.D.2d 243, 672 N.Y.S.2d
308 (1st Dep’t 1998).
“Today, with multiple (and often unrecorded)
assignments of mortgage obligations and multiple
securitizations often related to the same debt, the
court should carefully scrutinize the status of the
parties who claim the right to enforce these mortgage
obligations”. Deutsche Bank National Trust Company
v. McRae, 27 Misc. 3d 247, 894 N.Y.S.2d 720, [Sup Ct,
Allegany County, 2010].
A plaintiff who has no standing in an action is
subject to a jurisdictional dismissal since (1) courts
have jurisdiction only over controversies that involve
the plaintiff, (2) a plaintiff found to lack “standing is
not involved in a controversy, and (3) the courts
therefore have no jurisdiction of the case when such
plaintiff purports to bring it.” Security Pac. Natl.
Bank v. Evans, 31 A.D.3d 278, 820 N.Y.S.2d 2.
In U.S. Bank National Association vs. ANTONIO
IBAÑEZ, 941 N.E.2d 40 (Mass, 2011), it was ruled
that: the plaintiffs did not demonstrate that they were
the holders of the Ibanez and LaRace mortgages at the
time that they foreclosed these properties, and therefore
the trial court ruled the foreclosure sales were invalid.

App.112a
III. Essential Material Facts and Expert Evidence as
Proof Thereof
Essential Facts
1. On SEPTEMBER 10, 2015, the plaintiff filed
the action for collection of monies and foreclosure in
the above-captioned case.
2. At the filing date of the aforementioned complaint, the plaintiff was NEITHER the owner, NOR
the holder, NOR the possessor of each promissory note
in question; nor was it creditor of each mortgage in
question and, in addition, each mortgage loan in
question was securitized.
3. The plaintiff lacked standing when it filed the
complaint in the above-captioned case, because it was
NEITHER the owner, NOR the holder, NOR the
possessor of each aforementioned note; nor was it the
creditor of the mortgage referred to.
4. Between the dates of: MARCH 5, 2003, TO JULY
9, 20094, i.e., between the dates: covering 6 to 12 years
4
NOTE #1

($180,000.00):

March 5, 2003

NOTE #2

($720,000.00):

March 5, 2003

NOTE #3

($900,000.00):

December 5, 1992

NOTE #4

($300,000.00):

March 5, 2003

NOTE #5

($300,000.00):

March 5, 2003

NOTE #6

($280,000.00):

March 5, 2003

NOTE #7

($700,000.00):

January 5, 2001

NOTE #8

($600,000.00):

March 5, 2003

NOTE #9

($1,200,000.00):

March 5, 2003

App.113a
PRIOR to the filing of the complaint in the abovecaptioned case, the ORIGINATOR-SPONSOR sold
each original PROMISSORY NOTE on the secondary
market and each NOTE went through the securitization5 process in the respective Trusts: EURO LOAN
NOTE #10

($432,000.00):

February 28, 2004

NOTE #11

($800,000.00):

October 7, 2004

NOTE #12

($2,443,000.00):

December 27, 2005

NOTE #13

($680,000.00):

December 27, 2005

NOTE #14

($1,500,000.00):

July 9, 2009

NOTE #15

($1,020,000.00):

July 9, 2009

NOTE #16

($920,000.00):

July 9, 2009

NOTE #17

($550,000.00):

July 9, 2009

NOTE #18

($157,000.00):

July 9, 2009

NOTE #19

($100,000.00):

July 9, 2009

5 That is to say, it was converted, along with other hundreds or
thousands of promissory notes (“pool”), into any of the following
Securities: “Mortgage-Backed Securities” (“MBSs”); “Asset-Backed
Securities; “DS” (“Debt Securities”); “CDOs” (“Collateralized
Debt Obligations”); “CMOs” (“Collateralized Mortgage Obligations”);
“Whole Loan CMOs” (“Whole Loan Collateralized Mortgage Obligations”). The foregoing, under the USA “Tax Reform Act, 1986”,
through the REMICs instrument. These Securities are security
instruments arising from the pool generated from the amalgam
of hundreds or thousands of original PROMISSORY NOTES.
In a broader sense, Securitization means the process by which a
set of original promissory notes is converted into securities. A
known fact is that if an original PROMISSORY NOTE is converted–along with other hundreds or thousands–into Securities,
then the original PROMISSORY NOTE is no longer a negotiable
instrument, thus losing its original legal identity due to its
conversion into a new kind of species: “Securities”–Cf: Chapter
2, Chapter 8 of the Law on Commercial Transactions of Puerto Rico,

App.114a
CLO I-EBS OVERSEAS INC III, infra. See Exhibits
1-19.
5. After the sale of each original promissory note
on the secondary market, the ORIGINATOR-SPONSOR
collected the amount of each note by third-party
payment (Secondary Market investor), plus it obtained
profit by selling each NOTE on dates prior to the
above-captioned complaint.
6. From the date of the sale of each original promissory note on the Secondary Mortgage Market, between
the dates of: MARCH 5, 2003 TO JULY 9, 2009, supra,
the ORIGINATOR-SPONSOR ceased to be the owner,
holder, and possessor of each original promissory note
and creditor of each MORTGAGE subject of the case
for collection of monies and foreclosure.6 As of each
19 L.P.R.A. Sec.501, et seq., Sec. 1701 et seq.; Article 3, Article 8
of the Uniform Commercial Code of the United States of America;
and the “Tax Reform Act” of 1986-REMICs.

De facto, after the “securitization” process of a PROMISSORY
NOTE, the “Debt Holders”, “Note Holders” cease to exist given
that their claim is duly satisfied through the sale of the promissory note on the Secondary Market and its eventual Securitization.
After the Securitization process of the promissory notes and the
issuance and sale of the Securities, the figure of the “Securities
Holders” is birthed. These final investors at the end of the chain,
acquired the “Securities”. The resulting “Securities” are subject
to the market risks. However, these “Securities Holders” ensure
their investment through “CDS” (“Credit Default Swaps”) and
charge the insured amount against the failure to pay the performance of the Securities.
6 It is worth noting that when the promissory notes go through
the securitization process-where the mass of these promissory
notes is generated (called “Pool”) and result in securities-, these
promissory notes are withdrawn from circulation on the market
and, in physical terms, they are archived in a vault as documents
constituting the Pool that precedes the securities resulting from

App.115a
sale date, the plaintiff has not been and nor is the owner,
nor the holder, nor the possessor of each promissory
note in question.
7. After the securitization process of the mortgage
loan (MARCH 30, 2003 TO JULY 15, 20097, in the
the securitization process. In accordance with federal regulations, these resulting documents (the former promissory notes)
are placed under the permanent custody of the designated “Master
Documents Custodian” of the Secondary Market, from whose
custody they cannot be removed. This custodian NEITHER owns,
NOR is holder, NOR is possessor of the promissory notes subject
to Securitization. This is a custody imposed by federal regulations so that, on one hand, the securitized promissory notes and
the resulting securities do not coexist in circulation; and, on the
other hand, to comply with the Federal Internal Revenue Code
requirements so that the taxation process of the Trust can allow
the issuance of the resulting securities.
7
NOTE #1

($180,000.00):

March 30, 2003

NOTE #2

($720,000.00):

March 30, 2003

NOTE #3

($900,000.00):

December 16, 1992

NOTE #4

($300,000.00):

March 30, 2003

NOTE #5

($300,000.00):

March 30, 2003

NOTE #6

($280,000.00):

March 30, 2003

NOTE #7

($700,000.00):

January 30, 2001

NOTE #8

($600,000.00):

March 30, 2003

NOTE #9

($1,200,000.00):

March 30, 2003

NOTE #10

($432,000.00):

October 15, 2004

NOTE #11

($800,000.00):

October 15, 2004

NOTE #12

($2,443,000.00):

January 5, 2006

NOTE #13

($680,000.00):

January 5, 2006

App.116a
respective Trusts: EURO LOAN CLO I-EBS OVERSEAS INC III8), each original PROMISSORY NOTE
NOTE #14

($1,500,000.00):

July 15, 2009

NOTE #15

($1,020,000.00):

July 15, 2009

NOTE #16

($920,000.00):

July 15, 2009

NOTE #17

($550,000.00):

July 15, 2009

NOTE #18

($157,000.00):

July 15, 2009

NOTE #19

($100,000.00):

July 15, 2009

8
NOTE #1

($180,000.00):

EURO LOAN CLO I

NOTE #2

($720,000.00):

EURO LOAN CLO I

NOTE #3

($900,000.00):

EURO MAX IV MBS

NOTE #4

($300,000.00):

EURO LOAN CLO I

NOTE #5

($300,000.00):

EURO LOAN CLO I

NOTE #6

($280,000.00):

EURO LOAN CLO I

NOTE #7

($700,000.00):

EURO MULTI CREDIT CDO

NOTE #8

($600,000.00):

EURO LOAN CLO I

NOTE #9

($1,200,000.00):

EURO LOAN CLO I

NOTE #10

($432,000.00):

EBS OVERSEAS INC I

NOTE #11

($800,000.00):

EBS OVERSEAS INC I

NOTE #12

($2,443,000.00):

EBS OVERSEAS INC II

NOTE #13

($680,000.00):

EBS OVERSEAS INC II

NOTE #14

($1,500,000.00):

EBS OVERSEAS INC III

NOTE #15

($1,020,000.00):

EBS OVERSEAS INC III

NOTE #16

($920,000.00):

EBS OVERSEAS INC III

NOTE #17

($550,000.00):

EBS OVERSEAS INC III

App.117a
was converted into a new kind of species, called
Securities.
8. The plaintiff’s claims in the above-captioned
case, stating that it is the owner and holder of each
promissory note and MORTGAGE creditor constitute
false representations.
9. Between the dates of: MARCH 5, 2003 TO
JULY 9, 20099, the ORIGINATOR-SPONSOR sold
each original PROMISSORY NOTE in question on the
Secondary Market, collecting each amount through
third-party payment PRIOR to the filing of the Complaint in the above-captioned case (September 10,
2015).
10. After the sale of each original promissory
note on the secondary mortgage market, each NOTE
was subject to “securitization” on the dates between:
MARCH 30, 2003 AND JULY 15, 200910, i.e., it was
converted, along with hundreds or thousands of other
notes, into “SECURITIES.”
11. Each original PROMISSORY NOTE in dispute
lost its original legal entity status after the securitization
process. The “Securities” are the new kind of species
resulting from the “pool” of hundreds of notes, including

NOTE #18

($157,000.00):

EBS OVERSEAS INC III

NOTE #19

($100,000.00):

EBS OVERSEAS INC III

9 See footnote 4.
10 See footnote 7.

App.118a
each original PROMISSORY NOTE subject to Securitization.11
12. The Securities are the new legal entity resulting from the promissory note securitization process.12
13. After the original promissory note in dispute
was batched with other hundreds or thousands of
promissory notes and the “pool” was carried out in the
securitization process of the respective Trusts: EURO
LOAN CLO I-EBS OVERSEAS INC III13, between
the dates of: MARCH 30, 2003 TO JULY 15, 200914,
the resulting “Securities” were circulated and sold to

11 The PROMISSORY NOTES and the Securities are regulated,
respectively, by Chapter 2 and Chapter 8 of the Law on
Commercial Transactions of Puerto Rico, 19 L.P.R.A. Sec. 501, et
seq., Sec. 1701 et seq.; 19 L.P.R.A. § 504; 19 L.P.R.A. § 1702(15);
and by Article 3 and Article 8, respectively, of the Uniform
Commercial Code of the United States of America, U.C.C. § 3104; U.C.C. § 8-102(15); and “Tax Reform Act” of 1986–REMICs,
26 CFR § 1.860 F-2, et seq. “Real Estate Mortgage Investment

Conduits (REMICs) came into existence through the Tax Reform
Act of 1986. Under this act, qualified residential and commercial
mortgages notes are pooled and securitized”.

12 Compare: Chapter 2, Chapter 8 of the Law on Commercial
Transactions of Puerto Rico, 19 L.P.R.A. Sec. 501, et seq., Sec.
1701 et seq.; 19 L.P.R.A. § 504; 19 L.P.R.A. § 1702(15); Article 3
and Article 8 of the Uniform Commercial Code of the United
States of America, U.C.C. § 3-104; U.C.C. § 8-102(15); and “Tax
Reform Act” of 1986–REMICs, 26 CFR § 1.860 F-2, et seq.
13 See footnote 8.
14 See footnote 7.

App.119a
the general public on global markets (“shares or pieces
of the pool”).15
14. There is no contractual relationship between
the defendant in the above-captioned case and the
Securities Holders. Investors who are at the end of the
“Securitization” chain process have standing to sue, in
compliance with the terms of the “Securities” and due
to their status as “Securities Holders”.16
15. None of the Securities Holders acquired any
original PROMISSORY NOTE. They acquired: “Securities”, a negotiable instrument resulting from the securitization process of hundreds or thousands of promissory
notes.
16. After the “securitization” process of each
original promissory note, all of the previous “Note
Holders & Mortgage Holders” of each original note
collected the amount displayed on each of these when
they sold it on the Secondary Mortgage Market.
17. Each original PROMISSORY NOTE under
dispute was sold by the ORIGINATOR-SPONSOR to
investors acting as intermediaries of the secondary

15 These securities purchasers are at the end of the Securitization Food Chain and are called: Securities Holders.
16 The “Securities” resulting from the securitization process of
the promissory notes are subject to market risks. However, the
“Securities Holders’ ensure their investment through “CDS”
(“Credit Default Swap”) and charge the insured amount against
the failure to pay the performance of the “Securities”.
The “Securities Holders” do not have standing to claim the
principal debt arising from the original PROMISSORY NOTE
because they acquired “Securities”.

App.120a
mortgage market. In that transaction, the ORIGINATOR-SPONSOR collected the amount of each original
promissory note through a third-party payment (first
intermediary investor). In turn, the first Intermediary
Investment Bank sold it to another Intermediary
Investment Bank of greater hierarchy. In this other
transaction, the first intermediary investment bank,
also collected the amount of each promissory note by
third-party payment (second intermediary investor).
18. The last Investment Bank that bought and
accumulated the PROMISSORY NOTES, including each
original NOTE under dispute, submitted the same to
the securitization process to recover its investment in
the acquisition of the NOTES and to achieve higher
profits by selling the securities resulting from the
above securitization process. Each original PROMISSORY NOTE under dispute was batched with
hundreds or thousands of NOTES to create the mass
(“pool”) that generated the new kind of species:
“Securities”, supra.17
19. Prior to the conversion of each original promissory note, along with other thousands of notes, into
Securities, actual sales of each original promissory note
in question took place between the “Originator” and
the “Sponsor”; between the “Sponsor” and “Depositor”;
and between the “Depositor” and “Trustee” to generate
the “Trust” FREDDIE MAC MULTICLASS 2965
SERIES-REMICs, “Tax Reform Act of 1986”; U.S.

17 The flow of sales and negotiations of each original promissory
note and the specifications and details of the resulting Securities
were verified by the corresponding Expert Reports on Securitization,
prepared by experts from the United States [Exhibit 1-19].

App.121a

Bank National Association v. Antonio Ibañez, 941 N.E.
2d 40 (Mass 2011).18
20. Under Articles 1777 and 1232 of the Civil
Code of Puerto Rico, of 1930, the corresponding instruments had to be granted for the assignment of the
mortgage loan between: (i) the original creditor and
the investment bank of the secondary market; (ii)
between the “Originator” and the “Sponsor”; (iii)
between the “Sponsor” and the “Depositor”; and (iv)
between the “Depositor” and the “Trustee”-REMICs
“Tax Reform Act of 1986”. And this did not happen.
See statement in: U.S. Bank National Association v.
Antonio Ibañez, 941 N.E. 2d 40 (Mass 2011), 458 Mass
637 (2011).
21. On the filing date of the complaint in the
above-captioned case (September 10, 2015), the plaintiff
did NOT have standing to claim the collection of each
original promissory note under dispute, because it
was NEITHER the owner, NOR the holder, NOR the
possessor of each aforementioned promissory note;
nor, was it a mortgage creditor, given that the ORIGINATOR-SPONSOR sold each promissory note on the
secondary market, collecting the amount of the debt
shown on each NOTE, and these were subject to
“securitization”, supra.
22. After the sale of each original promissory note
on the Secondary Mortgage Market, supra, all the previous owners and holders collected their respective
18 At the same time, assignments or transfers of the mortgage
loan occur between the “Originator” and the “Sponsor”; between
the “Sponsor” and “Depositor”; and between the “Depositor” and
the “Trustee”-REMICs, “Tax Reform Act of 1986”; U.S. Bank
National Association v. Antonio Ibañez, 941 N.E. 2d 40 (Mass 2011).

App.122a
claims and the debt shown on each original note, thus,
the debt was discharged through third-party payment.
After the discharge of the debt, the mortgage that
secured it was also discharged.
23. Intermediary Investors of the secondary market–i.e. commercial banks, investment banks, Fannie
Mae, Freddie Mac, Goldman Sachs, Morgan Stanley,
Lehman Brothers, Merryll Lynch, Bear Stearns,
Deutsche Bank, Wells Fargo–do not have standing to
claim the collection of each original promissory note
because NONE of them is the owner and holder of
each original note, given that they sold these on the
secondary mortgage market and collected the same by
third-party payment. In addition, each original PROMISSORY NOTE was subject to “securitization” and, as
a result, each original NOTE became, along with other
hundreds or thousands of NOTES, a new kind of
species: “securities”, supra. Thus, each original PROMISSORY NOTE lost its legal entity status.
24. Knowing that each original PROMISSORY
NOTE in dispute had already been sold on the
secondary mortgage market, and having collected the
debt by third-party payment, in the complaint in the
above-captioned case, the plaintiff made false representations of being the owner and holder of each original promissory note and creditor of the MORTGAGE.
25. The plaintiff does not have standing to sue in
the above-captioned case. The above-captioned case
for collection of monies and foreclosure is not justiciable
due to the plaintiff’s lack of standing to sue. Thus, it
does not have right to collect each promissory note or
enforce the mortgage-backed guarantee since the
ORIGINATOR-SPONSOR collected the amount of
each original promissory note when it sold them on the

App.123a
secondary market. By the filing date of the complaint in
the above-captioned case, each original PROMISSORY
NOTE had already lost its legal entity status due to
conversion-along with other hundreds or thousands of
NOTES-into “securities”, and each mortgage had lost
its encumbrance quality by discharge of the debt
through third-party payment.
26. Expert Reports on Securitization (Exhibits 119) inexorably show that each PROMISSORY NOTE in
dispute was sold, transferred, and subject to Securitization [together with a “pool” of hundreds of notes] on a
date prior to the filing of the complaint in the abovecaptioned case. Exhibits 1-19 of this Motion for Relief
from Judgment contain Expert Reports/Sworn Statements with the Apostille of an Expert from the United
States, demonstrating the precedent essential facts in
an irrefutable way. Content of Exhibits 1-19, in toto,
is incorporated herein, these are issued under oath
and have the relevant Apostille.
27. The plaintiff’s lack of standing to sue at the
time of filing its complaint, deprived the Court of First
Instance from jurisdiction in the above-captioned case.
If there is no jurisdiction, then the above-captioned
case for collection and foreclosure is not justiciable.
IV. Case Law on Subject of Relief from Judgments
Rule 49.2 of Civil Procedure, 32 L.P.R.A. Ap. V,
R.49.2, establishes the procedural mechanism available
for petitioning the lower court to relieve the effects of
a judgment, order or proceeding when any of the
grounds set forth therein is present. This Rule 49.2 of
Civil Procedure, sets out the following in relevant
matters:

App.124a
“Through a motion and under fair conditions, the
Court may relieve a party or its legal representative from a judgment, order or proceeding, for the
following reasons:
(a) Error, oversight, excusable negligence or surprise;
(b) discovery of essential evidence that, despite
due diligence, could not have been discovered
in time to request a new trial, in accordance
with Rule 48 of this Exhibit;
(c) fraud (which until now has been referred to
as “intrinsic” and also called “extrinsic”),
misrepresentation or other misconduct of an
opposing party;
(d) nullity of judgment;
(e) judgment has been satisfied, waived or been
fulfilled, or the previous judgment on which
it was based has been revoked or otherwise
left without effect, or it would not be fair for
the judgment to continue in force, or
(f)

any other reason that justifies the granting
of relief against the effects of a judgment.”

This precept of civil procedure aims to achieve the
fair balance between two (2) principles of utmost
importance in our legal system. On one hand, the
interest for cases to be resolved by merits through the
issuing of substantial justice. On the other hand, that
legal disputes come to an end. Nester v. Ramos, supra;
Municipio de Coamo v. Tribunal Superior, 99 D.P.R. 932,
936-937 (1971). See also; J.A. Cuevas Segarra, Tratado
de Derecho Procesal Civil , San Juan, Publicaciones

App.125a
J.T.S., 2000, T. II, p. 784; Wright, Miller and Kane, Federal Practice and Procedure: Federal Rules of Civil
Procedure, St. Paul Minn., West Publishing Co., 1995,
Vol. 11, sec. 2857, pp. 256-257.
In turn, subsection (4) of Rule 49.2 of Civil Procedure, supra, grants the Court the power to relieve some
of the effects of a judgment when determining the
nullity thereof. A judgment is null and void when the
same has been rendered without jurisdiction or when,
upon issuing the same, due process of law has been
violated. Figueroa v. Banco de San Juan, 108 D.P.R. 680,
688 (1979); Estado Libre Asociado v. Tribunal Superior,
86 D.P.R. 692, 697-698 (1962); Rodríguez Figueroa v.
Registrador de la Propiedad, 75 D.P.R. 712, 718 (1953).
See, R. Hernández Collin, op. cit. sec. 4807, p. 354; J.A.
Cuevas Segarra, op. cit., T. II, pp. 795-796. See also,
Hoult v. Hoult, 57 F3d. 1, 6 (1995); In re: Hunter, 66
F3d. 1002, 1005 (1995).19
It is important to point out that, based on these
legal grounds—subsection (4) of Rule 49.2 of Civil
Procedure—There is no margin of discretion as there
is under the other legal grounds of Rule 49.2 of Civil
Procedure, supra; if a judgment is null and void, it has
to be left without effect, regardless of the merits of the
defense or the claim of the injured party.20 R. Hernández
19 See also, J.W. Moore, Moore’s Federal Practice, 3ra ed., San
Francisco, LexisNexis, 2009, Vol. 12, sec. 60.44(1)(b), pp. 60-150;
T.A. Coyne, Federal Rules of Civil Procedure, 2da ed., Minnesota,
West Group, 2000, sec. VII-74; H.A. Kooman, Federal Civil Practice,
Atlanta, The Harrison Company Pub., 1975, Vol. 4, sec. 60.06, p.
246, when discussing the Federal Rule of Civil Procedure 60(b)(4),
which is similar to our Rule of Civil Procedure 49.2(4), supra.
20 As pointed out by author Harold A. Kooman in his work, Federal Civil Practice: “An important distinction must be kept in

App.126a
Collin, op. cit., sec. 4807, p. 355; Wright, Miller and
Kane, op. cit., Vol. 11, sec. 2862, p. 322. On this specific matter, the Supreme Court has stated that:
. . . the Court’s discretion, under the provisions
of the above Rule 49.2 of Civil Procedure, to
grant relief to one of the parties from the
effects of a judgment is inapplicable when it
comes to a judgment which is “null and void”;
if it is null and void, there is no discretion for
relief, thus, there is an obligation to pronounce
the nullity thereof.21 (Citations omitted).
The conclusion is inescapable, accordingly,
given the certainty of nullity of a judgment,
it is mandatory to declare its lack of legal
basis; regardless of the fact that the request
to such effects is made after the expiry of the
time limit of six (6) months established in the
aforementioned Rule 49.2 of Civil Procedure.
Montañez v. Policía de Puerto Rico, 150 D.P.R.
917, 921-922 (2000). Véanse, Bco. Santander
P.R. v. Fajardo Farms Corp., 141 D.P.R. 237,
[243-244] (1996); Figueroa v. Banco de San
Juan, 108 D.P.R. 680, [689] (1979). See also,
H.A. Kooman, op. cit., sec. 60.6, pp. 246-247.
With regard to the grounds for nullity of judgment for violation of due process of law, Law Professor
Rafael Hernández Colón, points out that “there can be
as many manifestations of the same as there are
mind in considering the voidness of a judgment as a ground for
relief. A void judgment is theoretically no judgment at all, is
legally ineffective, and creates no rights or obligations”. H.A.
Kooman, op. cit., sec. 60.06, p. 246.
21 See, J.W. Moore, op. cit., Vol. 12, sec. 60.44(5)(a), pp. 60-163.

App.127a
principles of due process, and which were broken in a
particular case.” R. Hernández Colón, op. cit., sec. 4807,
p. 355. Using similar terms, the expert in procedural
law, James William Moore, expresses that: “[t]here is
no theoretical limit to the possibilities that a judgment could be void because a court [ . . . ] has acted in
a manner inconsistent with due process of law”. J.W.
Moore, op. cit., Vol. 12, sec. 60.44(4), pp. 60-161.
V.

Application and Conclusion

In view of the aforementioned Law, it is clear that
a crucial element in actions for collection and foreclosure
is that the plaintiff must prove that it has standing to
sue. To achieve this, it must prove that it is the owner,
holder, and possessor of the promissory note and is
mortgage creditor in question. Otherwise, the plaintiff
lacks standing to sue for collection and foreclosure. In
addition, the plaintiff must establish that it has
standing at the time of filing its complaint.
Based on the expert evidence in the proceedings,
it has been inexorably proven that, on the filing date
of the complaint in the above-captioned case, the
plaintiff was NEITHER the owner, NOR the holder,
NOR the possessor of each aforementioned promissory
note; nor, was it the creditor of each mortgage
because, prior to the date of filing of the complaint, the
ORIGINATOR-SPONSOR sold each promissory note
on the Secondary Mortgage Market, and the mortgage
loan was securitized. That is to say, it was subject to
securitization.
In view of these facts, the case under discussion
suffered from lack of justiciability due to the plaintiff’s
lack of standing to sue, because it was NEITHER the
owner, NOR the holder, NOR the possessor of each

App.128a
aforementioned promissory note; neither was it a
creditor of each mortgage at the time of filing its complaint. Without jurisdiction, due to the plaintiff’s lack
of standing to sue, this Court of First Instance issued
a judgment which ruled in favor of the action for
collection and foreclosure filed by the plaintiff. Based
on the foregoing, the above judgment is null and void.
In view of the nullity of the judgment, it is appropriate
to relieve the same.
PLEA
DUE TO ALL THE ABOVE, this Honorable Court
is petitioned to decree relief from the judgment in the
above-captioned case.
RESPECTFULLY SUBMITTED.
In San Juan, Puerto Rico, on January 21, 2019.
I CERTIFY: That a true and accurate copy of this
Brief was notified by regular mail and/or email and/or
registered mail, with acknowledgement of receipt, to all
the registered attorneys, at their addresses on record.

App.129a
MONGE LA FOSSE
ATTORNEY & COUNSELLORS AT LAW, P.S.W.
PO Box 192053
San Juan, Puerto Rico 00919-2053
Telefono: (787) 765-9090
TeleFax: (787) 765-9035
Celular: (787) 413-1135
Lic: 12496
Email: mongelafosselaw@gmail.com

Grace Monge La Fosse

App.130a
====================================
CERTIFICATE OF TRANSLATOR
# JF-2020-001_APP F
I am a United States court-certified interpreter,
and I CERTIFY that the above is a faithful translation
of the Spanish source, which I have performed to the
best of my ability. It consists of sixty-three (63) pages,
including this certification sheet, and contains no
changes or erasures.
The content of this translation is a Motion under
Rule 49.2 (d) of Civil Procedure, 2009, issued by Oriental
Bank in the Commonwealth of Puerto Rico, Court of
First Instance, Judicial Center of Caguas, Superior
Court, Civil Case No. ECD-2015-1017.
In Cambridge, Massachusetts, on January 19, 2020.
/s/ Joaquín Font
Joaquín Font
Font Translations
Calle Calaf 400, Suite 268
San Juan, PR 00918
Toll-Free Tel. & Fax: 1-877-JOAQUIN (562-7846)
e-mail: fonttranslations@gmail.com

App.131a
COMPLAINT FILED IN THE
COURT OF FIRST INSTANCE
SUPERIOR COURT OF CAGUAS
(ENTRY: SEPTEMBER 10, 2015)
THE COMMONWEALTH OF PUERTO RICO
COURT OF FIRST INSTANCE
COURT OF CAGUAS
________________________
ORIENTAL BANK,

Plaintiff,
v.
MULTI-VENTAS Y SERVICIOS, INC.;
MULTI-VENTAS Y SERVICIOS P.R., INC.;
MULTI-BATTERIES & FORKLIFTS, CORP.;
AWESOME, INC.; PEDRO RIVERA CONCEPCIÓN;
MARÍA MERCEDES FELICIANO CARABALLO;
AND THE CONJUGAL PARTNERSHIP
CONSTITUTED BY BOTH,

Defendants.
________________________
Civil Case No.: ECD-2015-1017702
Re: Collection of Monies, Mortgage Foreclosure

App.132a
TO THE HONORABLE COURT:
COMES NOW the plaintiff, Oriental Bank, represented by its undersigned attorneys and, most respectfully, STATES, ALLEGES AND PETITIONS:
I.

Parties

Oriental Bank, (hereinafter “Oriental”), is a banking institution duly organized and existing under the
Laws of the Commonwealth of Puerto Rico. Their
physical and postal address is Oriental Bank, #254
Muñoz Rivera Avenue, corner of Carlos Chardón, San
Juan, Puerto Rico 00918; PO Box 364745, San Juan,
Puerto Rico 00936-4745.
2. On April 30, 2010, the Office of the Commissioner of Financial Institutions of Puerto Rico issued
an order for Eurobank to cease operations and appointed
the Federal Deposit Insurance Corporation as trustee
for Eurobank’s assets. On that same date, April 30,
2010, Oriental acquired and became the holder in good
faith of the loans that are the subject matter of this
dispute and therefore, it is the creditor that is currently
assigned all of Eurobank’s rights under the loans
granted to the Defendants and holders of the mortgage
promissory notes and other securities described in this
Complaint and whose foreclosure is being requested.
3. The codefendant, MULTI-VENTAS Y SERVICIOS, INC., is a corporation duly organized and
existing under the laws of the Commonwealth of
Puerto Rico, whose physical address is Road #1, Km.
26.9, Río Cañas, Caguas, Puerto Rico 00726 and whose
postal address is PO Box 6012, Caguas, Puerto Rico
00726. It is the debtor in the loan identified with
number 2064011568 and the guarantor for the loans

App.133a
identified with numbers 2064012720, 4201805 and
364000538.
4. The codefendant, MULTI-VENTAS Y SERVICIOS P.R., INC., is a corporation duly organized and
existing under the laws of the Commonwealth of Puerto
Rico, whose physical address is Road #1, Km. 26.9, Río
Cañas, Caguas, Puerto Rico 00726 and whose postal
address is PO Box 6012, Caguas, Puerto Rico 00726;
PO Box 6018, Caguas, Puerto Rico 00726. It is the
debtor in the loan identified with number 364000538
and the guarantor for the loans identified with numbers
2064011568, 2064012720 and 4201805.
5. The codefendant, MULTI-BATTERIES &
FORKLIFTS, CORP., is a corporation duly organized
and existing under the laws of the Commonwealth of
Puerto Rico, whose physical address is Borinken
Avenue, Villa Blanca Industrial Park, Caguas, Puerto
Rico 00726 and whose postal address is PO Box 6012,
Caguas, Puerto Rico 00726; PO Box 360827, San Juan,
Puerto Rico 00936-0827. It is the debtor in the loans
identified with numbers 2064012720 and 4201805, as
well as the guarantor for the loan identified with
number 364000538.
6. The codefendant, AWESOME, INC., is a corporation duly organized and existing under the laws
of the Commonwealth of Puerto Rico, whose physical
address is in Villa Blanca Industrial Park, Caguas,
Puerto Rico 00726 and whose postal address is PO Box
6012, Caguas, Puerto Rico 00726. It is the guarantor
for the loans identified with numbers 2064012720,
4201805, 2064011568 and 364000538.
7. The codefendants, PEDRO RIVERA CONCEPCIÓN, his wife MARÍA MERCEDES FELICIANO

App.134a
CARABALLO and the Marital Community Partnership
constituted by both, are of legal age, married to each
other and residents of Caguas, Puerto Rico. They are
the guarantors of the loans that are the subject matter
of this dispute, identified by Oriental with numbers
206411568, 2064012720, 4201805 and 364000538. Their
last known physical address is in Urb. Quintas de San
Luis, C-1 Monet Street, Caguas, Puerto Rico 00725
and their postal address is PO Box 6012, Caguas, Puerto
Rico 00726-6012.
II.

Material Facts
Credit Facilities A and B:
Loans number 2064012720 and 4201805

8. Oriental is the legal holder in good faith of the
mortgage promissory notes that guarantee the payment
of the debt being claimed in this action.
9. On June 7, 2007, Multi-Batteries & Forklifts,
Corp., through its President, the codefendant, Pedro
Rivera Concepción, granted a Loan Agreement before
the failed Eurobank whereby the latter granted them
a revolving credit line (loan number 2064012720) for
the total sum of $1,500,000.00, accruing interest at
the Prime Rate (“Eurobank Prime Rate”) until its
payment in full. The Parties agreed that the revolving
credit line would expire on June 7, 2008. A copy of the
Loan Agreement is included as EXHIBIT 1.
10. On that same date, June 7, 2007, as evidence
of the aforementioned credit facility, Multi-Batteries
& Forklifts, Corp. signed a Master Promissory Note
payable to Eurobank, or upon demand, for the principal sum of $1,500,000.00, before the notary public
Rafael M. Arrillaga Romany, affidavit number 3,100.

App.135a
A copy of the Master Promissory Note is included as
EXHIBIT 2.
11. To guarantee the payment of the aforementioned credit facility, on June 7, 2007, Multi-Batteries
& Forklifts, Corp. signed a Lien and Secured Interest
Agreement. Under said contract, Multi-Batteries &
Forklifts, Corp. pledges, yields, assigns and transfers
to Oriental, as a secured creditor, a continuous lien
and secured interest over any right, title and interest
that said codefendant party may have over the following
properties (a copy of the Lien and Secured Interest
Agreement is included as EXHIBIT 3):
a.

All current or future accounts of any kind
and nature, where the debtor is the creditor;

b.

The entire inventory kept by the debtor for
sale;

c.

All financial Papers;

d.

All Contracts, including, but not limited to,
any Sale Agreement, and a) all debtor rights
regarding monies owed and payable to the
debtor, and b) all debtor rights to receive
insurance compensation, related indemnifications, compensations or guaranties and damage claims by the debtor and any other right
that the debtor may have including to cancel
the same and in any other way to exercise all
related actions;

e.

All Title Certificates;

f.

All Intangible Assets;

g.

All Instruments;

App.136a
h.

All books, documents, ledgers, records and
other documents related to the collateral and
the equipment containing said books, documents, ledgers, records and other documents;

i.

All deposit or investment accounts kept with
the bank, including, but not limited to, the
operations and collateral accounts; and

j.

The proceeds of all of the above, including,
but not limited to, any proceeds from the
insurance policies related to the collateral.

12. Likewise, as a guarantee for payment in full
of all current and future obligations of Multi-Batteries
& Forklifts, Corp., on June 7, 2007, the codefendants,
Multi-Ventas y Servicios, Inc., Multi-Ventas y Servicios
P.R., Inc., Pedro Rivera Concepción and María M.
Feliciano Caraballo granted Unlimited and Continuous
Guaranty Agreements that guaranteed payment in full
of all current and future Multi-Batteries & Forklifts,
Corp. debts. A copy of said Unlimited and Continuous
Guaranty Agreements is included as EXHIBITS 4, 5
and 6, respectively.
13. Thus, on June 23, 2009, Multi-Batteries &
Forklifts, Corp. and the failed Eurobank granted a
First Amendment to the Loan Agreement, which
extended the termination date for the revolving credit
line to August 30, 2010. A copy of the First Amendment to the Loan Agreement is included as EXHIBIT
7, and a copy of the “Allonge,” as EXHIBIT 8.
14. On October 28, 2011, Multi-Batteries & Forklifts, Corp. and Oriental granted a Second Amendment
to the Loan Agreement. Through the aforementioned
amendment, the defendant acknowledged that it owed
Oriental, as of that date and for the revolving credit

App.137a
line, the sum of $980,911.40. Likewise, the Parties
agreed to convert the balance owed of $980,911.40 into
a term loan, which was identified with number 4201805.
In addition, the signed amendment reduced the limit of
the revolving credit line to the sum of $500,000.00
(loan number 2064012720). A copy of the Second
Amendment is included as EXHIBIT 9.
15. With regard to the term loan for the sum of
$980,911.40, identified with number 4201805, MultiBatteries & Forklifts, Corp. undertook to make thirty
(30) consecutive monthly payments of $14,565.98 each,
and a final payment on May 31, 2014 for the amount
of $669,504.13 plus the interest owed to date. Likewise,
the Parties agreed that said loan would accrue interest
at a rate of six point five percent (6.5%). A copy of the
Term Promissory Note is included as EXHIBIT 10.
16. Also, with regard to the revolving credit line
(loan number 2064012720), the Parties agreed that
the date of termination would be on October 28, 2012
and that it would accrue interest at the Prime Rate
plus a two percent (2%) margin until its payment in
full. A copy of the Revolving Promissory Note is included
as EXHIBIT 11.
17. To secure payment of the aforementioned
credit facilities, on October 28, 2011, the codefendants,
Multi-Ventas y Servicios, Inc. and Awesome, Inc.,
signed a Property Lien and Pledge Agreement (Mortgage Promissory Notes). Under said contract, the
mortgage promissory notes and the mortgages described
below are granted in guarantee [a copy of the Property
Lien and Pledge Agreement (Mortgage Promissory
Notes) is included as EXHIBIT 12]:

App.138a
a.

Mortgage promissory note for the sum of
$432,000.00 payable to Eurobank, or upon
demand, with interest at the Prime Rate and
payable upon presentation. Secured with mortgage deed number 55, granted on February
17, 2004, before the notary public Nelson
William González Rosario. The mortgaged
property is the following:
“URBAN: Lot located in the Northern
Section of the Santurce Ward of this city,
San Juan, Puerto Rico, with a surface
area of 440.00 square meters. Bounded on
the NORTH, for 21.00 meters, by Borinquen Avenue; on the SOUTH, for 20.94
meters, by the property owned by Lorenzo Pimentel Sánchez and Monserrate
Torres; on the EAST, for 22.47 meters,
by the Bartolomé Las Casas Street; on
the WEST, for 19.53 meters, by lands
that belong to the Nin-Martínez Estate.
It contains a 2-story house and has an
annex on the West side that faces Borinquen Avenue.
Property number 8,120, is registered on
Folio 146 of Book 1,114 of North
Santurce, San Juan Property Registry,
First Section.
A copy of the mortgage promissory note
is included as EXHIBIT 13; a copy of
mortgage deed number 55 is included as
EXHIBIT 14; and the sworn title search
for property number 8,120 is included as
EXHIBIT 15.

App.139a
b.

Mortgage promissory note for the sum of
$900,000.00, payable to Banco Popular de
Puerto Rico and endorsed in favor of Eurobank,
or upon demand, with yearly interest equal
to the variable prime rate and payable upon
presentation. Secured with mortgage deed
number 95, granted on September 28, 1992,
before the notary public Luis E. López Correa.
The expiration of the mortgage promissory
note and of the mortgage was extended as
established in deed number 243 granted on
December 20, 2005 before the notary public
Nelson William González Rosario. The mortgaged property is the following:
“RURAL: Plot of land located in the
Bairoa Ward in the Caguas Norte
Industrial Urbanization of the municipality of Caguas, Puerto Rico, identified
as plot #15. Bounded on the NORTH, by
Bairoa Avenue; on the SOUTH, by
Segura Avenue; on the EAST, by Plot
#10 of the same Industrial Urbanization;
on the WEST, by Plot #16 of the same
Industrial Avenue. It has a surface area
of 9,041.79 square meters, equivalent to
2.3005 cuerdas.
Property number 50,228, is registered
on Folio 260 of Book 1,430 of Caguas,
Caguas Property Registry, First Section.
A copy of the mortgage promissory note
is included as EXHIBIT 16; a copy of
mortgage deed number 95 is included as
EXHIBIT 17; and the sworn title search

App.140a
for property number 50,228 is included
as EXHIBIT 18.
c.

Mortgage promissory note for the sum of
$700,000.00, payable to Banco Popular de
Puerto Rico and endorsed in favor of Eurobank,
or upon demand, with yearly interest equal
to half a percentage point under the variable
prime rate and payable upon presentation.
Secured with mortgage deed number 81,
granted on December 6, 2000, before the
notary public Tomás Correa Acevedo. The
expiration of the mortgage promissory note
and of the mortgage was extended as established in deed number 243 granted on
December 20, 2005 before the notary public
Nelson William González Rosario. The mortgaged property is property number 50,228, as
described in Section number 17(c) of this
Complaint. A copy of the mortgage promissory
note is included as EXHIBIT 19; and a copy
of mortgage deed number 81 is included as
EXHIBIT 20.

d.

Mortgage promissory note for the sum of
$2,443,000.00, payable to Eurobank, or upon
demand, with yearly interest at 12.00% and
payable upon presentation. Secured with
mortgage deed number 246, granted on
December 20, 2005, before the notary public
Nelson William González Rosario. The mortgaged property is property number 50,228,
as described in Section number 17(c) of this
Complaint. A copy of the mortgage promissory
note is included as EXHIBIT 21; and a copy of

App.141a
mortgage deed number 246 is included as
EXHIBIT 22.
e.

Mortgage promissory note for the sum of
$157,000.00, payable to Eurobank, or upon
demand, with yearly interest at 15.00% and
payable upon presentation. Secured with
mortgage deed number 30, granted on June
22, 2009, before the notary public Rafael M.
Arrillaga Romany. The mortgaged property
is property number 50,228, as described in
Section number 17(c) of this Complaint. A copy
of the mortgage promissory note is included
as EXHIBIT 23; and a copy of mortgage deed
number 30 is included as EXHIBIT 24.

f.

Mortgage promissory note for the sum of
$180,000.00, payable to the Bearer, with
yearly interest at 11.5% and payable upon
presentation. Secured with mortgage deed
number 285, granted on August 27, 1990,
before the notary public Moisés Gómez Rjos.
The expiration of the mortgage promissory
note and of the mortgage was extended as
established in deed number 33 granted on
June 22, 2009 before the notary public
Rafael M. Arrillaga Romany. The mortgaged
property is the following:
“RURAL: Plot of land located in the Río
Cañas Ward of the municipality of
Caguas, Puerto Rico, with a surface area
of 5,864.461 square meters. Bounded on
the NORTH, for a distance of 83.89
meters by State Road #1; on the SOUTH,
for a distance of 70.43 meters by lands
owned by Mrs. Antonia Avilés; on the

App.142a
EAST, for a distance of 54.57 meters by
the “Quebrada Arenas” road; and on the
WEST, for a distance of 99.35 meters, by
lands owned by Mr. Antonio Torrecillas
Ruiz and Rafael Torrecillas for a
distance of 26.00 meters.
Property number 28,525, is registered on
Folio 20 of Book 856 of Caguas, Caguas
Property Registry, First Section.
A copy of the mortgage promissory note
is included as EXHIBIT 25; a copy of
mortgage deed number 285 is included
as EXHIBIT 26; and the sworn title
search for property number 28,525 is
included as EXHIBIT 27.
g.

Mortgage promissory note for the sum of
$720,000.00, payable to Eurobank and Trust
Company, or upon demand, with yearly
interest at 12% and payable upon presentation. Secured with mortgage deed number
107, granted on July 29, 1992, before the
notary public Nelson William González
Rosario. The expiration of the mortgage promissory note and of the mortgage was extended
as established in deed number 33. The mortgaged property is property number 28,525,
as described in Section number 17(f) of this
Complaint. A copy of the mortgage promissory
note is included as EXHIBIT 28; and a copy
of mortgage deed number 107 is included as
EXHIBIT 29.

h.

Mortgage promissory note for the sum of
$300,000.00, payable to Eurobank, or upon

App.143a
demand, with yearly interest at 12% and
payable upon presentation. Secured with mortgage deed number 75, granted on June 26,
1993, before the notary public Nelson William
González Rosario. The expiration of the
mortgage promissory note and of the mortgage
was extended as recorded in deed number 33.
The mortgaged property is property number
28,525, as described in Section number 17(f)
of this Complaint. A copy of the mortgage
promissory note is included as EXHIBIT 30;
and a copy of mortgage deed number 75 is
included as EXHIBIT 31.
i.

Mortgage promissory note for the sum of
$300,000.00, payable to Eurobank, or upon
demand, with yearly interest at 12% and payable upon presentation. Secured with mortgage deed number 57, granted on September 3,
1998, before the notary public Janice Marie
Bernal Maldonado. The mortgaged property
is property number 28,525, as described in
Section number 17(f) of this Complaint. A copy
of the mortgage promissory note is included
as EXHIBIT 32; and a copy of mortgage deed
number 57 is included as EXHIBIT 33.

j.

Mortgage promissory note for the sum of
$1,500,000.00, payable to Eurobank, or upon
demand, with yearly interest at 15.00% and
payable upon presentation. Secured with
mortgage deed number 27, granted on June
22, 2009, before the notary public Rafael M.
Arrillaga Romany. The mortgaged property
is property number 28,525, as described in
Section number 17(f) of this Complaint. A copy

App.144a
of the mortgage promissory note is included
as EXHIBIT 34; and a copy of mortgage deed
number 27 is included as EXHIBIT 35.
k.

Mortgage promissory note for the sum of
$800,000.00, payable to Eurobank, or upon
demand, with yearly interest equal to the
variable prime rate and payable upon presentation. Secured with mortgage deed number
267, granted on September 29, 2004, before
the notary public Nelson William González
Rosario. The mortgaged property is the
following:
“RURAL: PARCEL ‘C’: With a surface
area of 3,196.99 square meters, located
in the Jiménez Ward of the Municipality
of Río Grande, Puerto Rico, bounded, on
the North, by State Road #3, known as
the 65th of Infantry Avenue; on the
South, by land owned by Mrs. Amparo
Pérez, widow of Ayala; on the East, by
lands belonging to Mr. E. Rivera; and on
the West, also by lands owned by Mrs.
Amparo Pérez, widow of Ayala.
Property number 2,467, is registered on
Folio 114 of Book 51 of Río Grande,
Carolina Property Registry, Third Section.
A copy of the mortgage promissory note
is included as EXHIBIT 36; a copy of
mortgage deed number 267 is included
as EXHIBIT 37; and the sworn title
search for property number 2,467 is
included as EXHIBIT 38.

App.145a
l.

Mortgage promissory note for the sum of
$100,000.00, payable to Eurobank, or upon
demand, with yearly interest at 15.00% and
payable upon presentation. Secured with mortgage deed number 32,1 granted on June 22,
2009, before the notary public Nelson Rafael
M. Arrillaga Romany. The mortgaged property is property number 2,467, as described
in Section number 17(k) of this Complaint. A
copy of the mortgage promissory note is
included as EXHIBIT 39; and a copy of mortgage deed number 32 is included as EXHIBIT
40.

m. Mortgage promissory note for the sum of
$1,200,000.00, payable to Eurobank, or upon
demand, with yearly interest equal to the
variable prime rate and payable upon presentation. Secured with mortgage deed number
446, granted on November 21, 2002, before
the notary public Nelson William González
Rosario. The mortgaged property is the following:
“URBAN: Plot of land identified as Parcel
A-2, located in the Caguas Norte Industrial Urbanization, in Caguas, Puerto
Rico, with a surface area of 5,256.6362
square meters, equal to 1.3374 cuerdas.
Bounded on the NORTH, for a distance
1 Although the mortgage deed is identified with number twenty
six (26), the same was corrected through deed number thirty
three (33) whose sole purpose is to clarify that the correct number
that should identify the aforementioned deed is thirty two (32),
instead of twenty six (26).

App.146a
of 60.3577 meters by Parcel A-1; on the
SOUTH, on a curved line for a distance of
2.7518 meters and in several alignments
with a total distance of 59.1262 meters
by A Street of the Industrial Urbanization; on the EAST, in two alignments
with a total distance of 85.419 meters by
Lot #15 of the same Industrial Urbanization; and on the WEST, on a curved
line measuring 2.7518 meters and for
a distance of 82.2306 meters by B
Street of the Industrial Urbanization. It
contains a building.
Property number 47,657, is registered
on Folio 162 of Book 1,342 of Caguas,
Caguas Property Registry, First Section.
A copy of the mortgage promissory note
is included as EXHIBIT 41; a copy of
mortgage deed number 446 is included
as EXHIBIT 42; and the sworn title
search for property number 47,657 is
included as EXHIBIT 43.
n.

Mortgage promissory note for the sum of
$1,020,000.00, payable to Eurobank, or upon
demand, with yearly interest at 15.00% and
payable upon presentation. Secured with
mortgage deed number 29, granted on June
22, 2009, before the notary public Rafael M.
Arrillaga Romany. The mortgaged property
is property number 47,657, as described in
Section number 17(m) of this Complaint. A
copy of the mortgage promissory note is

App.147a
included as EXHIBIT 44; and a copy of mortgage deed number 29 is included as EXHIBIT
45.
o.

Mortgage promissory note for the sum of
$600,000.00, payable to Eurobank, or upon
demand, with yearly interest equal to the variable prime rate and payable upon presentation.
Secured with mortgage deed number 302,
granted on October 4, 2001, before the notary
public Nelson William González Rosario.
The mortgaged property is the following:
“URBAN: Plot of land identified as Parcel
A-1, located in the Caguas Norte
Industrial Urbanization, in Caguas,
Puerto Rico, with a surface area of
4,000.00 square meters, equal to 1.0177
cuerdas. Bounded on the NORTH, in a
curved line at a distance of 2.8389 meters
and for a distance of 54.31 meters, by
the Jardines de Bairoa Avenue; on the
SOUTH, for a distance of 60.3577
meters, by the remnant of the plot from
which this property is segregated and
identified in the plat map as a Parcel A2, owned by Top Kids; on the EAST, in
several alignments for a total distance
of 66.2594 meters by Lot #15 of the
same Industrial Urbanization; and on
the WEST, for a distance of 2.8389
meters and in several alignments, for a
distance of 65.5144 meters, by B Street
of the said Industrial Park.

App.148a
Property number 54,178, is registered
on Folio 30 of Book 1,629 of Caguas,
Caguas Property Registry, First Section.
A copy of the mortgage promissory note
is included as EXHIBIT 46; a copy of
mortgage deed number 302 is included
as EXHIBIT 47; and the sworn title
search for property number 54,178 is
included as EXHIBIT 48.
p.

Mortgage promissory note for the sum of
$680,000.00, payable to Eurobank, or upon
demand, with yearly interest at 12% and
payable upon presentation. Secured with mortgage deed number 244, granted on December
20, 2005, before the notary public Nelson
William González Rosario. The mortgaged
property is property number 54,178, as
described in Section number 17(o) of this
Complaint. A copy of the mortgage promissory
note is included as EXHIBIT 49; and a copy
of mortgage deed number 244 is included as
EXHIBIT 50.

q.

Mortgage promissory note for the sum of
$550,000.00, payable to Eurobank, or upon
demand, with yearly interest at 15.00% and
payable upon presentation. Secured with
mortgage deed number 28, granted on June
22, 2009, before the notary public Rafael M.
Arrillaga Romany. The mortgaged property
is the following:
“RURAL: Plot of land located in the Río
Cañas Ward of the municipality of
Caguas, Puerto Rico, with a surface area

App.149a
of 1,561.365 square meters; bounded on
the NORTH, for 69.62 meters by the
main property from which it was segregated, owned by Antoni Torrecillas Ruiz;
on the SOUTH, in 2 alignments, one of
43.70 meters, and the other of 27.34
meters, by lands owned by Catalino
Burgos; on the EAST, for 20.00 meters
by the Road that leads to Río Cañas
Ward; and on the WEST, for 27.28 meters
by lands owned by Mr. E.M. Bond. It
contains a house.
Property number 10,008, is registered
on Folio 59 of Book 376 of Caguas,
Caguas Property Registry, First Section.
A copy of the mortgage promissory note
is included as EXHIBIT 51; a copy of
mortgage deed number 28 is included as
EXHIBIT 52; and the sworn title search
for property number 10,008 is included
as EXHIBIT 53.
r.

Mortgage promissory note for the sum of
$280,000.00, payable to Banco Financiero de
Puerto Rico, or upon demand, with yearly
interest at 12% and payable upon presentation. Secured with mortgage deed number 4,
granted on March 5, 1999, before the notary
public Pedro E. Ortiz Álvarez. The mortgaged
properties are the following:
PROPERTY NUMBER 28,522: Secures
$140,000.00:
“RURAL: Plot of land based in the Río
Cañas Ward of the municipality of

App.150a
Caguas, Puerto Rico, with a surface area
of 1,527.506 square meters, bounded on
the NORTH and EAST, for 60.00 meters
and 25.00 meters, respectively, by the
main property from which it was
segregated owned by Antonio Torrecillas
Ruiz; on the SOUTH, for 59.49 meters by
Plot ‘A’ of the same property; and on the
WEST, for 26.00 meters by the former
State Road #1 from Río Piedras to
Caguas.
Property number 28,522, is registered
on Folio 5 of Book 856 of Caguas, Caguas
Property Registry, First Section.
PROPERTY NUMBER 30,533: Covers
$140,000.00:
“RURAL: Plot of land located in the Río
Cañas Ward of the municipality of
Caguas, Puerto Rico, with a surface area
of 1,554.855 square meters, bounded on
the NORTH, for 59.49 meters by Plot ‘B’
of the main property; on the SOUTH, for
58.00 meters by lands owned by Mr.
E.M. Bond; on the EAST, for 26.00 meters
by the main property from which it was
segregated, owned by Antonio Torrecillas
Ruiz, today by José Rodríguez Collazo;
and on the WEST, for 27.00 meters by
Road #1 from Río Piedras to Caguas. It
contains a house.
Property number 30,533, is registered on
Folio 60 of Book 907 of Caguas, Caguas
Property Registry, First Section.

App.151a
The aforementioned properties were
consolidated and the description of the
property is as follows:
“RURAL: Plot of land located in the Río
Cañas Ward of the municipality of
Caguas, Puerto Rico, with a surface area
of 3,082.631 square meters, bounded on
the NORTH, for 59.49 meters by Plot ‘B’
of the main property and for 2.00 meters
by the main property from which it was
segregated; on the EAST, for 51.00
meters by the main property from which
it was segregated; on the SOUTH, for
59.49 meters; and on the WEST, for
52.00 meters by Road #1 from Río Piedras
to Caguas.
A copy of the mortgage promissory note
is included as EXHIBIT 54; a copy of
mortgage deed number 4 is included as
EXHIBIT 55; and the sworn title searches
for properties number 28,522 and 30,533
are included as EXHIBIT 56.
s.

Mortgage promissory note for the sum of
$920,000.00, payable to Eurobank, or upon
demand, with yearly interest at 15% and payable upon presentation. Secured with mortgage deed number 31, granted on June 22,
2009, before the notary public Rafael M.
Arrillaga Romany. The mortgaged properties
are properties number 28,522 and 30,533, as
described in Section number 17(r) of this
Complaint, each of them covering the sum of
$460,000.00. A copy of the mortgage promissory note is included as EXHIBIT 57; and

App.152a
a copy of mortgage deed number 31 is included
as EXHIBIT 58.
18. In addition, to guarantee payment in full of
all current and future Multi-Batteries & Forklifts, Corp.
obligations, on October 28, 2011, the codefendants,
Multi-Ventas y Servicios, Inc., Multi-Ventas y Servicios
P.R., Inc., Pedro Rivera Concepción and María M.
Feliciano Caraballo granted Unlimited and Continuous
Guaranty Agreements that guaranteed payment in
full of all current and future Multi-Batteries &
Forklifts, Corp. debts. A copy of the Unlimited and
Continuous Guaranty Agreements is included as
EXHIBITS 59, 60 and 61, respectively.
19. Also, to guarantee payment of the aforementioned credit facilities, Multi-Batteries & Forklifts,
Corp. signed a Property Lien Agreement on October
28, 2011. Under said contract, Multi-Batteries & Forklifts, Corp. established a preferential lien, payable to
Oriental, on all Multi-Batteries & Forklifts, Corp. assets,
as well as on all Multi-Batteries & Forklifts, Corp
rights, titles and interest on the following assets (a
copy of the Property Lien Agreement is included as
EXHIBIT 62):
a.

All Multi-Batteries & Forklifts, Corp. Receivable Accounts and any kind of profit, proceed, product and benefit of the same;

b.

The entire inventory of Multi-Batteries &
Forklifts, Corp.;

c.

Any equipment and machinery of MultiBatteries & Forklifts, Corp.;

d.

Any right, claim and benefit that MultiBatteries & Forklifts, Corp. may have against

App.153a
any person arising from or related to the
aforementioned assets; and
e.

Any benefit, proceeds, income or products of
the aforementioned assets.

20. In this state of affairs, on September 13,
2013, Multi-Batteries & Forklifts, Corp. and Oriental
granted a Third Amendment to the Loan Agreement,
which extended the termination date for the revolving
credit line (credit facility number 2064012720) to September 13, 2014. A copy of the Third Amendment to
the Loan Agreement is included as EXHIBIT 63, and
a copy of the “Allonge,” as EXHIBIT 64.
21. On that same date, September 13, 2013, Awesome, Inc. granted an Unlimited Guarantee Agreement
that guaranteed payment in full of all current and
future Multi-Batteries & Forklifts, Corp. debts. A copy
of the Unlimited Guarantee Agreement is included as
EXHIBIT 65.
22. The Defendant failed to fulfill their obligations regarding the credit facilities identified with
numbers 2064012720 and 4201805, when they stopped
paying the amounts owed as agreed, wherefore Oriental
declared that the entire debt was due and payable. As
of June 5, 2015, the principal debt regarding credit facility number 2064012720 (revolving credit line) amounted
to the sum of $507,254.17, of which $500,000.00
corresponds to the balance owed for the principal,
$7,000.00 corresponds to the accrued interest which
shall continue to accumulate until the debt is paid in
full, and $254.17 corresponds to other items owed, plus
expenses, costs and fees, plus any other disbursement
incurred by the plaintiff for other advances during the

App.154a
proceedings of this case. A Sworn Statement is included
as EXHIBIT 66.
23. Regarding loan number 4201805 (term loan),
the debt amounted to the sum of $583,505.65, of which
$572,030.57 corresponds to the principal owed,
$10,018.48 corresponds to the accrued interest which
shall continue to accumulate until the debt is paid,
and $1,456.60 corresponds other items owed, plus
expenses, costs and fees, plus any other disbursements
incurred by the plaintiff for other advances during the
proceedings of this case. A Sworn Statement is included
as EXHIBIT 66.
24. In strict compliance with the provisions of
the Mortgage Law of 1979, Articles 179 and 221 (30
L.P.R.A., 2575-2721), the parties agreed that the properties that guarantee the promissory notes described
above are valued at $432,000.00 for property number
8,120, $900,000.00 for property number 50,228,
$180,000.00 for property number 28,525, $800,000.00
for property number 2,467, $1,200,000.00 for property
number 47,657, $600,000.00 for property number
54,178, $550,000.00 for property number 10,008,
$140,000.00 for property number 28,522 and
$140,000.00 for property number 30,533. These values
shall serve as the minimum bid for the first auction of
the mortgages whose foreclosure is requested.
25. Multi-Batteries & Forklifts, Corp., MultiVentas y Servicios, Inc., Multi-Ventas y Servicios P.R.,
Inc., Awesome, Inc., Pedro Rivera Concepción and María
M. Feliciano Caraballo are jointly liable to Oriental
for the aforementioned sums, where payment of the
same has been requested, unsuccessfully, in spite of
collection efforts by Oriental through letters and

App.155a
phone calls. A copy of the collection letter is included
as EXHIBIT 67.
26. The obligation arising from the aforementioned promissory notes is due, liquid and legally
enforceable, in addition to being secured by the voluntary mortgages described above.
Credit Facility C:
Loan number 2064011568
27. Oriental is the legal holder in good faith of
the mortgage promissory notes that guarantee the
payment of the debt being claimed in this action.
28. On December 20, 2005, Multi-Ventas y Servicios, Inc., acting as the debtor, and Awesome, Inc.,
Multi-Ventas y Servicios P.R., Inc., Pedro Rivera
Concepción and María Mercedes Feliciano Caraballo,
acting as the joint guarantors, granted a Loan Agreement before the failed Eurobank whereby the latter
granted them a loan for the principal sum of
$7,000,000.00, accruing yearly interest at a fixed rate
of six and one-half percent (6.50%). Under the terms
of the aforementioned Loan Agreement, the defendants undertook to make one hundred nineteen (119)
consecutive monthly payments for the sum of $47,264.50
each, and a final payment on December 20, 2016 for
the outstanding balance of the principal (“Balloon
Payment”) of $5,443,556.11, plus any other sum owed
as of that date. A copy of the Loan Agreement is
included as EXHIBIT 68.
29. On that same date, December 20, 2005, in
evidence of the above-described loan, Multi-Ventas y
Servicios, Inc., through its President, the codefendant
Pedro Rivera Concepción, signed a Promissory Note

App.156a
payable to Eurobank, or on demand, for the principal
sum of $7,000,000.00, before the notary public Nelson
W. González Rosario, Affidavit number 22,841. A copy
of the mortgage promissory note is included as EXHIBIT
69.
30. To secure payment of the loan, on December
20, 2005 the codefendants Multi-Ventas y Servicios,
Inc. and Awesome, Inc. signed a Lien Agreement and
Pledge of Mortgage Promissory Note Agreement. Under
said agreement, the mortgage promissory notes and
mortgages described in paragraphs number 17(a),
17(b), 17(c), 17(d), 17(g), 17(h), 17(i), 17(k), 17(m),
17(o), 17(p) and 17(r) of this Complaint were granted
as securities. A copy of the Lien Agreement and Pledge
of Mortgage Promissory Note Contract is included as
EXHIBIT 70.
31. Likewise, to guarantee payment in full of all
current and future Multi-Ventas y Servicios, Inc. obligations, on December 20, 2005, the codefendants, MultiVentas y Servicios P.R., Inc., Awesome, Inc., Pedro
Rivera Concepción and María M. Feliciano Caraballo
granted Unlimited and Continuous Guaranty Agreements that guaranteed payment in full of all MultiVentas y Servicios, Inc. debts.
32. The Loan Agreement that was signed by the
Parties on December 20, 2005 provides that a breach
of said contract shall occur when “[ . . . ] the debtor
fails to meet the payment of the principal, interest or
charges under the Promissory Note(s), or the payment
of any other sum owed to the Bank under this Contract or under any other Loan Document, on the date
when such payment is due [.]” Likewise, the aforementioned agreement stipulates that in the event of
noncompliance with the provisions of the same “[ . . . ]

App.157a
the Bank’s obligations under this Contract shall automatically terminate and the sums for the principal,
interest and charges accumulated under the Promissory
Note and all other obligations of the debtor under this
Agreement and other Loan Documents shall automatically become immediately liquid and enforceable.”
33. Faced with the defendant’s noncompliance
with their obligations regarding loans number
2064012720 and 4201805, Oriental declared that the
entire debt regarding loan number 2064011568 was
due, as expressly provided in the Loan Agreement.
34. As of July 14, 2015, the debt regarding loan
number 2064011568 amounted to the sum of
$5,681,215.94, of which $5,627,037.07 corresponds to
principal owed, $54,815.64 corresponds to accrued
interest, which shall continue to accumulate until the
debt is paid in full, $2,363.23 to other items owed, plus
costs, expenses and attorneys’ fees, plus any other
disbursements incurred by the plaintiff for other
advances during the proceedings of this case. The
Sworn Statement is included as EXHIBIT 66.
35. Multi-Ventas y Servicios, Inc., Multi-Ventas y
Servicios P.R., Inc., Awesome, Inc., Pedro Rivera
Concepción and María Mercedes Feliciano Caraballo
are jointly liable to Oriental for the aforementioned
sum, where payment of the same has been requested,
unsuccessfully, in spite of collection efforts by Oriental
through letters and phone calls. A copy of the collection
letter is included as EXHIBIT 71.
36. The obligation arising from the aforementioned promissory note is due, is liquid and legally
enforceable.

App.158a
Credit Facility D:
Loan number 364000538
37. Oriental is the legal holder in good faith of
the mortgage promissory notes that guarantee the
payment of the debt being claimed in this action.
38. On June 22, 2009, Multi-Ventas y Servicios
P.R., Inc. granted a Loan Agreement before the failed
Eurobank whereby the latter awarded a loan for the
principal sum of $5,860,000.00, accruing interest at the
rate of six percent (6%)per annum. Under the terms of
the aforementioned Loan Agreement, Multi-Ventas y
Servicios P.R., Inc. undertook to make thirty-five (35)
consecutive monthly payments for the sum of
$35,133.63, and a final payment on June 22, 2012 for the
outstanding balance of the principal of $5,637,472.90,
plus the interest owed as of that date. A copy of the
Loan Agreement is included as EXHIBIT 72.
39. On that same date, June 22, 2009, to provide
evidence of the above-described loan, Multi-Ventas y
Servicios P.R., Inc., through its President, Pedro
Rivera Concepción, signed a Promissory Note payable
to Eurobank, or on demand, for the principal sum of
$5,860,000.00, before the notary public Rafael M.
Arrillaga Romany, Affidavit number 3,950. A copy of
the Promissory Note is included as EXHIBIT 73.
40. To secure payment of the loan, on June 22,
2009 the codefendants Multi-Ventas y Servicios, Inc.
and Awesome, Inc. signed a Lien Agreement and
Pledge of Mortgage Promissory Note Contract. Under
said contract, the mortgage promissory notes and the
mortgages described in paragraph number 17 of this
Complaint were granted as securities. A copy of the

App.159a
Lien Agreement and Pledge of Mortgage Promissory
Note Contract is included as EXHIBIT 74.
41. Likewise, on June 22, 2009, Multi-Ventas y
Servicios, Inc., Pedro Rivera Concepción and María
Mercedes Feliciano Caraballo granted extensive Unlimited and Continuous Guaranty Agreements that guaranteed payment in full of all current and future MultiVentas y Servicios P.R., Inc. debts. A copy of the
Unlimited and Continuous Guaranty Agreements are
included as EXHIBITS 75 and 76.
42. On September 13, 2013, Multi-Ventas y
Servicios P.R., Inc., acting as the debtor, and Awesome,
Inc., Multi-Ventas y Servicios, Inc., Multi-Batteries &
Forklifts, Corp., Pedro Rivera Concepción and María
Mercedes Feliciano Caraballo, acting as the joint
guarantors, granted a Loan Agreement before Oriental
Bank whereby the latter granted them a loan for the
principal sum of $5,546,014.51, accruing interest at a
rate of six percent (6%) per annum. The purpose of
this loan was to refinance the loan described in paragraph 37 of this Complaint. Under the terms of the
aforementioned Loan Agreement, the defendants undertook to make fifty nine (59) consecutive monthly payments for the sum of $39,733.37 each, and a final
payment on September 13, 2018 for the outstanding
balance of the principal of $4,724,654.15, plus the
interest owed as of that date. A copy of the Loan
Agreement is included as EXHIBIT 77.
43. On that same date, September 13, 2013, in
evidence of the loan described above, Multi-Ventas y
Servicios P.R., Inc., through its President, Pedro Rivera
Concepción, signed a Promissory Note payable to
Eurobank, or on demand, for the principal sum of
$5,546,014.51, before the notary public Tatiana Román

App.160a
Orozco, Affidavit number 885. A copy of the Promissory
Note is included as EXHIBIT 78.
44. To secure the loan described above, the codefendants Multi-Ventas y Servicios, Inc. and Awesome,
Inc. signed a First Amendment to the Property Lien
and Pledge Agreement on September 13, 2013. Through
said agreement, the aforementioned codefendants
amended the Property Lien and Pledge Agreement
(Mortgage Promissory Notes) granted on October 27,
2011. The sole purpose of the granted amendment was
to extend the mortgage guarantees established in the
Property Lien and Pledge Agreement of October 27,
2011 for Multi-Ventas y Servicios P.R., Inc. obligations under the loan described in paragraph 41 of this
Complaint. A copy of the First Amendment for the
Property Lien and Pledge Agreement is included as
EXHIBIT 79.
45. In addition, the codefendant, Multi-Ventas y
Servicios P.R., Inc. granted a Property Lien Agreement
on September 13, 2013. Under said agreement, MultiVentas y Servicios P.R., Inc. established a preferential
lien payable to Oriental on all Multi-Ventas P.R., Inc.
assets and over all Multi-Ventas y Servicios P.R., Inc.
rights, titles and interest on the following assets (a
copy of the Property Lien Agreement is included as
EXHIBIT 80):
a.

All Multi-Ventas y Servicios P.R., Inc., receivable accounts and any kind of profit, proceeds,
products and benefit of the same;

b.

The entire inventory of Multi-Ventas y Servicios P.R., Inc.;

c.

Any equipment and machinery of Multi-Ventas
y Servicios P.R., Inc.;

App.161a
d.

Any right, claim and benefit that Multi-Ventas
and Services P.R., Inc. may have against any
person arising from or related to the aforementioned assets; and

e.

Any benefit, proceeds, income or products of
the aforementioned assets.

46. Likewise, to guarantee payment in full of all
current and future Multi-Ventas y Servicios P.R., Inc.
obligations, on September 13, 2013, the codefendants,
Multi-Ventas y Servicios, Inc., Awesome, Inc., MultiBatteries & Forklifts, Corp., Pedro Rivera Concepción
and María M. Feliciano Caraballo granted Unlimited
Guaranty Agreements that guaranteed payment in
full of all current and future Multi-Ventas y Servicios
P.R., Inc. debts. A copy of the Unlimited Guaranty
Agreements is included as EXHIBIT 81.
47. Article VII of the Loan Agreement signed by
the parties on September 13, 2013 provides that
Oriental “[ . . . ] may, at their discretion, accelerate its
expiration and claim the immediate payment of all
sums owed under this Agreement or other Loan Documents and/or refuse to make additional advances
under this Agreement or other Loan Documents, if
any of the following defaults should occur [ . . . ]:
(a) That the debtor or any of the Guarantors fails
to comply with any other obligation assumed
under this Agreement or under the terms of
the other Loan Documents or regarding any
other debt that the Debtor or any of the
Guarantors has with the Bank [.]”
48. Faced with the defendant’s noncompliance
with their obligations regarding loans number
2064012720 and 4201805, Oriental declared that the

App.162a
entire debt regarding loan number 364000538 was
due, as expressly provided in the Loan Agreement.
49. As of July 14, 2015, the debt regarding loan
number 364000538 amounted to the sum of
$5,353,532.01, of which $5,296,811.62 corresponds to
principal owed, $54,733.72 corresponds to accrued
interest, which shall continue to accumulate until the
debt is paid in full, $1,986.67 cover other items owed,
plus costs, expenses and attorneys’ fees, plus any
other disbursements incurred by the plaintiff for other
advances during the proceedings of this case. A Sworn
Statement is included as EXHIBIT 66.
50. Multi-Ventas y Servicios P.R., Inc., MultiVentas y Servicios, Inc., Awesome, Inc., Multi-Batteries
& Forklifts, Corp., Pedro Rivera Concepción and
María Mercedes Feliciano Caraballo are jointly liable
to Oriental for the aforementioned sum, where payment
of the same has been requested, unsuccessfully, in
spite of collection efforts by Oriental through letters and
phone calls. A copy of the collection letter is included
as EXHIBIT 71.
51. The obligation arising from the aforementioned promissory note is due, is liquid and legally
enforceable.
WHEREFORE, this Honorable Court is most
respectfully petitioned to grant this Complaint and,
accordingly, issue a judgment ordering:
(A) That Multi-Ventas y Servicios P.R., Inc.,
Multi-Ventas y Servicios, Inc., Awesome, Inc.,
Multi-Batteries & Forklifts, Corp., Pedro
Rivera Concepción and Maria Mercedes Feliciano Caraballo pay Oriental the full amounts
owed and claimed in this Complaint.

App.163a
(B) To order, in case that payment is not made,
the Bailiff of this Court to sell the mortgaged
properties in public auction, and give material
possession to the buyer by evicting the
occupants within the term of twenty (20)
days from the date of sale in public auction.
(C) That should the proceeds be insufficient to
cover the total sum owed, the Court should
order a levy of execution in due course upon
any other property of the Defendants.
(D) Any other legal recourse that applies.
(E) That the Treasury Department and the Municipal Tax Collection Center disclose any tax
debt on the properties described herein.
(F) To order the Defendants to pay the sum for
attorneys’ fees and litigation expenses agreed
to by the parties.
(G) Order a levy of execution on all other assets
and rights offered and pledged in guarantee
of payment for the debt that is the subject
matter of this Complaint.

App.164a
RESPECTFULLY SUBMITTED.
In San Juan, Puerto Rico, on September 10, 2015.
DELGADO & FERNANDEZ, LLC
P O Box 11750
Fernández Juncos Station
San Juan, Puerto Rico 00910-1750
Tel. [787] 274-1414
Fax [787] 764-8241
/s/ Juan Manuel Cordero Morales
TSPR No. 15,820
jcordero@delgadofernandez.com
/s/ Pedro Hernández Freire
TSPR No. 19,347
phernandez@delgadofernandez.com

App.165a
====================================
CERTIFICATE OF TRANSLATOR
# JF-2020-001_APP H
I am a United States court-certified interpreter,
and I CERTIFY that the above is a faithful translation
of the Spanish source, which I have performed to the
best of my ability. It consists of one hundred six (106)
pages, including this certification sheet, and contains
no changes or erasures.
The content of this translation is a Counterclaim
[Re: Collection of Monies and Civil Procedure] in the
Commonwealth of Puerto Rico Civil Case No. ECD2015-1017; and accompanying documents.
In Cambridge, Massachusetts, on January 19, 2020.
/s/ Joaquín Font
Joaquín Font
Font Translations
Calle Calaf 400, Suite 268
San Juan, PR 00918
Toll-Free Tel. & Fax: 1-877-JOAQUIN (562-7846)
e-mail: fonttranslations@gmail.com

App.166a
ANSWER TO THE COMPLAINT AND
AMENDED COUNTERCLAIM
(ENTRY: AUGUST 10, 2017)
COMMONWEALTH OF PUERTO RICO
COURT OF FIRST INSTANCE
JUDICIAL CENTER OF CAGUAS
SUPERIOR COURT
________________________
ORIENTAL BANK,

Plaintiff/
Counterclaim Defendant,
v.
MULTI-VENTAS Y SERVICIOS, INC.;
MULTI-VENTAS Y SERVICIOS P.R., INC.;
MULTI-BATTERIES & FORKLIFTS, CORP.;
AWESOME, INC.; PEDRO RIVERA CONCEPCIÓN;
MARÍA MERCEDES FELICIANO CARABALLO;
AND THE CONJUGAL PARTNERSHIP

Defendant/
Counterclaimant.
________________________
Civil Case No.: ECD-2015-1017
Re: Collection and Monies and Mortgage Foreclosure
Counterclaim: Nonexistence of Promissory Notes;
Extinguishment of Promissory Notes; Nonexistence
of Pledges; Extinguishment of Pledges; Nonexistence
of Mortgages; Extinguishment of Mortgages;
Extinguishment of Mortgage Loan Agreement;

App.167a
Nullity of Auction Upset Price; Claim of Equity of
Properties; Nullity of Agreement for Waiver of
Future Rights, i.e. Property Equity; Nullity of Loan
Repayment Schedules; Nullity of Principal Balances;
Nullity of Interest and Other Charges; Application of
Excessive Interest; Restitution; Article 80, Property
Registry Act; Cancellations of Property Registry
Filing Entries; Cancellations of Property Registry
Registration Entries; Article 203, Property Registry
Act; Unconstitutionality of Art. 104, Property
Registry Act, 3rd and 4th paragraphs, etc.
“Our courts should not be collection
agencies for crooks.”—John Waihee,
Governor of Hawaii, Term 1986-1994
“What are the most dysfunctional
parts Of the Global Financial System?
. . . America’s housing market [for what
crooks do to it]”—Magazine: The
Economist, August 20TH-26TH 2016
TO THE HONORABLE COURT:
COME NOW the defendants-counterclaimants,
through the undersigned attorneys, and they most
respectfully, STATE, ALLEGE AND PETITION:
First of all, we most respectfully petition that the
instant Amended Counterclaim be accepted into the
pleadings, since when the complaint for the abovecaptioned case was filed, it was immediately necessary to file an Answer to the Complaint so that we
could exercise the Right of Redemption.
Unfortunately, on this first occasion, the redemption
was unsuccessful because the discovery of the Mortgage

App.168a

Loan Price and Purchasing Agreement executed by
the plaintiff and a third party, which would have
proven the sale of the loan in question, was not allowed.
Parallel to the prolonged appeals phase of this
matter, the defendants-counterclaimants moved forward
with their defense where the abundant Expert Documentary Evidence attached hereto was produced, consisting of 19 Sworn Expert Reports that precisely
establish: (i) the date of sale of each of the 19 promissory notes in controversy on the secondary market
by the plaintiff’s predecessor, who through said sale
satisfied its financial claim in toto; (ii) the date on
which each of the aforesaid 19 promissory notes were
subject to the process of Securitization, infra; (iii) the
name of the Trust that was produced after the process
of Securitization of the promissory notes; and other
fundamental matters that reveal the plaintiff’s lack of
standing to sue in the instant case.
Thus, this Amended Counterclaim boils down to:
(i) the inclusion of the aforementioned specific information of each promissory note in controversy; and (ii)
the inclusion of the “Federal Question,” infra. Let us
review the following.
I.

Introduction

1.1 The baseless collection action initiated by the
plaintiff in the above-captioned case is another unfortunate example of the disconnects that continue to
prevail in the Puerto Rican banking industry after the
global stock market crash of October 2008 and its
effects. As a result of the proliferation of federal economic programs and aid granted to the banks—
palliatives for the economic crisis—numerous internal

App.169a
administrative processes have been created in the banking industry that unfortunately were not coherently
implemented or lost their initial coherence.
1.2 As a first example, we point out that there
are innumerable collection actions that have been
filed in the Courts of Puerto Rico even where consumers
are complying with payment of their loans under the
Obama plan, loss mitigation, payment plans, modifications, inter alia; or even when consumers are meeting
their payment obligations through a Collection Agency.
1.3 Secondly, there are innumerable collection
actions that have been filed in the Courts of Puerto
Rico without the consumer having been given the
opportunity to benefit from a range of programs: (i.e.
Obama plan, loss mitigation, payment plans, modifications, workouts) despite the billions of dollars that
the Puerto Rico banking industry received for these
purposes.
1.4 Third, there are countless collection actions
that have been filed in the Courts of Puerto Rico: (i)
without the plaintiff being the owner, holder or possessor of the ORIGINAL PROMISSORY NOTE; (ii) where
said ORIGINAL PROMISSORY NOTE was sold on
the Secondary Market by the plaintiff or its predecessor;
(iii) where the plaintiff or its predecessor had already
collected the amount of the ORIGINAL PROMISSORY
NOTE upon selling it on the Secondary Market; and
(iv) where said ORIGINAL PROMISSORY NOTE was
subject to Securitization.
1.5 The instant case falls under this third example.
In addition, the counterclaim filed clears the way for
the determination of important questions of law that,
in ranked order: (i) will require the interpretation of

App.170a
federal legislation (“Federal Question”); and (ii) will
require an examination of the jurisdiction of this
Court to adjudicate the action for collection of monies
and mortgage foreclosure filed by the plaintiff in the
above-captioned case.
1.6 With respect to the examination of jurisdiction, we should mention that the U.S. Courts have
heard thousands of cases such as the above-captioned
case, and they have dismissed actions for collection of
monies and mortgage foreclosure due to the plaintiff’s
lack of standing. From the rationale in these cases,
rules arise which can be summarized as follows:
In an action for collection of monies and
mortgage foreclosure, if the plaintiff is NOT
the owner, holder or possessor of the prom-

issory note, then the plaintiff does NOT have
standing. If the plaintiff does NOT have standing, then the Court does NOT have jurisdiction.
If the Court does NOT have jurisdiction,
then the complaint should be dismissed
because the case is NOT justiciable.
1.7 With respect to the Federal Question, it is
important to note that this Court has concurrent jurisdiction to determine it and it will ultimately fall on
the U.S. Supreme Court to review your determination.
The question is as follows:
Whether, in accordance with Uniform Commercial Code (UCC) regulations, the plaintiff
in an action for collection of monies and mortgage foreclosure can be the owner, holder or
possessor of a promissory note (defined and
regulated by UCC Section 3) that has been
converted—along with other hundreds or

App.171a

thousands of promissory notes—into a new
kind of instrument called Securities (defined
and regulated by UCC Section 8) after the
process of Securitization.
1.8 Certainly, the correct answer to that question of law will assist in the process of adjustment that
has to be done in the System. It is important to note
that, after the global financial crisis of 2008, the
worldwide academic community agreed that the capitalist system was in danger. With respect to our
capitalist zone, it will fall upon the judicial systems of
the United States and Puerto Rico to block the way of
ENTITIES that wrongfully manipulate and interfere
with the so-called “Mortgage System”—“the huge

parallel structure that exists outside the banks and
which creates almost as much credit as they do.” These
meddling and manipulative ENTITIES are known as
“The Crooks of the Mortgage System” (hereinafter
called the “ENTITIES”).
1.9 How did the original Mortgage System (supporter of the “American Dream” ) morph into the current
Mortgage System (supporter of the “American Nightmare” )? Simple, thanks to the manipulation and
wrongful interference of these ENTITIES in the Mortgage System, managing to obtain their broad deregulation in the 1980s under the Reagan Administration.
1.10 These ENTITIES eviscerated our original
good and healthy Mortgage System, where only banks
provided money to property buyers; where the banks
retained the original promissory note evidencing the
debt in their favor; and where banks generated normal
profit (term used with its technical meaning in economics) from mortgage loans.

App.172a
1.11 Everything was going well in our Capitalist
System with that normal profit margin, until the
ENTITIES disrupted and manipulated the Mortgage
System so that, inter alia, it would generate abnormal
profits (term used with its technical meaning in
economics) through a manipulation of monthly interest
and principal calculations for mortgage loans where
debtors end up paying thirty-three percent (33%) more
than what they should, according to the agreed terms,
after the 30 years of the mortgage.
1.12 Under the new Mortgage System, firmly
established by the ENTITIES, banks are the participants
at the bottom of the ladder in the new structure. Banks,
as soon as they generate a mortgage note, sell it on the
Secondary Market, collect on it and generate profits.
In most cases, it takes them less than a month to sell
them, collect their financial claim and generate profit.
Thus, the original promissory note leaves the hands of
the originating bank and circulates in the Secondary
Market until it goes through the process of Securitization.1 After this process of Securitization, the ENTITIES
instantly obtain control over most of the abnormal profit.
1 In other words, the promissory note was converted――together
with other hundreds or thousands of promissory notes (“pool”)―into
the following Securities: “Mortgage-Backed Securities” (“MBSs”);
“Asset-Backed Securities; “DS” (“Debt Securities”); “CDOs”
(“Collateralized Debt Obligations”); “CMOs” (“Collateralized Mortgage Obligations”); “Whole Loan CMOs” (“Whole Loan Collateralized Mortgage Obligations”). This was under the U.S. “Tax
Reform Act, 1986,” through the vehicle of REMICs, 26 CFR § 1.860
F-2, et seq. Said Securities are instruments of value produced from
the pool of the thousands or hundreds of original PROMISSORY
NOTES.
In general terms, Securitization means the process by which
a set of original promissory notes is converted into something of

App.173a
1.13 The greed of these ENTITIES does not end
with the measure of abnormal profit. In addition to
using the financial procedure of Securitization (converting packages of promissory notes into something of a new
nature called Securities to sell them on international
markets, which allows instant collection and monopolization of abnormal profit), the ENTITIES decide
when to downgrade the performance of the Securities;
to the point that they nullify their value and cause the
market to collapse.
1.14 Subsequently, the ENTITIES create new
spoils: the extinguished promissory notes that constituted the written—off Securities. With them, they do
a variety of things, though they do not legally exist as
promissory notes after their process of Securitization,
and the Securities have been written off. Inter alia:

a new nature: Securities. It is well known that if an original
PROMISSORY NOTE is converted—together with other hundreds
or thousands—into Securities, then the original PROMISSORY
NOTE ceases to exist due to its conversion into something of a
new nature: “Securities”—Cf: Chapter 2, Chapter 8 of the Puerto
Rico Commercial Transactions Act, 19 L.P.R.A. § 501, et seq.,
§ 1701 et seq.; 19 L.P.R.A. § 504; 19 L.P.R.A. § 1702(15); Section
3, Section 8 of the Uniform Commercial Code of the United States
of America, UCC § 3-104; UCC § 8-102 (15); and the Tax Reform
Act of 1986–REMICs, 26 CFR § 1.860 F-2, et seq.

In fact, after the process of “Securitization” of a PROMISSORY
NOTE, the “Debt Holders” and “Note Holders” cease to exist
when the “Securities Holders” come into being. These final
investors of the chain acquired “Securities.” These “Securities”
are subject to market risks. However, these “Securities Holders”
insure their investment through a “CDS” (“Credit Default Swap”),
and they collect the amount insured if their value falls.

App.174a
(1) they create new financial products (i.e.
“CDOs”) to sell and collect more (re-securitization);
(2) they file actions for collection of monies and
mortgage foreclosure against the debtors—

whose loans fell into “default” due to the
damaged economy that the ENTITIES themselves caused, as their abnormal profit reduces
the money supply in circulation, which, in
turn, leads to a contraction of the economy—
to take control, without any right, of the
properties that were encumbered through
the now-extinguished promissory notes. This
is despite the fact that they already charged
the amount of the promissory notes when
they sold them on the Secondary Market and
made a prodigious abnormal profit;

(3) they sell loan listings to other types of investors, of a lower rank, at a rate of 3-10 cents
on the dollar, and, inter alia, they even
endeavor to create schemes to frustrate the
defendant’s chose in action right of redemption.
WHERE WILL THIS END? WHO WILL STOP
THIS NIGHTMARE? Our Justice System.
1.15 Meanwhile, there are other deplorable actions
by Oriental Bank in the instant case such as extortion,
blackmail, conspiracy, illegal acts (declaring so-called
loans whose payments were current to be in arrears)—
all in violation of federal and state laws. How did
these deplorable acts of Oriental Bank begin?
A.

First, Oriental Bank filed 3 separate legal
actions against the defendants (ECP-20130084; ECP-2013-0085; KCD-2013-2657) in

App.175a
which it claimed that it had lost 3 promissory
notes and petitioned for the defendant be
ordered to execute 3 new promissory notes.
To handle these three actions, Oriental Bank
engaged the services of the law firm Bufete
McConnell. Multi-Ventas engaged the services
of the undersigned for its defense. When we
submitted our Answer to the Complaint and
Counterclaim in each of the aforementioned
cases, together with our Interrogatories, Document Production and Request for Admissions, the law firm Bufete McConnell Valdés
WITHDREW from the legal representation of
Oriental Bank. McConnell withdrew because,
after reviewing our Answer to the Complaint
and Counterclaim and Interrogatories, etc.,
it clearly recognized that the aforesaid
promissory notes were in fact NOT LOST but
rather had been SOLD on the Secondary
Mortgage Market. After the withdrawal of
McConnell, the law firm Bufete Delgado and
Fernández took its place as Oriental Bank’s
legal representative. Out of the blue, a lawyer from Delgado and Fernández called and
said: “Grace, the promissory notes turned up
and we are going to withdraw the 3 lawsuits.”
We informed them that we would continue
with our counterclaims since the promissory
notes were not actually lost, and they did not
turn up, but rather they were sold on the
Secondary Mortgage Market.
B.

Secondly, Oriental Bank failed to deduct the
direct payment of one of the 4 so-called loans

App.176a
detailed in the complaint2 in the abovecaptioned case, and then, without any valid
basis, refused to refinance the “Balloon Payment” of said loan (“Loan B,” infra). The only
extrajudicial explanation that Oriental Bank
gave to the defendant was that it would not
refinance the Balloon Payment while the
counterclaims were being litigated, and, conversely, that it would refinance the Balloon
Payment if the defendants withdrew their
counterclaims. These acts constitute extortion,
blackmail and conspiracy.
C.

Thirdly, Oriental Bank created a FICTITIOUS
DEFAULT ON PAYMENT with respect to
“Loan B” by failing to deduct the direct payments from the defendant’s account monthly.
In doing so, Oriental Bank committed acts in
violation of state and federal laws.

D.

Fourth, after Oriental Bank illegally created
a fictitious DEFAULT ON PAYMENT with
respect to “Loan B,” Oriental Bank illegally
declared the other 3 loans detailed in the

2 Grosso modo, according to the above-captioned complaint, the
so-called loans or credit facilities are:
“Loan A”–Revolving Line of Credit #2064012720
Amount: $500,000.00; Monthly Payment: approx. $15,000
“Loan B”–Term Loan #4201805
Amount: $980,911.40; Monthly Payment: $14,565.98
With Balloon Payment
“Loan C”–Loan #2064011568
Amount: $7,000,000.00; Monthly Payment: $47,264.50
“Loan D”–Loan #364000538
Amount: $5,546,014.51; Monthly Payment: $39,733.37

App.177a
complaint to be due and payable, although
their EXTREMELY HIGH MONTHLY
INSTALLMENTS WERE CURRENT ON
PAYMENT. Cf. Paragraphs 33 and 48 of the
complaint.
1.16 DECEPTIVELY, in the above-captioned case,
the plaintiff bank claims to be the owner and holder of
the promissory notes in controversy. IN REALITY, the
plaintiff bank is NOT the owner, holder or possessor
of the original promissory notes, since its predecessor,
EUROBANK, sold the original promissory notes on
the Secondary Market between the dates of MARCH
5, 2003 AND JULY 9, 2009,3 and the promissory notes
3
NOTE #1

($180,000.00):

March 5, 2003

NOTE #2

($720,000.00):

March 5, 2003

NOTE #3

($900,000.00):

December 5, 1992

NOTE #4

($300,000.00):

March 5, 2003

NOTE #5

($300,000.00):

March 5, 2003

NOTE #6

($280,000.00):

March 5, 2003

NOTE #7

($700,000.00):

January 5, 2001

NOTE #8

($600,000.00):

March 5, 2003

NOTE #9

($1,200,000.00):

March 5, 2003

NOTE #10

($432,000.00):

February 28, 2004

NOTE #11

($800,000.00):

October 7, 2004

NOTE #12

($2,443,000.00):

December 27, 2005

NOTE #13

($680,000.00):

December 27, 2005

NOTE #14

($1,500,000.00):

July 9, 2009

NOTE #15

($1,020,000.00):

July 9, 2009

App.178a
underwent the process of Securitization between the
dates of MARCH 30, 2003 AND JULY 15, 2009,4 in the
NOTE #16

($920,000.00):

July 9, 2009

NOTE #17

($550,000.00):

July 9, 2009

NOTE #18

($157,000.00):

July 9, 2009

NOTE #19

($100,000.00):

July 9, 2009

NOTE #1

($180,000.00):

March 30, 2003

NOTE #2

($720,000.00):

March 30, 2003

NOTE #3

($900,000.00):

December 16, 1992

NOTE #4

($300,000.00):

March 30, 2003

NOTE #5

($300,000.00):

March 30, 2003

NOTE #6

($280,000.00):

March 30, 2003

NOTE #7

($700,000.00):

January 30, 2001

NOTE #8

($600,000.00):

March 30, 2003

NOTE #9

($1,200,000.00):

March 30, 2003

NOTE #10

($432,000.00):

October 15, 2004

NOTE #11

($800,000.00):

October 15, 2004

NOTE #12

($2,443,000.00):

January 5, 2006

NOTE #13

($680,000.00):

January 5, 2006

NOTE #14

($1,500,000.00):

July 15, 2009

NOTE #15

($1,020,000.00):

July 15, 2009

NOTE #16

($920,000.00):

July 15, 2009

NOTE #17

($550,000.00):

July 15, 2009

NOTE #18

($157,000.00):

July 15, 2009

NOTE #19

($100,000.00):

July 15, 2009

4

App.179a

Trusts: EURO LOAN CLO I-EBS OVERSEAS INC
III.5
1.17 At the time of the sale of the promissory
notes (between the dates of MARCH 5, 2003 AND
JULY 9, 2009, which is 6 to 12 years BEFORE the
filing of the complaint in the above-captioned case
5
NOTE #1

($180,000.00):

EURO LOAN CLO I

NOTE #2

($720,000.00):

EURO LOAN CLO I

NOTE #3

($900,000.00):

EURO MAX IV MBS

NOTE #4

($300,000.00):

EURO LOAN CLO I

NOTE #5

($300,000.00):

EURO LOAN CLO I

NOTE #6

($280,000.00):

EURO LOAN CLO I

NOTE #7

($700,000.00):

EURO MULTI CREDIT
CDO

NOTE #8

($600,000.00):

EURO LOAN CLO I

NOTE #9

($1,200,000.00):

EURO LOAN CLO I

NOTE #10 ($432,000.00):

EBS OVERSEAS INC I

NOTE #11 ($800,000.00):

EBS OVERSEAS INC I

NOTE #12 ($2,443,000.00):

EBS OVERSEAS INC II

NOTE #13 ($680,000.00):

EBS OVERSEAS INC II

NOTE #14 ($1,500,000.00):

EBS OVERSEAS INC III

NOTE #15 ($1,020,000.00):

EBS OVERSEAS INC III

NOTE #16 ($920,000.00):

EBS OVERSEAS INC III

NOTE #17 ($550,000.00):

EBS OVERSEAS INC III

NOTE #18

($157,000.00):

EBS OVERSEAS INC III

NOTE #19

($100,000.00):

EBS OVERSEAS INC III

App.180a
(SEPTEMBER 10, 2015), the plaintiff’s predecessor
collected the amount of the aforementioned PROMISSORY NOTES. The third party (secondary market
investor) that acquired them paid the plaintiff’s predecessor the amount of the PROMISSORY NOTES.
1.18 Thus, as of the date of filing of the complaint
in the above-captioned case (SEPTEMBER 10, 2015),
the plaintiff was NOT the owner, holder or possessor
of the aforementioned promissory notes, nor was it the
creditor of the mortgages since its predecessor previously sold the promissory notes (between the dates of
MARCH 5, 2003 AND JULY 9, 2009) on the Secondary
Market, and the promissory notes underwent the
process of Securitization between the dates of MARCH
30, 2003 AND JULY 15, 2009,6 in the Trusts: EURO
LOAN CLO I-EBS OVERSEAS INC III.

6
NOTE #1

($180,000.00):

March 30, 2003

NOTE #2

($720,000.00):

March 30, 2003

NOTE #3

($900,000.00):

December 16, 1992

NOTE #4

($300,000.00):

March 30, 2003

NOTE #5

($300,000.00):

March 30, 2003

NOTE #6

($280,000.00):

March 30, 2003

NOTE #7

($700,000.00):

January 30, 2001

NOTE #8

($600,000.00):

March 30, 2003

NOTE #9

($1,200,000.00):

March 30, 2003

NOTE #10

($432,000.00):

October 15, 2004

NOTE #11

($800,000.00):

October 15, 2004

NOTE #12

($2,443,000.00):

January 5, 2006

App.181a
1.19 Thus, the legal action filed by the plaintiff
is NOT justiciable because the plaintiff lacked standing
at the time it filed its claim. It lacked standing
because it was NOT the owner, holder or possessor of
the promissory notes in question, nor was it the
creditor of the mortgages subject to its legal action of
collection and mortgage foreclosure. Therefore, the
Trial Court does NOT have jurisdiction to adjudicate
the action of collection of monies and mortgage
foreclosure filed by the plaintiff.7 Consequently, it
should be dismissed.

NOTE #13

($680,000.00):

January 5, 2006

NOTE #14

($1,500,000.00):

July 15, 2009

NOTE #15

($1,020,000.00):

July 15, 2009

NOTE #16

($920,000.00):

July 15, 2009

NOTE #17

($550,000.00):

July 15, 2009

NOTE #18

($157,000.00):

July 15, 2009

NOTE #19

($100,000.00):

July 15, 2009

7 As is well known, jurisdiction is the main source of the authority of the courts to interpret and enforce the laws in our system
of government. It is governed by the application of the various
doctrines that bring the principle of justiciability to life: standing, mootness and political question, P.P.D. vs. Gobernador I, 139
D.P.R. 643, 666 (1995).
It is an established rule that our jurisdiction is governed by the
constitutional concept of justiciability, which establishes as a
requirement the existence of a real case or controversy for the
valid exercise of the judicial branch. Ortiz v. Panel F.E.I., 155
D.P.R. 219 (2001).

App.182a

By virtue of this, the courts must ensure that the matters
brought before their consideration are “justiciable,” i.e.: (1) they
do not involve aspects related to public policy to be established
by the executive; (2) the parties have legal capacity or standing
to file the lawsuit; (3) the controversy is not moot nor
consultative; (4) the controversy is ripe. Vilá v. Meléndez Ortiz,
164 D.P.R., 2005 T.S.P.R. 79, 2005 JTS 80; Com. de la Mujer v.
Srio. de Justicia, 109 D.P.R. 715, 720-725 (1980).
One of the axioms derived from this prudential approach is what
is called standing, which focuses primarily on the person that
files the action and secondarily on the matters to be adjudicated.

Hernández Torres v. Hernández Colón, 129 D.P.R. 824 (1992).
One of the requirements of justiciability of disputes is that the
parties must have the legal capacity to be such parties.
Hernández Agosto v. Romero Barceló, 112 D.P.R. 407, 413
(1982). Lack of jurisdiction cannot be remedied nor can a court
arrogate jurisdiction, since the courts have the compulsory duty
to examine their own jurisdiction. Pagán Navedo vs. Alcalde
Mun. de Cataño, 143 D.P.R. 314, 326 (1997).

App.183a

EXHIBIT 12, PAGE 644

App.184a

EXHIBIT 12, PAGE 645

App.185a

EXHIBIT 12, PAGE 646

App.186a

App.187a

App.188a

App.189a
II.

Amended Answer to the Complaint

2.1 With the exception of personal information,
registration data and the description, date and values
specified in the extinguished Original Promissory
Notes, all the claims in the Complaint in the abovecaptioned case as drafted, alleged or interpreted are
denied, and any merit of the complaint’s prayer for
relief is rejected. This comprehensive negation is
made under Rule 6.2 of the Rules of Civil Procedure,
32 L.P.R.A. Ap. V. R. 6.2. Below we present the demonstrative material facts that constitute the version of the
defendants-counterclaimants, with the legal facts
pertaining to our challenge of the plaintiff’s standing
in accordance with Rule 7.1 of the Rules of Civil Procedure, supra, and, therefore, the jurisdiction of this
Honorable Court, Rule 3.1 (A)(1) of the Rules of Civil
Procedure; and, following that, the presentation of the
affirmative defenses meeting the requirements established by the aforesaid Rule 6.2 of the Rules of Civil
Procedure, supra.
2.2 The PROMISSORY NOTES listed in the
complaint were sold by the plaintiff’s predecessor on
the secondary mortgage market between the dates of:
MARCH 5, 2003 AND JULY 9, 2009.8 Through said
8
NOTE #1

($180,000.00):

March 5, 2003

NOTE #2

($720,000.00):

March 5, 2003

NOTE #3

($900,000.00):

December 5, 1992

NOTE #4

($300,000.00):

March 5, 2003

NOTE #5

($300,000.00):

March 5, 2003

NOTE #6

($280,000.00):

March 5, 2003

App.190a
sales, a third party (secondary market investor) paid
the amount of the PROMISSORY NOTES to the
plaintiff’s predecessor, and the plaintiff collected its
financial claim and moreover obtained profit on the
sales. Thus, the payment obligation evidenced by each
PROMISSORY NOTE was paid by a third party and
collected by the plaintiff’s predecessor. Neither the
plaintiff’s predecessor nor the plaintiff is the owner,
holder or possessor of the promissory notes in question
for their sales on the Secondary Market and their
processes of Securitization.
2.3 The plaintiff’s predecessor and the plaintiff
are participants in the secondary mortgage market
and other securities markets. Thus, the PROMISSORY
NOTES indicated in the complaint were sold by the
plaintiff’s predecessor on said Secondary Market
NOTE #7

($700,000.00):

January 5, 2001

NOTE #8

($600,000.00):

March 5, 2003

NOTE #9

($1,200,000.00):

March 5, 2003

NOTE #10

($432,000.00):

February 28, 2004

NOTE #11

($800,000.00):

October 7, 2004

NOTE #12

($2,443,000.00):

December 27, 2005

NOTE #13

($680,000.00):

December 27, 2005

NOTE #14

($1,500,000.00):

July 9, 2009

NOTE #15

($1,020,000.00):

July 9, 2009

NOTE #16

($920,000.00):

July 9, 2009

NOTE #17

($550,000.00):

July 9, 2009

NOTE #18

($157,000.00):

July 9, 2009

NOTE #19

($100,000.00):

July 9, 2009

App.191a
between the dates of MARCH 5, 2003 AND JULY 9,
2009 and the PROMISSORY NOTES underwent the
process of “Securitization” between the dates of MARCH
30, 2003 AND JULY 15, 2009,9 in the Trusts: EURO
LOAN CLO I-EBS OVERSEAS INC III.10
9
NOTE #1

($180,000.00):

March 30, 2003

NOTE #2

($720,000.00):

March 30, 2003

NOTE #3

($900,000.00):

December 16, 1992

NOTE #4

($300,000.00):

March 30, 2003

NOTE #5

($300,000.00):

March 30, 2003

NOTE #6

($280,000.00):

March 30, 2003

NOTE #7

($700,000.00):

January 30, 2001

NOTE #8

($600,000.00):

March 30, 2003

NOTE #9

($1,200,000.00):

March 30, 2003

NOTE #10

($432,000.00):

October 15, 2004

NOTE #11

($800,000.00):

October 15, 2004

NOTE #12

($2,443,000.00):

January 5, 2006

NOTE #13

($680,000.00):

January 5, 2006

NOTE #14

($1,500,000.00):

July 15, 2009

NOTE #15

($1,020,000.00):

July 15, 2009

NOTE #16

($920,000.00):

July 15, 2009

NOTE #17

($550,000.00):

July 15, 2009

NOTE #18

($157,000.00):

July 15, 2009

NOTE #19

($100,000.00):

July 15, 2009

10 See footnote 1, whose content is adopted here by reference.
See, also, the Exhibits of the Answer to the Complaint and
Amended Counterclaim, the Expert Evidence with affidavit. This

App.192a
In other words, they were converted11――together
with hundreds or thousands of other promissory notes12
(“pool”)――into the following Securities: “MortgageBacked Securities” (“MBSs”); “Asset-Backed Securities”;
“DS” (“Debt Securities”); “CDOs” (“Collateralized Debt
Obligations”); “CMOs” (“Collateralized Mortgage Obligations”); “Whole Loan CMOs” (“Whole Loan Collateralized Mortgage Obligations”). These Securities are
instruments of value produced from the pool of the
thousands or hundreds of original PROMISSORY
NOTES.
2.4 At the time of sale of each PROMISSORY
NOTE listed in the above-captioned complaint, the
plaintiff’s predecessor collected the amount of each
PROMISSORY NOTE. The purchasing third party
paid the plaintiff’s predecessor the amount of each
PROMISSORY NOTE.
2.5 It is well known that if an original PROMISSORY NOTE is converted—together with other
hundreds or thousands—into Securities, then the
original PROMISSORY NOTE ceases to exist due to
Expert Evidence demonstrates: (i) the sale of the indicated promissory note on the secondary market before the filing of the
above-captioned case’s collection action; and (ii) the conversion of
said promissory note into Securities along with other thousands
of promissory notes through the process of Securitization. We
reserve the right to append another Expert Report as Exhibit 2
of this pleading, which will take longer than the time granted by
this Court to file this Answer to the Complaint and Counterclaim.
11 Under the US “Tax Reform Act, 1986,” through the vehicle of
REMICs, 26 CFR § 1.860 F-2, et seq., inter alia.
12 From 2,000 to 5,000 promissory notes from “non-conforming”
loans; hundreds of promissory notes from “conforming” loans;

App.193a
its conversion to something of a new nature: “Securities.”13 In fact, through the well-known financial
engineering process of “Securitization,” a PROMISSORY
NOTE is pooled and mixed with thousands of other
PROMISSORY NOTES (from 2,000 to 5,000/“nonconforming” loans; hundreds of “conforming” loans) to
transform them into “Securities,” and issue certificates,
shares (stock), for their sale to the general public.
Those who acquire such certificates or shares are known
as the final investors of the chain (“Securitization
Food Chain”): the “Securities Holders.”
2.6 The final investors in the Securitization food
chain of any of the aforesaid Securities have standing
to sue for compliance with the terms of the “Securities”
on account of their being “Securities Holders.” It is
important to note that they did not acquire any original PROMISSORY NOTE by endorsement—they are
not the “Debt Holders” or the “Mortgage Note Holders.”
2.7 In fact, after the process of “Securitization” of
a PROMISSORY NOTE, the “Debt Holders” and
“Note Holders” cease to exist when the “Securities
Holders” come into being. These final investors in the
food chain acquired “Securities”—instruments of value
produced from the pool generated by the amalgam of
thousands or hundreds of original PROMISSORY
NOTES. The “Securities” are subject to market risks.

13 Cf. Chapter 2, Chapter 8 of the Puerto Rico Commercial
Transactions Act, 19 L.P.R.A. Sec. 501, et seq., § 1701 et seq.; 19
L.P.R.A. § 504; 19 L.P.R.A. § 1702(15); Section 3, Section 8 of the
Uniform Commercial Code of the United States of America, UCC
§ 3-104; UCC § 8-102 (15); and the Tax Reform Act of 1986–
REMICs, 26 CFR § 1.860 F-2, et seq.

App.194a
However, these “Securities Holders” insure their investment through a “CDS” (“Credit Default Swap”), and
they collect the amount insured if their value falls.
2.8 None of the Agents or Intermediary Banks of
the Secondary Markets—i.e. commercial banks, investment banks, Fannie Mae, Freddie Mac, Goldman
Sachs, Morgan Stanley, Lehman Brothers, Merryll [sic]
Lynch, Bear Stearns, Deutsche Bank, Wells Fargo—
have any standing to claim the original obligation that
arose from the original PROMISSORY NOTE because
they are not the holder of the original PROMISSORY
NOTE, and said promissory note, after the process of
Securitization, has lost its legal identity as such upon
becoming, along with others, something of a different
nature: Securities.
2.9 Each original PROMISSORY NOTE indicated
in the complaint was sold by the plaintiff’s predecessor
to the Intermediary Investment Bank. In this transaction, the Original Bank (the plaintiff’s predecessor)
collected the amount of each original PROMISSORY
NOTE by payment by a third party (investor) with the
operation of a discount—thus recovering its financial
claim and obtaining profit. In turn, the Intermediary
Investment Bank sold it to another, higher ranking
Intermediary Investment Bank. In this other transaction, the first intermediate investment bank also
collected the amount of the original PROMISSORY
NOTE by payment by a third party (second investor)
with the operation of a discount—thus recovering its
financial claim and obtaining profit.
2.10 Finally, the final Investment Bank that
bought and accumulated the PROMISSORY NOTES,
including each promissory note subject to the abovecaptioned action, decided to convert them into Securities

App.195a
to recover their investment in the PROMISSORY
NOTES and obtain greater profits upon selling the
Securities. In this process, each original PROMISSORY
NOTE listed in the complaint was pooled and mixed
with thousands or hundreds of other PROMISSORY
NOTES to create the pool that generates the new type
of instrument: “Securities.” Before the conversion of
the “pool” of PROMISSORY NOTES into Securities,
there had to be real sales of the original PROMISSORY
NOTES between the “Originator” and the “Sponsor”;
between the “Sponsor” and the “Depositor”; and between
the “Depositor” and the “Trustee” with respect to the
“Trust”—REMICs, “Tax Reform Act of 1986.” See
discussion in: U.S. Bank National Association v. Antonio
Ibañez, 941 N.E.2d 40 (Mass 2011), 458 Mass 637
(2011).
2.11 Moreover, under Articles 1777 and 1232 of the
Civil Code of Puerto Rico, 1930, the respective deeds
of assignment of the mortgage loan had to have been
executed between: (i) the original creditor and the
secondary market investment bank; (ii) the investment bank and the “Originator”; (iii) the “Originator”
and the “Sponsor”; (iv) the “Sponsor” and the “Depositor”; and (v) the “Depositor” and the “Trustee.”
2.12 In the above-captioned case, the plaintiff is
NOT the owner, holder or possessor of the original
PROMISSORY NOTES indicated in the complaint or
the creditor of the aforementioned mortgages. As a
participant in the secondary and securities markets,
the plaintiff’s predecessor sold the aforesaid PROMISSORY NOTES on said market and collected the
amounts of the PROMISSORY NOTES by payment by
third party. Thus, the plaintiff, at the time of filing the
above-captioned complaint, lacked standing to collect

App.196a
what its predecessor already sold and collected—
Promissory Notes—through the Secondary Market.
Consequently, the above-captioned complaint is not
justiciable and this Honorable Court of First Instance
lacks jurisdiction to hear its causes of action.
III. Affirmative Defenses
For reference, we incorporate all the facts presented
in: (i) the introduction; (ii) in the affirmative allegations
of the defendants-counterclaimants contained in the
preceding paragraphs; and (iii) the counterclaim,
infra. Based thereon, the following affirmative defenses
are raised:
3.1 Sale of the PROMISSORY NOTES. The plaintiff’s predecessor sold the original PROMISSORY
NOTES on the Secondary Mortgage Market before
filing the above-captioned Complaint.
3.2 Collection of the PROMISSORY NOTES by
Payment by Third Party. After the sale of the PROMISSORY NOTES on the Secondary Market, the plaintiff’s predecessor collected the amount of each PROMISSORY NOTE by payment by third party and
recovered its financial claim before filing the abovecaptioned Complaint.
3.3 Plaintiff is not the Owner, Holder or Possessor
of the PROMISSORY NOTES. Since the plaintiff’s predecessor sold and collected each PROMISSORY NOTE
indicated in the complaint on the Secondary Market
before the filing of the above-captioned complaint, the
plaintiff is not the owner, holder or possessor of said
PROMISSORY NOTES nor the creditor of the aforementioned mortgages specified.

App.197a
3.4 Extinguishment of the debt. The PROMISSORY NOTES specified in the above-captioned complaint were paid by a third party—Secondary Market
Investor—and underwent Securitization, before the
filing of the above-captioned complaint. By virtue of
the payment by a third party, the defendants-counterclaimants owe no money to the plaintiff or its predecessor.
3.5 Nonexistence/Extinguishment of the PROMISSORY NOTES AND MORTGAGES. The PROMISSORY NOTES listed in the above-captioned complaint were subject to Securitization. Each promissory
note was converted—along with other thousands or
hundreds of promissory notes—into something of a new
nature: Securities. After the Securitization process,
each PROMISSORY NOTE lost its original legal
identity (CREDIT INSTRUMENT) and was extinguished. After the process of Securitization, the pool of
thousands of PROMISSORY NOTES produced
Securities. Promissory notes and Securities are different
legal vehicles. When a promissory note becomes a
security, the two (credit instrument and security)
cannot coexist simultaneously. This would constitute
a type of securities fraud. In physical terms, the
extinguished promissory notes were taken out of
circulation on the market and kept under permanent
custody of the Master Documents Custodian as documents constituting Securities. After the extinguishment
of each promissory note, the mortgage securing it was
also extinguished.
3.6 Nonexistence of Pledge/Extinguishment of
Pledge. After the trading of the original PROMISSORY
NOTES on the Secondary Market, the plaintiff’s
predecessor extinguished its pledges. Currently, the

App.198a
pledges are non-existent since each original PROMISSORY NOTE was subject to Securitization.
3.7 Original Promissory Note Subject to Securitization. Since the plaintiff and its predecessor participated in the secondary mortgage market and other
markets, each original PROMISSORY NOTE indicated
in the complaint was sold on said markets and underwent the process of “ Securitization,” i.e., it was
converted—together with other hundreds or thousands
of promissory notes (“pool”)—into one of the following
Securities: “Mortgage-Backed Securities” (“MBSs”);
“Asset-Backed Securities; “DS” (“Debt Securities”);
“CDOs” (“Collateralized Debt Obligations”); “CMOs”
(“Collateralized Mortgage Obligations”); “Whole Loan
CMOs” (“Whole Loan Collateralized Mortgage Obligations”).
3.8 Nonexistence of Mortgage due to non-registration. The mortgage deeds indicated in the complaint
are not registered in the Property Registry. And if they
have been registered, then their registration entries
should be canceled, infra.
3.9 Nonexistence of Mortgage, Nullity ab initio
of Mortgage Deed due to lack of valid auction upset
price. None of the mortgage deeds indicated in the
complaint have a valid upset price for the first auction.
This defect voids each indicated mortgage deed and
prevents foreclosure thereon. In each mortgage deed
indicated, the “Property Value” clause fails to state
any appraisal price agreed between the parties for the
first auction. Instead, the aforementioned clause
gives, surreptitiously, a price imposed by the originator
based on the credit amount granted without considering
the fair value of the property on the market. An upset
price surreptitiously and unilaterally inserted by the

App.199a
originator based on the amount of the loan granted
does not constitute a valid upset price for the first
auction. This would allow properties worth high
amounts to be obtained at auction for ridiculously low
prices. The mortgage deeds failed to satisfy the upset
price requirement. Each of the indicated mortgage
deeds is null and void ab initio. Article 80 of the Property Registry Act of the Commonwealth of Puerto Rico.
3.10 Nonexistence/Nullity of the upset price. There
was no agreement between the parties with respect to
the upset price for the first auction (the originator and
the defendants). There was no negotiation between the
parties with respect to the upset price. The upset price
surreptitiously and unilaterally inserted by the Originator in each mortgage deed is null and void.
3.11 Nonexistence/Nullity of Agreement for
Waiver of Future Rights. Among them, the equity of
each property indicated in the complaint. The defendants-counterclaimants have at no time waived the
right to the equity of each property, inter alia.
3.12 Nonexistence/Nullity of “Loan Repayment
Schedule.” These repayment schedules contain errors
since the principal is not amortized according to the
agreed terms. This causes, every month, a higher principal balance which leads to the collection of excessive
interest, inter alia.
3.13 Errors in the “Loan Repayment Schedule.”
These repayment schedules contain errors since the
principal is not amortized according to the agreed
terms. This causes, every month, a higher principal
balance which leads to the collection of excessive
interest, inter alia.

App.200a
3.14 Nonexistence/Nullity of the principal balance
of the “Loan Repayment Schedule.” These repayment
schedules contain errors since the principal is not
amortized according to the agreed terms. This causes,
every month, a higher principal balance which leads
to the collection of excessive interest, inter alia.
3.15 Error in the principal balances detailed in
the “Loan Repayment Schedule.” These repayment
schedules contain errors since the principal is not
amortized according to the agreed terms. This causes,
every month, a higher principal balance which leads
to the collection of excessive interest, inter alia.
3.16 Nonexistence/Nullity of the interest detailed
in the “Loan Repayment Schedule.” These repayment
schedules contain errors since the principal is not
amortized according to the agreed terms. This causes,
every month, a higher principal balance which leads
to the collection of excessive interest, inter alia.
3.17 Error in the interest detailed in the “Loan
Repayment Schedule.” These repayment schedules
contain errors since the principal is not amortized
according to the agreed terms. This causes, every
month, a higher principal balance which leads to the
collection of excessive interest, inter alia.
3.18 Wrongful collection of interest. The repayment schedules contain errors since the principal is
not amortized according to the agreed terms. This
causes, every month, a higher principal balance which
leads to the collection of excessive interest, inter alia.
3.19 Application of excessive interest. The repayment schedules contain errors since the principal is
not amortized according to the agreed terms. This

App.201a
causes, every month, a higher principal balance which
leads to the collection of excessive interest, inter alia.
3.20 Nonexistence/Nullity of filing and registration
entries in the Property Registry. The mortgage deeds
indicated in the Complaint are vitiated by an irreparable
defect: nonexistence of a valid upset price for the first
auction. This defect voids each mortgage deed and
prevents foreclosure thereon. In the mortgage deeds
indicated, the “Property Value” clause fails to state
any appraisal price agreed between the parties for the
first auction. Instead, the aforementioned clause gives,
surreptitiously, a price imposed by the Originator based
on the credit amount granted without considering the
fair value of the property on the market. An upset
price surreptitiously and unilaterally inserted by the
originator based on the amount of the loan granted
does not constitute a valid upset price for the first
auction. This would allow properties worth high
amounts to be obtained at auction for ridiculously low
prices. The indicated mortgage deeds failed to satisfy
the upset price requirement. Therefore, each of the
indicated mortgage deeds is void ab initio, and their
registration in the Property Registry is invalid. If they
were registered by mistake or oversight, then such
registration entries should be canceled.
3.21 Extinguishment of personal principal obligations. After the sale of the original PROMISSORY
NOTES on the Secondary Market and the recovery of
the financial claims by the plaintiff’s predecessor
before the filing of the above-captioned complaint.
3.22 Extinguishment of ancillary obligations. After
the sale of the original PROMISSORY NOTES on the
Secondary Market and the recovery of the financial

App.202a
claims by the plaintiff’s predecessor before the filing
of the above-captioned complaint.
3.23 Extinguishment of collateral. After the sale
of the original PROMISSORY NOTES on the Secondary
Market and the recovery of the financial claims by the
plaintiff’s predecessor before the filing of the abovecaptioned complaint.
3.24 Unconstitutionality of Article 104 of the
Property Registry Act of the Commonwealth of Puerto
Rico, 3rd and 4th paragraphs. These are also contrary
to market laws. These articles impose an auction
“upset price” in all cases and do not provide alternatives for adjusting the upset price in cases where there
is equity. A provision of law authorizing such deprivation
of property is unconstitutional.
3.25 Debt not due and payable. After the sale of
the original PROMISSORY NOTES on the Secondary
Market and the recovery of the financial claims by the
plaintiff’s predecessor before the filing of the abovecaptioned complaint, there is no debt that is due and
payable to the plaintiff. The alleged debt was settled
by payment by a third party before the abovecaptioned complaint.
3.26 The complaint fails to state a claim for
which relief may be granted to the plaintiff against
the defendants-counterclaimants, after the sale of the
original PROMISSORY NOTES on the Secondary
Market and the recovery of the financial claims by the
plaintiff’s predecessor before the filing of the abovecaptioned complaint.
3.27 The plaintiff lacks standing for the causes
of action stated in the complaint, after the sales of the
original PROMISSORY NOTES on the Secondary

App.203a
Market and the collection of the PROMISSORY NOTES.
The plaintiff is not the owner, holder or possessor of
the original promissory notes nor the creditor of the
mortgages indicated in the complaint.
3.28 Article 80 of the Property Registry Act of
the Commonwealth of Puerto Rico, 2015. In the
mortgage deeds indicated in the complaint, reference
is surreptitiously made to an upset price equal to the
principal amount of the loan granted. This clause
violates the aforementioned Article 80 of the Property
Registry Act, supra; does not properly satisfy the principle of specialty and certainty that governs our real
property law. In point of fact, it does not comply with
the aforementioned legal principal since it surreptitiously determines the value of the property as the
principal amount of the loan, which is completely
disconnected from reality and fair treatment, thus
permitting abuse.
3.29 Lack of Upset Price Agreement. There was
no agreement between the parties (the Originator and
the defendants) regarding the upset price for the first
auction of the properties indicated in the complaint in
the event of foreclosure.
3.30 Lack of Property Appraisal. In a mortgage
deed, the appraisal of a property must be done validly
and in a way that reflects reality. An upset price
surreptitiously and unilaterally inserted based on the
loan principal amount does not constitute a valid
appraisal price. A mortgage deed that contains a clause
on “Property Value” that surreptitiously refers to an
upset price equal to the principal amount of the loan
is vitiated by an irreparable defect—the absence of an
upset price valid for the first auction—which voids the

App.204a
mortgage and, consequently, prevents its registration
in the Property Registry.
3.31 Invalidity of Upset Price. The upset price
contained in each mortgage deed indicated in the complaint is not a valid auction upset price because it was
not negotiated nor does it reflect the appraisal value
of the property—as of the date of the mortgage deed—
plus increase in value (appreciation) that can be
ordinarily expected.
3.32 Upset Price Criteria. The criteria for the determination of the upset price consists of the property
appraisal value—as of the date of the mortgage deed—
plus its increase in value (appreciation). The Originator
neither agreed on nor adhered to this criteria.
3.33 Inappropriate Amount Claimed. The collection of other amounts that appear in each mortgage
deed indicated in the complaint is not permitted by
Financial Board Regulation 5722 of November 21,
1997, “Regarding interest rates and other charges
that may be collected or enforced in certain types of
loans and obligations.”
3.34 There is a discrepancy between the multiple
charges—percentages (%) with respect to the principal amount that appears in each mortgage deed and
in each extinguished PROMISSORY NOTE indicated
in the complaint. The charges of multiple amounts
appearing in the aforesaid mortgage deeds and promissory notes indicated in the complaint are not permitted by Financial Board Regulation 5722 of November
21, 1997, “Regarding interest rates and other charges
that may be collected or enforced in certain types of
loans and obligations.”

App.205a
3.35 Article 203 of the Property Registry Act of
the Commonwealth of Puerto Rico, 2015. The filing
and registration entries of each mortgage deed should
be canceled in accordance with Article 203 of the Property Registry Act, supra, due to their nullity ab
initio—the absence of an upset price.
3.36 Estoppel. The plaintiff is barred from pursuing the instant complaint on account of the doctrine of
estoppel.
3.37 Abuse of Legal Process. The plaintiff has
committed abuse of legal process by declaring a debt
to be due and payable when it had already collected
that debt through payment by a third party.
3.38 Extinguishment of Interest. The receipt of
the principal by the creditor, without any reservation
regarding interest, extinguishes the obligation of the
debtor with respect to such interest. The receipt of the
last installment of a debt, where the creditor does not
make any reservations, extinguishes the obligation
with respect to the previous installments.
3.39 There is no Default. The defendants-counterclaimants are not in default. The alleged debt was
collected by the plaintiff’s predecessor by payment by a
third party at the time of selling each PROMISSORY
NOTE indicated in the complaint on the Secondary
Market.
3.40 Statute of Limitations/Expiration of collection
action, negotiable instrument and mortgage action. The
cause of action of collection of monies is barred by
statute of limitations/expired/extinguished in accordance
with the term provided by our commercial laws, which
is three years for the collection of a negotiable instrument and for other reasons. On account of the foregoing

App.206a
and for other reasons, the mortgage action is also
barred by statute of limitations/expired/extinguished.
See, inter alia, subsections 3.5, 3.8, 3.9, 3.10, supra.
The defendants-counterclaimants reserve the right
to formulate any additional affirmative defense or
amendment to this answer and counterclaim once
they carry out discovery, and to pursue or file any claim
against a future third party or co-party to which it is
entitled on the basis of any evidence it discovers.
IV. Counterclaim
A. Parties
Counterclaimants
4.1 The counterclaimants are legal entities and
individuals who are of legal age and property owners.
Their physical and mailing address is: Highway
Number KM 26.9, Rio Cañas, Caguas, Puerto Rico
00726. Their telephone number is: (787) 653-0357.
Counterclaim Defendant
4.2 On information and belief, the counterclaim
defendant is a banking institution and/or investor that
participates in the Secondary Mortgage and Securities
Market.
B. Facts
4.3 All information presented in the foregoing
and subsequent sections (answer to complaint, affirmative defenses, facts and causes of action of the counterclaim) is incorporated by reference.

App.207a
4.4 On SEPTEMBER 10, 2015, the counterclaim
defendant filed the complaint for collection of monies
and mortgage foreclosure in the above-captioned case.
4.5 As of the date of filing of the aforesaid complaint, the counterclaim defendant was NOT the owner,
holder or possessor of the original PROMISSORY
NOTES nor creditor of the MORTGAGES subject to
the above-captioned action.
4.6 The counterclaim defendant lacked standing
to sue when it filed the complaint in the abovecaptioned case, since it is not the owner, holder or
possessor of the aforementioned original PROMISSORY
NOTES, nor creditor of the MORTGAGES.
4.7 Between the dates of MARCH 5, 2003 AND
JULY 9, 2009,14 i.e., 6 to 12 years BEFORE the filing
14
NOTE #1

($180,000.00):

March 5, 2003

NOTE #2

($720,000.00):

March 5, 2003

NOTE #3

($900,000.00):

December 5, 1992

NOTE #4

($300,000.00):

March 5, 2003

NOTE #5

($300,000.00):

March 5, 2003

NOTE #6

($280,000.00):

March 5, 2003

NOTE #7

($700,000.00):

January 5, 2001

NOTE #8

($600,000.00):

March 5, 2003

NOTE #9

($1,200,000.00):

March 5, 2003

NOTE #10

($432,000.00):

February 28, 2004

NOTE #11

($800,000.00):

October 7, 2004

NOTE #12

($2,443,000.00):

December 27, 2005

NOTE #13

($680,000.00):

December 27, 2005

App.208a
of the complaint in the above-captioned case, the
counterclaim defendant’s predecessor sold each original PROMISSORY NOTE on the Secondary Market
and each PROMISSORY NOTE underwent the process
of Securitization in the respective Trusts: EURO
LOAN CLO I-EBS OVERSEAS INC III.15
4.8 After the sale of each original PROMISSORY
NOTE on the Secondary Market, the counterclaim
defendant’s predecessor collected the amount of each
PROMISSORY NOTE by payment by third party
(Secondary Market Investor) and it obtained profit by
selling each PROMISSORY NOTE on dates prior to
the above-captioned complaint.
4.9 As of the date of the sale of each original
PROMISSORY NOTE on the Secondary Mortgage
Market, between the dates of MARCH 5, 2003 AND
JULY 9, 2009, the plaintiff’s predecessor ceased to be
NOTE #14

($1,500,000.00):

July 9, 2009

NOTE #15

($1,020,000.00):

July 9, 2009

NOTE #16

($920,000.00):

July 9, 2009

NOTE #17

($550,000.00):

July 9, 2009

NOTE #18

($157,000.00):

July 9, 2009

NOTE #19

($100,000.00):

July 9, 2009

15 See footnote 1, whose content is adopted here by reference.
See, also, attached Exhibits, Expert Evidence and affidavit.
These show: (i) the sale of the indicated promissory note on the
secondary market before the filing of the above-captioned case’s
collection action; and (ii) the conversion of said promissory note
into Securities along with other thousands of promissory notes
through the process of Securitization before the filing of the abovecaptioned collection action.

App.209a
the owner, holder or possessor of each original PROMISSORY NOTE and creditor of each MORTGAGE subject to the collection and foreclosure case.16 Likewise,
since the dates of each sale, the plaintiff has not been
nor is the owner, holder or possessor of the promissory
notes in question.
4.10 After the process of Securitization of each
PROMISSORY NOTE (between the dates of MARCH
30, 2003 AND JULY 15, 2009,17 in the respective
16 It is important to note that when promissory notes go through
the Securitization process—where the “pool” of these promissory
notes is generated and the Securities are produced—said promissory
notes are withdrawn from circulation on the market and, in
physical terms, they are stored in a vault as documents of the
pool which precedes the Securities resulting from the Securitization
process. In accordance with federal regulations, these constituent
documents (the old promissory notes) are placed under the
permanent custody of the designated “Master Documents
Custodian” of the Secondary Market, and they may not be
removed from such custody.
17
NOTE #1

($180,000.00):

March 30, 2003

NOTE #2

($720,000.00):

March 30, 2003

NOTE #3

($900,000.00):

December 16, 1992

NOTE #4

($300,000.00):

March 30, 2003

NOTE #5

($300,000.00):

March 30, 2003

NOTE #6

($280,000.00):

March 30, 2003

NOTE #7

($700,000.00):

January 30, 2001

NOTE #8

($600,000.00):

March 30, 2003

NOTE #9

($1,200,000.00):

March 30, 2003

NOTE #10

($432,000.00):

October 15, 2004

NOTE #11

($800,000.00):

October 15, 2004

App.210a
Trusts: EURO LOAN CLO I-EBS OVERSEAS INC
III18), each original PROMISSORY NOTE was converted into something of a new nature: Securities.

NOTE #12

($2,443,000.00):

January 5, 2006

NOTE #13

($680,000.00):

January 5, 2006

NOTE #14

($1,500,000.00):

July 15, 2009

NOTE #15

($1,020,000.00):

July 15, 2009

NOTE #16

($920,000.00):

July 15, 2009

NOTE #17

($550,000.00):

July 15, 2009

NOTE #18

($157,000.00):

July 15, 2009

NOTE #19

($100,000.00):

July 15, 2009

18
NOTE #1

($180,000.00):

EURO LOAN CLO I

NOTE #2

($720,000.00):

EURO LOAN CLO I

NOTE #3

($900,000.00):

EURO MAX IV MBS

NOTE #4

($300,000.00):

EURO LOAN CLO I

NOTE #5

($300,000.00):

EURO LOAN CLO I

NOTE #6

($280,000.00):

EURO LOAN CLO I

NOTE #7

($700,000.00):

EURO MULTI CREDIT CDO

NOTE #8

($600,000.00):

EURO LOAN CLO I

NOTE #9

($1,200,000.00):

EURO LOAN CLO I

NOTE #10

($432,000.00):

EBS OVERSEAS INC I

NOTE #11

($800,000.00):

EBS OVERSEAS INC I

NOTE #12

($2,443,000.00):

EBS OVERSEAS INC II

NOTE #13

($680,000.00):

EBS OVERSEAS INC II

NOTE #14

($1,500,000.00):

EBS OVERSEAS INC III

App.211a
4.11 The allegations of the counterclaim defendant in the above-captioned case with respect to being
the owner or holder of the PROMISSORY NOTES and
creditor of the MORTGAGES are misrepresentations.
4.12 Between the dates of MARCH 5, 2003 AND
JULY 9, 2009,19 the counterclaim defendant’s predecessor sold each original PROMISSORY NOTE in
NOTE #15

($1,020,000.00):

EBS OVERSEAS INC III

NOTE #16

($920,000.00):

EBS OVERSEAS INC III

NOTE #17

($550,000.00):

EBS OVERSEAS INC III

NOTE #18

($157,000.00):

EBS OVERSEAS INC III

NOTE #19

($100,000.00):

EBS OVERSEAS INC III

19
NOTE #1

($180,000.00):

March 5, 2003

NOTE #2

($720,000.00):

March 5, 2003

NOTE #3

($900,000.00):

December 5, 1992

NOTE #4

($300,000.00):

March 5, 2003

NOTE #5

($300,000.00):

March 5, 2003

NOTE #6

($280,000.00):

March 5, 2003

NOTE #7

($700,000.00):

January 5, 2001

NOTE #8

($600,000.00):

March 5, 2003

NOTE #9

($1,200,000.00):

March 5, 2003

NOTE #10

($432,000.00):

February 28, 2004

NOTE #11

($800,000.00):

October 7, 2004

NOTE #12

($2,443,000.00):

December 27, 2005

NOTE #13

($680,000.00):

December 27, 2005

NOTE #14

($1,500,000.00):

July 9, 2009

App.212a
question on the Secondary Market and collected the
amount thereof by payment by a third party BEFORE
the filing of the Complaint in the above-captioned case
(SEPTEMBER 10, 2015).
4.13 After the sale of each original PROMISSORY
NOTE on the secondary mortgage market, each PROMISSORY NOTE was subject to “Securitization”20 as of
the dates between MARCH 30, 2003 AND JULY 15,

NOTE #15

($1,020,000.00):

July 9, 2009

NOTE #16

($920,000.00):

July 9, 2009

NOTE #17

($550,000.00):

July 9, 2009

NOTE #18

($157,000.00):

July 9, 2009

NOTE #19

($100,000.00):

July 9, 2009

20 In general terms, Securitization means the process by which
a set of original promissory notes is converted into Securities. It
is well known that if an original PROMISSORY NOTE is
converted—together with other hundreds or thousands—into
Securities, then the original PROMISSORY NOTE ceases to
exist due to its conversion to something of a new nature: “Securities”—Cf: Chapter 2, Chapter 8 of the Puerto Rico Commercial
Transactions Act, 19 L.P.R.A. § 501, et seq., § 1701 et seq.; 19
L.P.R.A. § 504; 19 L.P.R.A. § 1702(15); Section 3, Section 8 of the
Uniform Commercial Code of the United States of America, UCC
§ 3-104; UCC § 8-102 (15); and the Tax Reform Act of 1986–
REMICs, 26 CFR § 1.860 F-2, et seq.
In fact, after the process of “Securitization” of a PROMISSORY
NOTE, the “Debt Holders” and “Note Holders” cease to exist
when the “Securities Holders” come into being. These final investors in the food chain acquired “Securities.” These “Securities”
are subject to market risks. However, these “Securities Holders”
insure their investment through a “CDS” (“Credit Default Swap”),
and they collect the amount insured if their value falls.

App.213a
200921—i.e., they were converted, along with other
hundreds or thousands of promissory notes,22 into
“SECURITIES.”
4.14 Each original PROMISSORY NOTE in controversy, after its process of Securitization, lost its
21
NOTE #1

($180,000.00):

March 30, 2003

NOTE #2

($720,000.00):

March 30, 2003

NOTE #3

($900,000.00):

December 16, 1992

NOTE #4

($300,000.00):

March 30, 2003

NOTE #5

($300,000.00):

March 30, 2003

NOTE #6

($280,000.00):

March 30, 2003

NOTE #7

($700,000.00):

January 30, 2001

NOTE #8

($600,000.00):

March 30, 2003

NOTE #9

($1,200,000.00):

March 30, 2003

NOTE #10

($432,000.00):

October 15, 2004

NOTE #11

($800,000.00):

October 15, 2004

NOTE #12

($2,443,000.00):

January 5, 2006

NOTE #13

($680,000.00):

January 5, 2006

NOTE #14

($1,500,000.00):

July 15, 2009

NOTE #15

($1,020,000.00):

July 15, 2009

NOTE #16

($920,000.00):

July 15, 2009

NOTE #17

($550,000.00):

July 15, 2009

NOTE #18

($157,000.00):

July 15, 2009

NOTE #19

($100,000.00):

July 15, 2009

22 From 2,000 to 5,000 promissory notes from “non-conforming”
loans; hundreds of promissory notes from “conforming” loans;

App.214a
original legal identity. The “Securities” are the item of
a different nature resulting from the “pool” of hundreds
of promissory notes, including each indicated original
PROMISSORY NOTE subject to Securitization.23
4.15 The Securities are the new legal vehicle
resulting from said process of Securitization of the
promissory notes.24
4.16 After pooling each original PROMISSORY
NOTE in controversy with other hundreds or thousands
of promissory notes, and having subjected the pool to
the process of Securitization of the respective Trusts:
EURO LOAN CLO I-EBS OVERSEAS INC III,25
23 The PROMISSORY NOTE and the Securities are regulated,
respectively, by Chapter 2 and Chapter 8 of the Puerto Rico
Commercial Transactions Act, 19 L.P.R.A. § 501, et seq., § 1701
et seq.; 19 L.P.R.A. § 504; 19 L.P.R.A. § 1702(15); and by Section
3 and Section 8, respectively, of the Uniform Commercial Code of
the United States of America, UCC § 3-104; UCC § 8-102 (15);
and the Tax Reform Act of 1986–REMICs, 26 CFR § 1.860 F-2,
et seq. “Real Estate Mortgage Investment Conduits (REMICs)

came into existence through the Tax Reform Act of 1986. Under
this act, qualified residential and commercial mortgages notes
are pooled and securitized.”

24 Cf. Chapter 2, Chapter 8 of the Puerto Rico Commercial
Transactions Act, 19 L.P.R.A. § 501, et seq., § 1701 et seq.; 19
L.P.R.A. § 504; 19 L.P.R.A. § 1702(15); Section 3, Section 8 of the
Uniform Commercial Code of the United States of America, UCC
§ 3-104; UCC § 8-102 (15); and the Tax Reform Act of 1986–
REMICs, 26 CFR § 1.860 F-2, et seq.
25
NOTE #1

($180,000.00):

EURO LOAN CLO I

NOTE #2

($720,000.00):

EURO LOAN CLO I

NOTE #3

($900,000.00):

EURO MAX IV MBS

NOTE #4

($300,000.00):

EURO LOAN CLO I

App.215a
between the dates of MARCH 30, 2003 AND JULY 15,
2009,26 the resulting “Securities” were circulated and
NOTE #5

($300,000.00):

EURO LOAN CLO I

NOTE #6

($280,000.00):

EURO LOAN CLO I

NOTE #7

($700,000.00):

EURO MULTI CREDIT
CDO

NOTE #8

($600,000.00):

EURO LOAN CLO I

NOTE #9

($1,200,000.00):

EURO LOAN CLO I

NOTE #10

($432,000.00):

EBS OVERSEAS INC I

NOTE #11

($800,000.00):

EBS OVERSEAS INC I

NOTE #12

($2,443,000.00):

EBS OVERSEAS INC II

NOTE #13

($680,000.00):

EBS OVERSEAS INC II

NOTE #14

($1,500,000.00):

EBS OVERSEAS INC III

NOTE #15

($1,020,000.00):

EBS OVERSEAS INC III

NOTE #16

($920,000.00):

EBS OVERSEAS INC III

NOTE #17

($550,000.00):

EBS OVERSEAS INC III

NOTE #18

($157,000.00):

EBS OVERSEAS INC III

NOTE #19

($100,000.00):

EBS OVERSEAS INC III

26
NOTE #1

($180,000.00):

March 30, 2003

NOTE #2

($720,000.00):

March 30, 2003

NOTE #3

($900,000.00):

December 16, 1992

NOTE #4

($300,000.00):

March 30, 2003

NOTE #5

($300,000.00):

March 30, 2003

NOTE #6

($280,000.00):

March 30, 2003

NOTE #7

($700,000.00):

January 30, 2001

NOTE #8

($600,000.00):

March 30, 2003

App.216a
sold to the general public on the global markets (“shares
or pieces of the pool”).27
4.17 There is no contractual relationship between
the defendants-counterclaimants in the above-captioned
case and the Securities Holders. The final investors in
the “Securitization” food chain have standing to sue
for compliance with the terms of the “Securities” on
account of their being “Securities Holders.”28
NOTE #9

($1,200,000.00):

March 30, 2003

NOTE #10

($432,000.00):

October 15, 2004

NOTE #11

($800,000.00):

October 15, 2004

NOTE #12

($2,443,000.00):

January 5, 2006

NOTE #13

($680,000.00):

January 5, 2006

NOTE #14

($1,500,000.00):

July 15, 2009

NOTE #15

($1,020,000.00):

July 15, 2009

NOTE #16

($920,000.00):

July 15, 2009

NOTE #17

($550,000.00):

July 15, 2009

NOTE #18

($157,000.00):

July 15, 2009

NOTE #19

($100,000.00):

July 15, 2009

27 These Securities buyers are at the end of the Securitization
food chain and they are called: Securities Holders.
28 The Securities resulting from the Securitization process of the
promissory notes are subject to market risks. However, the
Securities Holders insure their investment through a “CDS”
(“Credit Default Swap”), and they collect the amount insured in
the event of nonpayment of the yield of the Securities.
The Securities Holders lack standing to claim the original obligation that arose from the original PROMISSORY NOTE because
they acquired Securities.

App.217a
4.18 None of the Securities Holders acquired any
of the original PROMISSORY NOTES in question.
They acquired “Securities”—instruments resulting from
the process of Securitization of hundreds or thousands
of promissory notes.
4.19 After the “Securitization” process of each
original PROMISSORY NOTE, all previous “Note
Holders & Mortgage Holders” of each Original PROMISSORY NOTE collected the amount evidenced on
each PROMISSORY NOTE upon selling it on the Secondary Mortgage Market.
4.20 The original PROMISSORY NOTES in controversy were sold by the counterclaim defendant’s
predecessor to intermediary investors in the secondary
mortgage market. In that transaction, the counterclaim
defendant’s predecessor collected the amount of each
original PROMISSORY NOTE by payment by a third
party (first intermediary investor). In turn, the first
Intermediary Investment Bank sold each promissory
note to another, higher ranking Intermediary Investment Bank. In this other transaction, the first intermediate investment bank also collected the amount of
each promissory note by payment by a third party
(second intermediate investor).
4.21 The final Investment Bank that bought and
pooled the PROMISSORY NOTES, including each
original PROMISSORY NOTE in controversy, subjected
them to the process of Securitization to recover its
investment in the acquisition of PROMISSORY NOTES
and obtain greater profits by selling the Securities
resulting from the aforementioned process of Securitization. Each original PROMISSORY NOTE in controversy was pooled with other thousands or hundreds
of PROMISSORY NOTES which created the “Pool”

App.218a
that generated the new kind of vehicle: “Securities” of the
respective Trusts: EURO LOAN CLO I-EBS OVERSEAS INC III,29 as of the dates between MARCH 30,
2003 AND JULY 15, 2009.30

29
NOTE #1

($180,000.00):

EURO LOAN CLO I

NOTE #2

($720,000.00):

EURO LOAN CLO I

NOTE #3

($900,000.00):

EURO MAX IV MBS

NOTE #4

($300,000.00):

EURO LOAN CLO I

NOTE #5

($300,000.00):

EURO LOAN CLO I

NOTE #6

($280,000.00):

EURO LOAN CLO I

NOTE #7

($700,000.00):

EURO MULTI CREDIT CDO

NOTE #8

($600,000.00):

EURO LOAN CLO I

NOTE #9

($1,200,000.00):

EURO LOAN CLO I

NOTE #10

($432,000.00):

EBS OVERSEAS INC I

NOTE #11

($800,000.00):

EBS OVERSEAS INC I

NOTE #12

($2,443,000.00):

EBS OVERSEAS INC II

NOTE #13

($680,000.00):

EBS OVERSEAS INC II

NOTE #14

($1,500,000.00):

EBS OVERSEAS INC III

NOTE #15

($1,020,000.00):

EBS OVERSEAS INC III

NOTE #16

($920,000.00):

EBS OVERSEAS INC III

NOTE #17

($550,000.00):

EBS OVERSEAS INC III

NOTE #18

($157,000.00):

EBS OVERSEAS INC III

NOTE #19

($100,000.00):

EBS OVERSEAS INC III

30 The flow of sales and trades of the original promissory note
and the specifications and details of the resulting Securities are

App.219a
4.22 Prior to the conversion of each original
PROMISSORY NOTE, together with thousands of other
promissory notes, into Securities, there had to be real
sales of the original PROMISSORY NOTES in question
between the “Originator” and the “Sponsor”; between
the “Sponsor” and the “Depositor”; and between the
“Depositor” and the “Trustee” to generate the respective
“Trusts”: EURO LOAN CLO I-EBS OVERSEAS INC
III31—i.e. REMICs, “Tax Reform Act of 1986”; U.S. Bank
evidenced by the respective Securitization Expert Reports prepared by experts from the United States.
31
NOTE #1

($180,000.00):

EURO LOAN CLO I

NOTE #2

($720,000.00):

EURO LOAN CLO I

NOTE #3

($900,000.00):

EURO MAX IV MBS

NOTE #4

($300,000.00):

EURO LOAN CLO I

NOTE #5

($300,000.00):

EURO LOAN CLO I

NOTE #6

($280,000.00):

EURO LOAN CLO I

NOTE #7

($700,000.00):

EURO MULTI CREDIT CDO

NOTE #8

($600,000.00):

EURO LOAN CLO I

NOTE #9

($1,200,000.00):

EURO LOAN CLO I

NOTE #10

($432,000.00):

EBS OVERSEAS INC I

NOTE #11

($800,000.00):

EBS OVERSEAS INC I

NOTE #12

($2,443,000.00):

EBS OVERSEAS INC II

NOTE #13

($680,000.00):

EBS OVERSEAS INC II

NOTE #14

($1,500,000.00):

EBS OVERSEAS INC III

NOTE #15

($1,020,000.00):

EBS OVERSEAS INC III

NOTE #16

($920,000.00):

EBS OVERSEAS INC III

NOTE #17

($550,000.00):

EBS OVERSEAS INC III

App.220a

National Association v. Antonio Ibañez, 941 N.E.2d
40 (Mass 2011).32
4.23 Under Articles 1777 and 1232 of the Civil
Code of Puerto Rico, 1930, the appropriate deeds of
assignment of the mortgage loan had to be executed
between: (i) the original creditor and the secondary
market investment bank; (ii) between the “Originator”
and the “Sponsor”; (iii) the “Sponsor” and the “Depositor”;
and (v) the “Depositor” and the “Trustee”—REMICs,
“Tax Reform Act of 1986.” And this did not happen.
See discussion in: U.S. Bank National Association v.
Antonio Ibañez, 941 N.E.2d 40 (Mass 2011), 458 Mass
637 (2011).
4.24 As of the date on which the complaint in the
above-captioned case was filed (SEPTEMBER 10,
2015), the counterclaim defendant had NO standing
to sue to collect on the original PROMISSORY NOTES
in controversy because it was not owner, holder, or
possessor of the aforementioned original PROMISSORY NOTES nor creditor of the MORTGAGES
indicated in its complaint since its predecessor sold
them on the secondary market, collected the amount of
each PROMISSORY NOTE, and each was subject to
“Securitization,” between the dates of MARCH 30,
NOTE #18

($157,000.00):

EBS OVERSEAS INC III

NOTE #19

($100,000.00):

EBS OVERSEAS INC III

32 Simultaneously, the assignments or transfers of the mortgage
loan take place between the “Originator” and the “Sponsor”; between
the “Sponsor” and the “Depositor”; and between the “Depositor”
and the “Trustee”—REMICs, “Tax Reform Act of 1986.” U.S. Bank
National Association v. Antonio Ibañez, 941 N.E.2d 40 (Mass
2011)

App.221a
2003 AND JULY 15, 2009,33 in the respective Trusts:
EURO LOAN CLO I-EBS OVERSEAS INC III.34
33
NOTE #1

($180,000.00):

March 30, 2003

NOTE #2

($720,000.00):

March 30, 2003

NOTE #3

($900,000.00):

December 16, 1992

NOTE #4

($300,000.00):

March 30, 2003

NOTE #5

($300,000.00):

March 30, 2003

NOTE #6

($280,000.00):

March 30, 2003

NOTE #7

($700,000.00):

January 30, 2001

NOTE #8

($600,000.00):

March 30, 2003

NOTE #9

($1,200,000.00):

March 30, 2003

NOTE #10

($432,000.00):

October 15, 2004

NOTE #11

($800,000.00):

October 15, 2004

NOTE #12

($2,443,000.00):

January 5, 2006

NOTE #13

($680,000.00):

January 5, 2006

NOTE #14

($1,500,000.00):

July 15, 2009

NOTE #15

($1,020,000.00):

July 15, 2009

NOTE #16

($920,000.00):

July 15, 2009

NOTE #17

($550,000.00):

July 15, 2009

NOTE #18

($157,000.00):

July 15, 2009

NOTE #19

($100,000.00):

July 15, 2009

34
NOTE #1

($180,000.00):

EURO LOAN CLO I

NOTE #2

($720,000.00):

EURO LOAN CLO I

NOTE #3

($900,000.00):

EURO MAX IV MBS

App.222a
4.25 After the sale of each original PROMISSORY
NOTE on the Secondary Mortgage Market (between
the dates of MARCH 5, 2003 AND JULY 9, 200935),
NOTE #4

($300,000.00):

EURO LOAN CLO I

NOTE #5

($300,000.00):

EURO LOAN CLO I

NOTE #6

($280,000.00):

EURO LOAN CLO I

NOTE #7

($700,000.00):

EURO MULTI CREDIT CDO

NOTE #8

($600,000.00):

EURO LOAN CLO I

NOTE #9

($1,200,000.00):

EURO LOAN CLO I

NOTE #10

($432,000.00):

EBS OVERSEAS INC I

NOTE #11

($800,000.00):

EBS OVERSEAS INC I

NOTE #12

($2,443,000.00):

EBS OVERSEAS INC II

NOTE #13

($680,000.00):

EBS OVERSEAS INC II

NOTE #14

($1,500,000.00):

EBS OVERSEAS INC III

NOTE #15

($1,020,000.00):

EBS OVERSEAS INC III

NOTE #16

($920,000.00):

EBS OVERSEAS INC III

NOTE #17

($550,000.00):

EBS OVERSEAS INC III

NOTE #18

($157,000.00):

EBS OVERSEAS INC III

NOTE #19

($100,000.00):

EBS OVERSEAS INC III

35
NOTE #1

($180,000.00):

March 5, 2003

NOTE #2

($720,000.00):

March 5, 2003

NOTE #3

($900,000.00):

December 5, 1992

NOTE #4

($300,000.00):

March 5, 2003

NOTE #5

($300,000.00):

March 5, 2003

NOTE #6

($280,000.00):

March 5, 2003

NOTE #7

($700,000.00):

January 5, 2001

App.223a
all of their past owners and holders collected their
respective financial claims and the debt evidenced by
each original promissory note thereto was extinguished
by payment by a third party. Upon extinguishment of
the debt, each mortgage securing it was also extinguished.
4.26 The secondary market intermediary investors
—i.e. commercial banks, investment banks, Fannie
Mae, Freddie Mac, Goldman Sachs, Morgan Stanley,
Lehman Brothers, Merryll [sic] Lynch, Bear Stearns,
Deutsche Bank, Wells Fargo—have no standing to sue
to collect on the original PROMISSORY NOTES because
NONE OF THEM own or hold any of the original
PROMISSORY NOTES since they, in turn, sold them
on the secondary mortgage market and collected them by
third party payment. In addition, each original PROMISSORY NOTE was subject to “Securitization” and, as
NOTE #8

($600,000.00):

March 5, 2003

NOTE #9

($1,200,000.00):

March 5, 2003

NOTE #10

($432,000.00):

February 28, 2004

NOTE #11

($800,000.00):

October 7, 2004

NOTE #12

($2,443,000.00):

December 27, 2005

NOTE #13

($680,000.00):

December 27, 2005

NOTE #14

($1,500,000.00):

July 9, 2009

NOTE #15

($1,020,000.00):

July 9, 2009

NOTE #16

($920,000.00):

July 9, 2009

NOTE #17

($550,000.00):

July 9, 2009

NOTE #18

($157,000.00):

July 9, 2009

NOTE #19

($100,000.00):

July 9, 2009

App.224a
a consequence, each original PROMISSORY NOTE
became—along with other thousands or hundreds of
PROMISSORY NOTES—something of a new nature:
“Securities” of the respective Trusts: EURO LOAN
CLO I-EBS OVERSEAS INC III,36 between the dates

36
NOTE #1

($180,000.00):

EURO LOAN CLO I

NOTE #2

($720,000.00):

EURO LOAN CLO I

NOTE #3

($900,000.00):

EURO MAX IV MBS

NOTE #4

($300,000.00):

EURO LOAN CLO I

NOTE #5

($300,000.00):

EURO LOAN CLO I

NOTE #6

($280,000.00):

EURO LOAN CLO I

NOTE #7

($700,000.00):

EURO MULTI CREDIT CDO

NOTE #8

($600,000.00):

EURO LOAN CLO I

NOTE #9

($1,200,000.00):

EURO LOAN CLO I

NOTE #10

($432,000.00):

EBS OVERSEAS INC I

NOTE #11

($800,000.00):

EBS OVERSEAS INC I

NOTE #12

($2,443,000.00):

EBS OVERSEAS INC II

NOTE #13

($680,000.00):

EBS OVERSEAS INC II

NOTE #14

($1,500,000.00):

EBS OVERSEAS INC III

NOTE #15

($1,020,000.00):

EBS OVERSEAS INC III

NOTE #16

($920,000.00):

EBS OVERSEAS INC III

NOTE #17

($550,000.00):

EBS OVERSEAS INC III

NOTE #18

($157,000.00):

EBS OVERSEAS INC III

NOTE #19

($100,000.00):

EBS OVERSEAS INC III

App.225a
of MARCH 30, 2003 AND JULY 15, 2009.37 Thus, the
original PROMISSORY NOTES lost their legal identity.
4.27 Knowing that its predecessor had already
sold each original PROMISSORY NOTE in controversy on the secondary mortgage market, and since its
predecessor collected its financial claim through payment by a third party, the counterclaim defendant, in
37
NOTE #1

($180,000.00):

March 30, 2003

NOTE #2

($720,000.00):

March 30, 2003

NOTE #3

($900,000.00):

December 16, 1992

NOTE #4

($300,000.00):

March 30, 2003

NOTE #5

($300,000.00):

March 30, 2003

NOTE #6

($280,000.00):

March 30, 2003

NOTE #7

($700,000.00):

January 30, 2001

NOTE #8

($600,000.00):

March 30, 2003

NOTE #9

($1,200,000.00):

March 30, 2003

NOTE #10

($432,000.00):

October 15, 2004

NOTE #11

($800,000.00):

October 15, 2004

NOTE #12

($2,443,000.00):

January 5, 2006

NOTE #13

($680,000.00):

January 5, 2006

NOTE #14

($1,500,000.00):

July 15, 2009

NOTE #15

($1,020,000.00):

July 15, 2009

NOTE #16

($920,000.00):

July 15, 2009

NOTE #17

($550,000.00):

July 15, 2009

NOTE #18

($157,000.00):

July 15, 2009

NOTE #19

($100,000.00):

July 15, 2009

App.226a
the above-captioned case, made the misrepresentation
of being the owner and holder of each original PROMISSORY NOTE and the creditor of each MORTGAGE.
The counterclaim defendant very well knew that:
“Since the loan was sold, pooled and turned

into a security—along with others—the alleged
holder, can no longer claim that it is a real
party with interest, as the original lender
has been paid in full” . “Once the Note was
converted—along with others—into a stock,
or stock equivalent, it is no longer a Note. If
both the Note and the Stock, or Stock equivalent, exist at the same time, that is known
as double dipping. Double dipping is a form
of securities fraud”. “Once a Note has been
securitized—along with others—it forever
loses its security component (i.e. the mortgage), and the right to foreclose through the
mortgage is forever lost”.
4.28 The counterclaim defendant has no standing to sue in the above-captioned case. The abovecaptioned collection of monies and foreclosure case is
not justiciable due to the counterclaim defendant’s
lack of standing to sue. It has no right to collect on the
PROMISSORY NOTES nor to foreclose on the mortgage
since its predecessor already collected the amount of
the aforementioned original PROMISSORY NOTES
when it sold each on the secondary market. As of the
filing date of the complaint in the above-captioned
case, the original PROMISSORY NOTES had already
been collected and had lost their legal identity due to
their conversion—along with thousands or hundreds
of other PROMISSORY NOTES—into “Securities,”
and the Mortgages had lost their status as liens due

App.227a
to extinguishment of the debt through payment by a
third party.
4.29 The abundant sworn Expert Evidence in
the case record clearly demonstrates that each PROMISSORY NOTE in controversy was sold, transferred and
subject to Securitization [together with a “pool” of
hundreds of promissory notes] prior to the filing of the
complaint in the above-captioned case.
4.30 The counterclaim defendant’s lack of standing to sue at the time of filing its claim deprived the
Court of First Instance of jurisdiction in the abovecaptioned case. Since the Court lacked jurisdiction,
the above-captioned collection and foreclosure case is
not justiciable.
4.31 In the above-captioned case, the counterclaim
defendant lacked standing to sue at the time it filed
its claim. The counterclaim defendant violated due
process by filing a lawsuit without having standing to
sue. Therefore, the complaint should be dismissed.
4.32 Furthermore, the mortgage deeds indicated
in the complaint are vitiated by an irreparable defect:
nonexistence of a valid upset price for the first auction.
This defect voids each mortgage deed and prevents
foreclosure thereon.
In each mortgage deed indicated, the “Property
Value” clause fails to state any appraisal price agreed
between the parties for the first auction. Instead, the
aforementioned clause gives, surreptitiously, a price
imposed by the originator based on the credit amount
granted without considering the appraisal value of the
property—as of the date of the mortgage—plus its
appreciation in value.

App.228a
4.34 An upset price surreptitiously and unilaterally inserted by the originator based on the amount
of the loan granted does not constitute a valid upset
price for the first auction. This would allow properties
worth high amounts to be obtained at auction for
ridiculously low prices. The mortgages failed to satisfy
the upset price requirement. Therefore, the indicated
mortgage deeds are void ab initio, and their registration
in the Property Registry is invalid. If they were
registered by mistake or oversight, then their respective
registration entries should be canceled.
4.35 The principal of each mortgage deed indicated
in the instant complaint cannot be a valid auction
upset price because it does not reflect the appraisal
value of the property—as of the date of the mortgage
deed—plus the increase in value (appreciation) that
can ordinarily be expected.
4.36 Paragraphs 3 and 4 of Article 104 of the
Property Registry Act, 2015, are unconstitutional. These
are also contrary to market laws. This article imposes
an auction “upset price” in all cases and does not provide alternatives for adjusting the upset price in cases
where there is equity. A provision of law authorizing
such deprivation of property equity is unconstitutional.
4.37 There was no negotiation or agreement
between the parties with respect to the upset price of the
properties indicated in the complaint. This was surreptitiously inserted by the Originator in each indicated
mortgage deed.
4.38 An upset price surreptitiously and unilaterally inserted in the mortgage deed by the originator
and based on the amount of the loan granted does not
constitute a valid upset price for the first auction. The

App.229a
mortgages failed to satisfy the upset price requirement.
Any such mortgage deed is null and void.
4.39 Defendants “A”, “B” and “C” are designated
since the identity(ies) and name(s) of the individuals
who, acting as agents, attorneys-in-fact, employees,
representatives or who in any other way were associated with the co-counterclaim defendants, or who, in
concert therewith, violated any legal obligation in prejudice to the counterclaimants or who in any way
contributed to the causes thereof, are unknown.
4.40 Defendants “D”, “E” and “F” are designated
since the identity(ies) and name(s) of the legal entity(ies)
who, acting though their officials, agents, attorneysin-fact, employees, representatives or others, in concert
with the co-counterclaim defendants, violated any legal
obligation in prejudice to the counterclaimants or who
in any way contributed to the causes thereof, are unknown.
4.41 Defendants “X”, “Y” and “Z” are designated
since the identity(ies) and name(s) of the insurance
company(ies) liable for the civil claims filed against
the counterclaim defendant legal entities or individuals in the above-captioned counterclaim are unknown.
4.42 With respect to the Federal Question, it is
important to note that this Court has concurrent jurisdiction to determine it, and it will ultimately fall on
the U.S. Supreme Court to review your determination.
The question is as follows:
Whether, in accordance with Uniform Commercial Code (UCC) regulations, the plaintiff
in an action for collection of monies and mortgage foreclosure can be the owner, holder or

App.230a
possessor of a promissory note (defined and
regulated by UCC Section 3) that has been
converted—along with other hundreds or
thousands of promissory notes—into something of a new nature called Securities (defined
and regulated by UCC Section 8) after the
process of Securitization. It CANNOT be so.
The above facts produce the following causes of
action:
C. Causes of Action
4.43 On account of the foregoing facts, the defendants-counterclaimants file the following causes of
action against the counterclaim defendant: (i) Declaratory Judgment; (ii) Nonexistence/Extinguishment of
Promissory Note; (iii) Nonexistence of Pledge; (iv)
Extinguishment of Pledge; (v) Nonexistence of Mortgage; (vi) Extinguishment of Mortgage; (vii) Extinguishment of Loan Agreement; (viii) Nullity of Auction
Upset Price (ix) Claim of Property Equity; (x) Nullity
of Agreement for Waiver of Future Rights, i.e. property equity; (xi) Nullity of “Loan Repayment Schedule”;
(xii) Nullity of principal balance; (xiii) Nullity of
interest and other charges; (xiv) Application of excessive
interest; (xv) Restitution; (xvi) Articles 80, 104, Property Registry Act; (xvii) Cancellations of Filing Entries
in the Property Registry. (xviii) Cancellations of
Registration Entries in the Property Registry; (xix)
Article 203, Property Registry Act; (xx) Unconstitutionality of Article 104 of the Property Registry Act,
3rd and 4th Paragraphs.

App.231a
First Cause of Action:
Declaratory Judgment on the Federal Question and
plaintiff’s lack of standing
4.44 The defendants-counterclaimants incorporate
each and every one of the allegations contained in the
preceding and subsequent subsections.
4.45 In view of the preceding and subsequent
discussion of law, The Federal Question raised must
be answered in the negative. I.e., in accordance with
Uniform Commercial Code (UCC) regulations, a plaintiff in an action for collection of monies and mortgage
foreclosure CANNOT be the owner, holder or possessor
of a promissory note (defined and regulated by UCC
Section 3) that has been converted—along with other
hundreds or thousands of promissory notes—into
something of a new nature called Securities (defined
and regulated by UCC Section 8) after the process of
Securitization. A declaratory judgment is requested in
this regard.
4.46 Jurisdiction is the main source of the authority of the courts to interpret and enforce the laws in
our system of government. It is governed by the application of the various doctrines that bring the principle
of justiciability to life: standing, mootness and political
question, P.P.D. vs. Gobernador I, 139 D.P.R. 643, 666
(1995).
4.47 It is an established rule that our jurisdiction
is governed by the constitutional concept of justiciability, which establishes as a requirement the existence
of a real case or controversy for the valid exercise of
the judicial branch. Ortiz v. Panel F.E.I., 155 D.P.R.
219 (2001). By virtue of this, the courts must ensure
that the matters brought before their consideration

App.232a
are “justiciable,” i.e.: (1) they do not involve aspects
related to public policy to be established by the
executive; (2) the parties have legal capacity or standing to file the lawsuit; 3) the controversy is not moot
nor consultative; and 4) the controversy is ripe.
Acevedo Vilá v. Meléndez Ortiz, 164 D.P.R. ___, 2005
T.S.P.R. 79, 2005 JTS 80; Com. de la Mujer v. Srio. de
Justicia, 109 D.P.R. 715, 720-725 (1980).
4.48 One of the axioms derived from this prudential approach is what is called standing, which focuses
primarily on the person that files the action and
secondarily on the matters to be adjudicated. Hernández
Torres v. Hernández Colón, 129 D.P.R. 824 (1992).
One of the requirements of justiciability of disputes is
that the parties must have the legal capacity to be
such parties. Hernández Agosto v. Romero Barceló,
112 D.P.R. 407, 413 (1982).
4.49 Lack of jurisdiction cannot be remedied nor
can a court arrogate jurisdiction, since the courts have
the compulsory duty to examine their own jurisdiction.
Pagán Navedo vs. Alcalde Mun. de Cataño, 143 D.P.R.
314, 326 (1997), Vázquez vs. A.R.P.E., 128 D.P.R. 513,
537 (1991); Pueblo vs. Miranda Collin, 115 D.P.R. 511,
513 (1984).
4.50 Regarding the basis of standing to sue, the
U.S. Supreme Court illustrated, in the case of Steel Co.
v. Citizens for a Better Environment, 523 U.S. 83, 102,
118 S. Ct. 1003, 140 L.Ed.2d 210 (1998), that “[s]tanding to sue is part of the common understanding of
what it takes to make a justiciable case.” Therefore,
“standing is a ‘jurisdictional requirement’,” State ex
rel. Dallman v. Franklin Cty. Court of Common Pleas,
35 Ohio St.2d 176, 179, 298 N.E.2d 515 (1973). In view
of the foregoing, “the issue of standing, inasmuch as it

App.233a
is jurisdictional in nature, may be raised at any time
during the pendency of the proceedings,” New Boston
Coke Corp. v. Tyler, 32 Ohio St.3d 216, 218, 513
N.E.2d 302 (1987). See, also: Fed. Home Loan Mtge.
Corp. v. Schwartzwald, 134 Ohio St.3d 13, 2012 Ohio
5017, ¶ 22, 979 N.E.2d 1214.
4.51 In 1992, the U.S. Supreme Court established that “[b]ecause standing to sue is required to
invoke the jurisdiction of the common pleas court,
“standing is to be determined as of the commencement
of suit.”, Lujan v. Defenders of Wildlife, 504 U.S. 555,
570-571, 112 S. Ct. 2130, 119 L.Ed.2d 351, fn. 5 (1992);
See, also: Friends of the Earth, Inc. v. Laidlaw Environmental Servs. (TOC), 528 U.S. 167, 180, 120 S. Ct. 693,
145 L.Ed.2d 610 (2000); Nova Health Sys. v. Gandy, 416
F.3d 1149, 1154-1155 (10th Cir. 2005); Focus on the
Family v. Pinellas Suncoast Transit Auth., 344 F.3d
1263, 1275 (11th Cir. 2003); Perry v. Arlington Hts.,
186 F.3d 826, 830 (7th Cir. 1999); Carr v. Alta Verde
Industries, Inc., 931 F.2d 1055, 1061 (5th Cir. 1991).
4.52 More specifically, “[s]tanding is the legal right
to set judicial machinery in motion,” Hiland v. Ives, 28
Conn. Supp. 243, 245, 257 A.2d 822 (1966). Thus, “[t]he
plaintiff must prove that it had standing to foreclose
when the complaint was filed,” McLean v. JP Morgan
Chase Bank Natl. Assn., 79 So.3d 170, 173 (Fla. App.
2012). See, also: Burley v. Douglas, 26 So.3d 1013,
1019 (Miss. 2009), citing Lujan v. Defenders of Wildlife,
504 U.S. 555, 571, 112 S. Ct. 2130, 119 L.Ed.2d 351,
fn. 5 (1992); Deutsche Bank Nat’l Trust Co. v. Mitchell,
422 N.J. Super. 214, 224, 27 A.3d 1229 (App. Div.
2011). See, also: McLean v. JP Morgan Chase Bank
Nat’l Ass’n, 2011 Fla. App. LEXIS 19931, 36 Fla. L.
Weekly D2728a (Fla. 4th DCA Dec. 14, 2011); Taylor

App.234a

v. Deutsche Bank Nat’l Trust Co., 44 So.3d 618 (Fla.
5th DCA 2010).
4.53 In Saratoga County Chamber of Commerce,
Inc. v. Pataki, 100 N.Y.2d 801, 812, 798 N.E.2d 1047,
766 N.Y.S.2d 654 (2003), cert denied 540 U.S. 1017,
124 S. Ct. 570, 157 L.Ed.2d 430 (2003), it was determined that “standing to sue is critical to the proper
functioning of the judicial system. It is a threshold
issue. If standing is denied, the pathway to the courthouse is blocked. The plaintiff who has standing, however, may cross the threshold and seek judicial redress.”
4.54 “A crucial element in any mortgage foreclosure proceeding is that the party seeking foreclosure
must demonstrate that it has standing to foreclose.”
Rigby v. Wells Fargo Bank, 84 So.3d 1195, 1196 (Fla.
4th DCA 2012) (citing: McLean, 79 So.3d at 173);
McLean v. JP Morgan Chase Bank Nat’l Ass’n, 79
So.3d 170, 173 (Fla. 4th DCA 2012).
4.55 “The party seeking foreclosure must demonstrate that it owns and holds the note and mortgage in
question—otherwise, the plaintiff lacks standing to
foreclose.” Lizio v. McCullom, 36 So.3d 927, 929 (Fla.
4th DCA 2010); Verizzo v. Bank of N.Y., 28 So.3d 976,
978 (Fla. 2d DCA 2010); Philogene v. ABN Amro Mortg.
“Group Inc., 948 So.2d 45, 46 (Fla. 4th DCA 2006).
4.56 “A plaintiff seeking foreclosure in a mortgage
proceeding must establish that it had standing to foreclose at the time it filed suit.” McLean v. JP Morgan
Chase Bank Nat’l Ass’n, 79 So.3d 170, 173 (Fla. 4th DCA
2012).
4.57 In Fed. Home Loan Mtge. Corp. v. Schwartzwald, 134 Ohio St.3d 13, 2012 Ohio 5017, 979 N.E.2d
1214, the Supreme Court of Ohio determined that “a

App.235a
plaintiff in a foreclosure action must have standing at
the time it files the complaint in order to invoke the
jurisdiction of the court.” Schwartzwald at ¶ 41-42.
See, also: In re 2007 Administration of Appropriations
of Water of the Niobrara, 278 Neb. 137, 145, 768 N.W.2d
420 (2009); Country Place Cmty. Ass’n v. J.P. Morgan
Mortg. Acquisition Corp., 51 So.3d 1176, 1179 (Fla. 2d
DCA 2010). “Standing to sue is jurisdictional in nature
as it concerns a party’s capacity to invoke the jurisdiction of the court, and, therefore, whether a party has
standing is evaluated at the time of the filing of the
complaint.” Id. at ¶ 24.
4.58 It is clear that “[i]n a mortgage foreclosure
action, a plaintiff has standing where it is both the
holder and assignee of the subject mortgage and the
holder or assignee of the underlying note at the time
the action is commenced.” Homecomings Fin., LLC v.
Guldi, 108 A.D.3d 506, 507-508, 969 N.Y.S.2d 470
(2nd Dep’t 2013), citing: Bank of N.Y. v. Silverberg, 86
A.D.3d 274, 279, 926 N.Y.S.2d 532 (2nd Dep’t 2011);
See, also: Bank of N. Y. Mellon Trust Co. NA v. Sachar,
95 A.D.3d 695, 695, 943 N.Y.S.2d 893 (1st Dep’t 2012);
US Bank N.A. v. Cange, 96 A.D.3d 825, 826, 947
N.Y.S.2d 522 [2d Dept 2012]; U.S. Bank, N.A. v.
Collymore, 68 A.D.3d at 753-754 [2009]; Countrywide
Home Loans, Inc. v. Gress, 68 A.D.3d 709, 888 N.Y.S.2d
914 [2d Dept 2009]); HSBC Bank USA v. Hernandez,
92 A.D.3d 843, 843, 939 N.Y.S.2d 120; Aurora Loan
Servs., LLC v. Taylor, 114 A.D.3d 627, 980 N.Y.S.2d
475 [2d Dept 2014]; Deutsche Bank Natl. Trust Co. v.
Whalen, 107 A.D.3d 931, 932, 969 N.Y.S.2d 82 [2d
Dept 2013].
4.59 Thus, “[a] plaintiff has standing to maintain
the action only where the plaintiff is the proper assignee

App.236a
of the mortgage and the underlying note at the time
the foreclosure action was commenced.” U.S. Bank,
N.A. v. Collymore, 68 A.D.3d 752, 890 N.Y.S.2d 578
[2d Dept 2009]; Federal Natl. Mtge. Assn. v. Youkelsone,
303 A.D.2d 546, 755 N.Y.S.2d 730 [2d Dept 2003];
Wells Fargo Bank, N.A. v. Marchione, 69 A.D.3d 204,
887 N.Y.S.2d 615 [2d Dept 2009]; First Trust Nat’l
Ass’n v. Meisels, 234 A.D.2d 414, 651 N.Y.S.2d 121 [2d
Dept 1996]). “A party cannot foreclose on a mortgage
without having title, giving it standing to bring the
action.” See: Kluge v. Fugazy, 145 A.D.2d 537, 538,
536 N.Y.S.2d 92 [2nd Dept 1988].
4.60 In an action for collection of monies and mortgage foreclosure, the plaintiff has standing where “it
is both the holder or assignee of the subject mortgage
and the holder or assignee of the underlying note at
the time the action is commenced.” See: Mortgage
Elec. Registration Sys., Inc. v. Coakley, 41 A.D.3d 674,
838 N.Y.S.2d 622 [2007]; Federal Natl. Mtge. Assn. v.
Youkelsone, 303 A.D.2d 546, 546-547, 755 N.Y.S.2d
730 [2003]; First Trust Natl. Assn. v. Meisels, 234
A.D.2d 414, 651 N.Y.S.2d 121 [1996]); HSBC Bank
USA v. Hernandez, 92 A.D.3d 843, 939 N.Y.S.2d 120
[2d Dept 2012]; US Bank, NA v. Collymore, 68 A.D.3d at
753; Countrywide Home Loans, Inc. v. Gress, 68
A.D.3d 709, 888 N.Y.S.2d 914 [2d Dept 2009]. Denaro,
98 A.D.3d at 964; Dellarmo, 94 A.D.3d at 748; Bank of
New York, 86 A.D.3d at 279; Collymore, 68 A.D.3d at
753; Wells Fargo Bank, N.A. v. Marchione, 69 A.D.3d
204, 207, 887 N.Y.S.2d 615 [2d Dept 2009]; Bank of
New York v. Silverberg, 86 A.D.3d 274, 279, 926
N.Y.S.2d 532 [2d Dept 2011]; Aurora Loan Servs.,
LLC v. Weisblum, 85 A.D.3d 95, 108, 923 N.Y.S.2d 609
[2d Dept 2011].

App.237a
4.61 Thus, “[t]o have standing to foreclose, it must
be demonstrated that the plaintiff holds the note and
mortgage in question.” Mazine v. M & I Bank, 67 So.3d
1129, 1132 (Fla. 1st DCA 2011); See, also: BAC Funding
Consortium, Inc. v. Jean-Jacques, 28 So.3d 936, 938
(Fla. 2d DCA 2010). The plaintiff must have the
requisite standing when the foreclosure complaint is
filed. See Rigby v. Wells Fargo Bank, N.A., 84 So.3d
1195, 1196 (Fla. 4th DCA 2012) (citing: Venture

Holdings & Acquisitions Grp., LLC v. A.I.M. Funding
Grp., LLC, 75 So.3d 773, 776 (Fla. 4th DCA 2011)). “It
is axiomatic that plaintiff has standing to sue if it was
the lawful holder of the note and mortgage when the
action was commenced.” Mortgage Electronic Registration Systems, Inc. v. Coakley, 41 A.D.3d 674, 838
N.Y.S.2d 622 (2nd Dept 2007).
4.62 Note that “[t]he doctrine of standing is
designed to preclude persons who have no interest in
a controversy from bringing suit.” Raintree Homes,
Inc. v. Village of Long Grove, 209 Ill. 2d 248, 262, 807
N.E.2d 439, 282 Ill. Dec. 815 (2004). “A party’s standing to sue must be determined as of the time the suit
is filed.” Village of Kildeer v. Village of Lake Zurich,
167 Ill. App. 3d 783, 786, 521 N.E.2d 1252, 118 Ill.
Dec. 559 (1988). “[A] party either has standing at the
time the suit is brought or it does not.” Id.
4.63 In the Schwartzwald case, supra, the Ohio
Court of Appeals, also determined that: “in order to
have a real interest in a foreclosure action, a party
must be the owner and holder of the note and the
mortgage at the time it commences the action,” U.S.
Bank, N.A. v. Richards, 189 Ohio App.3d 276, 2010
Ohio 3981, ¶ 13, 938 N.E.2d 74 (9th Dist), citing: Everhome Mtge. Co. v. Rowland, 10 Dist. Franklin No.

App.238a
07AP-615, 2008 Ohio 1282, ¶ 12 (“In foreclosure
actions, the real party in interest is the current holder
of the note and mortgage”); Wells Fargo Bank, N.A. v.
Sessley, Franklin App. No. 09AP-178, 188 Ohio App.
3d 213, 2010 Ohio 2902, ¶ 11, 935 N.E.2d 70; Quantum
Servicing Corp. v. Haugabrook, 9th Dist. Summit No.
26542, 2013-Ohio-3516, ¶ 8; Wells Fargo Bank N.A. v.
Horn, 9th Dist. Lorain No. 12CA010230, 2013-Ohio2374, ¶ 10; BAC Home Loan Serv. v. McFerren, 9th Dist.
Summit No. 26384, 2013-Ohio-3228, ¶ 13; Wells Fargo
Bank, N.A. v. Stovall, Cuyahoga App. No. 91802, 2010
Ohio 236.
4.64 It is important to note that “[a] plaintiff seeking foreclosure must establish that it was the owner or
holder of the note and mortgage at the time that it
commenced the foreclosure action.” See: Mortgage
Elec. Registration Sys. v. Coakley, 41 A.D.3d 674, 838
N.Y.S.2d 622 [2nd Dept 2007]; Federal Natl. Mtge.
Assn. v. Youkelsone, 303 A.D.2d 546, 755 N.Y.S.2d
730 [2nd Dept 2003]; See, also: Wells Fargo Bank,
N.A. v. Marchione, 69 A.D.3d 204, 887 N.Y.S.2d 615
[2nd Dept 2009].
4.65 “In order to commence a foreclosure action,
a plaintiff must have a legal or equitable interest in
the mortgage. A plaintiff has standing where it is the
holder or assignee of both the subject mortgage and of
the underlying note at the time the action is commenced,” Bank of N.Y. v. Silverberg, 86 A.D.3d 274,
926 N.Y.S.2d 532 [2011]; Aurora Loan Servs., LLC v.
Weisblum, 85 A.D.3d 95, 923 N.Y.S.2d 609 [2011];
Wells Fargo Bank, N.A. v. Marchione, 69 A.D.3d 204,
207, 887 N.Y.S.2d 615 [2009]; U.S. Bank, N.A. v.
Collymore, 68 A.D.3d 752, 890 N.Y.S.2d 578 [2009];
Countrywide Home Loans, Inc. v. Gress, 68 A.D.3d

App.239a
709, 888 N.Y.S.2d 914 [2009]); Deutsche Bank Natl.
Trust Co. v. Spanos, 102 A.D.3d 909, 911, 961 N.Y.S.2d
200; OneWest Bank FSB v. Carey, 104 A.D.3d 444,
960 N.Y.S.2d 306 [1st Dept 2013]; Bank of New York
Mellon Trust Co. NA v. Sachar, 95 A.D.3d 695, 943
N.Y.S.2d 893 [1st Dept 2012]; GRP Loan, LLC v.
Taylor, 95 A.D.3d 1172, 945 N.Y.S.2d 336 [2nd Dept
2012]. The decision in Bank of New York v. Silverberg,
86 A.D.3d at 280, (2nd Dep’t, 2011) held that: “a plaintiff does not have standing to bring a foreclosure
action if does not own the note. [sic]
4.66 In Kluge v. Fugazy et al., 145 A.D.2d 537;
536 N.Y.S.2d 92 (N.Y, 1988), it was determined that:

“foreclosure of a mortgage may not be brought by one
who has no title to it and absent transfer of the debt,
the assignment of the mortgage is a nullity [Emphasis

supplied]. Essentially, the Kluge decision found that,
because the plaintiff was not the holder of the promissory note and the assignee of the mortgage, it lacked
standing to file the collection and mortgage foreclosure
action. See, also: Deutsche Bank Nat’l Trust Co. v.
Barnett, 88 A.D.3d 636, 637, 931 N.Y.S.2d 630; Bank of
NY v. Silverberg, 86 A.D.3d 274, 926 N.Y.S.2d 532;
Campaign v. Barba (23 A.D.3d 327, 805 N.Y.S.2d 86
[2d Dept 2005].
4.67 “The transfer of a mortgage without a note
is a nullity and insufficient to confer standing to foreclose.” See: U.S. Bank N.A. v. Dellarmo, 94 A.D.3d
746, 748, 942 N.Y.S.2d 122 (2nd Dep’t 2012); Deutsche
Bank Nat’l Trust Co. v. Barnett, 88 A.D.3d 636, 637,
931 N.Y.S.2d 630 (2nd Dep’t 2011); Bank of N.Y. v.
Silverberg, 86 A.D.3d at 280. “An assignment of a mortgage without assignment of the underlying note or
bond is a nullity, and no interest is acquired by it.”

App.240a

Merritt v. Bartholick, 36 NY 44, 45, 34 How. Pr. 129,
1 Transc. App.63 [1867]; Bank of N.Y. v. Silverberg,
86 A.D.3d 274, 926 N.Y.S.2d 532 [2011]; LaSalle Bank
Natl. Assn. v. Ahearn, 59 A.D.3d 911, 912, 875 N.Y.S.2d
595 [2009].
4.68 “The collateral lien of the mortgage could
have no legal existence when separated from the note
and transferred to others than the holder of the note,
but so long as the two remain together, owned and
possessed by the same person, they operate together and
are obligations for the payment of the same indebtedness.” Matter of Pirie, 198 NY 209, 91 N.E. 587 (1910).
4.69 In Carpenter v. Longan, 83 U.S. 271, 274, 21
L.Ed 313 [1873], the U.S. Supreme Court determined
that: “an assignment of the mortgage without the note
is a nullity.” See: US Bank N.A. v. Madero, 80 A.D.3d
751, 752, 915 N.Y.S.2d 612 [2011]; US Bank, N.A. v.
Collymore, 68 A.D.3d at 754; Kluge v. Fugazy, 145
A.D.2d 537, 538, 536 N.Y.S.2d 92 [1988] [plaintiff, the
assignee of a mortgage without the underlying note,
could not bring a foreclosure action]; See, also: Flyer
v. Sullivan, 284 App Div 697, 698, 134 N.Y.S.2d 521
[1954]; Beak v. Walts, 266 App Div 900, 42 N.Y.S.2d
652 [1943].
4.70 Note that “ownership of the note is part of
a Plaintiff’s prima facie case and its burden of proof”
Wells Fargo Bank, N.A., v. Cohen, 80 A.D.3d 753, 915
N.Y.S.2d 569 (2d Dept 2011); Argent Mtge. Co., LLC
v. Mentesana, 79 A.D.3d 1079, 915 N.Y.S.2d 591 (2d
Dept 2010); Campaign v. Barba, 23 A.D.3d 327, 805
N.Y.S.2d 86 (2nd Dept 2005).

App.241a
4.71 In Deutsche Bank National Trust v. Brumbaugh, 2012 OK 3, 270 P.3d 151, ¶ 11, it was determined that: [t]o commence a foreclosure action, a

plaintiff must demonstrate it has a right to enforce the
note and, absent a showing of ownership, the plaintiff
lacks standing. See: Gill v. First Nat. Bank & Trust
Co. of Oklahoma City, 1945 OK 181, 195 Okla. 607,
159 P.2d 717.

4.72 Thus, “[t]he party seeking foreclosure must
present evidence that it owns and holds the note and
mortgage in question in order to proceed with a foreclosure action.” Lizio v. McCullom, 36 So.3d 927, 929
(Fla. 4th DCA 2010). “To establish a prima facie case
in an action to foreclose a mortgage, the plaintiff must
establish the existence of the mortgage and mortgage
note, ownership of the mortgage and note.” Household
Fin. Realty Corp. of N.Y. v. Winn, 19 A.D.3d 545, 796
N.Y.S.2d 533 [2005]; Sears Mtge. Corp. v. Yaghobi, 19
A.D.3d 402, 796 N.Y.S.2d 392 [2005]; Ocwen Fed.
Bank FSB v. Miller, 18 A.D.3d 527, 794 N.Y.S.2d 650
[2005]; U.S. Bank Trust N.A. Trustee v. Butti, 16 A.D.3d
408, 792 N.Y.S.2d 505 [2005]). First Union Mortgage
Corp. v. Fern, 298 A.D.2d 490, 749 N.Y.S.2d 42 [2d
Dept 2002]; Village Bank v. Wild Oaks, Holding, Inc.,
196 A.D.2d 812, 601 N.Y.S.2d 940 [2d Dept 1993]).
4.73 “A plaintiff must demonstrate it has a right
to enforce the note and, absent a showing of ownership, the plaintiff lacks standing.” Gill v. First Nat.
Bank & Trust Co. of Oklahoma City, 1945 OK 181,
195 Okla. 607, 159 P.2d 717. “To foreclose a mortgage,
a plaintiff must demonstrate that it has a right to
enforce the note, and without such ownership, the
plaintiff lacks standing.” Wells Fargo Bank, N.A. v. Ford,

App.242a
418 N.J. Super. 592, 15 A.3d 327, 329 (N.J. Super. Ct.
App. Div. 2011).
4.74 “The plaintiff failed to demonstrate its prima
facie entitlement to judgment as a matter of law
because it did not establish that it had standing as the
lawful holder or assignee of the subject note on the
date it commenced this action.” See: Deutsche Bank
Nat’l Trust Co. v. Barnett, 88 A.D.3d 636, 931 N.Y.S.2d
630; U.S. Bank N.A. v. Madero, 80 A.D.3d 751, 915
N.Y.S.2d 612; U.S. Bank, N.A. v. Collymore, 68 A.D.3d
752, 890 N.Y.S.2d 578.
4.75 In the aforesaid collection and mortgage
foreclosure actions, the party in interest is the current
holder of the note and the mortgage. See: Chase Manhattan Mtge. Corp. v. Smith, Hamilton App. No. C061069, 2007 Ohio 5874, at P18; Kramer v. Millott,
(Sept. 23, 1994), Erie App. No. E-94-5, 1994 Ohio App.
LEXIS 4454 (“because the plaintiff did not prove that
she was the holder of the note and mortgage, she did
not establish herself as a real party in interest”). “A
party who fails to establish itself as the current holder
is not entitled to judgment as a matter of law.” First
Union Nat’l Bank v. Hufford (2001), 146 Ohio App.3d
673, 677, 679-680, 2001 Ohio 2271, 767 N.E.2d 1206.
4.76 “To foreclose upon a promissory note, the
plaintiff must be the ‘holder’ in order to be the real party
in interest.” Troupe v. Redner, 652 So.2d 394, 395-96
(Fla. 2d DCA 1995); Mortg. Elec. Registration Sys. v.
Azize, 965 So.2d 151, 153 (Fla. 2d DCA 2007).
4.77 Standing is an aspect of justiciability which,
when challenged, must be considered at the outset of any
litigation.” See: Wells Fargo Bank Minnesota National
Association, 42 A.D.3d 239, 837 N.Y.S.2d 247 [2nd

App.243a
Dept 2007]. “If a plaintiff lacks standing to sue, the
plaintiff may not proceed in the action,” Deutsche

Bank National Trust Company, et al. v. Campbell et
al, 21 Misc. 3d 1145[A], 875 N.Y.S.2d 819, 2008 NY
Slip Op 52506[U] [Supreme Court of New York, Kings
County 2008].

4.78 “Where the defendant denies that the party
seeking foreclosure has an ownership interest in the
mortgage, the issue of ownership becomes an issue the
plaintiff must prove. Carapezza v. Pate, 143 So.2d
346, 347 (Fla. 3d DCA 1962). “Where standing is put
into issue by a defendant, the plaintiff must prove its
standing in order to be entitled to relief.” See: US Bank
N.A. v. Madero, 80 A.D.3d 751, 752, 915 N.Y.S.2d 612
(2nd Dep’t 2011); U.S. Bank, N.A. v. Collymore, 68
A.D.3d 752, 753, 890 N.Y.S.2d 578 (2nd Dep’t 2009);
Deutsche Bank Natl. Trust Co. v. Haller, 100 A.D.3d
680, 954 N.Y.S.2d 551 [2d Dept 2012]. TPZ Corp. v.
Dabbs, 25 A.D.3d 787, 789, 808 N.Y.S.2d 746 [2006];
See, also: Society of Plastics Indus. v. County of Suffolk,
77 NY2d 761, 769, 573 N.E.2d 1034, 570 N.Y.S.2d 778
[1991]). CitiMortgage, Inc. v. Rosenthal, 88 A.D.3d
759, 931 N.Y.S.2d 638 [2011]. “Where a plaintiff’s
standing . . . is placed in issue by a defendant, it is
incumbent upon the plaintiff to prove its standing to
be entitled to relief.” See: Citimortgage, Inc. v. Stosel,
89 A.D.3d 887, 934 N.Y.S.2d 182 [2d Dept 2011].
4.79 Where standing is raised as a defense by
the defendant, the plaintiff is required to prove its
standing before it may be determined whether the
plaintiff is entitled to relief. See: U.S. Bank, N.A. v.
Collymore, 68 A.D.3d 752, 753, 890 N.Y.S.2d 578 [2d
Dept 2009]. In other words: “Where a defendant raises
the issue of standing, the plaintiff must prove its

App.244a
standing to be entitled to relief.” (U.S. Bank, N.A. v.
Dellarmo, 94 A.D.3d 746, 748, 942 N.Y.S.2d 122 [2d
Dept 2012]; U.S. Bank, N.A. v. Sharif, 89 A.D.3d 723,
724, 933 N.Y.S.2d 293 [2d Dept 2011]; Bank of New
York v. Silverberg, 86 A.D.3d 274, 279, 926 N.Y.S.2d
532 [2d Dept 2011]; U.S. Bank, N.A. v. Collymore, 68
A.D.3d 752, 753, 890 N.Y.S.2d 578 [2d Dept 2009].)
4.80 In a collection and mortgage foreclosure
case, “the plaintiff must plead and prove as part of its
prima facie case that it owns the note and mortgage
and has the right to foreclose.” Wells Fargo Bank,
N.A., 80 A.D.3d 753, 915 N.Y.S.2d 569 (2d Dept 2011);
Argent Mtge. Co., LLC v. Mentesana, 79 A.D.3d 1079,
915 N.Y.S.2d 591 (2d Dept 2010); Campaign v. Barba,
23 A.D.3d 327, 805 N.Y.S.2d 86 (2nd Dept 2005).
4.81 In Wells Fargo Bank, N.A. v. Jordan, Cuyahoga App. No. 91675, 2009 Ohio 1092, it was determined that: “a party lacks standing to bring a foreclosure
action if the party cannot prove that it owned the note
and mortgage on the date the complaint was filed.”
4.82 “It is well established that in a foreclosure
action it is plaintiff’s burden to provide admissible evidence of its standing as the lawful holder of the subject note and mortgage at the time the action was commenced.” See: U.S Bank Nat’l Asso’n. v. Madero, 80
A.D.3d 751, 915 N.Y.S.2d 612 (2d Dept. 2011); Aurora
Loan Services, LLC v. Weisblum, 85 A.D.3d 95, 923
N.Y.S.2d 609 (2d Dept. 2011); Bank of New York v.
Silverberg, 86 A.D.3d 274, 926 N.Y.S.2d 532, 2011 NY
Slip Op 5002 (2d Dept. 2011); U.S. Bank, N.A. v.
Collymore, 68 A.D.3d 752, 890 N.Y.S.2d 578 (2d Dept.
2009).

App.245a
4.83 More specifically, lack of standing cannot be
remedied after the filing of the complaint. In this regard:
“[i]f, at the commencement of the action, a plaintiff
does not have standing to invoke the court’s jurisdiction, the plaintiff cannot “cure the lack of standing by
[subsequently] obtaining an interest in the subject of
the litigation and substituting itself as the real party
in interest.” Fed. Home Loan Mtge. Corp. v. Schwartzwald, Slip Opinion No. 134 Ohio St.3d 13, 2012 Ohio
5017, 979 N.E.2d 1214.
4.84 Thus, “a retroactive assignment cannot be
used to confer standing upon the assignee in a foreclosure action commenced prior to the execution of an
assignment.” Wells Fargo Bank, N.A. v. Marchione, 69
A.D.3d 204, 210, 887 N.Y.S.2d 615 [2d Dept 2009].
4.85 “A plaintiff’s lack of standing at the time a
complaint is filed in a foreclosure action cannot be
cured by substituting the real party in interest for an
original party. Wells Fargo Bank, N.A. v. Jordan, 8th
Dist. No. 91675, 2009 Ohio 1092, ¶ 24. “[I]n a foreclosure
action, a bank that was not the mortgagee when suit
was filed cannot cure its lack of standing by subsequently obtaining an interest in the mortgage.” Id. at
¶ 24; See, also: Deutsche Bank Natl. Trust Co. v.
Triplett, 8th Dist. No. 94924, 2011 Ohio 478, ¶ 12;
Wells Fargo Bank N.A. v. Byrd, 178 Ohio App.3d 285,
2008 Ohio 4603, 897 N.E.2d 722 (1st Dist.).
4.86 Note that “[a] plaintiff cannot rely on
procedural rules similar to cure a lack of standing at
the commencement of litigation,” Davis v. Yageo Corp.,
481 F.3d 661, 678 (9th Cir. 2007) (“whether or not Dux
was the real-party-in-interest, it does not have standing, and it cannot cure its standing problem through an
invocation of Fed. R. Civ. P. 17(a)”); Clark v. Trailiner

App.246a

Corp., 242 F.3d 388 (10th Cir. 2000) (table), opinion
reported at 2000 U.S. App. LEXIS 29006, 2000 WL
1694299 (noting that the plaintiff cannot “retroactively
become the real-party-in-interest” in order to cure a
lack of standing at the filing of the complaint [emphasis
sic]); State v. Property at 2018 Rainbow Drive, 740
So.2d 1025, 1027-1028 (Ala. 1999) (rejecting the argument that a lack of standing can be cured after the
filing of the complaint); Consumer Fedn. of Am. v.
Upjohn Co., 346 A.2d 725, 729 (D.C. App. 1975). See,
also: McLean v. JP Morgan Chase Bank Natl. Assn.,
79 So.3d 170, 173 (Fla. App. 2012) (“a party is not permitted to establish the right to maintain an action
retroactively by acquiring standing to file a lawsuit
after the fact”).
4.87 In other words, “the plaintiff’s lack of standing
at the inception of the case is not a defect that may be
cured by the acquisition of standing after the case is
filed.” Progressive Exp. Ins. Co. v. McGrath Comty.
Chiropractic, 913 So.2d 1281, 1286 (Fla. 2d DCA 2005).
“Thus, a party is not permitted to establish the right
to maintain an action retroactively by acquiring
standing to file a lawsuit after the fact.” Id. at 1286.
4.88 “Where a valid cause of action is not stated,
the party moving for judgment is not entitled to the
requested relief, even on default.” Green v. Dolphy
Constr. Co. 187 A.D.2d 635, 590 N.Y.S.2d 238 (2nd
Dep’t, 1992); Citigroup Global Mkts. Realty Corp. v.
Smith, 33 Misc. 3d 1234(A); 943 N.Y.S.2d 790; 2011
N.Y.
4.89 “It becomes essential to establish that the
person who demands payment of a negotiable note, or
to whom payment is made, is the duly qualified holder.
Otherwise, the obligor is exposed to the risk of DOUBLE

App.247a
PAYMENT, or at least to the expense of litigation
incurred to prevent duplicative satisfaction of the
instrument. These risks provide makers with a recognizable interest in demanding proof of the CHAIN OF
TITLE.” Adams v. Madison Realty & Development,
Inc. (C.A.3, 1988), 853 F.2d 163, 168.
4.90 “Standing is a threshold question for the
court to decide in order for it to proceed to adjudicate
the action.” State ex rel. Jones v. Suster, 84 Ohio St.3d
70, 77, 1998 Ohio 275, 701 N.E.2d 1002.
4.91 “If a plaintiff lacks standing to sue, the plaintiff may not proceed in the action.” Stark v. Goldberg,
297 A.D.2d 203, 746 N.Y.S.2d 280 (1st Dept 2002).
4.92 “Even without opposition, a plaintiff in a
foreclosure action must satisfy a court that it has proper
standing or title to bring the action, that the mortgage
and note was actually funded by the plaintiff, and that
the transaction itself, the one sued upon, has the
indicia of reliability and is free of fraud. Kluge v.
Fugazy, 145 A.D.2d 537, 536 N.Y.S.2d 92 (2nd Dep’t
1988); Katz v. East-Ville Realty Co, 249 A.D.2d 243,
672 N.Y.S.2d 308 (1st Dep’t 1998).
4.93 In U.S. Bank National Association vs. Antonio
Ibañez, 941 N.E.2d 40 (Mass, 2011), it was determined
that: the plaintiffs did not demonstrate that they were
the holders of the Ibanez and LaRace mortgages at the
time that they foreclosed these properties, and therefore

the trial court ruled the foreclosure sales were invalid.

4.94 A plaintiff who has no standing in an action
is subject to a jurisdictional dismissal since (1) courts
have jurisdiction only over controversies that involve
the plaintiff, (2) a plaintiff found to lack “standing is

App.248a
not involved in a controversy, and (3) the courts therefore have no jurisdiction of the case when such plaintiff purports to bring it.” Security Pac. Natl. Bank v.
Evans, 31 A.D.3d 278, 820 N.Y.S.2d 2.
4.95 The civil case of collection of monies and
mortgage foreclosure is vitiated by lack of justiciability
due to the counterclaim defendant’s lack of standing to
sue. The counterclaim defendant is not the owner, holder
or possessor of the PROMISSORY NOTE nor the
creditor of the mortgage indicated in the complaint.
4.96 In the absence of justiciability of the abovecaptioned case, the Court LACKS JURISDICTION to
render judgment for the counterclaim defendant.
Given the lack of justiciability in the above-captioned
case of collection of monies and mortgage foreclosure,
due to the plaintiff’s lack of standing at the time it
filed its complaint, a judgment issued in its favor would
be null and void on account of being issued without
jurisdiction (due to the plaintiff’s lack of standing),
and it would be a violation of due process. Arrogating
jurisdiction in a case where the plaintiff lacks standing constitutes a violation of due process. In the abovecaptioned case, the plaintiff lacked standing at the
time it filed its claim. The plaintiff violated due process
by filing a lawsuit without having standing to sue. If
the Court of First Instance arrogates jurisdiction in
the above-captioned collection and mortgage foreclosure
case, where the plaintiff lacks standing, this would
constitute a violation of due process. Therefore, its
judgment would be null and void and maintaining it
would be a grave injustice.
4.97 For the foregoing reasons, the counterclaimant files a cause of action for a declaratory judgment
on a question of law (Federal Question) and on the

App.249a
plaintiff-counterclaim defendant’s lack of standing to
sue. The lack of standing to sue deprives the Court of
jurisdiction to hear the action for collection of monies
and mortgage foreclosure filed by the plaintiff-counterclaim defendant.
Second Cause of Action: Nonexistence of Promissory
Notes [due to their Securitization Processes/Third
Party Payment/Recovery of Financial Claim]
Extinguishment of Promissory Notes
4.98 The defendants-counterclaimants incorporate
each and every one of the allegations contained in the
preceding and subsequent subsections.
4.99 Before filing the complaint for collection of
monies and mortgage foreclosure, the counterclaim
defendant’s predecessor sold the original PROMISSORY NOTES on the secondary mortgage market
between the dates of MARCH 5, 2003 AND JULY 9,
200938 and collected their amounts by payment by third
party.
38
NOTE #1

($180,000.00):

March 5, 2003

NOTE #2

($720,000.00):

March 5, 2003

NOTE #3

($900,000.00):

December 5, 1992

NOTE #4

($300,000.00):

March 5, 2003

NOTE #5

($300,000.00):

March 5, 2003

NOTE #6

($280,000.00):

March 5, 2003

NOTE #7

($700,000.00):

January 5, 2001

NOTE #8

($600,000.00):

March 5, 2003

NOTE #9

($1,200,000.00):

March 5, 2003

App.250a
4.100 After the sale of the original PROMISSORY NOTES on the secondary mortgage market,
said PROMISSORY NOTES were subject to “Securitization,” in the respective Trusts: MARCH 30, 2003 TO
JULY 15, 2009,39 i.e., they were converted—along
NOTE #10

($432,000.00):

February 28, 2004

NOTE #11

($800,000.00):

October 7, 2004

NOTE #12

($2,443,000.00):

December 27, 2005

NOTE #13

($680,000.00):

December 27, 2005

NOTE #14

($1,500,000.00):

July 9, 2009

NOTE #15

($1,020,000.00):

July 9, 2009

NOTE #16

($920,000.00):

July 9, 2009

NOTE #17

($550,000.00):

July 9, 2009

NOTE #18

($157,000.00):

July 9, 2009

NOTE #19

($100,000.00):

July 9, 2009

39
NOTE #1

($180,000.00):

March 30, 2003

NOTE #2

($720,000.00):

March 30, 2003

NOTE #3

($900,000.00):

December 16, 1992

NOTE #4

($300,000.00):

March 30, 2003

NOTE #5

($300,000.00):

March 30, 2003

NOTE #6

($280,000.00):

March 30, 2003

NOTE #7

($700,000.00):

January 30, 2001

NOTE #8

($600,000.00):

March 30, 2003

NOTE #9

($1,200,000.00):

March 30, 2003

NOTE #10

($432,000.00):

October 15, 2004

NOTE #11

($800,000.00):

October 15, 2004

App.251a
with other hundreds or thousands of promissory
notes—into “SECURITIES.”
4.101 Each PROMISSORY NOTE in controversy,
after its process of Securitization, lost its original legal
identity. The “Securities” are the new kind of vehicle
resulting from the “pool” of hundreds of promissory
notes, including the original PROMISSORY NOTE
subject to Securitization.40

NOTE #12

($2,443,000.00):

January 5, 2006

NOTE #13

($680,000.00):

January 5, 2006

NOTE #14

($1,500,000.00):

July 15, 2009

NOTE #15

($1,020,000.00):

July 15, 2009

NOTE #16

($920,000.00):

July 15, 2009

NOTE #17

($550,000.00):

July 15, 2009

NOTE #18

($157,000.00):

July 15, 2009

NOTE #19

($100,000.00):

July 15, 2009

40 The PROMISSORY NOTE and the Securities are regulated,
respectively, by Chapter 2 and Chapter 8 of the Puerto Rico
Commercial Transactions Act, 19 L.P.R.A. § 501, et seq., § 1701
et seq.; 19 L.P.R.A. § 504; 19 L.P.R.A. § 1702(15); and by Section
3 and Section 8, respectively, of the Uniform Commercial Code of
the United States of America, UCC § 3-104; UCC § 8-102 (15);
and the Tax Reform Act of 1986-REMICs, 26 CFR § 1.860 F-2, et
seq. ““Real Estate Mortgage Investment Conduits (REMICs)

came into existence through the Tax Reform Act of 1986. Under
this act, qualified residential and commercial mortgages [sic]
notes are pooled and securitized.”

App.252a
4.102 The Securities are the new legal vehicle
resulting from said process of Securitization of the
promissory notes.41
4.103 After the sale of each original PROMISSORY NOTE on the secondary market, all their past
holders collected their respective financial claims and
the debt thereto evidenced by each original promissory
note was extinguished by payment by a third party.
Upon extinguishment of the debt, each mortgage
securing it was also extinguished.
4.104 In addition, after the process of Securitization, each original Promissory Note in question lost its
original legal identity (regulated by Article 2 of the
Commercial Transactions Act, supra, and UCC
Section 3, supra). After this Securitization process,
each promissory note in question, along with hundreds
or thousands of other promissory notes, became
something of a new nature: Securities (regulated by
Article 8 of the Commercial Transactions Act, supra,
and UCC Section 8, supra).
4.105 For the foregoing reasons, the counterclaimants file a cause of action against the counterclaim
defendant on the grounds of Nonexistence-Extinguishment of PROMISSORY NOTES due to their Securitization process and payment by a third party. This cause
of action is thus filed.

41 Cf. Chapter 2, Chapter 8 of the Puerto Rico Commercial
Transactions Act, 19 L.P.R.A. § 501, et seq., § 1701 et seq.; 19
L.P.R.A. § 504; 19 L.P.R.A. § 1702(15); Section 3, Section 8 of the
Uniform Commercial Code of the United States of America, UCC
§ 3-104; UCC § 8-102 (15); and the Tax Reform Act of 1986REMICs, 26 CFR § 1.860 F-2, et seq.

App.253a
Third and Fourth Causes of Action:
Nonexistence/Extinguishment of Pledge
4.106 The defendants-counterclaimants incorporate each and every one of the allegations contained in
the preceding and subsequent subsections.
4.107 Article 1762 of the Civil Code, 1930, provides, in relevant part: “ . . . in order to establish the
pledge agreement, it is necessary for possession of the
pledge to be given to the creditor, or a third party by
mutual agreement.
4.108 The counterclaim defendant is not in possession of the promissory notes indicated in its complaint.
The counterclaim defendant’s predecessor sold said
promissory notes on the secondary market prior to the
date on which the instant complaint was filed. After
the trading of each of the aforementioned notes on the
secondary market, they were each subject to Securitization. As a consequence, they lost their legal identity
and, together with other thousands or hundreds of
promissory notes, they formed a pool that generated a
new kind of vehicle: Securities.
4.109 Therefore, causes of action exist for nonexistence/extinguishment of pledges. Said causes of action
are thus filed.
Fifth, Sixth and Seventh Causes of Action:
Nonexistence of Mortgage, Extinguishment of
Mortgage, Extinguishment of Mortgage
Loan Agreement
4.110 The defendants-counterclaimants incorporate each and every one of the allegations contained in
the preceding and subsequent subsections.

App.254a
4.111 Article 1774 of the Civil Code, 1930, provides that “[i]n addition to the requirements laid out
in Article 1756, for the mortgage to be validly established it is essential for the instrument in which it is
established to be registered in the property registry.
In mortgage law, it is known that registration does not
validate acts or contracts that are null and void under
law, nor does it change the legal relationships of the
parties to such acts or contracts. Article 203 of the
Property Registry Act of the Commonwealth of Puerto
Rico, 30 L.P.R.A. Sec. 2454, provides “total cancellation
will be appropriate: . . . 3. When the nullity of the title or
entry is declared by a court.”
4.112 In the above-captioned case, each mortgage deed indicated in the above-captioned complaint
is null and void, ab initio. Each mortgage deed indicated fails to state an upset price for the first auction.
There was no negotiation or agreement between the
parties regarding the upset price for the first auction.
The parties to the agreement did not establish the
appraisal price of the property in each of the aforesaid
deeds. In addition, upon the sale and collection of the
amount of each PROMISSORY NOTE by the counterclaim defendant’s predecessor and the process of Securitization of each PROMISSORY NOTE, the mortgages
securing them were extinguished.
4.113 In each deed, surreptitious mention is made
of an upset price equal to the loan amount granted,
without taking into consideration the property’s
appraisal value—as of the date of each mortgage
deed—plus its increase in value (appreciation). Said
clause on the upset price violates the aforesaid Article
80 of the Property Registry Act of the Commonwealth
of Puerto Rico, 30 L.P.R.A. Sec. 2575; it does not

App.255a
properly satisfy the principle of specialty and certainty
that governs our real property law. In point of fact, it
does not comply with the aforementioned legal principal since it surreptitiously determines the value of
each property as the principal amount of the loan,
which is completely disconnected from reality and fair
treatment, thus permitting abuse.
4.114 In a mortgage deed, the valuation of a property must be done validly and in a way that reflects
the property’s appraisal value plus the rate of increase
in value (appreciation). An upset price surreptitiously
and unilaterally inserted based on the loan principal
amount does not constitute a valid appraisal price. A
mortgage deed that contains a clause on “Property
Value” that surreptitiously refers to an upset price
equal to the principal amount of the loan is vitiated by
an irreparable defect—the absence of an upset price
valid for the first auction—which voids the mortgage
and, consequently, prevents its registration in the
Property Registry. If registration was carried out by
mistake or oversight, then such registration entries
should be canceled since they are null and void.
4.115 The aforementioned Article 80 of the Property Registry Act provides that, for the foreclosure and
collection of a mortgage loan, the mortgage deed must
state the value of the property agreed between the
parties to serve as upset price at the first auction to
be held. Article 104 of the Property Registry Act provides, inter alia, the price of the property agreed
between the parties in the mortgage deed will serve
as the auction upset price.
4.116 Article 1756 of the Civil Code, 1930, provides
that a mortgage is established to secure a principal
obligation. If the principal obligation is extinguished,

App.256a
then the mortgage is extinguished and it may not be
foreclosed on.
4.117 As of the date on which the complaint was
filed in the above-captioned collection and foreclosure
case, the plaintiff-counterclaim defendant had no
standing to claim foreclosure of the Mortgages since,
prior to the complaint, the plaintiff-counterclaim defendant’s predecessor sold the PROMISSORY NOTES on
the secondary market and collected the amount of each
original PROMISSORY NOTE through payment by
third party. In said market, each PROMISSORY NOTE
was subject to Securitization. Upon the completion of
this process, each PROMISSORY NOTE lost its original legal identity. The vehicles of a new kind resulting
from that process were Securities. When the original
PROMISSORY NOTE is extinguished, so is the
mortgage.
4.118 After the sale of each original PROMISSORY NOTE on the Secondary Mortgage Market, all
their past holders collected their respective financial
claims and the debt thereto evidenced by each original
promissory note was extinguished by payment by a
third party, and the promissory notes were converted
into something of a new nature: Securities. Upon
extinguishment of the debt, each mortgage securing it
was also extinguished.
4.119 Based on the foregoing, causes of action
exist for nonexistence of mortgages, extinguishment
of mortgages and extinguishment of Mortgage Loan
Agreements. Said causes of action are thus filed.

App.257a
Eighth Cause of Action:
Nullity of Auction Upset Price
4.120 The defendants-counterclaimants incorporate each and every one of the allegations contained in
the preceding and subsequent subsections.
4.121 Articles 80 and 104 of the Property Registry
Act of the Commonwealth of Puerto Rico require that
the contracting parties agree upon the value of the
property in the mortgage deed so that it may serve as
an upset price in the first auction to be held.
4.122 There was no negotiation or agreement
whatsoever between the parties regarding the value
of the property in each mortgage deed indicated in the
complaint. The contracting parties did not establish the
value of the property in the aforementioned mortgage
deed. The aforementioned mortgage deed clause on
“Property Value” for the auction upset price—Articles
80, 104, Property Registry Act of the Commonwealth
of Puerto Rico, 2015—does not state the value of the
property for the upset price. Instead, the aforesaid
clause surreptitiously refers to an upset price equal to
the principal amount of the respective loan. This
clause violates the aforementioned articles of the
Property Registry Act; it does not duly satisfy the
principle of specialty and certainty that governs our
real property law; and it does not comply with the
aforementioned legal principal since it surreptitiously
determines the value of the property to be the principal amount of the loan, which is completely disconnected
from reality and fair treatment; thus permitting
abuse. Hence, the nullity or invalidity of the property
value agreed between the parties in each mortgage
deed for the first auction upset price.

App.258a
4.123 In view of the above, cause of action exists
for the invalidity of the auction upset price in each
Mortgage Deed indicated in the complaint. Said cause
of action is thus filed.
Ninth Cause of Action:
Claim of Property Equity
4.124 The defendants-counterclaimants incorporate each and every one of the allegations contained in
the preceding and subsequent subsections.
4.125 A creditor may not appropriate the items
given in pledge or mortgage, nor dispose of them.
Article 1758 of the Civil Code, 1930. No one may be
deprived of their property except by an authority of
competent jurisdiction, for good cause of public or
social benefit, and with payment of fair compensation
to be determined as provided by law. Article 282 of the
Civil Code, 1930. The equity of a property belongs to
the owner of the property. Article 280 of the Civil
Code, 1930. No person may, in advance, waive rights
that are not yet held or known. (citations from the case
law of the Supreme Court of Puerto Rico omitted.) Nor
may nonexistent rights be waived.
4.126 The properties on which the counterclaim
defendant seeks to foreclosure on have equity. The
creditor cannot deny said right or appropriate such
rights of equity.
4.127 Consequently, cause of action exists for
the equity of each property indicated in the complaint.
Said cause of action is thus filed.

App.259a
Tenth Cause of Action:
Nullity of Agreement for Waiver of
Future Rights, i.e. “Equity” of the Properties
4.128 The defendants-counterclaimants incorporate each and every one of the allegations contained in
the preceding and subsequent subsections.
4.129 A creditor may not appropriate the items
given in pledge or mortgage, nor dispose of them.
Article 1758 of the Civil Code, 1930. The equity of a
property belongs to the owner of the property. Article
280 of the Civil Code, 1930.
4.130 The equity of the asset on which the counterclaim defendant seeks to foreclosure belongs to the
counterclaimant. Any alleged agreement to waive the
future right to the equity of the asset imposed by any
contract or each mortgage deed is null and void. No
person may, in advance, waive rights that are not yet
held or known. (citations from the case law of the
Supreme Court of Puerto Rico omitted.) In regard to
acts of waivers, nonexistent rights may not be waived
either.
4.131 In view of the foregoing, there is cause of
action for nullity of the alleged agreement to waive
future rights: equity of each property. Said cause of
action is thus filed.
Eleventh Cause of Action:
Nullity of Loan Repayment Schedules
4.132 The defendants-counterclaimants incorporate each and every one of the allegations contained in
the preceding and subsequent subsections.

App.260a
4.133 There is no contract except where the
requirements of consent, object and cause are met.
Article 1213 of the Civil Code, 1930. Consent is
manifested by the tender of the offer and acceptance
of the object and the cause that must make up the contract. Article 1214 of the Civil Code, 1930.
4.134 The amortization schedule for each mortgage deed indicated in the complaint, delivered by the
Originator to the defendants-counterclaimants, contains incorrect values. Said banking entity calculations
of the values detailed in each amortization schedule
were inaccurate. Since the values given in each amortization schedule are contrary to the agreed terms, said
amortization schedule is invalid. The defendantscounterclaimants file a cause of action for nullity ab
initio of each amortization schedule.
Twelfth Cause of Action:
Nullity of Principal Balance
4.135 The defendants-counterclaimants incorporate each and every one of the allegations contained in
the preceding and subsequent subsections.
4.136 There is no contract except where the
requirements of consent, object and cause are met.
Article 1213 of the Civil Code, 1930. Consent is
manifested by the tender of the offer and acceptance
of the object and the cause that must make up the contract. Article 1214 of the Civil Code, 1930.
4.137 The amortization schedule for each mortgage deed indicated in the complaint, delivered by the
Originator to the defendants-counterclaimants, contains incorrect values. Among them, the principal
balance. Since the values given in each amortization

App.261a
schedule are contrary to the agreed terms, said principal balance is spurious, inaccurate and invalid. The
defendants-counterclaimants file a cause of action for
nullity ab initio of each principal balance.
Thirteenth Cause of Action:
Nullity of Interest and Other Charges/Restitution
4.138 The defendants-counterclaimants incorporate each and every one of the allegations contained in
the preceding and subsequent subsections.
4.139 There is no contract except where the
requirements of consent, object and cause are met.
Article 1213 of the Civil Code, 1930. Consent is
manifested by the tender of the offer and acceptance
of the object and the cause that must make up the contract. Article 1214 of the Civil Code, 1930.
4.140 The amortization schedule for each mortgage deed indicated in the complaint, delivered by the
Originator to the defendants-counterclaimants, contains incorrect values. Among them, interest and
charges. The Originator’s calculations of the values
detailed in the aforesaid schedule, including interest
and other charges, were inaccurate. Since the values
given in each amortization schedule are contrary to
the agreed terms, said balances of interest and other
charges are spurious, inaccurate and invalid. In addition, any calculation of “charges” that depends on
incorrect values will also be incorrect and, therefore, its
amount is unenforceable.
4.141 More specifically, there is a discrepancy
between the multiple charges—percentages (%) with
respect to the principal amount—that appear in each
mortgage deed and in each PROMISSORY NOTE.

App.262a
The sum of the charges according to each mortgage
deed amounts to 30% of the principal. The collection
of said sum is not permitted by Financial Board Regulation 5722 of November 21, 1997, “Regarding interest
rates and other charges that may be collected or
enforced in certain types of loans and obligations.” The
defendants-counterclaimants file a cause of action for
nullity ab initio of interest and other charges and for
the restitution thereof.
Fourteenth and Fifteenth Causes of Action:
Application of Excessive Interest/Restitution
4.142 The defendants-counterclaimants incorporate each and every one of the allegations contained in
the preceding and subsequent subsections.
4.143 When something is received for which there
was no right to collect, which was unduly delivered as
the result of an error, the obligation to return it arises.
Article 1795 of the Civil Code, 1930.
4.144 Since the values of each loan repayment
schedule are incorrect, the monthly interest amounts
paid have been in excess of the agreed interest. Therefore, they should be refunded. The defendants-counterclaimants petition for restitution of interest paid in
excess.
Sixteenth Cause of Action: Articles 80, 104 of the
Property Registry Act of the Commonwealth of
Puerto Rico, 2015
4.145 The defendants-counterclaimants incorporate each and every one of the allegations contained in
the preceding and subsequent subsections.

App.263a
4.146 Articles 80 and 104 of the Property Registry
Act, supra, require that the contracting parties agree
upon the value of the property to serve as upset price
for the first auction. The agreement on said price must
be recorded in the mortgage deed in accordance with
the aforementioned article.
4.147 Each mortgage deed indicated in the complaint, on which the counterclaim defendant seeks to
foreclose, fails to satisfy the upset price requirement.
Such mortgages are vitiated by [in]valid auction upset
prices. The “pre-printed” clause on “Property Value” of
the aforementioned mortgage deeds violates Articles
80 and 104 of the Property Registry Act, supra. Said
clause does not duly satisfy the principle of specialty
and certainty that governs our real property law. Nor
it does not comply with the aforementioned legal principal since it surreptitiously determines the value of
the property as the principal amount of the loan,
which is completely disconnected from reality and fair
treatment, thus permitting abuse. There was no negotiation or agreement regarding the property value for the
upset price of the first auction. The contracting parties
did not establish, in each deed, the value of the property contingent on its appreciation value.
4.148 Therefore, a cause of action is filed under
Article 80 of the Property Registry Act to declare the
inappropriateness of foreclosure and collection of the
mortgage loan.

App.264a
Seventeenth, Eighteenth and Nineteenth Causes of
Action: Cancellations of Filing and Registration
Entries, Article 203 of the Property Registry Act of
the Commonwealth of Puerto Rico, 2015.
4.149 The defendants-counterclaimants incorporate each and every one of the allegations contained in
the preceding and subsequent subsections.
4.150 Article 1774 of the Civil Code, 1930, provides that “[i]n addition to the requirements laid out
in Article 1756, for the mortgage to be validly established it is essential for the instrument in which it is
established to be registered in the property registry.
In mortgage law, it is known that registration does not
validate acts or contracts that are null and void under
law, nor does it change the legal relationships of the
parties to such acts or contracts. Article 203 of the
Property Registry Act, 30 L.P.R.A. Sec. 2454, provides
“total cancellation will be appropriate: . . . 3. When the
nullity of the title or entry is declared by a court.
4.151 In the above-captioned case, each mortgage deed for which foreclosure is sought is null and
void, ab initio. Each mortgage deed indicated fails to
state an upset price for the first auction. There was no
negotiation or agreement between the parties regarding the property value for the upset price for the first
auction in each mortgage deed. The contracting parties
did not establish, in each deed indicated, the value of
the property contingent on the market value.
4.152 In each mortgage deed indicated, a surreptitious reference is made to an upset price equal to the
principal amount of the loan. This clause violates the
aforementioned Articles 80 and 104 of the Property
Registry Act, supra; it does not properly satisfy the

App.265a
principle of specialty and certainty that governs our
real property law. In point of fact, it does not comply
with the aforementioned legal principal since it surreptitiously determines the value of the property as the
principal amount of the loan, which is completely
disconnected from reality and fair treatment, thus
permitting abuse.
4.153 In a mortgage deed, the appraisal of a
property must be done validly and in a way that reflects
reality. An upset price surreptitiously and unilaterally inserted by the Originating Bank based on the
loan principal amount does not constitute a valid
property value. A mortgage deed that contains a clause
on “Property Value” that surreptitiously refers to an
upset price equal to the principal amount of the loan
is vitiated by an irreparable defect—the absence of an
upset price valid for the first auction—which voids the
mortgage and, consequently, prevents its registration
in the Property Registry. If registration was carried
out by mistake or oversight, then such registration
entries should be canceled since they are null and
void. The counterclaimants so petition. A cause of
action is filed for the cancellation of the filing and
registration entries of each indicated mortgage deed
in the Property Registry under Article 203 of the Property Registry Act, supra.
Twentieth Cause of Action: Unconstitutionality of
Article 104 of the Property Registry Act of the
Commonwealth of Puerto Rico, 2015,
3rd and 4th Paragraphs
4.154 The defendants-counterclaimants incorporate each and every one of the allegations contained in
the preceding and subsequent subsections.

App.266a
4.155 The criteria for the determination of a—
constitutional—upset price is the appraisal value of
the property as of the date of the mortgage deed
contingent on its increase in value (appreciation).
4.156 The third and fourth paragraphs of Article
104 of the Property Registry Act, supra, are unconstitutional and are contrary to free market laws insofar
as they impose an auction “upset price” for all cases
and do not provide alternatives for adjustment of the
upset price in cases where there is a difference
between the upset price agreed between the parties in
the mortgage deed for the auction (value of the property) and the property’s appreciation value (added
value) at the time of foreclosure—they do not protect
the consumer’s property right with respect to equity.42
4.157 As an example, if, in a mortgage, the
auction upset price had been agreed between the
parties in accordance with the appraisal price of
$100,000.00 dollars and the property value at the time
of foreclosure (equivalent to the original appraisal
price plus the added value for permanent improvements;
42 An “upset price” is a regulation that makes it illegal to pay a
price below a specified level. The existence of “upset prices”
blocks the action of the forces of supply and demand, and could
result in the quantity or benefit produced differing from the
quantity or benefit determined in a free market free from
external changes.

Conversely, the “natural price”—equilibrium price and also
fair price—is the price prevailing on the long-term market free
from external changes, around which the real price or market
price fluctuates randomly, as a consequence of the action of the
Law of Supply and Demand, inter alia. Simply, the market price
is the price at which supply and demand are equalized céteris
páribus.

App.267a
constructions of expansions and new structures; normal
increase in value that can be expected in the real
estate market, inter alia) is $175,000 dollars, then the
upset price of $100,000.00 deprives the property
owner of the property right of $75,000.00 dollars. A
provision of law authorizing such deprivation of property is unconstitutional. We petition the court for a
declaration to such effect.
V.

Prayer for Relief

PURSUANT TO THE ABOVE, we petition the
Honorable Court to declare: (i) that the Complaint is
Denied; (i) that the Counterclaim is granted; (iii) any
other pronouncements appropriate under law.

App.268a
RESPECTFULLY SUBMITTED.
I CERTIFY: That a true and exact copy of this Brief
was served by mail on the attorneys of record on the date
it was filed.
In San Juan, Puerto Rico, on August 10, 2017.
MONGE LA FOSSE
ATTORNEY & COUNSELLORS AT LAW, P.S.W.
PO Box 192053
San Juan, Puerto Rico 00919-2053
Telefono: (787) 765-9090
TeleFax: (787) 765-9035
Celular: (787) 413-1135
Lic: 12496
Email: mongelafosselaw@gmail.com

Grace Monge La Fosse

App.269a
====================================
CERTIFICATE OF TRANSLATOR
# JF-2020-001_APP H
I am a United States court-certified interpreter,
and I CERTIFY that the above is a faithful translation
of the Spanish source, which I have performed to the
best of my ability. It consists of one hundred six (106)
pages, including this certification sheet, and contains
no changes or erasures.
The content of this translation is a Counterclaim
[Re: Collection of Monies and Civil Procedure] in the
Commonwealth of Puerto Rico Civil Case No. ECD2015-1017; and accompanying documents.
In Cambridge, Massachusetts, on January 19, 2020.
/s/ Joaquín Font
Joaquín Font
Font Translations
Calle Calaf 400, Suite 268
San Juan, PR 00918
Toll-Free Tel. & Fax: 1-877-JOAQUIN (562-7846)
e-mail: fonttranslations@gmail.com

App.270a
JUDGMENT OF COURT OF FIRST INSTANCE
SUPERIOR COURT OF CAGUAS, PUERTO RICO
(ENTRY: JULY 30, 2018)
NoReply@ramajudi-cial.pr <NoReply@ramajudi-cial.pr>
To: mongelafosselaw@gmail.com
30 July 2018 at 11:45
THE COMMONWEALTH OF PUERTO RICO
GENERAL COURT OF JUSTICE
COURT OF FIRST INSTANCE
SUPERIOR COURT OF CAGUAS
________________________
ORIENTAL BANK,

Plaintiff,
v.
MULTIVENTAS Y SERVICIOS, INC.,

Defendant.
________________________
Case No. E CD2015-1017
Courtroom No. 0702
Re: Mortgage Foreclosure
Before: Annette PRATS PALERM,
Superior Court Judge.

App.271a
Notice
To: Ms. Monge Lafosse, Grace
mongelafosselaw@gmail.com
Mr. Fernández Martínez, Alfredo
afernandez@delgadofernandez.com
Mr. Hernández Freire, Pedro Antonio
phernandez@delgadofernandez.com
I, THE UNDERSIGNED COURT CLERK HEREBY
CERTIFY AND INFORM YOU THAT, IN RELATION
TO THE: ABOVE-CAPTIONED CASE THIS COURT
ISSUED A JUDGMENT ON JULY 26, 2018.
A COPY IS ATTACHED OR LINK IS INCLUDED:
Tap here to access the corresponding electronic document
of this notification. The document will be available
through this link for 45 days since the notification was
filed in the case records.
/s/ Annette M Prats Palerm
Judge
YOU ARE INFORMED THAT, AS PARTY OR THE
PARTY’S LEGAL REPRESENTATIVE IN THE CASE
SUBJECT TO THIS JUDGMENT, YOU MAY FILE
AN APPEAL, PETITION FOR REVIEW OR PETITION FOR CERTIORARI, IN ACCORDANCE WITH
THE PROCEDURE AND WITHIN THE TERM STIPULATED BY LAW, RULE OR REGULATION.
I CERTIFY THAT THE DECISION ISSUED BY THE
COURT WAS DULY RECORDED AND FILED TODAY,

App.272a
JULY 30, 2018, AND THAT A COPY OF THIS NOTIFICATION WAS SENT TO THE AFOREMENTIONED
PERSONS TO THEIR ADDRESSES REGISTERED IN
THE CASE RECORDS, IN ACCORDANCE WITH
THE APPLICABLE LAW. ON THIS SAME DATE A
COPY OF THIS NOTIFICATION WAS FILED IN
THE CASE RECORDS.
IN CAGUAS, PUERTO RICO, ON JULY 30, 2018.
Lisilda Martinez Agosto, Intern
Name of the Regional Court Clerk
BY: /s/ Maria V. Montañez Marquez
Name and Signature of the
Assistant Court Clerk

App.273a

COMMONWEALTH OF PUERTO RICO
COURT OF FIRST INSTANCE
SUPERIOR COURT OF CAGUAS
________________________
ORIENTAL BANK,

Plaintiff,
v.
MULTI-VENTAS Y SERVICIOS, INC.;
MULTI-VENTAS Y SERVICIOS P.R., INC.;
MULTI-BATTERIES & FORKLIFTS, CORP.;
AWESOME, INC.; PEDRO RIVERA CONCEPCIÓN,
MARÍA MERCEDES FELICIANO CARABALLO
AND THE CONJUGAL PARTNERSHIP
CONSTITUTED BY BOTH,

Defendants.
________________________
Civil No. ECD2015-1017
Courtroom No. 702
Re: Collection of Monies, Mortgage Foreclosure
Before: Annette Prats PALERM,
Superior Court Judge.
JUDGMENT
Oriental Bank filed the Complaint in the instant
case on September 10, 2015. In the filed complaint,
Oriental Bank alleged that the defendant failed to

App.274a
perform its contractual obligations in relation to the
credit facilities described below; therefore, it requested
that payment be ordered of the amounts owed and
claimed therein, which are liquid and enforceable. On
October 1, 2015, the defendant filed its Answer to the
Complaint and Counterclaim whereby, in essence, it
denied the facts alleged in the Complaint and alleged
that Oriental Bank lacks standing to justify this
claim, given that the mortgage promissory notes, which
are the subject matter of the instant case, underwent
the securitization process. Meanwhile, Oriental Bank
filed the Answer to the Counterclaim on October 16,
2015 and alleged that it was the holder of the mortgage promissory notes that are the subject matter of
this case.
On October 2, 2015, the defendant filed a Motion
for the Exercise of the Right of Extinguishment of
Litigious Obligation and Petition for Order to Produce
Documents to Determine Sales Price for the Extinguisher to Pay the Said Price to the Assignee Together
with the other Items Imposed by Article 1425 of the
Civil Code. In the aforesaid Motion, the defendant
alleged that Oriental Bank negotiated and sold to a
third party the loans that are the subject matter of
this case. Under this allegation, the defendant requested
the exercise of the “extinguishment of litigious obligation,” in accordance with Article 1425 of the Civil Code
of Puerto Rico. After various procedural steps, this Court
granted the defendant’s petition and order the production of the documents requested by said party in relation to the exercise of the extinguishment of litigious
obligation. Notwithstanding, the Court of Appeals overturned the decision of this Court, concluding that “it
was wrong to authorize the discovery of evidence in

App.275a
this case without the existence of a litigious obligation. The decision of the Court of Appeals, after the
defendant had appealed to the Supreme Court, became
final and conclusive.
Subsequently, on May 31, 2017, the defendant
filed a Petition for Urgent Order under Rule 56 of Civil
Procedure, whereby it requested this Court to order
Oriental Bank to deposit in the Court vault all the
promissory notes that are the subject matter of this
litigation. After the defendant’s petition had been
Granted, Oriental Bank filed a Motion for Reconsideration, which was Granted and, consequently, the previous decision of this Court was left without effect. Notwithstanding, the parties were ordered to reach an
agreement “within the following 20 days in order to
carry out the expert inspection of the promissory notes
in question at the plaintiff’s offices and to inform the
Court once this order is complied with.” The defendant
exhausted all appeals and the decision of this Court
became final and conclusive.
Oriental Bank filed a Motion for Summary Judgment on May 24, 2017, in which it alleged that, in the
instant case, there are no disputed material facts and
that, therefore, the remedies sought in the Complaint
must be granted and the Counterclaim filed by the
defendant must be dismissed. Specifically, Oriental
Bank alleged that it is the holder of the mortgage
promissory notes and the creditor of the credit facilities
that are the subject matter of this litigation. Likewise,
Oriental Bank alleged that there is no dispute as to
the defendant’s non-performance of its contractual
obligations and as to the amounts owed by said party.

App.276a
On August 14, 2017, the defendant filed an Opposition and Answer to the Petition for Summary Judgment. In response to said motion, this Court issued an
Order on October 18, 2017, in which it determined
that the motion did not comply with that stipulated in
SLG Zapata Rivera v. J.F. Montalvo, 189 D.P.R. 414
(2013), and it gave the defendant the opportunity to
amend its opposition to the Motion for Summary Judgment, complying with the requirement of said case.
On April 25, 2018, the defendant filed its Opposition and Answer to the Petition for Summary Judgment, in which it alleged that it was improper to issue
judgment summarily in the instant case given that
there is a dispute as to the standing of Oriental Bank
to bring suit. In support of its allegation, the defendant submitted some expert reports in relation to each
of the mortgage promissory notes that are the subject
matter of this litigation. Subsequently, Oriental Bank
filed a reply to the Opposition and Answer to the
Petition for Summary Judgment, while the defendant
filed a rejoinder.
Having considered the Motion for Summary Judgment and the opposition filed by the defendant, as
well as its arguments and the documents that support
each of the alleged facts, this Court is in a position to
decide and it issues the following:
Findings of Fact
1. On June 7, 2007, Multi-Batteries & Forklifts,
Corp., through its President, the codefendant, Pedro
Rivera Concepción, granted a Loan Agreement before
the failed Eurobank whereby the latter granted them
a revolving credit line (loan number 2064012720) for
the total sum of $1,500,000.00, accruing interest at

App.277a
the Prime Rate (“Eurobank Prime Rate”) until its
payment in full. The Parties agreed that the revolving
credit line would expire on June 7, 2008. On that same
date, June 7, 2007, as evidence of the aforementioned
credit facility, Multi-Batteries & Forklifts, Corp. signed
a Master Promissory Note payable to Eurobank, or
upon demand, for the principal sum of $1,500,000.00,
before the notary public Rafael M. Arrillaga Romany,
affidavit number 3,100.
2. To guarantee the payment of the aforementioned credit facility, on June 7, 2007, Multi-Batteries
& Forklifts, Corp. signed a Lien and Secured Interest
Agreement. Under said contract, Multi-Batteries &
Forklifts, Corp. pledges, yields, assigns and transfers
to Oriental, as a secured creditor, a continuous lien
and secured interest over any right, title and interest
that said codefendant party may have over (a) all
current or future accounts of any kind and nature,
where the debtor is the creditor; (b) the entire
inventory kept by the debtor for sale; (c) all financial
Papers; (d) all Contracts, including, but not limited to,
any Sale Agreement, and all debtor rights regarding
monies owed and payable to the debtor, and all debtor
rights to receive insurance compensation, related indemnifications, compensations or guaranties and damage
claims by the debtor and any other right that the
debtor may have including to cancel the same and in
any other way to exercise all related actions; (e) all
Title Certificates; (f) all Intangible Assets; (g) all
Instruments; (h) all books, documents, ledgers, records
and other documents related to the collateral and the
equipment containing said books, documents, ledgers,
records and other documents; (i) all deposit or investment
accounts kept with the bank, including, but not limited

App.278a
to, the operations and collateral accounts; and (j) the
proceeds of all of the above, including, but not limited
to, any proceeds from the insurance policies related to
the collateral.
3. Likewise, as a guarantee for payment in full of
all current and future obligations of Multi-Batteries &
Forklifts, Corp., on June 7, 2007, the codefendants,
Multi-Ventas y Servicios, Inc., Multi-Ventas y Servicios
P.R., Inc., Pedro Rivera Concepción and María M.
Feliciano Caraballo granted Unlimited and Continuous
Guaranty Agreements that guaranteed payment in full
of all current and future Multi-Batteries & Forklifts,
Corp. debts.
4. Thus, on June 23, 2009, Multi-Batteries &
Forklifts, Corp. and the failed Eurobank granted a
First Amendment to the Loan Agreement, which
extended the termination date for the revolving credit
line to August 30, 2010.
5. On October 28, 2011, Multi-Batteries & Forklifts,
Corp. and Oriental granted a Second Amendment to
the Loan Agreement. Through the aforementioned
amendment, the defendant acknowledged that it owed
Oriental Bank, as of that date and for the revolving
credit line, the sum of $980,911.40. Likewise, the Parties
agreed to convert the balance owed of $980,911.40
into a term loan, which was identified with number
4201805. In addition, the signed amendment reduced
the limit of the revolving credit line to the sum of
$500,000.00 (loan number 2064012720).
6. With regard to the term loan for the sum of
$980,911.40, identified with number 4201805, MultiBatteries & Forklifts, Corp. undertook to make thirty
(30) consecutive monthly payments of $14,565.98

App.279a
each, and a final payment on May 31, 2014 for the
amount of $669,504.13 plus the interest owed to date.
Likewise, the Parties agreed that said loan would accrue
interest at a rate of 6.5%.
7. Also, with regard to the revolving credit line
(loan number 2064012720), the Parties agreed that
the date of termination would be October 28, 2012 and
that it would accrue interest at the Prime Rate plus a
two percent (2%) margin until its payment in full.
8. To secure the payment of the aforementioned
credit facilities, on October 28, 2011, the codefendants, Multi-Ventas y Servicios, Inc. and Awesome,
Inc., signed a Property Lien and Pledge Agreement
(Mortgage Promissory Notes). Under said contract,
the mortgage promissory notes and the mortgages
described below were granted as securities:
a.

Mortgage promissory note for the sum of
$432,000.00 payable to Eurobank, or upon
demand, with interest at the Prime Rate and
payable upon presentation. It is secured with
mortgage deed number 55, granted on February 17, 2004, before the notary public Nelson
William González Rosario. The mortgaged
property is the following:
“URBAN: Lot located in the North
Section of the Santurce Ward of this city,
San Juan, Puerto Rico, with a surface
area of 440.00 square meters. Bounded
on the NORTH, for 21.00 meters, by
Borinquen Avenue; on the SOUTH, for
20.94 meters, by the property owned by
Lorenzo Pimentel Sánchez and Monserrate Torres; on the EAST, for 22.47

App.280a
meters, by the Bartolomé Las Casas
Street; on the WEST, for 19.53 meters,
by lands that belong to the NinMartínez Estate.
It contains a 2-story house and has an
annex on the West side that faces Borinquen Avenue.
Property number 8,120, is registered on
Folio 146 of Book 1,114 of North Santurce,
San Juan Property Registry, First Section.
b.

Mortgage promissory note for the sum of
$900,000.00, payable to Banco Popular de
Puerto Rico and endorsed in favor of Eurobank,
or upon demand, with yearly interest equal
to the variable prime rate and payable upon
presentation. It is secured with mortgage
deed number 95, granted on September 28,
1992, before the notary public Luis E. López
Correa. The expiration of the mortgage promissory note and of the mortgage was extended
as established in deed number 243 granted
on December 20, 2005 before the notary public
Nelson William González Rosario. The mortgaged property is the following:
“RURAL: Plot of land located in the
Bairoa Ward in the Caguas Norte
Industrial Urbanization of the municipality of Caguas, Puerto Rico, identified
as plot #15. Bounded on the NORTH, by
Bairoa Avenue; on the SOUTH, by
Segura Avenue; on the EAST, by Plot
#10 of the same Industrial Urbanization;

App.281a
on the WEST, by Plot #16 of the same
Industrial Avenue. It has a surface area
of 9,041.79 square meters, equivalent to
2.3005 cuerdas.
Property number 50,228, is registered
on Folio 260 of Book 1,430 of Caguas,
Caguas Property Registry, First Section.
c.

Mortgage promissory note for the sum of
$700,000.00, payable to Banco Popular de
Puerto Rico and endorsed in favor of Eurobank,
or upon demand, with yearly interest equal
to half a percentage point under the variable
prime rate and payable upon presentation. It
is secured with mortgage deed number 81,
granted on December 6, 2000, before the notary
public Tomás Correa Acevedo. The expiration of the mortgage promissory note and of
the mortgage was extended as established in
deed number 243 granted on December 20,
2005 before the notary public Nelson William
González Rosario. The mortgaged property is
property number 50,228, as described above.

d.

Mortgage promissory note for the sum of
$2,443,000.00, payable to Eurobank, or upon
demand, with yearly interest at 12.00% and
payable upon presentation. It is secured with
mortgage deed number 246, granted on
December 20, 2005, before the notary public
Nelson William González Rosario. The mortgaged property is property number 50,228,
as described above.

e.

Mortgage promissory note for the sum of
$157,000.00, payable to Eurobank, or upon

App.282a
demand, with yearly interest at 15.00% and
payable upon presentation. It is secured with
mortgage deed number 30, granted on June
22, 2009, before the notary public Rafael M.
Arrillaga Romany. The mortgaged property
is property number 50,228, as described
above.
f.

Mortgage promissory note for the sum of
$180,000.00, payable to the Bearer, with
yearly interest at 11.5% and payable upon
presentation. It is secured with mortgage
deed number 285, granted on August 27,
1990, before the notary public Moisés Gómez
Rijos. The expiration of the mortgage promissory note and of the mortgage was extended
as established in deed number 33 granted on
June 22, 2009 before the notary public
Rafael M. Arrillaga Romany. The mortgaged
property is the following:
“RURAL: Plot of land located in the Río
Cañas Ward of the municipality of
Caguas, Puerto Rico, with a surface area
of 5,864.461 square meters. Bounded on
the NORTH, for a distance of 83.89
meters by State Road #1; on the SOUTH,
for a distance of 70.43 meters by lands
owned by Mrs. Antonia Avilés; on the
EAST, for a distance of 54.57 meters by
the “Quebrada Arenas” road; and on the
WEST, for a distance of 99.35 meters, by
lands owned by Mr. Antonio Torrecillas
Ruiz and Rafael Torrecillas for a distance
of 26.00 meters.

App.283a
Property number 28,525, is registered on
Folio 20 of Book 856 of Caguas, Caguas
Property Registry, First Section.
g.

Mortgage promissory note for the sum of
$720,000.00, payable to Eurobank and Trust
Company, or upon demand, with yearly
interest at 12% and payable upon presentation.
It is secured with mortgage deed number
107, granted on July 29, 1992, before the
notary public Nelson William González
Rosario. The expiration of the mortgage
promissory note and of the mortgage was
extended as established in deed number 33.
The mortgaged property is property number
28,525, as described above.

h.

Mortgage promissory note for the sum of
$300,000.00, payable to Eurobank, or upon
demand, with yearly interest at 12% and
payable upon presentation. It is secured with
mortgage deed number 75, granted on June
26, 1993, before the notary public Nelson
William González Rosario. The expiration of
the mortgage promissory note and of the
mortgage was extended as established in
deed number 33. The mortgaged property is
property number 28,525, as described above.

i.

Mortgage promissory note for the sum of
$300,000.00, payable to Eurobank, or upon
demand, with yearly interest at 12% and
payable upon presentation. It is secured with
mortgage deed number 57, granted on September 3, 1998, before the notary public Janice
Marie Bernal Maldonado. The mortgaged

App.284a
property is property number 28,525, as
described above.
j.

Mortgage promissory note for the sum of
$1,500,000.00, payable to Eurobank, or upon
demand, with yearly interest at 15.00% and
payable upon presentation. It is secured with
mortgage deed number 27, granted on June
22, 2009, before the notary public Rafael M.
Arrillaga Romany. The mortgaged property
is property number 28,525, as described above.

k.

Mortgage promissory note for the sum of
$800,000.00, payable to Eurobank, or upon
demand, with yearly interest equal to the
variable prime rate and payable upon presentation. It is secured with mortgage deed
number 267, granted on September 29, 2004,
before the notary public Nelson William
González Rosario. The mortgaged property is
the following:
“RURAL: PARCEL ‘C’: With a surface
area of 3,196.99 square meters, located
in the Jiménez Ward of the Municipality
of Río Grande, Puerto Rico, bounded, on
the North, by State Road #3, known as
the 65th Avenue de Infantería; on the
South, by land owned by Mrs. Amparo
Pérez, widow of Ayala; on the East, by
lands belonging to Mr. E. Rivera; and on
the West, also by lands owned by Mrs.
Amparo Pérez, widow of Ayala.
Property number 2,467, is registered on
Folio 114 of Book 51 of Río Grande,
Carolina Property Registry, Third Section.

App.285a
l.

Mortgage promissory note for the sum of
$100,000.00, payable to Eurobank, or upon
demand, with yearly interest at 15.00% and
payable upon presentation. It is secured with
mortgage deed number 32, granted on June
22, 2009, before the notary public Nelson
Rafael M. Arrillaga Romany. The mortgaged
property is property number 2,467, as
described above.

m. Mortgage promissory note for the sum of
$1,200,000.00, payable to Eurobank, or upon
demand, with yearly interest equal to the
variable prime rate and payable upon presentation. It is secured with mortgage deed
number 446, granted on November 21, 2002,
before the notary public Nelson William
González Rosario. The mortgaged property is
the following:
“URBAN: Plot of land identified as Parcel
A-2, located in the Caguas Norte Industrial Urbanization, in Caguas, Puerto
Rico, with a surface area of 5,256.6362
square meters, equal to 1.3374 cuerdas.
Bounded on the NORTH, for a distance
of 60.3577 meters by Parcel A-1; on the
SOUTH, on a curved line for a distance
of 2.7518 meters and in several alignments with a total distance of 59.1262
meters by A Street of the Industrial
Urbanization; on the EAST, in two
alignments with a total distance of 85.419
meters by Lot #15 of the same Industrial
Urbanization; and on the WEST, on a
curved line measuring 2.7518 meters

App.286a
and for a distance of 82.2306 meters by
B Street of the Industrial Urbanization.
It contains a building.
Property number 47,657, is registered
on Folio 162 of Book 1,342 of Caguas,
Caguas Property Registry, First Section.
n.

Mortgage promissory note for the sum of
$1,020,000.00, payable to Eurobank, or upon
demand, with yearly interest at 15.00% and
payable upon presentation. It is secured with
mortgage deed number 29, granted on June 22,
2009, before the notary public Rafael M.
Arrillaga Romany. The mortgaged property
is property number 47,657, as described
above.

o.

Mortgage promissory note for the sum of
$600,000.00, payable to Eurobank, or upon
demand, with yearly interest equal to the
variable prime rate and payable upon presentation. It is secured with mortgage deed number
302, granted on October 4, 2001, before the
notary public Nelson William González Rosario. The mortgaged property is the following:
“URBAN: Plot of land identified as Parcel
A-1, located in the Caguas Norte Industrial Urbanization, in Caguas, Puerto
Rico, with a surface area of 4,000.00
square meters, equal to 1.0177 cuerdas.
Bounded on the NORTH, in a curved line
at a distance of 2.8389 meters and for a
distance of 54.31 meters, by the Jardines
de Bairoa Avenue; on the SOUTH, for a

App.287a
distance of 60.3577 meters, by the remnant of the plot from which this property
is segregated and identified in the plat
map as a Parcel A-2, owned by Top Kids;
on the EAST, in several alignments for a
total distance of 66.2594 meters by Lot
#15 of the same industrial urbanization;
and on the WEST, for a distance of 2.8389
meters and in several alignments, for a
distance of 65.5144 meters, by B Street
of the said Industrial Park.
Property number 54,178, is registered on
Folio 30 of Book 1,629 of Caguas, Caguas
Property Registry, First Section.
p.

Mortgage promissory note for the sum of $680,
000.00, payable to Eurobank, or upon demand,
with yearly interest at 12% and payable upon
presentation. It is secured with mortgage deed
number 244, granted on December 20, 2005,
before the notary public Nelson William González Rosario. The mortgaged property is property number 54,178, as described above.

q.

Mortgage promissory note for the sum of
$550,000.00, payable to Eurobank, or upon
demand, with yearly interest at 15.00% and
payable upon presentation. It is secured with
mortgage deed number 28, granted on June
22, 2009, before the notary public Rafael M.
Arrillaga Romany. The mortgaged property
is the following:
“RURAL: Plot of land located in the Río
Cañas Ward of the municipality of Caguas, Puerto Rico, with a surface area of

App.288a
1,561.365 square meters; bounded on the
NORTH, for 69.62 meters by the main
property from which it was segregated,
owned by Antoni Torrecillas Ruiz; on the
SOUTH, in 2 alignments, one of 43.70
meters, and the other of 27.34 meters, by
lands owned by Catalino Burgos; on
the EAST, for 20.00 meters by the Road
that leads to Río Cañas Ward; and on the
WEST, for 27.28 meters by lands owned
by Mr. E.M. Bond. It contains a house.
Property number 10,008, is registered on
Folio 59 of Book 376 of Caguas, Caguas
Property Registry, First Section.
r.

Mortgage promissory note for the sum of
$280,000.00, payable to Banco Financiero de
Puerto Rico, or upon demand, with yearly
interest at 12% and payable upon presentation.
It is secured with mortgage deed number 4,
granted on March 5, 1999, before the notary
public Pedro E. Ortiz Álvarez. The mortgaged
properties are the following:
Property number 28,522: “RURAL: Plot
of land based in the Río Cañas Ward of
the municipality of Caguas, Puerto Rico,
with a surface area of 1,527.506 square
meters, bounded on the NORTH and
EAST, for 60.00 meters and 25.00 meters,
respectively, by the main property from
which it was segregated, owned by Antonio Torrecillas Ruiz; on the SOUTH, for
59.49 meters by Plot ‘A’ of the same
property; and on the WEST, for 26.00

App.289a
meters by the former State Road #1 from
Río Piedras to Caguas.
Property number 28,522, is registered on
Folio 5 of Book 856 of Caguas, Caguas
Property Registry, First Section.
Property number 30,533: “RURAL: Plot
of land located in the Río Cañas Ward of
the municipality of Caguas, Puerto Rico,
with a surface area of 1,554.855 square
meters, bounded on the NORTH, for
59.49 meters by Plot ‘B’ of the main
property; on the SOUTH, for 58.00
meters by lands owned by Mr. E.M.
Bond; on the EAST, for 26.00 meters by
the main property from which it was
segregated, owned by Antonio Torrecillas
Ruiz, today by José Rodríguez Collazo;
and on the WEST, for 27.00 meters by
Road #1 from Río Piedras to Caguas. It
contains a house.
Property number 30,533, is registered on
Folio 60 of Book 907 of Caguas, Caguas
Property Registry, First Section.
The aforementioned properties were consolidated and the description of the property is as follows:
“RURAL: Plot of land located in the Río
Cañas Ward of the municipality of
Caguas, Puerto Rico, with a surface area
of 3,082.631 square meters, bounded on
the NORTH, for 59.49 meters by Plot ‘B’
of the main property and for 2.00 meters
by the main property from which it was

App.290a
segregated; on the EAST, for 51.00
meters by the main property from which
it was segregated; on the SOUTH, for
59.49 meters; and on the WEST, for 52.00
meters by Road #1 from Río Piedras to
Caguas.
s.

Mortgage promissory note for the sum of
$920,000.00, payable to Eurobank, or upon
demand, with yearly interest at 15% and payable upon presentation. It is secured with
mortgage deed number 31, granted on June
22, 2009, before the notary public Rafael M.
Arrillaga Romany. The mortgaged properties
are property numbers 28,522 and 30,533,
described above.

9. The aforementioned mortgage promissory notes
are endorsed in favor of Oriental Bank by the Federal
Deposit Insurance Corporation (FDIC), as trustee of
Eurobank.
10. In addition, to guarantee payment in full of all
current and future Multi-Batteries & Forklifts, Corp.
obligations, on October 28, 2011, the codefendants,
Multi-Ventas y Servicios, Inc., Multi-Ventas y Servicios
P.R., Inc., Pedro Rivera Concepción and María M.
Feliciano Caraballo granted Unlimited and Continuous
Guaranty Agreements that guaranteed payment in full
of all current and future Multi-Batteries & Forklifts,
Corp. debts.
11. Also, to guarantee payment of the aforementioned credit facilities, Multi-Batteries & Forklifts,
Corp. signed a Property Lien Agreement on October
28, 2011. Under said contract, Multi-Batteries & Forklifts, Corp. established a preferential lien, payable to

App.291a
Oriental Bank, on all Multi-Batteries & Forklifts,
Corp. assets, as well as on all Multi-Batteries & Forklifts, Corp rights, titles and interest on the following
assets: (a) all the accounts receivable of Multi-Batteries
& Forklifts, Corp. and any kind of profit, proceed,
product and benefit of the same; (b) the entire inventory
of Multi-Batteries & Forklifts, Corp.; (c) all equipment
and machinery of Multi-Batteries & Forklifts, Corp.;
(d) any right, claim and benefit that Multi-Batteries &
Forklifts, Corp. may have against any person arising
from or related to the aforementioned assets.
12. Thus, on September 13, 2013, Multi-Batteries
& Forklifts, Corp. and Oriental Bank granted a Third
Amendment to the Loan Agreement, which extended
the termination date for the revolving credit line (credit
facility number 2064012720) to September 13, 2014.
13. On that same date, September 13, 2013, Awesome, Inc. granted an Unlimited Guarantee Agreement
that guaranteed payment in full of all current and
future Multi-Batteries & Forklifts, Corp. debts.
14. The Defendant failed to fulfill its obligations
regarding the credit facilities identified with numbers
2064012720 and 4201805, when they stopped paying
the amounts owed as agreed, wherefore Oriental Bank
declared that the entire debt was due and payable. As of
April 7, 2017, the principal debt regarding credit facility number 2064012720 (revolving credit line) amounts
to the sum of $563,254.17, of which $500,000.00
corresponds to the balance owed for the principal,
$63,000.00 corresponds to the accrued interest which
shall continue to accumulate until the debt is paid in
full, and $254.17 corresponds to other items owed, plus
expenses, costs and fees, plus any other disbursements

App.292a
incurred by the plaintiff for other advances during the
proceedings of this case.
15. Regarding loan number 4201805 (term loan),
the debt amounts to the sum of $652,912.02, of which
$572,030.57 corresponds to the principal owed, $79,424.
85 corresponds to the accrued interest which shall continue to accumulate until the debt is paid, and $1,456.
60 corresponds to other items owed, plus expenses, costs
and fees, plus any other disbursements incurred by
the plaintiff for other advances during the proceedings
of this case.
16. In other respects, on December 20, 2005, MultiVentas y Servicios, Inc., acting as the debtor, and Awesome, Inc., Multi-Ventas y Servicios P.R., Inc., Pedro
Rivera Concepción and María Mercedes Feliciano Caraballo, acting as the joint guarantors, granted a Loan
Agreement before the failed Eurobank whereby the
latter granted them a loan for the principal sum of
$7,000,000.00, accruing yearly interest at a fixed rate
of six and one-half percent (6.50%). Under the terms
of the aforementioned Loan Agreement, the defendants undertook to make one hundred nineteen (119)
consecutive monthly payments for the sum of $47,264.50
each, and a final payment on December 20, 2016 for
the outstanding balance of the principal (“Balloon
Payment”) of $5,443,556.11, plus any other sum owed
as of that date.
17. On that same date, December 20, 2005, in evidence of the above-described loan, Multi-Ventas y Servicios, Inc., through its President, the codefendant Pedro
Rivera Concepción, signed a Promissory Note payable
to Eurobank, or on demand, for the principal sum of
$7,000,000.00, before the notary public Nelson W.
González Rosario, Affidavit number 22,841.

App.293a
18. To secure the payment of the loan, on December
20, 2005 the codefendants Multi-Ventas y Servicios,
Inc. and Awesome, Inc. signed a Lien Agreement and
Pledge of Mortgage Promissory Note Contract. Under
said agreement, the mortgage promissory notes and
mortgages described in paragraphs number 8(a), 8(b),
8(c), 8(d), 8(g), 8(h), 8(i), 8(k), 8(m), 8(o), 8(p) and 8(r) of
this Judgment were granted as securities.
19. Likewise, to guarantee payment in full of all
current and future Multi-Ventas y Servicios, Inc. obligations, on December 20, 2005, the codefendants,
Multi-Ventas y Servicios P.R., Inc., Awesome, Inc., Pedro
Rivera Concepción and María M. Feliciano Caraballo
granted Unlimited and Continuous Guaranty Agreements that guaranteed payment in full of all MultiVentas y Servicios, Inc. debts.
20. The Loan Agreement that was signed by the
Parties on December 20, 2005 provides that a breach
of said contract shall occur when “[ . . . ] the debtor
fails to meet the payment of the principal, interest or
charges under the Promissory Note(s), or the payment
of any other sum owed to the Bank under this Contract or under any other Loan Document, on the date
when such payment is due [.]” Likewise, the aforementioned agreement stipulates that in the event of
noncompliance with the provisions of the same “[ . . . ]
the Bank’s obligations under this Contract shall automatically terminate and the sums for the principal,
interest and charges accumulated under the Promissory
Note and all other obligations of the debtor under this
Agreement and other Loan Documents shall automatically become immediately liquid and enforceable.”
21. Faced with the defendant’s noncompliance with
its obligations regarding loans number 2064012720

App.294a
and 4201805, Oriental Bank declared that the entire
debt regarding loan number 2064011568 was due, as
expressly provided in the granted Loan Agreement.
Likewise, the defendant failed to fulfill its payment
obligations in accordance with the terms agreed by the
parties.
22. As of April 7, 2017, the debt regarding loan
number 2064011568 amounted to the sum of $6,621,
571.35, of which $5,627,037.07 corresponds to the principal owed, $699,003.05 corresponds to accrued interest,
which shall continue to accumulate until the debt is
paid in full, $295,531.23 corresponds to other items
owed, plus costs, expenses and attorneys’ fees, plus any
other disbursements incurred by the plaintiff for other
advances during the proceedings of this case.
23. In other respects, on June 22, 2009, MultiVentas y Servicios P.R., Inc. granted a Loan Agreement
before the failed Eurobank whereby the latter awarded
a loan for the principal sum of $5,860,000.00, accruing
interest at the rate of six percent (6%) per annum.
Under the terms of the aforementioned Loan Agreement,
Multi-Ventas y Servicios P.R., Inc. undertook to make
thirty-five (35) consecutive monthly payments for the
sum of $35,133.63, and a final payment on June 22,
2012 for the outstanding balance of the principal of
$5,637,472.90, plus the interest owed as of that date.
24. On that same date, June 22, 2009, to provide
evidence of the above-described loan, Multi-Ventas y
Servicios P.R., Inc., through its President, Pedro Rivera
Concepción, signed a Promissory Note payable to Eurobank, or on demand, for the principal sum of $5,860,
000.00, before the notary public Rafael M. Arrillaga
Romany, Affidavit number 3,950.

App.295a
25. To secure the payment of the loan, on June
22, 2009, the codefendants Multi-Ventas y Servicios,
Inc. and Awesome, Inc. signed a Lien Agreement and
Pledge of Mortgage Promissory Note Contract. Under
said contract, the mortgage promissory notes and the
mortgages described in paragraph 8 of this Judgment
were granted as securities.
26. Likewise, on June 22, 2009, Multi-Ventas y
Servicios, Inc., Pedro Rivera Concepción and María
Mercedes Feliciano Caraballo granted extensive Unlimited
and Continuous Guaranty Agreements that guaranteed
payment in full of all current and future Multi-Ventas
y Servicios P.R., Inc. debts.
27. On September 13, 2013, Multi-Ventas y Servicios P.R., Inc., acting as the debtor, and Awesome, Inc.,
Multi-Ventas y Servicios, Inc., Multi-Batteries & Forklifts, Corp., Pedro Rivera Concepción and María Mercedes Feliciano Caraballo, acting as the joint guarantors,
granted a Loan Agreement before Oriental Bank whereby the latter granted it a loan for the principal sum of
$5,546,014.51, accruing interest at a rate of six percent
(6%) per annum. The purpose of this loan was to
refinance the loan for the sum of $5,860,000.00 described
above. Under the terms of the aforementioned Loan
Agreement, the defendants undertook to make fifty
nine (59) consecutive monthly payments for the sum
of $39,733.37 each, and a final payment on September
13, 2018 for the outstanding balance of the principal
of $4,724,654.15, plus the interest owed as of that date.
28. On that same date, September 13, 2013, in
evidence of the loan described above, Multi-Ventas y
Servicios P.R., Inc., through its President, Pedro Rivera
Concepción, signed a Promissory Note payable to
Oriental Bank, or on demand, for the principal sum of

App.296a
$5,546,014.51, before the notary public Tatiana Román
Orozco, Affidavit number 885.
29. To secure the loan described above, the codefendants Multi-Ventas y Servicios, Inc. and Awesome,
Inc. signed a First Amendment to the Property Lien
and Pledge Agreement on September 13, 2013. Through
said agreement, the aforementioned codefendants
amended the Property Lien and Pledge Agreement
(Mortgage Promissory Notes) granted on October 27,
2011. The sole purpose of the granted amendment was
to extend the mortgage guarantees established in the
Property Lien and Pledge Agreement of October 27,
2011 for Multi-Ventas y Servicios P.R., Inc. obligations
under the loan for the principal sum of $5,546,014.51.
30. In addition, the codefendant, Multi-Ventas y
Servicios P.R., Inc. granted a Property Lien Agreement
on September 13, 2013. Under said agreement, MultiVentas y Servicios P.R., Inc. established a preferential
lien payable to Oriental Bank on all Multi-Ventas
P.R., Inc. assets and over all Multi-Ventas y Servicios
P.R., Inc. rights, titles and interest on the following
assets: (a) all Multi-Ventas y Servicios P.R., Inc., receivable accounts and any kind of profit, proceeds, products
and benefit of the same; (b) the entire inventory of
Multi-Ventas y Servicios P.R., Inc.; (c) all equipment
and machinery of Multi-Ventas y Servicios P.R., Inc.;
(d) any right, claim and benefit that Multi-Ventas and
Services P.R., Inc. may have against any person arising
from or related to the aforementioned assets; and (e)
any benefit, proceeds, income or products of the
aforementioned assets.
31. Likewise, to guarantee payment in full of all
current and future Multi-Ventas y Servicios P.R., Inc.
obligations, on September 13, 2013, the codefendants,

App.297a
Multi-Ventas y Servicios, Inc., Awesome, Inc., MultiBatteries & Forklifts, Corp., Pedro Rivera Concepción
and María M. Feliciano Caraballo granted Unlimited
Guaranty Agreements that guaranteed payment in
full of all current and future Multi-Ventas y Servicios
P.R., Inc. debts.
32. Article VII of the Loan Agreement signed by
the parties on September 13, 2013 provides that Oriental Bank “[ . . . ] may, at its discretion, accelerate its expiration and claim the immediate payment of all sums
owed under this Agreement or other Loan Documents
and/or refuse to make additional advances under this
Agreement or other Loan Documents, if any of the following defaults should occur [ . . . ]:
(a) That the obligor or any of the Guarantors
fails to comply with any other obligation
assumed under this Agreement or under the
terms of the other Loan Documents or
regarding any other debt that the Obligor or
any of the Guarantors has with the Bank [.]”
33. Faced with the defendant’s noncompliance
with its obligations regarding loans number 2064012720
and 4201805, Oriental Bank declared that the entire
debt regarding loan number 364000538 was due, as
expressly provided in the granted Loan Agreement.
Likewise, the defendant failed to fulfill its payment
obligations in accordance with the terms agreed by the
parties.
34. As of April 7, 2017, the debt regarding loan
number 364000538 amounts to the sum of $6,063,
533.14, of which $5,296,811.62 corresponds to the
principal owed, $617,078.55 corresponds to accrued
interest, which shall continue to accumulate until the

App.298a
debt is paid in full, $149,642.97 corresponds to other
items owed, plus costs, expenses and attorneys’ fees,
plus any other disbursements incurred by the plaintiff
for other advances during the proceedings of this case.
35. In strict compliance with the provisions of
the Mortgage Act of 1979, Articles 179 and 221 (30
L.P.R.A., § 2575-2721), the parties agreed that the
properties that guarantee the promissory notes described
above are valued at $432,000.00 for property number
8,120, $900,000.00 for property number 50,228, $180,
000.00 for property number 28,525, $800,000.00 for
property number 2,467, $ 1,200,000.00 for property
number 47,657, $600,000.00 for property number
54,178, $550,000.00 for property number 10,008,
$140,000.00 for property number 28,522 and
$140,000.00 for property number 30,533. These values
shall serve as the minimum bid for the first auction of
the mortgages whose foreclosure is requested.
36. On April 30, 2010, the Office of the Commissioner of Financial Institutions of Puerto Rico issued
an order for Eurobank to cease operations and appointed,
on that same date, the Federal Deposit Insurance Corporation as trustee for Eurobank’s assets. On that same
date, April 30, 2010, Oriental Bank acquired and became
the holder in good faith of the loans that are the subject matter of this dispute and therefore, they are the
creditor that is currently assigned all of Eurobank’s
rights under the loans granted to the Defendants and
holders of the mortgage promissory notes and other
guarantees described herein.
37. Multi-Ventas y Servicios P.R., Inc., MultiVentas y Servicios, Inc., Awesome, Inc., Multi-Batteries
& Forklifts, Corp., Pedro Rivera Concepción and María
Mercedes Feliciano Caraballo are jointly liable to

App.299a
Oriental Bank for the aforementioned sums, where payment of the same has been requested, unsuccessfully,
in spite of collection efforts by Oriental Bank through
letters and phone calls.
38. The obligations arising from the aforementioned promissory notes are due, liquid and legally
enforceable, in addition to being secured by the voluntary mortgages described above.
39. Oriental Bank is the legal holder in good
faith of the promissory notes that guarantee the
payment of the debt being claimed in this action.
CONCLUSIONS OF LAW
A.

Summary Judgment

The motion for summary judgment is a procedural
mechanism provided by our law in order to promote
the just, rapid and economical settlement of disputes
where it is not necessary to hold a plenary hearing. It
may be granted in cases where there are no genuine
and substantial disputes as to the material facts, in
view of which it only remains for the judiciary to apply
the Law. Oriental Bank & Trust v. Perapi S.E., 192
D.P.R. 7 (2014); SLG Zapata-Rivera v. J.F. Montalvo,
supra, on p. 430; Nieves Díaz v. González Massas, 178
D.P.R. 820, 847 (2010).
In our law, the summary judgment mechanism is
governed by Rule 36 of Civil Procedure, 32 L.P.R.A.
App. V, R. 36. In essence, this rule provides that, in
order to issue a judgment summarily, it is necessary
that, from the allegations, depositions, answers to
interrogatories and admissions offered, together with
the sworn statements, if any, or other evidence, it

App.300a
happens that there is no genuine and substantial
dispute in relation to any essential or pertinent fact
and that, as a matter of law, the court should issue a
summary judgment for the plaintiff. Rule 36.3(e) of Civil
Procedure, supra. SLG Zapata-Rivera v. J.F. Montalvo,
supra; Const. José Carro v. Mun. Dorado, 186 D.P.R.
113, 128 (2012).
A summary judgment may only be issued when it
clearly happens that, in light of the undisputed
material facts, the respondent cannot prevail under
the applicable Law and the Court has the truth of all
the necessary facts in order to be able to settle the
dispute. Id., on p. 129; Nieves Díaz v. González Massas,
supra, on p. 848.
The movant of a motion for summary judgment
must establish its right with clarity and must demonstrate that there is no substantial or genuine dispute
as to any material fact; that is to say, as to any
component of the cause of action. Mun. de Añasco v.
ASES, et al., 188 D.P.R. 307, 326 (2013); Nieves Díaz
v. González Massas, supra; González Aristud v. Hospital
Pavía, 168 D.P.R. 127, 137 (2006). The Supreme Court
has determined that a material fact is a fact that may
affect the result of the claim pursuant to the applicable
substantive law. Ramos Pérez v. Univisión, 178 D.P.R.
200, 213 (2010) citing J.A. Cuevas Segarra, Tratado de
Derecho Procesal Civil, San Juan, Pubs. J.T.S., 2000,
V. I, p. 609; Mun. de Añasco v. ASES, et al., supra, on
pp. 326-327. Rule 36.1 of Civil Procedure of 2009 refers
to these facts as “essential and pertinent. . . .” 32
L.P.R.A. App. V, R. 36.1.
The dispute as to the material fact must be
genuine, in view of which, any doubt is insufficient to
defeat a petition for summary judgment. Ramos Pérez

App.301a

v. Univisión, supra, on pp. 213-214. The doubt must
be of a nature that permits “the conclusion that there
is a genuine and substantial dispute as to the relevant
and pertinent facts.” Id.
In other respects, Rule 36 of Civil Procedure also
specifically regulates the formal requirements that
must be met by the movant of the motion for summary
judgment as well as the party opposing the motion. In
SLG Zapata-Rivera v. J.F. Montalvo, supra, the Supreme
Court elaborated on these requirements. In that case,
it was discussed that, regarding the list of undisputed
facts the petitioner is obliged to set out in its petition,
it must “list them in duly numbered paragraphs and,
for each one, specify the page or paragraph of the
sworn statement and other supporting admissible evidence.” Id., on p. 432. In turn, the party opposing the
motion for summary judgment is obliged to “specifically cite the paragraphs as numbered by the movant,
which it understands to be in dispute; and for each one
it intends to contest, it must list the admissible evidence in support of its challenge, citing the pertinent
page or section.” Id.
In accordance with our civil procedure law, both
the movant and opposing party of a motion for summary judgment are required to comply with some specific requirements of form in order for their request to
be able to be considered. The compliance with this
requirement has different repercussions for each party.
On the one hand, if the movant of the motion fails to
comply with the requirements of form, the Court shall
not be obligated to consider its request. On the other
hand, if the party opposing the motion fails to comply
with the requirements, the court may issue judgment
summarily for the movant, if applicable pursuant to

App.302a
Law. Id. Furthermore, if the adversary “fails to abide
by the precepts stipulated [in the rule], the court may
decide not to take into consideration its intended challenge [of the facts offered by the movant].” Id., on p.
433.
B.

Contractual law in Puerto Rico

The Civil Code of Puerto Rico provides that the
contract exists from the time where one or several
persons consent to bind themselves vis-à-vis another
or others to give something or to provide a service. Art.
1206 of the Civil Code, 31 L.P.R.A. § 3371. In addition,
the contracting parties may establish any covenants,
clauses and conditions deemed convenient, provided
that they are not contrary to the laws, to morals or to
public policy. Art. 1207 of the Civil Code, 31 L.P.R.A.
§ 3372; De Jesús v. A.C., 148 D.P.R. 255 (1999); Tastee
Freez v. Negociado de Seguridad de Empleo, 108 D.P.R.
495 (1979); Irizarry López v. García Cámara, 155 D.P.R.
713 (2001); Unisys v. Ramallo Bros., 128 D.P.R. 842
(1991); Trinidad v. Chade, 153 D.P.R. 280 (2001), Banco
Bilbao Vizcaya v. Municipio de Vega Baja, 154 D.P.R.
53 (2001); S.L.G. Irizarry v. S.L.G. García, 155 D.P.R.
713 (2001).
In addition, contracts are binding, whatever the
form under which they have been entered into, provided
that they meet the essential conditions for their
validity. Art. 1210, 1213 and 1230 of the Civil Code, 31
L.P.R.A. § 3375, 3391 and 3451; Vélez López v. Izquierdo
Stella, 162 D.P.R. 88 (2004). The mere expression of a
purpose or intention is not sufficient to create an
enforceable right. In other words, it must not consist
of a mere offer to fulfill an obligation without coercive

App.303a
effects and incapable of creating a binding civil relationship. Ramírez Ortiz v. Gautier Benítez, 87 D.P.R.
497 (1963).
Consistent with contractual free will, the Puerto
Rico Supreme Court has ruled that contracts are law
between the parties, which must abide by the stipulations, unless that agreed upon is contrary to the law,
morals or public policy. Trinidad v. Chade, 153 D.P.R.
280 (2001). Likewise, once a contract if formalized with
the occurrence of the consent of the parties, the object
and cause of the contract, the parties are bound to
comply with that expressly agreed upon and they are
bound by the consequences derived therefrom, in
accordance with good faith, customary practice and
the law. Thus, the contract is law between the contracting parties and, pursuant to case law, it may not
be left without effect or be modified at the will of one of
the contracting parties. Colón Padilla v. San Patricio
Corp., 81 D.P.R. 242 (1959).
Article 1213 of the Civil Code of Puerto Rico lays
down the requirements that must be present for the
existence of a contract, to wit: (i) the consent of the
contracting parties; (ii) a certain object which is the
subject matter of the agreement; and (iii) the cause of
the obligation established. Said article reads as follows:
“[t]here is no contract unless the following requirements
are present: (1) consent of the contracting parties; (2)
a certain object which is the subject matter of the
agreement; and (3) cause of the obligation established.”
31 L.P.R.A. § 3391.
In accordance with our Civil Code, “[c]onsent is
manifested by the coincidence between the offer and
the acceptance over the thing and the cause which are
to constitute the contract.” 31 L.P.R.A. § 3401. In order

App.304a
for a contractual relationship to become legally effective, the will to contract obligations must have been
expressly or implicitly activated. Where there is no
such will, or reasonable basis to conclude the circumstance of its existence, innumerous relationships may
have come into existence, but not a contractual relationship. Trinidad v. Chade, 153 D.P.R. 280, 293 (2001).
It is a reiterated rule that for a contract to exist
there must be serious, free and spontaneous consent.
When all of these qualities are not present, the consent
is vitiated and the contract shall be null or nullable,
depending on the particular circumstances of each
case. Portela Rodríguez v. Plazoleta Las Cumbres,
S.E., KLAN200700217.
In turn, Article 1217 of the Civil Code of Puerto
Rico provides that consent shall be deemed null if
given with any error, duress, intimidation or fraud. 31
L.P.R.A. § 3404; García Reyes v. Cruz Auto Corp., 173
D.P.R. 870 (2008); Colón v. Promo Motor Imports, 144
D.P.R. 659 (1997); Bosques v. Echevarría, 162 D.P.R.
830, 836 (2004).
Regarding the element of “object,” which is necessary in order to constitute a contract, the Civil Code
provides that “all things, even future things, which are
not beyond the bounds of commerce between men” may
be the subject matter of a contract . . . Likewise all
services which are not contrary to the laws or to good
customs may constitute the subject matter of a contract.” In the same manner, the courts have pronounced
that “the contract shall be valid if the following
requirements are met: (1) it is real and possible, i.e.,
it is not beyond the bounds of commerce between men;
(2) it is determinable in terms of its type; and (3) it is

App.305a
lawful.” Portela Rodríguez v. Plazoleta Las Cumbres,
S.E., supra.
In order to determine what constitutes the object
of a contract, it is fitting to answer the following question: What is due? In other words, what each person
gave, did or undertook to give or do, in accordance
with the terms of the contractual relationship. Id.
With regard to the interpretation of contracts,
our Civil Code is clear and provides that “[i]f the terms
of a contract are clear and do not leave any doubt as
to the intention of the contracting parties, it shall be
interpreted as per the literal meaning of its clauses.”
Art. 1233 of the Civil Code, 31 L.P.R.A. § 3471; Irizarry
López v. García Cámara, 155 D.P.R. 713 (2001);
National City Bank v. Martínez Llonín, 41 D.P.R. 163
(1930). In addition, “[h]owever general the terms of
the contract are, they must not be deemed to comprise
things and cases different from those in respect of
which the interested parties proposed to contract.”
Art. 1235 of the Civil Code, 31 L.P.R.A. § 3473; Goenaga
v. O’Neill de Milán, 85 D.P.R. 170 (1962). The clauses
of a contract must be interpreted “in connection with
each other, attributing to any doubtful clauses the
meaning resulting from the whole. Art. 1237 of the
Civil Code, 31 L.P.R.A. § 3475.
In turn, obligations are extinguished, among other
reasons, by their payment or performance. Art. 1110
of the Civil Code, 31 L.P.R.A. § 3151. A debt is not
deemed to have been paid until complete delivery of
the thing or performance of the undertaking of which
the obligation consisted.
By virtue of Articles 1111 and 1123 of the Civil
Code, 31 L.P.R.A. §§ 3161 and 3173, in our jurisdiction,

App.306a
the principle of entirety of the undertaking governs.
In accordance with Article 111, supra, “[a] debt shall
not be deemed to have been paid until complete
delivery of the thing or performance of the undertaking
of which the obligation consisted.”
In turn, Article 1123 provides that “[u]nless the
contract should expressly authorize it, the creditor
cannot be compelled to receive partially the undertakings
of which the obligation consists.”
When it is expressly agreed that an obligation is
of a joint and several nature, each of the obligors is
obligated to provide in full the thing constituting the
object of the obligation, regardless of whether or not
the joint and several obligor personally benefits from
the thing provided. Article 1090 of the Civil Code, 31
L.P.R.A. § 3101; Mansiones de Park Gardens v. Scotiabank, 114 D.P.R. 513 (1983).
In case of non-performance of a joint and serval
obligation, the obligee may take action against any of
the joint and several obligors or against all of them
simultaneously. Claims initiated against one of them
shall not impede action being taken against the
others, until such time the debt is collected in full.
Article 1097 of the Civil Code, 31 L.P.R.A. § 3108;
Marrero v. Olmeda, 69 D.P.R. 217 (1948). In the instant
case, the defendants signed some documents, clearly
expressing therein that they are the joint obligors
with regard to the amounts claimed by the plaintiff.
C.

Standing to Bring Suit

It is a consistent principle of our Rule of Law that,
“[ . . . ] courts only exist to resolve genuine disputes that
arise between opposing parties with a real interest in

App.307a
obtaining a remedy, which would affect their legal
relationships.” E.L.A. v. Aguayo, 80 D.P.R. 552, 558
(1958). Likewise, it has been stipulated that, “[t]he
courts must be jealous guardians of their jurisdiction,
and they are obligated, in addition, to consider said
matter motu proprio. Jurisdiction, principal source of
authority of the courts to impose and enforce the laws
of our legal system, is governed by the application of
different doctrines that give life to the principle of
justiciability [ . . . ]. Therefore, before getting into the
merits of a case, it is necessary to determine whether
the dispute is justiciable. Sánchez v. Secretario de
Justicia, 157 D.P.R. 360 (2002).
In keeping with the above, we see that the
doctrine of standing to sue is immersed in the concept
of justiciability. This principle imposes on the courts,
as a threshold matter, the duty to “examine whether
[ . . . ] [the plaintiff] has [ . . . ] standing to sue, being
a necessary element for a proper decision on the
merits of a dispute.” Hernández Torres v. Hernández
Colón, 129 D.P.R. 824 (1992). “As such, we ensure that
the plaintiff of the action is one whose interest is such
that, in all probability, it will follow its course of action
vigorously and bring to the court’s attention the issues
in dispute.” Id.
In essence, standing to sue constitutes the capacity
of a party to carry out, with efficacy, procedural acts
as a litigant and to appear as plaintiff or defendant
representing any of such parties. Col. Ópticos de P.R.
v. Vani Visual Center, 124 D.P.R. 559 (1989). To such
end, the Supreme Court has pronounced that the claimant of a right has standing to sue if the following
requirements are met: (1) it has suffered a clear and
palpable injury; (2) that said injury is real, immediate

App.308a
and precise; not abstract or hypothetical; (3) that
there is a connection between the damage suffered
and the cause of action being exercised; and (4) that
the cause of action ensues under the Constitution or a
law. Col. Peritos Elec. v. A.E.E., 150 D.P.R. 327 (2000);
Coss and U.P.R. v. C.E.E., 137 D.P.R. 877 (1995). The
determination as to whether or not the party has
standing to sue, mainly focuses on the person that
brings the action and, secondly, on the matters to be
decided. Hernández Torres v. Hernández Colón, 131
D.P.R. 593 (1992). When determining whether a claimant has standing to sue, the court must presume to be
true its allegations and interpret them in the manner
most favorable to such party. Col. Peritos Elec. v. A.E.E.,
supra, U.S. Bank Nat’l Ass’n v. Durand Sisco,
KLAN201600406.
D.

The Negotiable Instruments Act

The Negotiable Instruments Act, in its Section 2104, provides that a “negotiable instrument” is an
unconditional promise or order to pay a fixed amount
of money, with or without interest or other charges
described in the promise or order, if it:
(1) is payable to bearer or to order at the
time it is issued or first comes into possession
of a holder;
(2) is payable on demand or at a definite
time; and
(3) does not state any other undertaking
or instruction by the person promising or
ordering payment to do any act in addition to
the payment of money, but the promise or
order may contain (i) an undertaking or

App.309a
power to give, maintain, or protect collateral
to secure payment, (ii) an authorization or
power to the holder to confess judgment or
realize on or dispose of collateral, or (iii) a
waiver of the benefit of any law intended for
the advantage or protection of an obligor.
Likewise, said section provides that “[a]n instrument is a note if it is a promise and is a “draft” if it is
an order. If an instrument falls within the definition
of both “note” and “draft,” a person entitled to enforce
the instrument may treat it as either.”
In accordance with the Negotiable Instruments
Act, Section 1-201, a “Bearer” means a person in possession of a negotiable instrument, document of title,
or certificated security that is payable to bearer or
indorsed in blank. Likewise, “Creditor” includes a
general creditor, a secured creditor, a lien creditor, and
any representative of creditors, including an assignee
for the benefit of creditors, a trustee in bankruptcy, a
receiver in equity, and an executor or administrator of
an insolvent debtor’s or assignor’s estate.
In other respects, “Holder,” in relation to a
negotiable instrument, is defined as the person in
possession of thereof if the negotiable instrument that
is payable to bearer or, in the case of an instrument
payable to an identified person, if the person identified
is the person in possession.
Pertinent to the instant dispute, Section 2-301
(Person Entitled to Enforce Instrument) of the Negotiable Instruments Act, provides that:
“[p]erson entitled to enforce an instrument
means (i) the holder of the instrument, (ii) a
non-holder in possession of the instrument

App.310a
who has the rights of a holder, or (iii) a person
not in possession of the instrument who is
entitled to enforce the instrument pursuant
to Section 2-309 or 2-418(d). A person may be
a person entitled to enforce the instrument
even though the person is not the owner of
the instrument or is in wrongful possession
of the instrument.
“It has been reiterated that the holder of a negotiable instrument has standing to file an action for collection of monies in relation thereto.” U.S. Bank Nat’l
Ass’n v, Durand Sisco, supra.
Likewise, it has been determined that the fact
that a party demonstrates it has possession of a note
constitutes sufficient proof to enforce it. “Upon filing
an action for collection, the complaint does not have to
allege that the plaintiff is the owner of the note, being
sufficient that it alleges that the plaintiff is the holder
of the document. The possession of the document is evidence prima facie to demand payment of the document.”
Basilio Santiago Romero, Tratado de Instrumentos
Negociables, Second Edition, 1981, p. 163.
E.

Rule 6.1 of Civil Procedure

Rule 6.1 of Civil Procedure, 32 L.P.R.A. App. V, R.
6.1, provides the following:
A pleading that presents a request for relief
will contain
(1)

a succinct and simple description of the facts
demonstrating that the petitioner is entitled
to relief, and

App.311a
(2) a request for relief the petitioner believes it
is entitled to. Alternative relief or relief of a
different nature may be requested.
Likewise, the Permanent Advisory Committee on
Rules of Civil Procedure, in its Report on Rules of Civil
Procedure, stipulated that: “the proposal requires that,
in the allegations, a statement of facts be provided
with the purpose that the parties and the court are
able to consider, with greater certainty, the fundamental events of the dispute [ . . . ] The provisions of
this Rule must be analyzed together with Rule 9.1 of
Civil Procedure, 32 L.P.R.A. App. V. R. 9.1, which provides, in the pertinent part, that the content of the
allegations must be based on the best knowledge,
information and belief of the attorney or of the party,
which must be formed after a reasonable inquiry; that
the brief must be well-founded on the facts and supported by the law in force.”
APPLICATION OF THE RIGHT TO
THE UNDISPUTED MATERIAL FACTS
The instant case is for collection of monies and
mortgage foreclosure, in which the plaintiff alleged
that the defendant failed to fulfill its payment obligations in accordance with the terms of the contracts
granted, in view of which the claimed debt is due,
liquid and enforceable. The plaintiff requested that
the defendant be ordered to pay the sums claimed and
the foreclosure of the aforementioned guarantees. In
turn, the defendant filed an Answer to the Complaint
and Amended Counterclaim, in which it included
twenty (20) causes of action.
Oriental Bank filed a Motion for Summary Judgment in which it alleged that there are no disputed

App.312a
material facts and that, therefore, summary judgment
must be issued, granting the remedies sought in the
Complaint and dismissing the Counterclaim filed by
the defendant. The defendant filed its Opposition and
alleged that Oriental Bank lacks standing to sue given
that the promissory notes of this litigation underwent
the securitization process; therefore, Oriental Bank is
not their holder, apart from the fact that Oriental
Bank collected the amount of the promissory notes by
means of a payment by a third party. The standing to
sue and possession of the promissory notes on the part
of Oriental Bank was not the only fact the defendant
attempted to dispute in its Opposition.
In relation to the above, it is fitting to mention,
firstly, that the mortgage promissory notes signed by
the defendants constitute negotiable instruments in
accordance with the Negotiable Instruments Act. In
the instant case, Oriental Bank demonstrated, with
irrefutable evidence, that it is the holder and possessor
of the mortgage promissory notes that are the subject
matter of this case. Oriental Bank presented a copy of
the aforementioned mortgage promissory notes, all
endorsed by FDIC in favor of Oriental Bank, Furthermore, the defendant presented at least two (2) sworn
statements of authorized officers, certifying that the
mortgage promissory notes are in the possession of
Oriental Bank and that Oriental Bank is the only party
entitled to demand their performance. We reiterate that
the Negotiable Instruments Act is clear, where it provides that the “[p]erson entitled to enforce an instrument
means (i) the holder of the instrument [ . . . ].” In the
instant case, it is an undisputed fact that Oriental
Bank is the entity “entitled to enforce an instrument,”
to wit, the mortgage promissory notes that are the

App.313a
subject matter of this case, given that it is currently
the possessor of the mortgage promissory notes and
that they are duly endorsed in its favor by FDIC. The
above not only constitutes the best evidence, but it is
also irrefutable evidence of the holding of said negotiable
instruments.
In view of the above, there is no dispute as to the
fact that Oriental Bank is the only party entitled to
enforce said instruments. In fact, Oriental Bank has
standing to justify the legal action in the instant case,
given that it is the physical and legal possessor of the
mortgage promissory notes that accredit and secure
the amounts due, claimed in the instant case.
Both in the Answer to the Complaint and Counterclaim, as well as in the Opposition and Answer to the
Petition for Summary Judgment, the defendant alleged
that the promissory notes underwent the securitization
process and that, therefore, Oriental Bank is not their
legitimate holder. The defendant’s allegations were
based on general doctrines, illustrating the process in the
secondary mortgage market once the sale of a promissory note is made.
The mere fact that Oriental Bank demonstrated,
with irrefutable evidence, that it is the holder of the
mortgage promissory notes and that they have not
been sold on the secondary market, defeats, on the
face of it, the defendant’s entire argument regarding
the alleged securitization process. The defendant
attempted to substantiate its allegations with some
expert reports and, having examined them in detail,
it is clear that they consist of the same general arguments, illustrating the secondary mortgage market,
as the Opposition filed by the defendant.

App.314a
Said expert reports contain three (3) exhibits each,
to wit, copy of each mortgage promissory note, copy of
their respective mortgage deeds and copy of the Complaint filed by Oriental Bank in the instant case. Said
documents, as admitted in the reports themselves, are
the documents examined by the expert in order to
issue its opinion. In fact, from an analysis of said
expert reports, and of the documents attached to said
reports as exhibits, there is not any sufficient evidence
in support of the allegation that the mortgage promissory notes, which are the subject matter of this litigation, underwent a securitization process or that Oriental
Bank is not their holder. On the contrary, from the
documents attached as exhibits of the expert reports,
it is shown that, in effect, the mortgage promissory
notes are endorsed in favor of Oriental Bank. Said
documents do not dispute the evidence submitted by
the plaintiff; on the contrary, they support it.
In fact, as with the Opposition to the petition for
summary judgment, the expert reports limit themselves to indicating, in a general manner, that “Eurobak
[sic] sold the Note on the Secondary Market where it
underwent a process of Securitization.” The reports do
not specify who, allegedly, sold the promissory notes,
or for how much, and no document was presented to
such end.
In short, both the allegations of the defendant and
the conclusions contained in the expert reports are based
on general doctrines illustrating the process in the
secondary mortgage market once the sale of a promissory note is made, but they lack any concrete and specific references as to the supposed sales made by
Oriental Bank (and its predecessors) of the promissory
notes that are the subject matter of the instant case.

App.315a
The defendant presented no specific evidence, in its
Opposition to the petition for summary judgment,
that disputes the fact that the promissory notes, which
are the subject matter of the instant case, are endorsed
in favor of Oriental Bank and that Oriental Bank
currently has possession of said promissory notes. In
summary, there is no doubt that Oriental Bank is the
possessor of all the promissory notes, which are the
subject matter of this claim, and that Oriental Bank
has standing to file this Complaint to enforce the obligations assumed by the defendants.
Regarding the counterclaim filed by the defendant, it was principally based on the alleged securitization
process where the defendant alleges that the promissory
notes, which are the subject matter of this litigation,
underwent such process. The defendant again alluded
to the securitization process in an attempt to allege
that the mortgage is nonexistent and that both the
loan agreement and the mortgage were extinguished.
As stated above, the evidence submitted by the plaintiff, in accordance with the applicable law, is sufficient
to demonstrate that Oriental Bank is the holder of the
mortgage promissory notes. Due to all the aforementioned reasons. we reject all the causes of action based
on the alleged securitization process of the promissory
notes, which appear throughout the counterclaim filed
by the defendant.
In addition, the defendant alleged the unconstitutionality of Article 104 of the Property Registry Act,
given that it imposes an upset price for all cases and
does not provide for an adjustment for those cases
where there is a difference between the agreed upset
price and the property’s appraisal value. There is a
judicial policy of decreeing the unconstitutionality of

App.316a
a law only when it is indispensable to resolve a case.
Rexach v. Ramírez, 162 D.P.R. 130, 149 (2004).
In this case, it is not necessary to discuss the unconstitutionality of Article 104 of Act No. 198 of August
8, 1979, as amended, better known as the Mortgage
Act and its Regulations, given that it is not indispensable to resolve the dispute before us. The defendant
signed the aforementioned mortgage deeds, thereby
recognizing that it owes the plaintiff the sums specified
therein and promising to pay said debts in installments.
It is an established doctrine that a court cannot
relieve a party from complying with that stipulated in
a contract or agreement: “if the necessary conditions
exist for its validity, the courts cannot relieve a party
from complying with its undertaking. Bobé et al. v,
UBS Financial Services, 198 D.P.R. 6, 15 (2017).
Regarding the petition for declaratory judgment,
it must also be denied given that the defendant did not
demonstrate that the promissory notes in question
underwent securitization and the plaintiff produced irrefutable evidence demonstrating that it is the holder of
the mortgage promissory notes, which are the subject
matter of this litigation. A dispute must be defined
and specific, affecting the legal relationships of parties
with opposing legal interests. ELA v. Aguayo, 80
D.P.R. 552, 584 (1958). It must be genuine and substantial” and permit “a specific remedy by means of a
conclusive judgment, as distinguished from an opinion
that expresses what law would apply to hypothetical
events.” Id., on p. 584. Consequently, the declaratory
judgment does not involve a genuine and substantial
dispute that justifies its granting.
Lastly, the defendant presented various causes of
action in the counterclaim, such as “nullity of upset

App.317a
price,” “claim for net value of the asset,” “nullity of
waiver of future rights,” “nullity of amortization
schedule,” “nullity of principal balance,” “nullity of
interest and other charges” and “excessive interest
charges,” in which the defendant limited itself to
making groundless, conclusive and general allegations
that fail to establish or demonstrate a cause of action
that can be adjudicated by this Court. Likewise, apart
from the fact that these “causes of action” must be
deemed to be affirmative defenses and not independent causes of action, the defendant made no mention
about them in its Opposition to the petition for summary judgment.
By virtue of the above, it must be concluded that
the allegations outlined in the counterclaim lack sufficient specificity to justify the granting of any remedy;
therefore, their dismissal is appropriate.
JUDGMENT
Considering the allegations of the Complaint, the
Motion for Summary Judgment and the Opposition
filed by the defendant, as well as the evidence
produced by both parties, the Motion for Summary
Judgment filed in the instant case is Granted and,
consequently, the order is issued to dismiss the
counterclaim. The defendant is ordered to pay the
following sums to the plaintiff: (a) for credit facility
number 2064012720, the sum of $563,254.17, of which
$500,000.00 corresponds to the balance owed for the
principal, $63,000.00 corresponds to the accrued interest
which shall continue to accumulate until the debt is
paid in full, and $254.17 corresponds to other items
owed, plus expenses, costs and fees, plus any other
disbursements incurred by the plaintiff for other

App.318a
advances during the proceedings of this case; (b) for
loan number 4201805, the sum of $652,912.02, of
which $572,030.57 corresponds to the principal owed,
$79,424.85 corresponds to the accrued interest which
shall continue to accumulate until the debt is paid,
and $1,456.60 corresponds to other items owed, plus
expenses, costs and fees, plus any other disbursements
incurred by the plaintiff for other advances during the
proceedings of this case; (c) for loan number 2064011568
amounted to the sum of $6,621,571.35, of which
$5,627,037.07 corresponds to the principal owed,
$699,003.05 corresponds to accrued interest, which
shall continue to accumulate until the debt is paid in
full, $295,531.23 corresponds to other items owed,
plus costs, expenses and attorneys’ fees, plus any
other disbursements incurred by the plaintiff for other
advances during the proceedings of this case, and (d)
for loan number 364000538, the sum of $6,063,533.14,
of which $5,296,811.62 corresponds to the principal
owed, $617,078.55 corresponds to accrued interest,
which shall continue to accumulate until the debt is
paid in full, $149,642.97 corresponds to other items
owed, plus costs, expenses and attorneys’ fees, plus
any other disbursements incurred by the plaintiff for
other advances during the proceedings of this case.
If said defendant should fail to pay this sum
within the term stipulated by Law, the pledges and
mortgages will be foreclosed; therefore, the Bailiff of
this Court is ordered to sell the mortgaged properties
described above, in public auction, in order to use the
proceeds thereof to pay the amount owed, and, if the
proceeds from the sales are not sufficient for the
payment of this claim, the outstanding balance can be
collected by other means.

App.319a
In compliance with the provisions of the Mortgage
Act of 1979, Articles 179 and 221 (30 L.P.R.A., § 25752721), the parties agreed that the properties that guarantee the promissory notes described above are valued
at $432,000.00 for property number 8,120, $900,000.00
for property number 50,228, $ 180,000.00 for property
number 28,525, $800,000.00 for property number 2,467,
$ 1,200,000.00 for property number 47,657, $600,000.00
for property number 54,178, $550,000.00 for property
number 10,008, $140,000.00 for property number
28,522 and $140,000.00 for property number 30,533.
These values shall serve as the minimum bid for the first
auction of the mortgages whose foreclosure is requested.
Once this Judgment becomes final, conclusive and
unappealable, if the defendant should fail to pay this
sum, the Clerk of this Court is authorized and ordered
to, at the request of the plaintiff, issue an Order to the
Bailiff in order to proceed to enforce this Judgment,
selling the mortgaged properties described in the
Judgment, and enforcing the other guarantees provided by the defendant. Said Order shall state that the
amount from the sale of said properties and from the
enforcement of the other guarantees shall be paid to
the plaintiff, Oriental Bank, at the amount indicated
in the Judgment and, in case the aforementioned proceeds are not sufficient to cover the total amount
owed, the Judgment on whatsoever other assets of the
plaintiff shall be enforced. The Marshall shall also be
required to give to the successful bidder or buyer, the
material possession of said properties by evicting the
occupants within the legal term of twenty (20) days
from the date of sale in public auction.
Likewise, the counterclaim filed by the defendant
is dismissed with prejudice.

App.320a
ORDERED TO BE ENTERED AND NOTIFIED.
In Caguas, Puerto Rico, on July 26, 2018.
/s/ Annette Prats Palerm
Superior Court Judge

App.321a
====================================
CERTIFICATE OF TRANSLATOR
# JF-2020-001_APP I
I am a United States court-certified interpreter,
and I CERTIFY that the above is a faithful translation
of the Spanish source, which I have performed to the
best of my ability. It consists of thirty-two (32) pages,
including this certification sheet, and contains no
changes or erasures.
The content of this translation is an emailed Notice
of Judgment and a Judgment issued by the Judicial
Center of Caguas, Superior Court, Civil Case No.
ECD2015-1017 [Re: Collection of Monies, Mortgage
Foreclosure].
In Cambridge, Massachusetts, on January 19, 2020.
/s/ Joaquín Font
Joaquín Font
Font Translations
Calle Calaf 400, Suite 268
San Juan, PR 00918
Toll-Free Tel. & Fax: 1-877-JOAQUIN (562-7846)
e-mail: fonttranslations@gmail.com

App.322a
MOTION FOR RECONSIDERATION
AND REQUEST FOR INITIAL AND/OR
ADDITIONAL FINDINGS OF FACT
AND CONCLUSIONS OF LAW
(ENTRY: AUGUST 14, 2018)
COMMONWEALTH OF PUERTO RICO
COURT OF FIRST INSTANCE
CAGUAS JUDICIAL CENTER
SUPERIOR COURT DIVISION
________________________
ORIENTAL BANK,

Plaintiff/
Counterclaim Defendant,
v.
MULTI-VENTAS Y SERVICIOS, INC.;
MULTI-VENTAS Y SERVICIOS P.R., INC.;
MULTI-BATTERIES & FORKLIFTS, CORP.;
AWESOME, INC.; PEDRO RIVERA CONCEPCIÓN;
MARÍA MERCEDES FELICIANO CARABALLO;
AND THE CONJUGAL PARTNERSHIP
COMPRISED THEREOF,

Defendant/
Counterclaimant.
________________________
Civil Case No.: ECD-2015-1017
For: Debt Collection and Mortgage Foreclosure
Counterclaim: Non-Existence of Mortgage Notes;
Extinguishment of Mortgage Notes; Non-Existence of

App.323a
Security Interests; Extinguishment of Security
Interests; Non-Existence of Mortgages;
Extinguishment of Mortgages; Extinguishment of
Mortgage Loan Agreements; Nullity of Auction
Reserve Price; Net Asset Value Claim for Property
Equity; Nullity of Agreement to Waive Future
Rights, i.e. equity of property; Nullity of Loan
Repayment Schedules; Nullity of Balances of Principal; Nullity of interest and other charges; Exaction of
excessive interest; Restitution; Article 80, Property
Registry Act; Cancellations of PR Submission
Entries; Cancellations of PR Registration Entries;
Article 203, Proper-ty Registry Act; Unconstitutionality of Art. 104, Property Registry Act,
Paragraphs 3rd and 4th etc.

In an action for debt collection
and mortgage foreclosure:
if the plaintiff
is not the owner,
or the holder,
Or possessor of the mortgage note,
then the plaintiff has NO standing;
if the plaintiff has no standing,
then the Court has no jurisdiction;
if the Court has no jurisdiction,
then the case is NOT justiciable
and a judgment in favor of
the plaintiff should not be rendered
TO THE HONORABLE ANNETTE PRATS PALERM:
COMES NOW the defendant/counterclaimant,
through the undersigned legal counsel, and most res-

App.324a
pectfully petitions, on the one hand, for Reconsideration of the Judgment of July 26, 2018, filed July 30,
2018, and, on the other, for initial and/or additional
findings of fact and conclusions of law. In support of
these motions, the defendant/counterclaimant STATES,
ALLEGES AND PETITIONS:
With the greatest respect and deference to the
initial view taken by your Honor in hearing the plaintiff’s motion for summary judgment, we set forth the
Errors of Law that would be committed if, on Reconsideration, your Honor does not overturn the aforesaid
judgment. In essence: (i) contrary to your original determination, in the instant case a dispute exists over
essential material facts of the case, thus prohibiting a
summary ruling; (ii) the judgment was rendered
before the end of the Discovery stage, which was marked
by serious conflicts due to the plaintiff’s unwillingness
to answer our interrogatories, petitions, and the
Qualified Written Request (regulated by federal law),
a procedural situation that we explained to your
Honor during the previous Hearing on the Status of
the Proceedings. As a result, your ruling affected the
Due Process of Law and the constitutional rights of
the defendants/counterclaimants; (iii) the facts of the
Defense and Counterclaim presented by the defendant/counterclaimant were disregarded, as were the 19
Expert Reports on the court record giving evidence of
the irrefutable facts of the sale of the disputed mortgage
notes on the secondary market and the process of their
securitization, inter alia.
In view of the above, the Court should have found
the plaintiff’s motion for summary judgment to be
WITHOUT MERIT and proceeded with Discovery to
move the above-captioned case onto a TRIAL ON THE

App.325a
MERITS. In that trial, our expert can show and prove
the details of the databases he accesses (i.e. Bloomberg,
Securities and Exchange Commission, as stated in his
Expert Reports) to find the data on the Sale and
Securitization of a given mortgage note. In addition,
he can explain the alphanumeric and other codes
appearing on the screenshots contained in each Expert
Report on the court record, on the last page thereof.
To be able to carry out his investigations on these
international financial databases, the expert would
explain that he first has to review the documents of
the mortgage note, mortgage and complaint provided
to him by the defendant in order to locate on those
international databases (which cannot be manipulated)
the specific data on the date of sale of the mortgage note
on the secondary market, the date when the mortgage
note was securitized, the names of the participants in
that process (i.e. the sponsor who acquired the mortgage
notes to subsequently securitize them) and the trust
created after the securitization of the mortgage loans,
from which the securities were issued.
All these aspects involve questions and concepts
so technical that they require the expert’s testimony
to be heard in a Trial on the Merits. It also falls upon
the expert to testify with respect to the alleged
endorsements of the mortgage notes in dispute by the
F.D.I.C., because if the notes were securitized, as in
effect they were, BEFORE the intervention of the
F.D.I.C. with Eurobank, then those ENDORSEMENTS
ARE INVALID as they were made in error. This error
can be easily corrected, by cancelling the endorsement.
With the benefit of the expert testimony in a
TRIAL ON THE MERITS, the Essential Fact of the
defense and counterclaim brought by the defendant

App.326a
would be demonstrated irrefutably, which would necessarily result in the dismissal of the complaint with prejudice in view of the fact that the plaintiff IS NOT THE
OWNER, OR THE HOLDER, OR THE POSSESSOR of
the mortgage notes in dispute, which were subject to
securitization.
Based on this irrefutable Essential Fact, it would
also have to be concluded that this Court lacks jurisdiction to hear the instant case.

It is important to clarify that in an action for debt
collection and mortgage foreclosure, if the plaintiff is
NOT the owner, OR the holder, OR the possessor of
the mortgage note, then the plaintiff has NO standing;
if the plaintiff has no standing, then the Court has NO
jurisdiction; if the Court has no jurisdiction the case
is NOT JUSTICIABLE and a judgment should not be
rendered in favor of the plaintiff.
Clearly, a judgment rendered without jurisdiction
is a void judgment ab initio, which does not operate as
res judicata, which can never be made final and
enforceable, and which can be challenged at any time,
either in the original suit or by means of a separate
suit because it is not subject to any statute of limitations, or to laches.
Moreover, any post-judgment proceeding after a
void judgment is equally void. In addition, all prejudgment proceedings pursued in a civil case where
the Court had no jurisdiction lack legal effect on all
points.
Furthermore, it is important to clarify that to be
able to adjudicate the federal question of the Counterclaim (Section 4.42 of Counterclaim) a Trial on the

App.327a
Merits must be held for the Court to receive the necessary expert testimony so that, in accordance with
correct adjudicative procedure, it may in due course
adjudicate the federal question so that the defend-

ant/counterclaimant will be able to exercise its right
to appeal to the Federal Supreme Court.
There is still time for justice to be done by reversing the judgment rendered by your Honor, which does
not uphold the image, experience and intelligence of
this Honorable Court. Indeed, I, the undersigned, place
myself at your Honor’s disposal for us to hold hearings
prior to the TRIAL ON THE MERITS that is required
by justice and due process of law in the instant case. My
well-known expositions at hearings (recognized by many
judges as highly enlightening) would have assisted this
Honorable Court in differentiating the legal institutions
of the mortgage note and securities and in establishing
the basic premises of the concepts of the secondary
mortgage market. I have 28 years of university education, at all levels, in economics, finance, accounting, and
international trade, in addition to law, and have been
able to clarify many issues related to the secondary
market in order to make them accessible to the Courts.
In view of the errors of law affecting the judgment
referred to herein, we hereby move for Reconsideration and submit the findings of fact and conclusions of
law requested. These are as follows.
THE LAW ON THE MATTER OF JURISDICTION
THAT SHOULD BE RECONSIDERED
JUSTICIABILITY AND
STANDING OF A PLAINTIFF
IN DEBT COLLECTION AND MORTGAGE
FORECLOSURE CASES

App.328a
As is well-known, jurisdiction is the main source
of authority of the courts to interpret and enforce the
laws in our system of government. Jurisdiction is
governed by the application of the various doctrines
that underpin the principle of justiciability: standing,
mootness and political questions, P.P.D. vs. Gobernador
I, 139 D.P.R. 643, 666 (1995).
It is an established standard that our jurisdiction
is governed by the constitutional concept of justiciability,
which establishes as a requirement the existence of a
real case or controversy for the valid exercise of
judicial authority. Ortiz v. Panel F.E.I., 155 D.P.R.
219 (2001). With this in mind, the courts must ensure
that the matters brought before their consideration
are “justiciable”, which means that: (1) they do not
involve aspects related to any public policy determined
by the executive branch; (2) the parties have legal
capacity or standing to bring the lawsuit; (3) the controversy is not moot or advisory; and (4) the controversy is
ripe for adjudication. Acevedo Vilá v. Meléndez Ortiz,
164 D.P.R. ___, 2005 T.S.P.R. 79, 2005 JTS 80; Com.
de la Mujer v. Srio. de Justicia, 109 D.P.R. 715, 720725 (1980).
One of the axioms derived from this reasonable
approach is that of standing, which relates primarily
to the person pursuing the action and secondarily to
the issues to be adjudicated. Hernández Torres v.
Hernández Collin, 129 D.P.R. 824 (1992).
One of the requirements for the justiciability of
controversies is that the parties must have the legal
capacity to be parties. Hernández Agosto v. Romero
Barceló, 112 D.P.R. 407, 413 (1982). Lack of jurisdiction
cannot be cured, and no court may arrogate jurisdiction
to itself, as the courts have the inescapable duty to

App.329a
examine their own jurisdiction. Pagán Navedo vs.
Alcalde Mun. de Cataño, 143 D.P.R. 314, 326 (1997).
Given that the state and federal courts of the
United States of America have been at the forefront of
the adjudication of thousands of cases where it has
been shown that the plaintiff in an action for money
collection and mortgage foreclosure lacks standing
due to Not being the holder of the mortgage note or
the holder of the mortgage itself, we set forth below
their conclusions of law, cited for the most part in
English:
Three essential elements can be drawn from the
conclusions of law in the aforementioned decisions at
the federal level, which apply to the instant case.
These elements are: (1) “[a] crucial element in any
mortgage foreclosure proceeding is that the party
seeking foreclosure must demonstrate that it has
standing to foreclose.” Rigby v. Wells Fargo Bank, 84
So.3d 1195, 1196 (Fla. 4th DCA 2012) (citing: McLean,
79 So.3d at 173); McLean v. JP Morgan Chase Bank
Nat’l Ass’n, 79 So.3d 170, 173 (Fla. 4th DCA 2012); (2)
“the party seeking foreclosure must demonstrate that
it owns and holds the note and mortgage in question—
otherwise, the plaintiff lacks standing to foreclose.”
Lizio v. McCullom, 36 So.3d 927, 929 (Fla. 4th DCA
2010); Verizzo v. Bank of N.Y., 28 So.3d 976, 978 (Fla.
2d DCA 2010); Philogene v. ABN Amro Mortg. “Group
Inc., 948 So.2d 45, 46 (Fla. 4th DCA 2006); (3) “[a]
plaintiff seeking foreclosure in a mortgage proceeding
must establish that it had standing to foreclose at the
time it filed suit.” McLean v. JP Morgan Chase Bank
Nat’l Ass’n, 79 So.3d 170, 173 (Fla. 4th DCA 2012).
With respect to the basis for standing, the United
States Supreme Court made clear, in the case of Steel

App.330a

Co. v. Citizens for a Better Environment , 523 U.S.
83, 102, 118 S. Ct. 1003, 140 L.Ed.2d 210 (1998), that
“[s]tanding to sue is part of the common understanding
of what it takes to make a justiciable case.” Therefore,
“standing is a ‘jurisdictional requirement’”, State ex
rel. Dallman v. Franklin Cty. Court of Common Pleas,
35 Ohio St.2d 176, 179, 298 N.E.2d 515 (1973). In view
of the above, “the issue of standing, inasmuch as it is
jurisdictional in nature, may be raised at any time
during the pendency of the proceedings.” New Boston
Coke Corp. v. Tyler, 32 Ohio St.3d 216, 218, 513
N.E.2d 302 (1987). See also: Fed. Home Loan Mtge.
Corp. v. Schwartzwald, 134 Ohio St.3d 13, 2012 Ohio
5017, ¶ 22, 979 N.E.2d 1214.
In 1992, the United States Supreme Court established that “[b]ecause standing to sue is required to
invoke the jurisdiction of the common pleas court,
“standing is to be determined as of the commencement
of suit.” Lujan v. Defenders of Wildlife, 504 U.S. 555,
570-571, 112 S. Ct. 2130, 119 L.Ed.2d 351, fn. 5 (1992);
See also: Friends of the Earth, Inc. v. Laidlaw Environmental Servs. (TOC), 528 U.S. 167, 180, 120 S.
Ct. 693, 145 L.Ed.2d 610 (2000); Nova Health Sys. v.
Gandy, 416 F.3d 1149, 1154-1155 (10th Cir. 2005);

Focus on the Family v. Pinellas Suncoast Transit
Auth., 344 F.3d 1263, 1275 (11th Cir. 2003); Perry v.
Arlington Hts., 186 F.3d 826, 830 (7th Cir. 1999); Carr
v. Alta Verde Industries, Inc., 931 F.2d 1055, 1061
(5th Cir. 1991).

More specifically, “[s]tanding is the legal right to set
judicial machinery in motion.” Hiland v. Ives, 28
Conn. Supp. 243, 245, 257 A.2d 822 (1966). Thus,
“[t]he plaintiff must prove that it had standing to
foreclose when the complaint was filed.” McLean v. JP

App.331a

Morgan Chase Bank Natl. Assn., 79 So.3d 170, 173 (Fla.
App. 2012). See also: Burley v. Douglas, 26 So.3d 1013,
1019 (Miss. 2009), citing Lujan v. Defenders of Wildlife,
504 U.S. 555, 571, 112 S. Ct. 2130, 119 L.Ed.2d 351,
fn. 5 (1992); Deutsche Bank Nat’l Trust Co. v. Mitchell,
422 N.J. Super. 214, 224, 27 A.3d 1229 (App. Div. 2011).
See also: McLean v. JP Morgan Chase Bank Nat’l
Ass’n, 2011 Fla. App. LEXIS 19931, 36 Fla. L. Weekly
D2728a (Fla. 4th DCA Dec. 14, 2011); Taylor v. Deutsche
Bank Nat’l Trust Co., 44 So.3d 618 (Fla. 5th DCA 2010).
In Saratoga County Chamber of Commerce, Inc.
v. Pataki, 100 N.Y.2d 801, 812, 798 N.E.2d 1047, 766
N.Y.S.2d 654 (2003), cert denied 540 U.S. 1017, 124 S.
Ct. 570, 157 L.Ed.2d 430 (2003), it was determined
that “standing to sue is critical to the proper functioning
of the judicial system. It is a threshold issue. If standing is denied, the pathway to the courthouse is
blocked. The plaintiff who has standing, however, may
cross the threshold and seek judicial redress.”
In Fed. Home Loan Mtge. Corp. v. Schwartzwald,
134 Ohio St.3d 13, 2012 Ohio 5017, 979 N.E.2d 1214,
the Supreme Court of Ohio determined that “a plaintiff
in a foreclosure action must have standing at the time
it files the complaint in order to invoke the jurisdiction
of the court.” Schwartzwald at ¶ 41-42. See also: In re

2007 Administration of Appropriations of Water of the
Niobrara, 278 Neb. 137, 145, 768 N.W.2d 420 (2009);
Country Place Cmty. Ass’n v. J.P. Morgan Mortg.
Acquisition Corp., 51 So.3d 1176, 1179 (Fla. 2d DCA

2010). “Standing to sue is jurisdictional in nature as
it concerns a party’s capacity to invoke the jurisdiction
of the court, and, therefore, whether a party has
standing is evaluated at the time of the filing of the
complaint.” Id. at ¶ 24.

App.332a
It is clear that “[i]n a mortgage foreclosure action,
a plaintiff has standing where it is both the holder and
assignee of the subject mortgage and the holder or
assignee of the underlying note at the time the action
is commenced.” Homecomings Fin., LLC v. Guldi, 108
A.D.3d 506, 507-508, 969 N.Y.S.2d 470 (2nd Dep’t 2013),
citing: Bank of N.Y. v. Silverberg, 86 A.D.3d 274, 279,
926 N.Y.S.2d 532 (2nd Dep’t 2011); See also: Bank of
N. Y. Mellon Trust Co. NA v. Sachar, 95 A.D.3d 695,
695, 943 N.Y.S.2d 893 (1st Dep’t 2012); US Bank N.A. v.
Cange, 96 A.D.3d 825, 826, 947 N.Y.S.2d 522 [2d Dept
2012]; U.S. Bank, N.A. v. Collymore, 68 A.D.3d at 753754 [2009]; Countrywide Home Loans, Inc. v. Gress,
68 A.D.3d 709, 888 N.Y.S.2d 914 [2d Dept 2009]);
HSBC Bank USA v. Hernandez, 92 A.D.3d 843, 843,
939 N.Y.S.2d 120; Aurora Loan Servs., LLC v. Taylor,
114 A.D.3d 627, 980 N.Y.S.2d 475 [2d Dept 2014];
Deutsche Bank Natl. Trust Co. v. Whalen, 107 A.D.3d
931, 932, 969 N.Y.S.2d 82 [2d Dept 2013].
Thus, “[a] plaintiff has standing to maintain the
action only where the plaintiff is the proper assignee
of the mortgage and the underlying note at the time
the foreclosure action was commenced.” U.S. Bank,
N.A. v. Collymore, 68 A.D.3d 752, 890 N.Y.S.2d 578 [2d
Dept 2009]; Federal Natl. Mtge. Assn. v. Youkelsone,
303 A.D.2d 546, 755 N.Y.S.2d 730 [2d Dept 2003];
Wells Fargo Bank, N.A. v. Marchione, 69 A.D.3d 204,
887 N.Y.S.2d 615 [2d Dept 2009]; First Trust Nat’l
Ass’n v. Meisels, 234 A.D.2d 414, 651 N.Y.S.2d 121 [2d
Dept 1996]). “A party cannot foreclose on a mortgage
without having title, giving it standing to bring the
action.” See: Kluge v. Fugazy, 145 A.D.2d 537, 538, 536
N.Y.S.2d 92 [2nd Dept 1988].

App.333a
In a debt collection and mortgage foreclosure
action, the plaintiff has standing when “it is both the
holder or assignee of the subject mortgage and the
holder or assignee of the underlying note at the time
the action is commenced.” See: Mortgage Elec. Registration Sys., Inc. v. Coakley, 41 A.D.3d 674, 838 N.Y.S.2d
622 [2007]; Federal Natl. Mtge. Assn. v. Youkelsone, 303
A.D.2d 546, 546-547, 755 N.Y.S.2d 730 [2003]; First
Trust Natl. Assn. v. Meisels, 234 A.D.2d 414, 651
N.Y.S.2d 121 [1996]); HSBC Bank USA v. Hernandez,
92 A.D.3d 843, 939 N.Y.S.2d 120 [2d Dept 2012]; US
Bank, NA v. Collymore, 68 A.D.3d at 753; Countrywide
Home Loans, Inc. v. Gress, 68 A.D.3d 709, 888 N.Y.S.2d
914 [2d Dept 2009]. Denaro, 98 A.D.3d at 964; Dellarmo,
94 A.D.3d at 748; Bank of New York, 86 A.D.3d at 279;
Collymore, 68 A.D.3d at 753; Wells Fargo Bank, N.A.
v. Marchione, 69 A.D.3d 204, 207, 887 N.Y.S.2d 615
[2d Dept 2009]; Bank of New York v. Silverberg, 86
A.D.3d 274, 279, 926 N.Y.S.2d 532 [2d Dept 2011];
Aurora Loan Servs., LLC v. Weisblum, 85 A.D.3d 95,
108, 923 N.Y.S.2d 609 [2d Dept 2011].
Thus, “[t]o have standing to foreclose, it must be
demonstrated that the plaintiff holds the note and
mortgage in question.” Mazine v. M & I Bank, 67 So.3d
1129, 1132 (Fla. 1st DCA 2011); See also: BAC Funding
Consortium, Inc. v. Jean-Jacques, 28 So.3d 936, 938
(Fla. 2d DCA 2010). The plaintiff must have the requisite standing when the foreclosure complaint is filed.
See Rigby v. Wells Fargo Bank, N.A., 84 So.3d 1195,
1196 (Fla. 4th DCA 2012) (citing: Venture Holdings &
Acquisitions Grp., LLC v. A.I.M. Funding Grp., LLC,
75 So.3d 773, 776 (Fla. 4th DCA 2011)). “It is axiomatic
that plaintiff has standing to sue if it was the lawful
holder of the note and mortgage when the action was

App.334a
commenced.” Mortgage Electronic Registration Systems, Inc. v. Coakley, 41 A.D.3d 674, 838 N.Y.S.2d 622
(2nd Dept 2007).
“The doctrine of standing is designed to preclude
persons who have no interest in a controversy from
bringing suit.” Raintree Homes, Inc. v. Village of Long
Grove, 209 Ill. 2d 248, 262, 807 N.E.2d 439, 282 Ill.
Dec. 815 (2004). “A party’s standing to sue must be
determined as of the time the suit is filed.” Village of
Kildeer v. Village of Lake Zurich, 167 Ill. App. 3d 783,
786, 521 N.E.2d 1252, 118 Ill. Dec. 559 (1988). “[A]
party either has standing at the time the suit is
brought or it does not.” Id.
Before the case of Schwartzwald, supra, the Court
of Appeals of Ohio also determined that: “in order to
have a real interest in a foreclosure action, a party
must be the owner and holder of the note and the
mortgage at the time it commences the action”, U.S.
Bank, N.A. v. Richards, 189 Ohio App.3d 276, 2010 Ohio
3981, ¶ 13, 938 N.E.2d 74 (9th Dist.), citing: Everhome
Mtge. Co. v. Rowland, 10 Dist. Franklin No. 07AP-615,
2008 Ohio 1282, ¶ 12 (“In foreclosure actions, the real
party in interest is the current holder of the note and
mortgage”); Wells Fargo Bank, N.A. v. Sessley, Franklin
App. No. 09AP-178, 188 Ohio App. 3d 213, 2010 Ohio
2902, ¶ 11, 935 N.E.2d 70; Quantum Servicing Corp.
v. Haugabrook, 9th Dist. Summit No. 26542, 2013Ohio-3516, ¶ 8; Wells Fargo Bank N.A. v. Horn, 9th Dist.
Lorain No. 12CA010230, 2013-Ohio-2374, ¶ 10; BAC
Home Loan Serv. v. McFerren, 9th Dist. Summit No.
26384, 2013-Ohio-3228, ¶ 13; Wells Fargo Bank, N.A.
v. Stovall, Cuyahoga App. No. 91802, 2010 Ohio 236.
“A plaintiff seeking foreclosure must establish that
it was the owner or holder of the note and mortgage

App.335a
at the time that it commenced the foreclosure action.”
See: Mortgage Elec. Registration Sys. v. Coakley, 41
A.D.3d 674, 838 N.Y.S.2d 622 [2nd Dept 2007]; Federal Natl. Mtge. Assn. v. Youkelsone, 303 A.D.2d 546,
755 N.Y.S.2d 730 [2nd Dept 2003]; See also: Wells
Fargo Bank, N.A. v. Marchione, 69 A.D.3d 204, 887
N.Y.S.2d 615 [2nd Dept 2009].
“In order to commence a foreclosure action, a
plaintiff must have a legal or equitable interest in the
mortgage. A plaintiff has standing where it is the
holder or assignee of both the subject mortgage and of
the underlying note at the time the action is commenced,” Bank of N.Y. v. Silverberg, 86 A.D.3d 274,
926 N.Y.S.2d 532 [2011]; Aurora Loan Servs., LLC v.
Weisblum, 85 A.D.3d 95, 923 N.Y.S.2d 609 [2011];
Wells Fargo Bank, N.A. v. Marchione, 69 A.D.3d 204,
207, 887 N.Y.S.2d 615 [2009]; U.S. Bank, N.A. v.
Collymore, 68 A.D.3d 752, 890 N.Y.S.2d 578 [2009];
Countrywide Home Loans, Inc. v. Gress, 68 A.D.3d
709, 888 N.Y.S.2d 914 [2009]); Deutsche Bank Natl.
Trust Co. v. Spanos, 102 A.D.3d 909, 911, 961 N.Y.S.2d
200; OneWest Bank FSB v. Carey, 104 A.D.3d 444,
960 N.Y.S.2d 306 [1st Dept 2013]; Bank of New York
Mellon Trust Co. NA v. Sachar, 95 A.D.3d 695, 943
N.Y.S.2d 893 [1st Dept 2012]; GRP Loan, LLC v.
Taylor, 95 A.D.3d 1172, 945 N.Y.S.2d 336 [2nd Dept
2012]. The decision in Bank of New York v. Silverberg,
86 A.D.3d at 280, (2nd Dep’t, 2011) upheld that: “a
plaintiff does not have standing to bring a foreclosure
action if [it] does not own the note.”
In Kluge v. Fugazy et al., 145 A.D.2d 537; 536
N.Y.S.2d 92 (N.Y., 1988), it was determined that: “foreclosure of a mortgage may not be brought by one who
has no title to it and absent transfer of the debt, the

App.336a
assignment of the mortgage is a nullity [Emphasis
added]. Essentially, in the Kluge decision the Court
found that since the plaintiff was not the holder of the
mortgage note and the assignee of the mortgage, it
lacked standing to bring a collection and foreclosure
action. See also: Deutsche Bank Nat’l Trust Co. v.
Barnett, 88 A.D.3d 636, 637, 931 N.Y.S.2d 630; Bank
of NY v. Silverberg, 86 A.D.3d 274, 926 N.Y.S.2d 532;
Campaign v. Barba (23 A.D.3d 327, 805 N.Y.S.2d 86
[2d Dept 2005].
“The transfer of a mortgage without a note is a
nullity and insufficient to confer standing to foreclose.”
See: U.S. Bank N.A. v. Dellarmo, 94 A.D.3d 746, 748,
942 N.Y.S.2d 122 (2nd Dep’t 2012); Deutsche Bank Nat’l
Trust Co. v. Barnett, 88 A.D.3d 636, 637, 931 N.Y.S.2d
630 (2nd Dep’t 2011); Bank of N.Y. v. Silverberg, 86
A.D.3d at 280. “An assignment of a mortgage without
assignment of the underlying note or bond is a nullity,
and no interest is acquired by it.” Merritt v. Bartholick,
36 NY 44, 45, 34 How. Pr. 129, 1 Transc. App. 63 [1867];
Bank of N.Y. v. Silverberg, 86 A.D.3d 274, 926 N.Y.S.2d
532 [2011]; LaSalle Bank Natl. Assn. v. Ahearn, 59
A.D.3d 911, 912, 875 N.Y.S.2d 595 [2009].
“The collateral lien of the mortgage could have no
legal existence when separated from the note and
transferred to others than the holder of the note, but
so long as the two remain together, owned and possessed by the same person, they operate together and are
obligations for the payment of the same indebtedness.”
Matter of Pirie, 198 NY 209, 91 N.E. 587 (1910). A party

who only has the mortgage but no note has not suffered
any injury given that bare possession of the mortgage
does not endow its possessor with any enforceable
right absent possession of the note. See: Restatement

App.337a

of the Law 3d, Property, Mortgages, Section 5.4(e), at 385
(1996) (“[I]n general a mortgage is unenforceable if it
is held by one who has no right to enforce the secured
obligation.”).
In Carpenter v. Longan, 83 U.S. 271, 274, 21 L Ed
313 [1873], the United States Supreme Court determined that: “an assignment of the mortgage without
the note is a nullity.” See: US Bank N.A. v. Madero, 80
A.D.3d 751, 752, 915 N.Y.S.2d 612 [2011]; US Bank,
N.A. v. Collymore, 68 A.D.3d at 754; Kluge v. Fugazy,
145 A.D.2d 537, 538, 536 N.Y.S.2d 92 [1988] [plaintiff,
the assignee of a mortgage without the underlying
note, could not bring a foreclosure action]; See also:
Flyer v. Sullivan, 284 App Div 697, 698, 134 N.Y.S.2d
521 [1954]; Beak v. Walts, 266 App Div 900, 42
N.Y.S.2d 652 [1943].
“[O]wnership of the note is part of a Plaintiff’s
prima facie case and its burden of proof” Wells Fargo
Bank, N.A., v. Cohen, 80 A.D.3d 753, 915 N.Y.S.2d 569
(2d Dept 2011); Argent Mtge. Co., LLC v. Mentesana,
79 A.D.3d 1079, 915 N.Y.S.2d 591 (2d Dept 2010);
Campaign v. Barba, 23 A.D.3d 327, 805 N.Y.S.2d 86
(2nd Dept 2005).
In Deutsche Bank National Trust v. Brumbaugh,
2012 OK 3, 270 P.3d 151, ¶ 11, it was determined that:

[t]o commence a foreclosure action, a plaintiff must
demonstrate it has a right to enforce the note and,
absent a showing of ownership, the plaintiff lacks
standing. See: Gill v. First Nat. Bank & Trust Co. of
Oklahoma City, 1945 OK 181, 195 Okla. 607, 159 P.2d
717.
Thus, “[t]he party seeking foreclosure must present
evidence that it owns and holds the note and mortgage

App.338a
in question in order to proceed with a foreclosure
action.” Lizio v. McCullom, 36 So.3d 927, 929 (Fla. 4th
DCA 2010). “To establish a prima facie case in an action
to foreclose a mortgage, the plaintiff must establish
the existence of the mortgage and mortgage note,
ownership of the mortgage and note.” Household Fin.
Realty Corp. of N.Y. v. Winn, 19 A.D.3d 545, 796
N.Y.S.2d 533 [2005]; Sears Mtge. Corp. v. Yaghobi, 19
A.D.3d 402, 796 N.Y.S.2d 392 [2005]; Ocwen Fed.
Bank FSB v. Miller, 18 A.D.3d 527, 794 N.Y.S.2d 650
[2005]; U.S. Bank Trust N.A. Trustee v. Butti, 16 A.D.3d
408, 792 N.Y.S.2d 505 [2005]). First Union Mortgage
Corp. v. Fern, 298 A.D.2d 490, 749 N.Y.S.2d 42 [2d Dept
2002]; Village Bank v. Wild Oaks, Holding, Inc., 196
A.D.2d 812, 601 N.Y.S.2d 940 [2d Dept 1993]).
“A plaintiff must demonstrate it has a right to
enforce the note and, absent a showing of ownership,
the plaintiff lacks standing.” Gill v. First Nat. Bank &
Trust Co. of Oklahoma City, 1945 OK 181, 195 Okla.
607, 159 P.2d 717. “To foreclose a mortgage, a plaintiff
must demonstrate that it has a right to enforce the
note, and without such ownership, the plaintiff lacks
standing.” Wells Fargo Bank, N.A. v. Ford, 418 N.J.
Super. 592, 15 A.3d 327, 329 (N.J. Super. Ct. App. Div.
2011).
“[T]he plaintiff failed to demonstrate its prima facie
entitlement to judgment as a matter of law because it
did not establish that it had standing as the lawful
holder or assignee of the subject note on the date it
commenced this action.” See: Deutsche Bank Nat’l
Trust Co. v. Barnett, 88 A.D.3d 636, 931 N.Y.S.2d 630;
U.S. Bank N.A. v. Madero, 80 A.D.3d 751, 915 N.Y.S.2d
612; U.S. Bank, N.A. v. Collymore, 68 A.D.3d 752, 890
N.Y.S.2d 578.

App.339a
In these collection and foreclosure actions, the
party in interest is the current holder of the mortgage
note and of the mortgage. See: Chase Manhattan Mtge.
Corp. v. Smith, Hamilton App. No. C-061069, 2007
Ohio 5874, at P18; Kramer v. Millott (Sept. 23, 1994),
Erie App. No. E-94-5, 1994 Ohio App. LEXIS 4454
(“because the plaintiff did not prove that she was the
holder of the note and mortgage, she did not establish
herself as a real party in interest”). “A party who fails
to establish itself as the current holder is not entitled
to judgment as a matter of law.” First Union Nat’l
Bank v. Hufford (2001), 146 Ohio App.3d 673, 677,
679-680, 2001 Ohio 2271, 767 N.E.2d 1206.
“To foreclose upon a promissory note, the plaintiff
must be the ‘holder’ in order to be the real party in
interest.” Troupe v. Redner, 652 So.2d 394, 395-96
(Fla. 2d DCA 1995); Mortg. Elec. Registration Sys. v.
Azize, 965 So.2d 151, 153 (Fla. 2d DCA 2007).
Therefore, “[w]here standing is put into issue by a
defendant’s answer, a plaintiff must prove its standing
if it is to be entitled to relief. Standing is an aspect of
justiciability which, when challenged, must be
considered at the outset of any litigation.” See: Wells
Fargo Bank Minnesota National Association, 42 A.D.3d
239, 837 N.Y.S.2d 247 [2nd Dept 2007]. “If a plaintiff
lacks standing to sue, the plaintiff may not proceed in
the action”, Deutsche Bank National Trust Company,
et al. v. Campbell et al, 21 Misc. 3d 1145[A], 875
N.Y.S.2d 819, 2008 NY Slip Op 52506[U] [Supreme
Court of New York, Kings County 2008].
“Where the defendant denies that the party seeking
foreclosure has an ownership interest in the mortgage,
the issue of ownership becomes an issue the plaintiff
must prove.” Carapezza v. Pate, 143 So.2d 346, 347

App.340a
(Fla. 3d DCA 1962). “Where standing is put into issue
by a defendant, the plaintiff must prove its standing
in order to be entitled to relief.” See: US Bank N.A. v.
Madero, 80 A.D.3d 751, 752, 915 N.Y.S.2d 612 (2nd
Dep’t 2011); U.S. Bank, N.A. v. Collymore, 68 A.D.3d
752, 753, 890 N.Y.S.2d 578 (2nd Dep’t 2009); Deutsche
Bank Natl. Trust Co. v. Haller, 100 A.D.3d 680, 954
N.Y.S.2d 551 [2d Dept 2012]. TPZ Corp. v. Dabbs, 25
A.D.3d 787, 789, 808 N.Y.S.2d 746 [2006]; See also:
Society of Plastics Indus. v. County of Suffolk, 77
NY2d 761, 769, 573 N.E.2d 1034, 570 N.Y.S.2d 778
[1991]). CitiMortgage, Inc. v. Rosenthal, 88 A.D.3d 759,
931 N.Y.S.2d 638 [2011]. “Where a plaintiff standing
to commence a foreclosure action is placed in issue by
a defendant, it is incumbent upon the plaintiff to
prove its standing to be entitled to relief.” See:
Citimortgage, Inc. v. Stosel, 89 A.D.3d 887, 934 N.Y.S.2d
182 [2d Dept 2011].
Where standing is raised as a defense by the
defendant, the plaintiff is required to prove its standing
before it may be determined whether the plaintiff is
entitled to relief. See: U.S. Bank, N.A. v. Collymore,
68 A.D.3d 752, 753, 890 N.Y.S.2d 578 [2d Dept 2009].
In other words: “Where a defendant raises the issue of
standing, the plaintiff must prove its standing to be
entitled to relief.” (U.S. Bank, N.A. v. Dellarmo, 94
A.D.3d 746, 748, 942 N.Y.S.2d 122 [2d Dept 2012]; U.S.
Bank, N.A. v. Sharif, 89 A.D.3d 723, 724, 933 N.Y.S.2d
293 [2d Dept 2011]; Bank of New York v. Silverberg,
86 A.D.3d 274, 279, 926 N.Y.S.2d 532 [2d Dept 2011];
U.S. Bank, N.A. v. Collymore, 68 A.D.3d 752, 753, 890
N.Y.S.2d 578 [2d Dept 2009].)
“The party seeking foreclosure must present
evidence that it owns and holds the note and mortgage

App.341a
in question in order to proceed with a foreclosure action.
Verizzo v. Bank of N.Y., 28 So.3d 976, 978 (Fla. 2d
DCA 2010); Philogene v. ABN Amro Mortgage Group
Inc., 948 So.2d 45, 46 (Fla. 4th DCA 2006); Lizio v.
McCullom, 36 So.3d 927, 929 (Fla. 4th DCA 2010). As
we have noted above: “[a] party must have the note
and the mortgage in order to demonstrate standing.”
See: Richards, 189 Ohio App.3d 276, 2010 Ohio 3981,
at ¶ 13, 938 N.E.2d 74; Losantiville Holdings L.L.C. v.
Kashanian, 1st Dist. Hamilton No. C-110865, 2012 Ohio
3435, ¶ 17; Arch Bay Holdings, L.L.C. v. Brown, 2d Dist.
Montgomery No. 25073, 2012 Ohio 4966, ¶ 16; U.S.
Bank Natl. Assn. v. Marcino, 181 Ohio App.3d 328,
2009 Ohio 1178, ¶ 32, 908 N.E.2d 1032 (7th Dist.);
Rowland, 2008 Ohio 1282, at ¶ 12. “The party seeking
foreclosure must present evidence that it owns and
holds the note and mortgage in question in order to
proceed with a foreclosure action.” Lizio v. McCullom,
36 So.3d 927, 929 (Fla. 4th DCA 2010). “It is wellestablished precedent requiring the party seeking
foreclosure to present evidence that it owns and holds
the note and mortgage in question in order to proceed
with a foreclosure action. See: Verizzo, 28 So.3d at 978;
Philogene v. ABN Amro Mortg. Group Inc., 948 So.2d
45, 46 (Fla. 4th DCA 2006).
In a debt collection and foreclosure case, “the
plaintiff must plead and prove as part of its prima
facie case that it owns the note and mortgage and has
the right to foreclose.” Wells Fargo Bank, N.A., 80 A.D.3d
753, 915 N.Y.S.2d 569 (2d Dept 2011); Argent Mtge.
Co., LLC v. Mentesana, 79 AD3d 1079, 915 N.Y.S.2d

591 (2d Dept 2010); Campaign v Barba, 23 AD3d
327, 805 NYS2d 86 (2nd Dept 2005).

App.342a
In Wells Fargo Bank, N.A. v. Jordan, Cuyahoga
App. No. 91675, 2009 Ohio 1092, it was determined that:
“a party lacks standing to bring a foreclosure action if
the party cannot prove that it owned the note and
mortgage on the date the complaint was filed.”
“It is well established that in a foreclosure action
it is plaintiff’s burden to provide admissible evidence
of its standing as the lawful holder of the subject note
and mortgage at the time the action was commenced.”
See: U.S. Bank Nat’l Asso’n. v. Madero, 80 A.D.3d 751,
915 N.Y.S.2d 612 (2nd Dept. 2011); Aurora Loan
Services, LLC v. Weisblum, 85 A.D.3d 95, 923 N.Y.S.2d
609 (2nd Dept. 2011); Bank of New York v. Silverberg,
86 A.D.3d 274, 926 N.Y.S.2d 532, 2011 NY Slip Op 5002
(2d Dept. 2011); U.S. Bank, N.A. v. Collymore, 68 A.D.3d
752, 890 N.Y.S.2d 578 (2d Dept. 2009).
More specifically, lack of standing cannot be cured
subsequent to the filing of the complaint. Along these
lines: “[i]f, at the commencement of the action, a
plaintiff does not have standing to invoke the court’s
jurisdiction, the plaintiff cannot cure the lack of
standing by [subsequently] obtaining an interest in
the subject of the litigation and substituting itself as
the real party in interest.” Fed. Home Loan Mtge. Corp.
v. Schwartzwald, Slip Opinion No. 134 Ohio St.3d 13,
2012 Ohio 5017, 979 N.E.2d 1214.
Thus, “a retroactive assignment cannot be used
to confer standing upon the assignee in a foreclosure
action commenced prior to the execution of an assignment.” Wells Fargo Bank, N.A. v. Marchione, 69
A.D.3d 204, 210, 887 N.Y.S.2d 615 [2d Dept 2009].
“A plaintiff’s lack of standing at the time a complaint is filed in a foreclosure action cannot be cured

App.343a
by substituting the real party in interest for an
original party.” Wells Fargo Bank, N.A. v. Jordan, 8th
Dist. No. 91675, 2009 Ohio 1092, ¶ 24. “[I]n a foreclosure
action, a bank that was not the mortgagee when suit
was filed cannot cure its lack of standing by subsequently
obtaining an interest in the mortgage.” Id. at ¶ 24; see
also: Deutsche Bank Natl. Trust Co. v. Triplett, 8th
Dist. No. 94924, 2011 Ohio 478, ¶ 12; Wells Fargo
Bank N.A. v. Byrd, 178 Ohio App.3d 285, 2008 Ohio
4603, 897 N.E.2d 722 (1st Dist.).
“A plaintiff cannot rely on procedural rules
similar to cure a lack of standing at the commencement
of litigation,” Davis v. Yageo Corp., 481 F.3d 661, 678
(9th Cir. 2007) (“whether or not Dux was the realparty-in-interest, it does not have standing, and it
cannot cure its standing problem through an invocation
of Fed. R. Civ. P. 17(a)”); Clark v. Trailiner Corp., 242
F.3d 388 (10th Cir. 2000) (table), opinion reported at
2000 U.S. App. LEXIS 29006, 2000 WL 1694299 (noting
that the plaintiff cannot “retroactively become the realparty-in-interest” in order to cure a lack of standing at
the filing of the complaint [emphasis sic]); State v. Property at 2018 Rainbow Drive, 740 So.2d 1025, 1027-1028
(Ala. 1999) (rejecting the argument that a lack of standing can be cured after the filing of the complaint);
Consumer Fedn. of Am. v. Upjohn Co., 346 A.2d 725, 729
(D.C. App. 1975). See also: McLean v. JP Morgan Chase
Bank Natl. Assn., 79 So.3d 170, 173 (Fla. App. 2012) (“a
party is not permitted to establish the right to maintain
an action retroactively by acquiring standing to file a
lawsuit after the fact”).
In other words, “the plaintiff’s lack of standing at
the inception of the case is not a defect that may be
cured by the acquisition of standing after the case is

App.344a
filed.” Progressive Exp. Ins. Co. v. McGrath Comty.
Chiropractic, 913 So.2d 1281, 1286 (Fla. 2d DCA 2005).
“Thus, a party is not permitted to establish the right to
maintain an action retroactively by acquiring standing to file a lawsuit after the fact.” Id. at 1286.
“Where a valid cause of action is not stated, the
party moving for judgment is not entitled to the
requested relief, even on default.” Green v. Dolphy
Constr. Co. 187 A.D.2d 635, 590 N.Y.S.2d 238 (2nd
Dep’t, 1992); Citigroup Global Mkts. Realty Corp. v.
Smith, 33 Misc. 3d 1234(A); 943 N.Y.S.2d 790; 2011 N.Y.
Thus, “it becomes essential to establish that the
person who demands payment of a negotiable note, or
to whom payment is made, is the duly qualified
holder. Otherwise, the obligor is exposed to the risk of
DOUBLE PAYMENT, or at least to the expense of litigation incurred to prevent duplicative satisfaction of the
instrument. These risks provide makers with a recognizable interest in demanding proof of the CHAIN OF
TITLE.” Adams v. Madison Realty & Development, Inc.
(C.A.3, 1988), 853 F.2d 163, 168.
“Standing is a threshold question for the court to
decide in order for it to proceed to adjudicate the
action.” State ex rel. Jones v. Suster, 84 Ohio St.3d 70,
77, 1998 Ohio 275, 701 N.E.2d 1002.
“If a plaintiff lacks standing to sue, the plaintiff
may not proceed in the action.” Stark v. Goldberg, 297
A.D.2d 203, 746 N.Y.S.2d 280 (1st Dept 2002).
“Even without opposition, a plaintiff in a foreclosure
action must satisfy a court that it has proper standing
or title to bring the action, that the mortgage and note
was actually funded by the plaintiff, and that the
transaction itself, the one sued upon, has the indicia

App.345a
of reliability and is free of fraud. Kluge v. Fugazy, 145
A.D.2d 537, 536 N.Y.S.2d 92 (2nd Dep’t 1988); Katz v.
East-Ville Realty Co, 249 A.D.2d 243, 672 N.Y.S.2d
308 (1st Dep’t 1998).
“Today, with multiple (and often unrecorded)
assignments of mortgage obligations and multiple
securitizations often related to the same debt, the
court should carefully scrutinize the status of the
parties who claim the right to enforce these mortgage
obligations.” Deutsche Bank National Trust Company
v. McRae, 27 Misc3d 247, 894 N.Y.S.2d 720, [Sup Ct,
Allegany County, 2010].
A plaintiff who has no standing in an action is
subject to a jurisdictional dismissal since (1) courts
have jurisdiction only over controversies that involve
the plaintiff, (2) a plaintiff found to lack “standing is
not involved in a controversy, and (3) the courts
therefore have no jurisdiction of the case when such
plaintiff purports to bring it.” Security Pac. Natl.
Bank v. Evans, 31 A.D.3d 278, 820 N.Y.S.2d 2.
In U.S. Bank National Association vs. Antonio
Ibañez, 941 N.E.2d 40 (Mass, 2011), it was determined
that: the plaintiffs did not demonstrate that they were
the holders of the Ibanez and LaRace mortgages at the
time that they foreclosed these properties, and therefore
the trial court ruled the foreclosure sales were invalid.
In Spain, where the practice of securitization of
mortgage loans is still relatively new compared to the
United States, the Courts already suspend mortgage
foreclosures and order dismissal of any debt collection
and mortgage foreclosure action when it is demonstrated
that the mortgage loan has been “titulizado” (known in
the United States as securitization). The Courts in

App.346a
Spain have even declared the nullity of debt collection
and mortgage foreclosure judgments when in a nullity
of judgment action it has been demonstrated that the
mortgage has been securitized.
COURT OF FIRST INSTANCE AND PRELIMINARY INVESTIGATION No. 2
VILLACARRILLO
Proceedings: Foreclosure No. 408/2010.
Proceedings No. 10716
Facts
ONE.-In these foreclosure proceedings, the execution debtor presented a brief dated May 5, 2016, concerning the nullity of the enforcement order and the
integrity of the proceedings, based on the securitization
of the same.
TWO.-With due regard to the action for nullity
filed, notice thereof was served to the opposing party
in order to submit allegations; leaving the proceedings
open for resolution.
THREE.-The legal requirements have
complied with in the processing of this trial.

been

Legal Basis
ONE.-Article 225 of the LEC provides that: “Pro-

cedural acts shall be null and void by operation of law
in the following cases:
1.

Where these acts occur by or before the Court
with lack of jurisdiction or of objective or
functional jurisdiction.

App.347a
2.

Where these acts are carried out under violence
or intimidation.

3.

Where these acts waive essential rules of
procedure, provided that, for that reason,
defenselessness has occurred.

4.

Where these acts are carried out without the
intervention of attorneys, in cases where the
law requires their presence.

5.

Where these cases involve hearings without
the required intervention of the Court Clerk.

6.

Where these cases are resolved through court
orders or by decree, which, according to law,
must be resolved by means of court ruling,
order or judgment.

7.

In all other cases regulated by this law.

Adding the second section, first paragraph of
Article 227 of the same

Legal text: “Without prejudice to the foregoing,

the Court may, ex officio or at the request of a party,
prior to issuing any decision to end the process, and
provided that remedy is not due, to declare, after
hearing the parties, the nullity of all the proceedings
or of any in particular.”
In view thereof, these can be considered possible
procedural nullities that cannot be invoked by way of
appeal, provided that they have caused defenselessness
to the party filing for nullity.

App.348a
TWO.-Securitization consists of a bank action
through which the financial institution or bank divides
the loans into homogeneous holdings, grouping these
into an Asset Securitization Trust for the purpose of
avoiding risk. The Securitization Trust is set up legally
as an entity without legal status managed and administered by a corporation specializing in the management
of third-party business, a company specializing in Asset
Securitization Trusts, operating with them in the
securities market where these shares are acquired by
investors.
Law 19/1992, on the regime of companies and real
estate investment trusts and on mortgage-backed securities funds, clarifies that through the securitization of a
loan, the entity that granted the same, ceases to be the
creditor of the loan, even though it retains by law the
ownership by registration and continues, unless otherwise agreed, with the management thereof.
Concerning the invocation of the nullity made,
certain courts have issued rulings by declaring that,
with regard to the securitized loan, the originator
loses its condition as creditor, based on the argument
“It expressly means that the creditor of the same has

taken the position of creditor in the complaint, as the
holder of the loan. Based on these statements, it is
inferred therein that it has not been assigned to any
Mortgage-Backed Securities Fund. It is clear that if
the assignment had taken place, the plaintiff of the
proceedings could only act as administrator of the
assigned loans and would lack the intended standing.
As a result, the creditor is hereby notified that, in the
event it does not hold such standing, the nullity of the
actions filed will be declared and the complaint will be

App.349a

inadmissible with effects ex tune” (in that sense, Proceedings of March 6, 2015, of Court No. 1 Fuenlabrada;
Proceedings of January 20, of Court No. 8 Málaga; Proceedings of October 5, 2015, of Court No. 7 Granollers;
Proceedings of May 12, 2015, of Court No. 6 Arganda
del Rey; Proceedings of April 13, 2016, of Court No.5
Gijon; Proceedings of March 15, 2016, of Court No. 3
Picassent; Proceedings of March 11, 2016, of Court No.
4 Collado Villaba; Proceedings of January 20, 2016, of
Court of First Instance No. 2 Barcelona; Judgment of the
AP de Valentía, of June 14, 2005 and AAP de Castellón, of July 12, 2012 and July 24, 2012).
As the execution debtor clearly states, the Bank
of Spain, in a non-binding document, in reference to
consultation, expressed the lack of standing in that
case.
Our Supreme Court has already established that
the assignee of a mortgage loan that has not registered
the assignment of the mortgage in the Property
Register, has legal standing to file foreclosure proceedings, given that, in its understanding, the registration
of the assignment of the mortgage loan in the Property
Registry is declaratory and not constitutive. It understands, therefore, that the assignee is subrogated to
the rights of the assignor as creditor and has legal
standing to file foreclosure proceedings; all the foregoing,
without requiring registration (STS 6/29/1989, 11/23/
1993 and 11/23/2007, among others).
THREE.-On the basis of the assumptions outlined
above, we will enter into the analysis of this instant
case.
The execution creditor refuses the loan securitization by reference to the transaction number recorded in

App.350a
the list provided by the execution creditor, without such
reason being sufficient and decisive for the dismissal
of the claim of the execution debtor. As can be seen in
the list of loans of the Fund “Toncaixa Andalucía Ftempresa 1”, Asset-Backed Securities Fund, dated 2/26/
2010, specifically the last of the loans, which was concluded in favor of the borrowers, given that it coincides with the amount of the loan (€27,000), the
address of the borrower appearing in the deed of constitution and the date of the deed, February 13, 2006;
data which matches with the public instrument provided as an enforceable order with the complaint and
which serves as basis for the enforcement thereof.
Therefore, it is understood that the loan was securitized;
which is the basis for determining that the execution
creditor, Caja de Ahorros y Pensiones de Barcelona (La
Caixa), lacked standing, by the Fund being subordinated
to the position of creditor; which leads to the nullity of
the case.
FOUR.-No statement was made on court costs.
In the view of the legal precepts and others of
general application to the case;
I HEREBY DECREE
THE NULLITY OF THE ENFORCEMENT
ORDER, dated June 8, 2010, AND OF EVERYTHING
ACTED UPON THEREAFTER, thus ordering the dismissal of the proceedings, once the final resolution has
been issued; all the foregoing, without imposition.

App.351a

Proceedings No. 000221/2016
Most Illustrious, Mr.: Dr. Alfonso Franco Docavo
In BENIDORM, on the tenth of June of two thousand
sixteen.
Findings of Fact
SOLE PROVISION.-Having heard the facts after
the execution debtor informed about the loan securitization, subject of this enforcement order, the same
was forwarded to the parties for claiming their rights
regarding the possible ruling on the lack of standing
of the execution creditor, then proceeding, as appropriate, to declare the nullity of the enforcement order
and thereafter, the dismissal of the proceedings.
Legal Basis
ONE.-In the instant case, a suit for execution was
filed by the entity BANKIA SA, duly verifying that,
once the enforcement order was issued, the loan or
credit of these proceedings has been securitized, as was
admitted by the execution creditor itself.
Loan securitization means that the bank or financial institution, as holder of the same, divides the
loans into homogeneous holdings, grouping these
shares into an Asset-Backed Securities Fund, which
is legally set up as an entity without legal status,

App.352a
which is managed and administered by a corporation
specializing in the management of third-party business
matters, a company that manages asset-backed securities funds, operating with them in the securities market
where these shares are acquired by investors. In this
way, liquid assets are transformed into marketable
financial assets, which implies the possibility of cleaning up the balance sheets of financial institutions by
releasing the liabilities that served as the basis for the
assigned assets. Investment management firms are
created with the sole purpose of the constitution,
administration and legal representation of the securitization funds and for defending the interests of holders
of the securities issued by the funds they manage.
The first regulation of asset-backed securities
funds was issued by Law 15/92, of July 7, on
the Regime of Real Estate Investment Trusts
and Firms and on Mortgage-Backed Securities
Funds. Subsequently, Law 5/15 of April 27,
for the promotion of corporate finance, in
Article 15, establishes the regulation of securitization funds:
“1. Securitization funds are separate estates, lack-

ing legal status as such, with null net equity
value, integrated:
a)

In terms of their assets, by credit claims,
present or future, which are grouped
together in accordance with the provisions
of Article 16 and,

b)

in terms of their liabilities, based on
fixed-income securities issued and, on
the loans, granted by any third party,

App.353a
2.

The estate of the securitization funds may,
where thus provided in the deed of constitution, be divided into independent sections,
out of which different classes of securities
may be issued or obligations may be assumed
that can be settled independently.”

Art. 16.2 of this rule stipulates that: “2. Secu-

ritization funds may acquire the ownership
of the assets by any method, either through
their assignment, their purchase, their subscription on primary markets or through any
other way permitted by law.”
Based on the above, it should be noted that the aim
of the foreclosure procedure is to obtain the payment
of the mortgage-backed debt, pursuant to Art. 681
LEC, so that the real property right is not independent, but accessory or related to the loan secured
thereby, in which case, Art. 685.2 LEC requires the
provision of the negotiable instrument with the suit
for execution. In this case, such instrument is the deed
of incorporation of the mortgage in favor of *, but
indicating that the loan is securitized, thus assigning
the assets of* (bank) to the securitization fund. In this
sense, it can be said that the legal business of loan
securitization is the total assignment of the credit
claim subject of these proceedings.
Bankia SA, filed the foreclosure proceedings acting
on its own behalf and without indicating, until it was
thus requested by the Court, that securitization and
assignment of the credit claims had taken place in
favor of an Asset-Backed Securities Fund, and without
providing, at the beginning, the deed of constitution of
the asset-backed securities fund and the assignment
of credit claims.

App.354a
In the full assignment of the credit claims, as
appropriate, the ordinary standing for the actions
arising out of the mortgage loan would correspond to
the participant, in which case, the issuing entity,
which is the execution creditor in these proceedings,
would not have standing. The issuing entity has not
assigned to a third party a part or share of its mortgage
rights, but these are grouped into several mortgage
loans, and are assigned in their entirety to an AssetBacked Securities Fund. Therefore, it is not possible
to apply Art. 15 of the Mortgage Market Law, nor Art.
61 and 65.3 RD 685/82, which would only have sense,
when a portion of the credit claims is assigned, and that,
in any case, the share that could correspond to the
participant and the assignor should be distributed
according to each share.
In cases where the mortgage loan is assigned to a
third party, the execution creditor would have lost its
status as holder and creditor of the loan, and thus
assuming the actions aimed at its restitution, including
foreclosure. On the basis of Art 149 LH, the credit or
loan secured by a mortgage may be assigned in whole
or in part, in accordance with Art. 1,526 Cc, in which
case, the assignee is subrogated to all the rights of the
assignor. In turn, Art. 1528 Cc, states that the sale or
assignment of a loan includes all the accessory rights,
such as the bond, mortgage, pledge or lien.
Also, in this regard, the Bank of Spain, in its response, dated March 26, 2015, to a query made through
the CNMV, establishes that: “ . . . in accordance with

Law 19/1992, on the regime of real estate investment
trusts and firms on mortgage-backed securities funds,
the securitization of a loan means that the entity that
granted the same ceases to be the creditor of the loan,

App.355a

even though it retains by law the ownership by registration and continues, unless otherwise agreed, with
the management thereof.”
In view of the foregoing, the lack of standing of
the execution creditor should be noted, given that it
lacks the legal standing to request the payment of the
claim, subject of this enforcement order, in accordance
with Art. 10 LEC. Lack of standing is an irremediable
procedural defect, recognizable ex officio at any time in
the proceedings, as provided by Art, 9 LEC.
In this sense. Proceedings of Court of First Instance
No. 5 Gijori, No. 67/2016, of April 13, 2016, Proceedings of Court of First Instance No. 6 of Arganda del
Rey on November 12, 2015, Proceedings of Court of
First Instance No. 2 of Arganda del Rey of December
2, 2015, Proceedings of Court of First Instance No. 4
of Collado Villalba, of March 11, 2016, Proceedings of
Court of First Instance No. 8 of Málaga, No. 20/2015,
of January 14, 2015, Proceedings of Court of First
Instance No. 1 of Fuenlabrada, among others.
As a result, the enforcement order in favor of the
party that does not hold legal standing should be
declared null and void, by failure to follow the essential rules of procedure in the absence of one of the fundamental requirements of the filed action, i.e., the
plaintiff was not the holder of the loan that it intended
to enforce, pursuant to Art 225.3 LEC, and based on
the above, these proceedings must be dismissed.
In view of the foregoing;
I HEREBY DECREE: That the corporation,
BANKIA SA, lacks standing in this foreclosure proceeding to claim the loan subject of the proceedings, in

App.356a
view of which, the enforcement order is declared null
and void, and the proceedings must be dismissed.
Issue the timely order to the Property Registry to
proceed to cancel the marginal note placed on the
margin of the mortgage under foreclosure, after the
issuing of certificate of ownership and liens: notes to
be delivered to the execution creditor to use in its presentation and return once these are completed, at
which time the documents submitted with the complaint will be examined and returned as appropriate.
FINDINGS OF FACT AND
CONCLUSIONS OF LAW REQUESTED
The findings of fact requested are as follows:
1. On SEPTEMBER 10, 2015, the counterclaim
defendant filed the complaint for debt collection and
mortgage foreclosure in the above-captioned case.
2. On the date of filing of the aforementioned
complaint, the counterclaim defendant was NOT the
owner, holder or possessor of the original MORTGAGE
NOTES and was not the holder of the MORTGAGES
to which the above-captioned action refers.
3. The counterclaim defendant lacked standing
when it filed the complaint in the above-captioned case
because it is not the owner, holder or possessor of the
aforesaid original NOTES, nor is it the holder of the
MORTGAGES.
4. Between the dates of: MARCH 5, 2003 AND
JULY 9, 2009,1 i.e. within a period between 6 and 12
1
NOTE #1

($180,000.00):

March 5, 2003

App.357a
years BEFORE filing the complaint in the abovecaptioned case, the counterclaim defendant’s predecessor
sold each original MORTGAGE NOTE on the Secondary
Market, and each MORTGAGE NOTE was subject to
a securitization process in the respective Trusts:
EURO LOAN CLO I-EBS OVERSEAS INC III.2
NOTE #2

($720,000.00):

March 5, 2003

NOTE #3

($900,000.00):

December 5, 1992

NOTE #4

($300,000.00):

March 5, 2003

NOTE #5

($300,000.00):

March 5, 2003

NOTE #6

($280,000.00):

March 5, 2003

NOTE #7

($700,000.00):

January 5, 2001

NOTE #8

($600,000.00):

March 5, 2003

NOTE #9

($1,200,000.00):

March 5, 2003

NOTE #10

($432,000.00):

February 28, 2004

NOTE #11

($800,000.00):

October 7, 2004

NOTE #12

($2,443,000.00):

December 27, 2005

NOTE #13

($680,000.00):

December 27, 2005

NOTE #14

($1,500,000.00):

July 9, 2009

NOTE #15

($1,020,000.00):

July 9, 2009

NOTE #16

($920,000.00):

July 9, 2009

NOTE #17

($550,000.00):

July 9, 2009

NOTE #18

($157,000.00):

July 9, 2009

NOTE #19

($100,000.00):

July 9, 2009

2 See footnote 1 of the Amended Answer to Complaint and Counterclaim, the content of which is incorporated herein by reference.
See also: Exhibits attached, Expert Reports and affidavits. These
documents show: (i) the sale of the aforementioned mortgage

App.358a
5. After the sale of each original MORTGAGE
NOTE on the secondary market, the counterclaim
defendant’s predecessor collected the amount of each
NOTE through payment by a third party (secondary
market investor), and made a profit with the sale of
each NOTE on dates prior to filing the above-captioned
complaint.
6. After the date of sale of each original MORTGAGE NOTE on the secondary mortgage market,
between the dates of: MARCH 5, 2003 AND JULY 9,
2009, the plaintiff’s predecessor ceased to be the
owner, holder or possessor of each original NOTE and
the holder of each MORTGAGE to which this collection
and foreclosure case refers.3 Since the dates of each
sale, the plaintiff has not been the owner, holder or
possessor of the notes in question either.
7. After the securitization process of each MORTGAGE NOTE (between the dates of: MARCH 30, 2003
note on the secondary market before filing of the collection action
in the above-captioned case; and (ii) the conversion of that
mortgage note into securities, together with thousands of other
mortgage notes by means of the securitization process, before the
filing of the above-captioned action. See the last page of each
Expert Report, with the screenshot of the sales and securitization
data on each note.
3 It is worth highlight that when mortgage notes undergo the
securitization process—creating the so-called “pool” of these
notes, resulting in the securities—the notes are withdrawn from
market circulation and, in physical terms, are filed in a vault as
constitutive documents of the pool that preceded the securities
resulting from the securitization process. In accordance with federal regulations, these constitutive documents (the former
mortgage notes) are placed in the permanent custody of the
designated Master Documents Custodian of the secondary market
and cannot be removed from custody.

App.359a
AND JULY 15, 2009,4 in the respective trusts: EURO
LOAN CLO I-EBS OVERSEAS INC III5), each original
4
NOTE #1

($180,000.00):

March 30, 2003

NOTE #2

($720,000.00):

March 30, 2003

NOTE #3

($900,000.00):

December 16, 1992

NOTE #4

($300,000.00):

March 30, 2003

NOTE #5

($300,000.00):

March 30, 2003

NOTE #6

($280,000.00):

March 30, 2003

NOTE #7

($700,000.00):

January 30, 2001

NOTE #8

($600,000.00):

March 30, 2003

NOTE #9

($1,200,000.00):

March 30, 2003

NOTE #10

($432,000.00):

October 15, 2004

NOTE #11

($800,000.00):

October 15, 2004

NOTE #12

($2,443,000.00):

January 5, 2006

NOTE #13

($680,000.00):

January 5, 2006

NOTE #14

($1,500,000.00):

July 15, 2009

NOTE #15

($1,020,000.00):

July 15, 2009

NOTE #16

($920,000.00):

July 15, 2009

NOTE #17

($550,000.00):

July 15, 2009

NOTE #18

($157,000.00):

July 15, 2009

NOTE #19

($100,000.00):

July 15, 2009

5
NOTE #1

($180,000.00):

EURO LOAN CLO I

NOTE #2

($720,000.00):

EURO LOAN CLO I

NOTE #3

($900,000.00):

EURO MAX IV MBS

NOTE #4

($300,000.00):

EURO LOAN CLO I

App.360a
NOTE was converted into a different type of instrument,
called securities.
8. The plaintiff/counterclaim defendant’s claim
in the above-captioned case to being the owner and
holder of the MORTGAGE NOTES and holder of the
MORTGAGES constitutes a misrepresentation.
9. Between the dates of: MARCH 5, 2003 AND
JULY 9, 2009,6 the plaintiff/counterclaim defendant’s
NOTE #5

($300,000.00):

EURO LOAN CLO I

NOTE #6

($280,000.00):

EURO LOAN CLO I

NOTE #7

($700,000.00):

EURO MULTI CREDIT CDO

NOTE #8

($600,000.00):

EURO LOAN CLO I

NOTE #9

($1,200,000.00):

EURO LOAN CLO I

NOTE #10

($432,000.00):

EBS OVERSEAS INC I

NOTE #11

($800,000.00):

EBS OVERSEAS INC I

NOTE #12

($2,443,000.00):

EBS OVERSEAS INC II

NOTE #13

($680,000.00):

EBS OVERSEAS INC II

NOTE #14

($1,500,000.00):

EBS OVERSEAS INC III

NOTE #15

($1,020,000.00):

EBS OVERSEAS INC III

NOTE #16

($920,000.00):

EBS OVERSEAS INC III

NOTE #17

($550,000.00):

EBS OVERSEAS INC III

NOTE #18

($157,000.00):

EBS OVERSEAS INC III

NOTE #19

($100,000.00):

EBS OVERSEAS INC III

6
NOTE #1

($180,000.00):

March 5, 2003

NOTE #2

($720,000.00):

March 5, 2003

NOTE #3

($900,000.00):

December 5, 1992

App.361a
predecessor sold each original MORTGAGE NOTE in
question on the secondary market and received the
amount thereof through a third-party payment BEFORE
filing of the Complaint in the above-captioned case
(SEPTEMBER 10, 2015).
10. After the sale of each original MORTGAGE
NOTE on the secondary mortgage market, each NOTE

NOTE #4

($300,000.00):

March 5, 2003

NOTE #5

($300,000.00):

March 5, 2003

NOTE #6

($280,000.00):

March 5, 2003

NOTE #7

($700,000.00):

January 5, 2001

NOTE #8

($600,000.00):

March 5, 2003

NOTE #9

($1,200,000.00):

March 5, 2003

NOTE #10

($432,000.00):

February 28, 2004

NOTE #11

($800,000.00):

October 7, 2004

NOTE #12

($2,443,000.00):

December 27, 2005

NOTE #13

($680,000.00):

December 27, 2005

NOTE #14

($1,500,000.00):

July 9, 2009

NOTE #15

($1,020,000.00):

July 9, 2009

NOTE #16

($920,000.00):

July 9, 2009

NOTE #17

($550,000.00):

July 9, 2009

NOTE #18

($157,000.00):

July 9, 2009

NOTE #19

($100,000.00):

July 9, 2009

App.362a
was subject to securitization7 between the dates of:
MARCH 30, 2003 AND JULY 15, 20098-in other
7 In layman’s terms, securitization refers to the process whereby
a batch of original mortgage notes is converted into securities. It
is a well-known fact that if an original MORTGAGE NOTE is
converted―together with thousands or hundreds of others―into
securities, then the original MORTGAGE NOTE ceases to exist
due to its conversion into a different type of instrument:
“securities”–Cf.: Chapter 2, Chapter 8 of the Puerto Rico
Commercial Transactions Act, 19 L.P.R.A. Sec. 501, et seq., Sec.
1701 et seq.; 19 L.P.R.A. § 504; 19 L.P.R.A. § 1702(15); Article 3,
Article 8 of the Uniform Commercial Code of the United States
of America, U.C.C. § 3-104; U.C.C. § 8-102(15); and Tax Reform
Act of 1986–REMICs, 26 CFR § 1.860 F-2, et seq.
In effect, after the process of securitization of a MORTGAGE
NOTE, the debt holders and note holders cease to exist, being
replaced by “securities holders”. These final investors on the
chain acquired “securities”. These “securities” are subject to
market risks. However, these securities holders insure their
investment through CDS (Credit Default Swap), and receive the
insured amount in the event of default.
8
NOTE #1

($180,000.00):

March 30, 2003

NOTE #2

($720,000.00):

March 30, 2003

NOTE #3

($900,000.00):

December 16, 1992

NOTE #4

($300,000.00):

March 30, 2003

NOTE #5

($300,000.00):

March 30, 2003

NOTE #6

($280,000.00):

March 30, 2003

NOTE #7

($700,000.00):

January 30, 2001

NOTE #8

($600,000.00):

March 30, 2003

NOTE #9

($1,200,000.00):

March 30, 2003

NOTE #10

($432,000.00):

October 15, 2004

NOTE #11

($800,000.00):

October 15, 2004

App.363a
words, they were converted, together with hundreds
or thousands of other notes,9 into SECURITIES.
11. Each original MORTGAGE NOTE in dispute,
following its securitization process, lost its original
legal status. The securities are the new type of instrument resulting from the pooling of hundreds of mortgage
notes, including each aforesaid original MORTGAGE
NOTE, subject to securitization.10

NOTE #12

($2,443,000.00):

January 5, 2006

NOTE #13

($680,000.00):

January 5, 2006

NOTE #14

($1,500,000.00):

July 15, 2009

NOTE #15

($1,020,000.00):

July 15, 2009

NOTE #16

($920,000.00):

July 15, 2009

NOTE #17

($550,000.00):

July 15, 2009

NOTE #18

($157,000.00):

July 15, 2009

NOTE #19

($100,000.00):

July 15, 2009

9 2,000-5,000 notes for “non-conforming” loans. Among hundreds
of notes for “conforming” loans.
10 The MORTGAGE NOTE and securities are regulated, respectively, by Chapter 2 and Chapter 8 of the Puerto Rico Commercial
Transactions Act, 19 L.P.R.A. Sec. 501, et seq., Sec. 1701 et seq.;
19 L.P.R.A. § 504; 19 L.P.R.A. § 1702(15); and by Article 3 and
Article 8, respectively, of the Uniform Commercial Code of the
United States of America, U.C.C. § 3-104; U.C.C. § 8-102(15);
and the Tax Reform Act of 1986–REMICs, 26 CFR § 1.860 F-2,

et seq. “Real Estate Mortgage Investment Conduits (REMICs)
came into existence through the Tax Reform Act of 1986. Under
this act, qualified residential and commercial mortgage notes are
pooled and securitized.”

App.364a
12. Securities are the new legal status resulting
from the aforementioned process of securitization of
the mortgage notes.11
13. After batching each original MORTGAGE
NOTE in dispute with hundreds or thousands of other
notes and pooling them in the securitization process
in the respective trusts: EURO LOAN CLO I-EBS
OVERSEAS INC III12 between the dates of: MARCH
11 Cf.: Chapter 2, Chapter 8 of the Puerto Rico Commercial
Transactions Act, 19 L.P.R.A. Sec. 501, et seq., Sec. 1701 et seq.;
19 L.P.R.A. § 504; 19 L.P.R.A. § 1702(15); Article 3, Article 8 of
the Uniform Commercial Code of the United States of America,
U.C.C. § 3-104; U.C.C. § 8-102(15); and the Tax Reform Act of
1986–REMICs, 26 CFR § 1.860 F-2, et seq.
12
NOTE #1

($180,000.00):

EURO LOAN CLO I

NOTE #2

($720,000.00):

EURO LOAN CLO I

NOTE #3

($900,000.00):

EURO MAX IV MBS

NOTE #4

($300,000.00):

EURO LOAN CLO I

NOTE #5

($300,000.00):

EURO LOAN CLO I

NOTE #6

($280,000.00):

EURO LOAN CLO I

NOTE #7

($700,000.00):

EURO MULTI CREDIT
CDO

NOTE #8

($600,000.00):

EURO LOAN CLO I

NOTE #9

($1,200,000.00):

EURO LOAN CLO I

NOTE #10

($432,000.00):

EBS OVERSEAS INC I

NOTE #11

($800,000.00):

EBS OVERSEAS INC I

NOTE #12

($2,443,000.00):

EBS OVERSEAS INC II

NOTE #13

($680,000.00):

EBS OVERSEAS INC II

NOTE #14

($1,500,000.00):

EBS OVERSEAS INC III

App.365a

NOTE #15

($1,020,000.00):

EBS OVERSEAS INC III

NOTE #16

($920,000.00):

EBS OVERSEAS INC III

NOTE #17

($550,000.00):

EBS OVERSEAS INC III

NOTE #18

($157,000.00):

EBS OVERSEAS INC III

NOTE #19

($100,000.00):

EBS OVERSEAS INC III

App.366a

30, 2003 AND JULY 15, 2009,13 the resulting securities
were circulated and sold to the general public on
global markets (“shares or pieces of the pool”).14
14. No contractual relationship exists between
the defendant/counterclaimant in the above-captioned
13
NOTE #1

($180,000.00):

March 30, 2003

NOTE #2

($720,000.00):

March 30, 2003

NOTE #3

($900,000.00):

December 16, 1992

NOTE #4

($300,000.00):

March 30, 2003

NOTE #5

($300,000.00):

March 30, 2003

NOTE #6

($280,000.00):

March 30, 2003

NOTE #7

($700,000.00):

January 30, 2001

NOTE #8

($600,000.00):

March 30, 2003

NOTE #9

($1,200,000.00):

March 30, 2003

NOTE #10

($432,000.00):

October 15, 2004

NOTE #11

($800,000.00):

October 15, 2004

NOTE #12

($2,443,000.00):

January 5, 2006

NOTE #13

($680,000.00):

January 5, 2006

NOTE #14

($1,500,000.00):

July 15, 2009

NOTE #15

($1,020,000.00):

July 15, 2009

NOTE #16

($920,000.00):

July 15, 2009

NOTE #17

($550,000.00):

July 15, 2009

NOTE #18

($157,000.00):

July 15, 2009

NOTE #19

($100,000.00):

July 15, 2009

14 These buyers of securities are at the end of the securitization
food chain and are known as Securities Holders.

App.367a
case and the securities holders. The investors who are
at the end of the securitization food chain have standing to demand compliance with the terms of the
securities due to their status as securities holders.15
15. None of the securities holders purchased any
of the original MORTGAGE NOTES in question. They
bought “securities”—instruments of value resulting from
the process of securitization of hundreds or thousands
of mortgage notes.
16. After the process of securitization of each
original MORTGAGE NOTE, all of the former note
holders & mortgage holders of each original MORTGAGE NOTE received the amount shown on each
NOTE when they sold it on the secondary mortgage
market.
17. The original MORTGAGE NOTES in dispute
were sold by the plaintiff/counterclaim defendant’s predecessor to intermediary investors on the secondary
mortgage market. In that transaction, the plaintiff/
counterclaim defendant’s predecessor received the
amount of each original MORTGAGE NOTE through
payment by a third party (first intermediary investor).
In turn, the first intermediary investment bank sold
each note to another more senior intermediary invest-

15 The securities resulting from the process of securitization of
the mortgage notes are subject to market risks. However,
securities holders insure their investment through CDS (Credit
Default Swap), and collect the insured amount in the event of
default on the credit represented by the securities.
Securities holders do not have standing to demand the original obligation associated with the original MORTGAGE NOTE
because what they acquired were securities.

App.368a
ment bank. In this other transaction, the first intermediary investment bank also received the amount of
each mortgage note through payment by a third party
(second intermediary investor).
18. The last investment bank that bought and
collected the MORTGAGE NOTES, including the original MORTGAGE NOTE in dispute, securitized them
in order to recover its investment in the purchase of the
MORTGAGE NOTES and to obtain bigger profits by
selling the securities that resulted from the securitization process. Each original MORTGAGE NOTE in
dispute was batched with thousands or hundreds of
other NOTES to create the pool that gave rise to a
different type of instrument: “securities” of the respective trusts: EURO LOAN CLO I-EBS OVERSEAS INC

App.369a
III,16 between the dates of: MARCH 30, 2003 AND
JULY 15, 2009.17

16
NOTE #1

($180,000.00):

EURO LOAN CLO I

NOTE #2

($720,000.00):

EURO LOAN CLO I

NOTE #3

($900,000.00):

EURO MAX IV MBS

NOTE #4

($300,000.00):

EURO LOAN CLO I

NOTE #5

($300,000.00):

EURO LOAN CLO I

NOTE #6

($280,000.00):

EURO LOAN CLO I

NOTE #7

($700,000.00):

EURO MULTI CREDIT CDO

NOTE #8

($600,000.00):

EURO LOAN CLO I

NOTE #9

($1,200,000.00):

EURO LOAN CLO I

NOTE #10

($432,000.00):

EBS OVERSEAS INC I

NOTE #11

($800,000.00):

EBS OVERSEAS INC I

NOTE #12

($2,443,000.00):

EBS OVERSEAS INC II

NOTE #13

($680,000.00):

EBS OVERSEAS INC II

NOTE #14

($1,500,000.00):

EBS OVERSEAS INC III

NOTE #15

($1,020,000.00):

EBS OVERSEAS INC III

NOTE #16

($920,000.00):

EBS OVERSEAS INC III

NOTE #17

($550,000.00):

EBS OVERSEAS INC III

NOTE #18

($157,000.00):

EBS OVERSEAS INC III

NOTE #19

($100,000.00):

EBS OVERSEAS INC III

17 The sales and trading flow of the original mortgage note and
the specifications and details of the resulting securities are evidenced by the relevant Securitization Reports prepared by U.S.
experts.

App.370a
19. Prior to the conversion of each original MORTGAGE NOTE, together with thousands of other notes,
into securities, there had to be actual sales of the original MORTGAGE NOTE in question between the
originator and the sponsor; between the sponsor and
the depositor; and between the depositor and the
trustee to create the respective trusts: EURO LOAN
CLO I-EBS OVERSEAS INC III18—i.e. REMICs under
18
NOTE #1

($180,000.00):

EURO LOAN CLO I

NOTE #2

($720,000.00):

EURO LOAN CLO I

NOTE #3

($900,000.00):

EURO MAX IV MBS

NOTE #4

($300,000.00):

EURO LOAN CLO I

NOTE #5

($300,000.00):

EURO LOAN CLO I

NOTE #6

($280,000.00):

EURO LOAN CLO I

NOTE #7

($700,000.00):

EURO MULTI CREDIT CDO

NOTE #8

($600,000.00):

EURO LOAN CLO I

NOTE #9

($1,200,000.00):

EURO LOAN CLO I

NOTE #10

($432,000.00):

EBS OVERSEAS INC I

NOTE #11

($800,000.00):

EBS OVERSEAS INC I

NOTE #12

($2,443,000.00):

EBS OVERSEAS INC II

NOTE #13

($680,000.00):

EBS OVERSEAS INC II

NOTE #14

($1,500,000.00):

EBS OVERSEAS INC III

NOTE #15

($1,020,000.00):

EBS OVERSEAS INC III

NOTE #16

($920,000.00):

EBS OVERSEAS INC III

NOTE #17

($550,000.00):

EBS OVERSEAS INC III

NOTE #18

($157,000.00):

EBS OVERSEAS INC III

NOTE #19

($100,000.00):

EBS OVERSEAS INC III

App.371a
the Tax Reform Act of 1986; U.S. Bank National Association v. Antonio Ibañez, 941 N.E.2d 40 (Mass
2011).19
20. Under Articles 1777 and 1232 of the Puerto
Rico Civil Code, 1930, the relevant deeds of assignment
of the mortgage loan had to be exchanged between: (i) the
original mortgagee and the secondary market
investment bank; (ii) the originator and the sponsor;
(iii) the sponsor and the depositor, and; (v) the depositor
and the trustee (REMICs, Tax Reform Act of 1986). And
this did not occur. See statement in: U.S. Bank
National Association v. Antonio Ibañez, 941 N.E.2d 40
(Mass 2011), 458 Mass 637 (2011).
21. On the date of filing of the complaint in the
above-captioned case (SEPTEMBER 10, 2015), the
plaintiff/ counterclaim defendant did NOT have standing to sue for collection of the original MORTGAGE
NOTES in dispute because it was not the owner, holder
or possessor of the aforesaid original MORTGAGE
NOTES, nor was it holder of the MORTGAGES listed
in its complaint because its predecessor had sold them
on the secondary market and received the amount of
each MORTGAGE NOTE, and each one was subject to
securitization, between the dates of: MARCH 30, 2003

19 At the same time, the mortgage loan was assigned or transferred
between the originator and the sponsor; between the sponsor and
the depositor; and between the depositor and the trustee—
REMICs, Tax Reform Act of 1986; U.S. Bank National Association v. Antonio Ibañez, 941 N.E.2d 40 (Mass 2011).

App.372a
AND JULY 15, 200920 in the respective trusts: EURO
LOAN CLO I-EBS OVERSEAS INC III.21

20
NOTE #1

($180,000.00):

March 30, 2003

NOTE #2

($720,000.00):

March 30, 2003

NOTE #3

($900,000.00):

December 16, 1992

NOTE #4

($300,000.00):

March 30, 2003

NOTE #5

($300,000.00):

March 30, 2003

NOTE #6

($280,000.00):

March 30, 2003

NOTE #7

($700,000.00):

January 30, 2001

NOTE #8

($600,000.00):

March 30, 2003

NOTE #9

($1,200,000.00):

March 30, 2003

NOTE #10

($432,000.00):

October 15, 2004

NOTE #11

($800,000.00):

October 15, 2004

NOTE #12

($2,443,000.00):

January 5, 2006

NOTE #13

($680,000.00):

January 5, 2006

NOTE #14

($1,500,000.00):

July 15, 2009

NOTE #15

($1,020,000.00):

July 15, 2009

NOTE #16

($920,000.00):

July 15, 2009

NOTE #17

($550,000.00):

July 15, 2009

NOTE #18

($157,000.00):

July 15, 2009

NOTE #19

($100,000.00):

July 15, 2009

21
NOTE #1

($180,000.00):

EURO LOAN CLO I

NOTE #2

($720,000.00):

EURO LOAN CLO I

NOTE #3

($900,000.00):

EURO MAX IV MBS

App.373a
22. After the date of sale of each original MORTGAGE NOTE on the secondary mortgage market
(between the dates of: MARCH 5, 2003 AND JULY 9,
200922), all of its past owners and holders received the
NOTE #4

($300,000.00):

EURO LOAN CLO I

NOTE #5

($300,000.00):

EURO LOAN CLO I

NOTE #6

($280,000.00):

EURO LOAN CLO I

NOTE #7

($700,000.00):

EURO MULTI CREDIT CDO

NOTE #8

($600,000.00):

EURO LOAN CLO I

NOTE #9

($1,200,000.00):

EURO LOAN CLO I

NOTE #10

($432,000.00):

EBS OVERSEAS INC I

NOTE #11

($800,000.00):

EBS OVERSEAS INC I

NOTE #12

($2,443,000.00):

EBS OVERSEAS INC II

NOTE #13

($680,000.00):

EBS OVERSEAS INC II

NOTE #14

($1,500,000.00):

EBS OVERSEAS INC III

NOTE #15

($1,020,000.00):

EBS OVERSEAS INC III

NOTE #16

($920,000.00):

EBS OVERSEAS INC III

NOTE #17

($550,000.00):

EBS OVERSEAS INC III

NOTE #18

($157,000.00):

EBS OVERSEAS INC III

NOTE #19

($100,000.00):

EBS OVERSEAS INC III

22
NOTE #1

($180,000.00):

March 5, 2003

NOTE #2

($720,000.00):

March 5, 2003

NOTE #3

($900,000.00):

December 5, 1992

NOTE #4

($300,000.00):

March 5, 2003

NOTE #5

($300,000.00):

March 5, 2003

NOTE #6

($280,000.00):

March 5, 2003

App.374a
amounts they were respectively owed and the debt
thereto evidenced by each original mortgage note was
extinguished through a third-party payment. With
the extinguishment of the debt, the mortgage that
secured it was likewise extinguished.
23. The secondary market intermediary investors—i.e. commercial banks, investment banks, Fannie Mae,
Freddie Mac, Goldman Sachs, Morgan Stanley, Lehman
Brothers, Merrill Lynch, Bear Stearns, Deutsche Bank,
Wells Fargo—do not have legal standing to demand
payment of the original MORTGAGE NOTES because
NONE of them is the holder of any of the original
MORTGAGE NOTES, because they all in turn sold
them on the secondary mortgage market and received
payment for them from third parties. Moreover, each
original MORTGAGE NOTE was subject to
NOTE #7

($700,000.00):

January 5, 2001

NOTE #8

($600,000.00):

March 5, 2003

NOTE #9

($1,200,000.00):

March 5, 2003

NOTE #10

($432,000.00):

February 28, 2004

NOTE #11

($800,000.00):

October 7, 2004

NOTE #12

($2,443,000.00):

December 27, 2005

NOTE #13

($680,000.00):

December 27, 2005

NOTE #14

($1,500,000.00):

July 9, 2009

NOTE #15

($1,020,000.00):

July 9, 2009

NOTE #16

($920,000.00):

July 9, 2009

NOTE #17

($550,000.00):

July 9, 2009

NOTE #18

($157,000.00):

July 9, 2009

NOTE #19

($100,000.00):

July 9, 2009

App.375a
securitization, and consequently each original MORTGAGE NOTE was converted-together with thousands
or hundreds of other NOTES-into a different type of
instrument: “securities” of the respective trusts: EURO
LOAN CLO I-EBS OVERSEAS INC III23 between the

23
NOTE #1

($180,000.00):

EURO LOAN CLO I

NOTE #2

($720,000.00):

EURO LOAN CLO I

NOTE #3

($900,000.00):

EURO MAX IV MBS

NOTE #4

($300,000.00):

EURO LOAN CLO I

NOTE #5

($300,000.00):

EURO LOAN CLO I

NOTE #6

($280,000.00):

EURO LOAN CLO I

NOTE #7

($700,000.00):

EURO MULTI CREDIT CDO

NOTE #8

($600,000.00):

EURO LOAN CLO I

NOTE #9

($1,200,000.00):

EURO LOAN CLO I

NOTE #10

($432,000.00):

EBS OVERSEAS INC I

NOTE #11

($800,000.00):

EBS OVERSEAS INC I

NOTE #12

($2,443,000.00):

EBS OVERSEAS INC II

NOTE #13

($680,000.00):

EBS OVERSEAS INC II

NOTE #14

($1,500,000.00):

EBS OVERSEAS INC III

NOTE #15

($1,020,000.00):

EBS OVERSEAS INC III

NOTE #16

($920,000.00):

EBS OVERSEAS INC III

NOTE #17

($550,000.00):

EBS OVERSEAS INC III

NOTE #18

($157,000.00):

EBS OVERSEAS INC III

NOTE #19

($100,000.00):

EBS OVERSEAS INC III

App.376a
dates of: MARCH 30, 2003 AND JULY 15, 2009.24 Thus,
the original MORTGAGE NOTES lost their legal
status.
24. In the knowledge that its predecessor had
already sold each original MORTGAGE NOTE in dispute
on the secondary mortgage market and received the
amount owed thereto through a third-party payment,
24
NOTE #1

($180,000.00):

March 30, 2003

NOTE #2

($720,000.00):

March 30, 2003

NOTE #3

($900,000.00):

December 16, 1992

NOTE #4

($300,000.00):

March 30, 2003

NOTE #5

($300,000.00):

March 30, 2003

NOTE #6

($280,000.00):

March 30, 2003

NOTE #7

($700,000.00):

January 30, 2001

NOTE #8

($600,000.00):

March 30, 2003

NOTE #9

($1,200,000.00):

March 30, 2003

NOTE #10

($432,000.00):

October 15, 2004

NOTE #11

($800,000.00):

October 15, 2004

NOTE #12

($2,443,000.00):

January 5, 2006

NOTE #13

($680,000.00):

January 5, 2006

NOTE #14

($1,500,000.00):

July 15, 2009

NOTE #15

($1,020,000.00):

July 15, 2009

NOTE #16

($920,000.00):

July 15, 2009

NOTE #17

($550,000.00):

July 15, 2009

NOTE #18

($157,000.00):

July 15, 2009

NOTE #19

($100,000.00):

July 15, 2009

App.377a
the plaintiff/counterclaim defendant, in the complaint
in the above-captioned case, misrepresented itself as
the owner and holder of each original MORTGAGE
NOTE and holder of each MORTGAGE. The plaintiff/counterclaim defendant was perfectly aware that:
“Since the loan was sold, pooled and turned

into a security—along with others—the alleged
holder can no longer claim that it is a real
party with interest, as the original lender
has been paid in full.” “Once the Note was
converted—along with others—into a stock,
or stock equivalent, it is no longer a Note. If
both the Note and the Stock, or Stock
equivalent, exist at the same time, that is
known as double dipping. Double dipping is
a form of securities fraud.” “Once a Note has
been securitized—along with others—it forever loses its security component (i.e. the
mortgage), and the right to foreclose through
the mortgage is forever lost.”
25. The plaintiff/counterclaim defendant has no
standing to sue in the above-captioned case. The abovecaptioned debt collection and foreclosure case is not
justiciable due to the plaintiff/counterclaim defendant’s
lack of standing. The plaintiff/counterclaim defendant
has no right to receive payment for the MORTGAGE
NOTES or foreclose the mortgage because its predecessor already received the amount of the aforesaid
original NOTES when it sold each one on the secondary
market. On the date of filing of the complaint in the
above-captioned case, the original MORTGAGE NOTES
had already been paid for and had lost their legal
status through conversion―together with thousands
or hundreds of other NOTES-into securities, and the

App.378a
mortgages lost their lien status due to extinguishment
of the debt through third-party payment.
26. The ample sworn testimony of experts on the
court record inexorably proves that each MORTGAGE
NOTE in dispute was sold, transferred and securitized
(together with a pool of hundreds of notes) on a date
prior to the filing of the complaint in the abovecaptioned case.
27. The plaintiff/counterclaim defendant’s lack of
standing at the time of filing the complaint deprived
the Trial Court of jurisdiction in the above-captioned
case. In the absence of jurisdiction, the above-captioned
collection and foreclosure case is not justiciable.
28. In the above-captioned case, the plaintiff/
counterclaim defendant did not have standing at the
time of filing its complaint. The plaintiff/counterclaim
defendant violated due process of law by filing a complaint without having standing to sue. Therefore, the
case should be dismissed.
29. Moreover, the mortgage deeds listed in the
complaint on the court record suffer from an irremediable
defect: absence of a valid reserve price for the first
auction. This defect renders each mortgage deed void
and each mortgage unenforceable.
30. In each of the aforementioned mortgage deeds,
the clause related to the “Value of the Property” did not
mention any appraised price agreed between the
parties for the first auction. Instead, the clause in
question underhandedly listed a price imposed by the
originator based on the amount of the loan granted
without considering the appraised value of the property―on the date of the mortgage―plus its appreciation
in value.

App.379a
31. A reserve price inserted underhandedly and
unilaterally by the originator based on the amount of
the loan granted does not constitute a valid reserve
price for the first auction. This would allow the awarding
of valuable properties for ridiculous amounts. The
mortgage thus did not meet the essential reserve price
requirement. Therefore, the mortgage deeds in question
are void ab initio, and should not have been entered
in the Property Registry. If they were erroneously or
inadvertently registered, the respective entries should
be canceled.
32. The principal of each Mortgage Deed listed
in the complaint on the court record cannot be a valid
auction reserve price because it does not reflect the
appraised value of the property-on the date of the
mortgage deed-plus the increase in value (appreciation)
that would ordinarily be expected.
33. The 3rd and 4th paragraphs of Article 104 of
the Property Registry Act, 2015, are unconstitutional.
They also run contrary to market laws. The aforesaid
article imposes an auction “reserve price” for all cases
and does not provide options for adjusting the reserve
price in cases where there is a net asset value (“equity”).
Any legal provision authorizing such a loss of property
equity is unconstitutional.
34. There was no negotiation or agreement between the parties with respect to the reserve price of
the properties listed in the complaint. The price was
inserted underhandedly by the originator on each of
the aforementioned mortgage deeds.
35. A reserve price inserted underhandedly and
unilaterally into the mortgage deed by the originator
based on the amount of the loan granted does not

App.380a
constitute a valid reserve price for the first auction.
The mortgage thus did not meet the essential reserve
price requirement. Such a mortgage deed is null and
void.
The Conclusions of Law requested are as follows:
1. “A crucial element in any mortgage foreclosure
proceeding is that the party seeking foreclosure must
demonstrate that it has standing to foreclose.” Rigby
v. Wells Fargo Bank, 84 So.3d 1195, 1196 (Fla. 4th DCA
2012) (citing: McLean, 79 So.3d at 173); McLean v. JP
Morgan Chase Bank Nat’l Ass’n, 79 So.3d 170, 173
(Fla. 4th DCA 2012).
2. “The party seeking foreclosure must demonstrate
that it owns and holds the note and mortgage in
question—otherwise, the plaintiff lacks standing to
foreclose.” Lizio v. McCullom, 36 So.3d 927, 929 (Fla.
4th DCA 2010); Verizzo v. Bank of N.Y., 28 So.3d 976,
978 (Fla. 2d DCA 2010); Philogene v. ABN Amro Mortg.
“Group Inc., 948 So.2d 45, 46 (Fla. 4th DCA 2006).
3. “A plaintiff seeking foreclosure in a mortgage
proceeding must establish that it had standing to
foreclose at the time it filed suit.” McLean v. JP Morgan
Chase Bank Nat’l Ass’n, 79 So.3d 170, 173 (Fla. 4th
DCA 2012).
4. With respect to the basis for standing, the
United States Supreme Court made clear, in the case
of Steel Co. v. Citizens for a Better Environment, 523
U.S. 83, 102, 118 S. Ct. 1003, 140 L.Ed.2d 210 (1998),
that “[s]tanding to sue is part of the common
understanding of what it takes to make a justiciable
case.” Therefore, “standing is a ‘jurisdictional requirement’”, State ex rel. Dallman v. Franklin Cty. Court
of Common Pleas, 35 Ohio St.2d 176, 179, 298 N.E.2d

App.381a
515 (1973). In view of the above, “the issue of standing,
inasmuch as it is jurisdictional in nature, may be raised
at any time during the pendency of the proceedings”,
New Boston Coke Corp. v. Tyler, 32 Ohio St.3d 216,
218, 513 N.E.2d 302 (1987). See also: Fed. Home Loan
Mtge. Corp. v. Schwartzwald, 134 Ohio St.3d 13, 2012
Ohio 5017, ¶ 22, 979 N.E.2d 1214.
5. In 1992, the United States Supreme Court established that “[b]ecause standing to sue is required to
invoke the jurisdiction of the common pleas court,
standing is to be determined as of the commencement
of suit.”, Lujan v. Defenders of Wildlife, 504 U.S. 555,
570-571, 112 S. Ct. 2130, 119 L.Ed.2d 351, fn. 5 (1992);
See also: Friends of the Earth, Inc. v. Laidlaw Environmental Servs. (TOC), 528 U.S. 167, 180, 120 S.
Ct. 693, 145 L.Ed.2d 610 (2000); Nova Health Sys. v.
Gandy, 416 F.3d 1149, 1154-1155 (10th Cir. 2005);

Focus on the Family v. Pinellas Suncoast Transit
Auth., 344 F.3d 1263, 1275 (11th Cir. 2003); Perry v.
Arlington Hts., 186 F.3d 826, 830 (7th Cir. 1999); Carr v.
Alta Verde Industries, Inc., 931 F.2d 1055, 1061 (5th
Cir. 1991).

6. More specifically, “[s]tanding is the legal right
to set judicial machinery in motion”, Hiland v. Ives, 28
Conn. Supp. 243, 245, 257 A.2d 822 (1966). Thus, “[t]he
plaintiff must prove that it had standing to foreclose
when the complaint was filed.” McLean v. JP Morgan
Chase Bank Natl. Assn., 79 So.3d 170, 173 (Fla. App.
2012). See also: Burley v. Douglas, 26 So.3d 1013, 1019
(Miss. 2009), citing Lujan v. Defenders of Wildlife, 504
U.S. 555, 571, 112 S. Ct. 2130, 119 L.Ed.2d 351, fn. 5
(1992); Deutsche Bank Nat’l Trust Co. v. Mitchell, 422
N.J. Super. 214, 224, 27 A.3d 1229 (App. Div. 2011).
See also: McLean v. JP Morgan Chase Bank Nat’l

App.382a

Ass’n, 2011 Fla. App. LEXIS 19931, 36 Fla. L. Weekly
D2728a (Fla. 4th DCA Dec. 14, 2011); Taylor v.
Deutsche Bank Nat’l Trust Co., 44 So.3d 618 (Fla. 5th
DCA 2010).
7. In Saratoga County Chamber of Commerce,
Inc. v. Pataki, 100 N.Y.2d 801, 812, 798 N.E.2d 1047,
766 N.Y.S.2d 654 (2003), cert denied 540 U.S. 1017,
124 S. Ct. 570, 157 L.Ed.2d 430 (2003), it was determined that “standing to sue is critical to the proper
functioning of the judicial system. It is a threshold
issue. If standing is denied, the pathway to the courthouse is blocked. The plaintiff who has standing, however, may cross the threshold and seek judicial redress.”
8. In Fed. Home Loan Mtge. Corp. v. Schwartzwald,
134 Ohio St.3d 13, 2012 Ohio 5017, 979 N.E.2d 1214,
the Supreme Court of Ohio determined that “a plaintiff
in a foreclosure action must have standing at the time
it files the complaint in order to invoke the jurisdiction
of the court.” Schwartzwald at ¶ 41-42. See also: In re

2007 Administration of Appropriations of Water of the
Niobrara, 278 Neb. 137, 145, 768 N.W.2d 420 (2009);
Country Place Cmty. Ass’n v. J.P. Morgan Mortg.
Acquisition Corp., 51 So.3d 1176, 1179 (Fla. 2d DCA

2010). “Standing to sue is jurisdictional in nature as
it concerns a party’s capacity to invoke the jurisdiction
of the court, and, therefore, whether a party has
standing is evaluated at the time of the filing of the
complaint.” Id. at ¶ 24.
9. It is clear that “[i]n a mortgage foreclosure
action, a plaintiff has standing where it is both the
holder and assignee of the subject mortgage and the
holder or assignee of the underlying note at the time
the action is commenced.” Homecomings Fin., LLC v.
Guldi, 108 A.D.3d 506, 507-508, 969 N.Y.S.2d 470

App.383a
(2nd Dep’t 2013), citing: Bank of N.Y. v. Silverberg, 86
A.D.3d 274, 279, 926 N.Y.S.2d 532 (2nd Dep’t 2011);
See also: Bank of N. Y. Mellon Trust Co. NA v. Sachar,
95 A.D.3d 695, 695, 943 N.Y.S.2d 893 (1st Dep’t 2012);
US Bank N.A. v. Cange, 96 A.D.3d 825, 826, 947
N.Y.S.2d 522 [2d Dept 2012]; U.S. Bank, N.A. v.
Collymore, 68 A.D.3d at 753-754 [2009]; Countrywide
Home Loans, Inc. v. Gress, 68 A.D.3d 709, 888
N.Y.S.2d 914 [2d Dept 2009]); HSBC Bank USA v.
Hernandez, 92 A.D.3d 843, 843, 939 N.Y.S.2d 120;
Aurora Loan Servs., LLC v. Taylor, 114 A.D.3d 627,
980 N.Y.S.2d 475 [2d Dept 2014]; Deutsche Bank
Natl. Trust Co. v. Whalen, 107 A.D.3d 931, 932, 969
N.Y.S.2d 82 [2d Dept 2013].
10. Thus, “[a] plaintiff has standing to maintain
the action only where the plaintiff is the proper
assignee of the mortgage and the underlying note at
the time the foreclosure action was commenced.” U.S.
Bank, N.A. v. Collymore, 68 A.D.3d 752, 890 N.Y.S.2d
578 [2d Dept 2009]; Federal Natl. Mtge. Assn. v.
Youkelsone, 303 A.D.2d 546, 755 N.Y.S.2d 730 [2d Dept
2003]; Wells Fargo Bank, N.A. v. Marchione, 69
A.D.3d 204, 887 N.Y.S.2d 615 [2d Dept 2009]; First Trust
Nat’l Ass’n v. Meisels, 234 A.D.2d 414, 651 N.Y.S.2d
121 [2nd Dept 1996]). “A party cannot foreclose on a
mortgage without having title, giving it standing to
bring the action.” See: Kluge v. Fugazy, 145 A.D.2d
537, 538, 536 N.Y.S.2d 92 [2nd Dept 1988].
11. In a debt collection and mortgage foreclosure
action, the plaintiff has standing when “it is both the
holder or assignee of the subject mortgage and the
holder or assignee of the underlying note at the time
the action is commenced.” See: Mortgage Elec. Registration Sys., Inc. v. Coakley, 41 A.D.3d 674, 838 N.Y.S.2d

App.384a
622 [2007]; Federal Natl. Mtge. Assn. v. Youkelsone,
303 A.D.2d 546, 546-547, 755 N.Y.S.2d 730 [2003];
First Trust Natl. Assn. v. Meisels, 234 A.D.2d 414, 651
N.Y.S.2d 121 [1996]); HSBC Bank USA v. Hernandez,
92 A.D.3d 843, 939 N.Y.S.2d 120 [2d Dept 2012]; US
Bank, NA v. Collymore, 68 A.D.3d at 753; Countrywide
Home Loans, Inc. v. Gress, 68 A.D.3d 709, 888 N.Y.S.2d
914 [2d Dept 2009]. Denaro, 98 A.D.3d at 964;
Dellarmo, 94 A.D.3d at 748; Bank of New York, 86
A.D.3d at 279; Collymore, 68 A.D.3d at 753; Wells Fargo
Bank, N.A. v. Marchione, 69 A.D.3d 204, 207, 887
N.Y.S.2d 615 [2d Dept 2009]; Bank of New York v.
Silverberg, 86 A.D.3d 274, 279, 926 N.Y.S.2d 532 [2d
Dept 2011]; Aurora Loan Servs., LLC v. Weisblum, 85
A.D.3d 95, 108, 923 N.Y.S.2d 609 [2d Dept 2011].
12. Thus, “[t]o have standing to foreclose, it must
be demonstrated that the plaintiff holds the note and
mortgage in question.” Mazine v. M & I Bank, 67
So.3d 1129, 1132 (Fla. 1st DCA 2011); See also: BAC
Funding Consortium, Inc. v. Jean-Jacques, 28 So.3d
936, 938 (Fla. 2d DCA 2010). The plaintiff must have
the requisite standing when the foreclosure complaint
is filed. See Rigby v. Wells Fargo Bank, N.A., 84 So.3d
1195, 1196 (Fla. 4th DCA 2012) (citing: Venture Hold-

ings & Acquisitions Grp., LLC v. A.I.M. Funding Grp.,
LLC, 75 So.3d 773, 776 (Fla. 4th DCA 2011)). “It is
axiomatic that plaintiff has standing to sue if it was
the lawful holder of the note and mortgage when the
action was commenced.” Mortgage Electronic Registration Systems, Inc. v. Coakley, 41 A.D.3d 674, 838
N.Y.S.2d 622 (2nd Dept 2007).
13. “The doctrine of standing is designed to preclude persons who have no interest in a controversy
from bringing suit.” Raintree Homes, Inc. v. Village of

App.385a

Long Grove, 209 Ill. 2d 248, 262, 807 N.E.2d 439, 282
Ill. Dec. 815 (2004). “A party’s standing to sue must be
determined as of the time the suit is filed.” Village of
Kildeer v. Village of Lake Zurich, 167 Ill. App. 3d 783,
786, 521 N.E.2d 1252, 118 Ill. Dec. 559 (1988). “[A]
party either has standing at the time the suit is
brought or it does not.” Id.
14. Before the case of Schwartzwald, supra, the
Court of Appeals of Ohio also determined that: “in
order to have a real interest in a foreclosure action, a
party must be the owner and holder of the note and
the mortgage at the time it commences the action.”
U.S. Bank, N.A. v. Richards, 189 Ohio App.3d 276,
2010 Ohio 3981, ¶ 13, 938 N.E.2d 74 (9th Dist.), citing:
Everhome Mtge. Co. v. Rowland, 10 Dist. Franklin No.
07AP-615, 2008 Ohio 1282, ¶ 12 (“In foreclosure actions,
the real party in interest is the current holder of the
note and mortgage”); Wells Fargo Bank, N.A. v.
Sessley, Franklin App. No. 09AP-178, 188 Ohio App.
3d 213, 2010 Ohio 2902, ¶ 11, 935 N.E.2d 70; Quantum
Servicing Corp. v. Haugabrook, 9th Dist. Summit No.
26542, 2013-Ohio-3516, ¶ 8; Wells Fargo Bank N.A. v.
Horn, 9th Dist. Lorain No. 12CA010230, 2013-Ohio2374, ¶ 10; BAC Home Loan Serv. v. McFerren, 9th
Dist. Summit No. 26384, 2013-Ohio-3228, ¶ 13; Wells
Fargo Bank, N.A. v. Stovall, Cuyahoga App. No.
91802, 2010 Ohio 236.
15. “A plaintiff seeking foreclosure must establish
that it was the owner or holder of the note and
mortgage at the time that it commenced the foreclosure
action.” See: Mortgage Elec. Registration Sys. v. Coakley, 41 A.D.3d 674, 838 N.Y.S.2d 622 [2nd Dept 2007];
Federal Natl. Mtge. Assn. v. Youkelsone, 303 A.D.2d
546, 755 N.Y.S.2d 730 [2nd Dept 2003]; See also: Wells

App.386a

Fargo Bank, N.A. v. Marchione, 69 A.D.3d 204, 887
N.Y.S.2d 615 [2nd Dept 2009].
16. “In order to commence a foreclosure action, a
plaintiff must have a legal or equitable interest in the
mortgage. A plaintiff has standing where it is the
holder or assignee of both the subject mortgage and of
the underlying note at the time the action is commenced”, Bank of N.Y. v. Silverberg, 86 A.D.3d 274,
926 N.Y.S.2d 532 [2011]; Aurora Loan Servs., LLC v.
Weisblum, 85 A.D.3d 95, 923 N.Y.S.2d 609 [2011];
Wells Fargo Bank, N.A. v. Marchione, 69 A.D.3d 204,
207, 887 N.Y.S.2d 615 [2009]; U.S. Bank, N.A. v. Collymore, 68 A.D.3d 752, 890 N.Y.S.2d 578 [2009];
Countrywide Home Loans, Inc. v. Gress, 68 A.D.3d
709, 888 N.Y.S.2d 914 [2009]); Deutsche Bank Natl.
Trust Co. v. Spanos, 102 A.D.3d 909, 911, 961 N.Y.S.2d
200; OneWest Bank FSB v. Carey, 104 A.D.3d 444,
960 N.Y.S.2d 306 [1st Dept 2013]; Bank of New York
Mellon Trust Co. NA v. Sachar, 95 A.D.3d 695, 943
N.Y.S.2d 893 [1st Dept 2012]; GRP Loan, LLC v.
Taylor, 95 A.D.3d 1172, 945 N.Y.S.2d 336 [2nd Dept
2012]. The decision in Bank of New York v. Silverberg,
86 A.D.3d at 280, (2nd Dep’t, 2011) maintained that:
“a plaintiff does not have standing to bring a foreclosure
action if [it] does not own the note.”
17. In Kluge v. Fugazy et al., 145 A.D.2d 537;
536 N.Y.S.2d 92 (N.Y., 1988), it was determined that:
“foreclosure of a mortgage may not be brought by one

who has no title to it and absent transfer of the debt,
the assignment of the mortgage is a nullity [Emphasis

added]. Essentially, in the Kluge decision the Court
found that since the plaintiff was not the holder of the
mortgage note and the assignee of the mortgage, it
lacked standing to bring a collection and foreclosure

App.387a
action. See also: Deutsche Bank Nat’l Trust Co. v.
Barnett, 88 A.D.3d 636, 637, 931 N.Y.S.2d 630; Bank of
NY v. Silverberg, 86 A.D.3d 274, 926 N.Y.S.2d 532;
Campaign v. Barba (23 A.D.3d 327, 805 N.Y.S.2d 86
[2d Dept 2005].
18. “The transfer of a mortgage without a note is
a nullity and insufficient to confer standing to foreclose.”
See: U.S. Bank N.A. v. Dellarmo, 94 A.D.3d 746, 748,
942 N.Y.S.2d 122 (2nd Dep’t 2012); Deutsche Bank
Nat’l Trust Co. v. Barnett, 88 A.D.3d 636, 637, 931
N.Y.S.2d 630 (2nd Dep’t 2011); Bank of N.Y. v. Silverberg, 86 A.D.3d at 280. “An assignment of a mortgage
without assignment of the underlying note or bond is
a nullity, and no interest is acquired by it.” Merritt v.
Bartholick, 36 NY 44, 45, 34 How. Pr. 129, 1 Transc. App.
63 [1867]; Bank of N.Y. v. Silverberg, 86 A.D.3d 274,
926 N.Y.S.2d 532 [2011]; LaSalle Bank Natl. Assn. v.
Ahearn, 59 A.D.3d 911, 912, 875 N.Y.S.2d 595 [2009].
19. “The collateral lien of the mortgage could have
no legal existence when separated from the note and
transferred to others than the holder of the note, but
so long as the two remain together, owned and
possessed by the same person, they operate together and
are obligations for the payment of the same indebtedness.” Matter of Pirie, 198 NY 209, 91 N.E.587 (1910).

A party who only has the mortgage but no note has
not suffered any injury given that bare possession of
the mortgage does not endow its possessor with any
enforceable right absent possession of the note. See:
Restatement of the Law 3d, Property, Mortgages,
Section 5.4(e), at 385 (1996) (“[I]n general a mortgage
is unenforceable if it is held by one who has no right
to enforce the secured obligation.”).

App.388a
20. In Carpenter v. Longan, 83 U.S. 271, 274, 21
L.Ed 313 [1873], the United States Supreme Court
determined that: “an assignment of the mortgage without the note is a nullity.” See: US Bank N.A. v. Madero,
80 A.D.3d 751, 752, 915 N.Y.S.2d 612 [2011]; US
Bank, N.A. v. Collymore, 68 A.D.3d at 754; Kluge v.
Fugazy, 145 A.D.2d 537, 538, 536 N.Y.S.2d 92 [1988]
[plaintiff, the assignee of a mortgage without the underlying note, could not bring a foreclosure action]; See also:
Flyer v. Sullivan, 284 App Div 697, 698, 134 N.Y.S.2d
521 [1954]; Beak v. Walts, 266 App Div 900, 42
N.Y.S.2d 652 [1943].
21. “Ownership of the note is part of a Plaintiff’s
prima facie case and its burden of proof” Wells Fargo
Bank, N.A., v. Cohen, 80 A.D.3d 753, 915 N.Y.S.2d 569
(2d Dept 2011); Argent Mtge. Co., LLC v. Mentesana,
79 A.D.3d 1079, 915 N.Y.S.2d 591 (2nd Dept 2010);
Campaign v. Barba, 23 A.D.3d 327, 805 N.Y.S.2d 86
(2nd Dept 2005).
22. In Deutsche Bank National Trust v. Brumbaugh, 2012 OK 3, 270 P.3d 151, ¶ 11, it was determined
that: [t]o commence a foreclosure action, a plaintiff
must demonstrate it has a right to enforce the note
and, absent a showing of ownership, the plaintiff lacks
standing. See: Gill v. First Nat. Bank & Trust Co. of
Oklahoma City, 1945 OK 181, 195 Okla. 607, 159 P.2d
717.
23. Thus, “[t]he party seeking foreclosure must
present evidence that it owns and holds the note and
mortgage in question in order to proceed with a
foreclosure action.” Lizio v. McCullom, 36 So.3d 927,
929 (Fla. 4th DCA 2010). “To establish a prima facie
case in an action to foreclose a mortgage, the plaintiff
must establish the existence of the mortgage and

App.389a
mortgage note, ownership of the mortgage and note.”
Household Fin. Realty Corp. of N.Y. v. Winn, 19 A.D.3d
545, 796 N.Y.S.2d 533 [2005]; Sears Mtge. Corp. v.
Yaghobi, 19 A.D.3d 402, 796 N.Y.S.2d 392 [2005];
Ocwen Fed. Bank FSB v. Miller, 18 A.D.3d 527, 794
N.Y.S.2d 650 [2005]; U.S. Bank Trust N.A. Trustee v.
Butti, 16 A.D.3d 408, 792 N.Y.S.2d 505 [2005]). First
Union Mortgage Corp. v. Fern, 298 A.D.2d 490, 749
N.Y.S.2d 42 [2d Dept 2002]; Village Bank v. Wild Oaks,
Holding, Inc., 196 A.D.2d 812, 601 N.Y.S.2d 940 [2d Dept
1993]).
24. “A plaintiff must demonstrate it has a right to
enforce the note and, absent a showing of ownership,
the plaintiff lacks standing.” Gill v. First Nat. Bank &
Trust Co. of Oklahoma City, 1945 OK 181, 195 Okla.
607, 159 P.2d 717. “To foreclose a mortgage, a plaintiff
must demonstrate that it has a right to enforce the
note, and without such ownership, the plaintiff lacks
standing.” Wells Fargo Bank, N.A. v. Ford, 418 N.J.
Super. 592, 15 A.3d 327, 329 (N.J. Super. Ct. App. Div.
2011).
25. As in the instant case, “the plaintiff failed to
demonstrate its prima facie entitlement to judgment
as a matter of law because it did not establish that it
had standing as the lawful holder or assignee of the
subject note on the date it commenced this action.”
See: Deutsche Bank Nat’l Trust Co. v. Barnett, 88
A.D.3d 636, 931 N.Y.S.2d 630; U.S. Bank N.A. v.
Madero, 80 A.D.3d 751, 915 N.Y.S.2d 612; U.S. Bank,
N.A. v. Collymore, 68 A.D.3d 752, 890 N.Y.S.2d 578.
26. In these collection and foreclosure actions, the
party in interest is the current holder of the mortgage
note and the mortgage. See: Chase Manhattan Mtge.
Corp. v. Smith, Hamilton App. No. C-061069, 2007 Ohio

App.390a
5874, at P18; Kramer v. Millott (Sept. 23, 1994), Erie
App. No. E-94-5, 1994 Ohio App. LEXIS 4454 (“because
the plaintiff did not prove that she was the holder of
the note and mortgage, she did not establish herself
as a real party in interest”). “A party who fails to
establish itself as the current holder is not entitled to
judgment as a matter of law.” First Union Nat’l Bank
v. Hufford (2001), 146 Ohio App.3d 673, 677, 679-680,
2001 Ohio 2271, 767 N.E.2d 1206.
27. “To foreclose upon a promissory note, the
plaintiff must be the ‘holder’ in order to be the real
party in interest.” Troupe v. Redner, 652 So.2d 394,
395-96 (Fla. 2d DCA 1995); Mortg. Elec. Registration
Sys. v. Azize, 965 So.2d 151, 153 (Fla. 2d DCA 2007).
28. Therefore, “[w]here standing is put into issue
by a defendant’s answer, a plaintiff must prove its
standing if it is to be entitled to relief. Standing is an
aspect of justiciability which, when challenged, must
be considered at the outset of any litigation.” See:
Wells Fargo Bank Minnesota National Association, 42
A.D.3d 239, 837 N.Y.S.2d 247 [2nd Dept 2007]. “If a
plaintiff lacks standing to sue, the plaintiff may not
proceed in the action.” Deutsche Bank National Trust
Company, et al. v. Campbell et al, 21 Misc. 3d 1145[A],
875 N.Y.S.2d 819, 2008 NY Slip Op 52506[U] [Supreme
Court of New York, Kings County 2008].
29. As in the instant case, “[w]here the defendant
denies that the party seeking foreclosure has an ownership interest in the mortgage, the issue of ownership
becomes an issue the plaintiff must prove. Carapezza
v. Pate, 143 So.2d 346, 347 (Fla. 3d DCA 1962). “Where
standing is put into issue by a defendant, the plaintiff
must prove its standing in order to be entitled to
relief.” See: US Bank N.A. v. Madero, 80 A.D.3d 751,

App.391a
752, 915 N.Y.S.2d 612 (2nd Dep’t 2011); U.S. Bank, N.A.
v. Collymore, 68 A.D.3d 752, 753, 890 N.Y.S.2d 578
(2nd Dep’t 2009); Deutsche Bank Natl. Trust Co. v.
Haller, 100 A.D.3d 680, 954 N.Y.S.2d 551 [2d Dept 2012].
TPZ Corp. v. Dabbs, 25 A.D.3d 787, 789, 808 N.Y.S.2d
746 [2006]; See also: Society of Plastics Indus. v.
County of Suffolk, 77 NY2d 761, 769, 573 N.E.2d 1034,
570 N.Y.S.2d 778 [1991]). CitiMortgage, Inc. v. Rosenthal, 88 A.D.3d 759, 931 N.Y.S.2d 638 [2011]. “Where
a plaintiff standing to commence a foreclosure action
is placed in issue by a defendant, it is incumbent upon
the plaintiff to prove its standing to be entitled to
relief.” See: Citimortgage, Inc. v. Stosel, 89 A.D.3d 887,
934 N.Y.S.2d 182 [2d Dept 2011].
30. Where standing is raised as a defense by the
defendant, the plaintiff is required to prove its standing
before it may be determined whether the plaintiff is
entitled to relief. See: U.S. Bank, N.A. v. Collymore,
68 A.D.3d 752, 753, 890 N.Y.S.2d 578 [2d Dept 2009].
In other words: “Where a defendant raises the issue of
standing, the plaintiff must prove its standing to be
entitled to relief.” (U.S. Bank, N.A. v. Dellarmo, 94
A.D.3d 746, 748, 942 N.Y.S.2d 122 [2d Dept 2012]; U.S.
Bank, N.A. v. Sharif, 89 A.D.3d 723, 724, 933 N.Y.S.2d
293 [2d Dept 2011]; Bank of New York v. Silverberg,
86 A.D.3d 274, 279, 926 N.Y.S.2d 532 [2d Dept 2011];
U.S. Bank, N.A. v. Collymore, 68 A.D.3d 752, 753, 890
N.Y.S.2d 578 [2d Dept 2009].)
31. “The party seeking foreclosure must present
evidence that it owns and holds the note and mortgage
in question in order to proceed with a foreclosure
action. Verizzo v. Bank of N.Y., 28 So.3d 976, 978 (Fla.
2d DCA 2010); Philogene v. ABN Amro Mortgage Group
Inc., 948 So.2d 45, 46 (Fla. 4th DCA 2006); Lizio v.

App.392a

McCullom, 36 So.3d 927, 929 (Fla. 4th DCA 2010). As
we have noted above: “[a] party must have the note
and the mortgage in order to demonstrate standing.”
See: Richards, 189 Ohio App.3d 276, 2010 Ohio 3981,
at ¶ 13, 938 N.E.2d 74; Losantiville Holdings L.L.C. v.
Kashanian, 1st Dist. Hamilton No. C-110865, 2012
Ohio 3435, ¶ 17; Arch Bay Holdings, L.L.C. v. Brown, 2d
Dist. Montgomery No. 25073, 2012 Ohio 4966, ¶ 16;
U.S. Bank Natl. Assn. v. Marcino, 181 Ohio App.3d 328,
2009 Ohio 1178, ¶ 32, 908 N.E.2d 1032 (7th Dist.);
Rowland, 2008 Ohio 1282, at ¶ 12. “The party seeking
foreclosure must present evidence that it owns and
holds the note and mortgage in question in order to
proceed with a foreclosure action.” Lizio v. McCullom, 36
So.3d 927, 929 (Fla. 4th DCA 2010). “It is well-established precedent requiring the party seeking foreclosure
to present evidence that it owns and holds the note
and mortgage in question in order to proceed with a
foreclosure action. See: Verizzo, 28 So.3d at 978; Philogene v. ABN Amro Mortg. Group Inc., 948 So.2d 45, 46
(Fla. 4th DCA 2006).
32. In a debt collection and foreclosure case, “the
plaintiff must plead and prove as part of its prima
facie case that it owns the note and mortgage and has
the right to foreclose.” Wells Fargo Bank, N.A., 80
A.D.3d 753, 915 N.Y.S.2d 569 (2d Dept 2011); Argent
Mtge. Co., LLC v. Mentesana, 79 A.D.3d 1079, 915
N.Y.S.2d 591 (2d Dept 2010); Campaign v. Barba, 23
A.D.3d 327, 805 N.Y.S.2d 86 (2nd Dept 2005).
33. In Wells Fargo Bank, N.A. v. Jordan, Cuyahoga
App. No. 91675, 2009 Ohio 1092, it was determined
that: “a party lacks standing to bring a foreclosure
action if the party cannot prove that it owned the note
and mortgage on the date the complaint was filed.”

App.393a
34. “It is well established that in a foreclosure
action it is plaintiff’s burden to provide admissible
evidence of its standing as the lawful holder of the
subject note and mortgage at the time the action was
commenced.” See: U.S. Bank Nat’l Asso’n. v. Madero,
80 A.D.3d 751, 915 N.Y.S.2d 612 (2nd Dept. 2011);
Aurora Loan Services, LLC v. Weisblum, 85 A.D.3d
95, 923 N.Y.S.2d 609 (2nd Dept. 2011); Bank of New
York v. Silverberg, 86 A.D.3d 274, 926 N.Y.S.2d 532,
2011 NY Slip Op 5002 (2d Dept. 2011); U.S. Bank, N.A.
v. Collymore, 68 A.D.3d 752, 890 N.Y.S.2d 578 (2d
Dept. 2009).
35. More specifically, lack of standing cannot be
cured after the filing of the complaint. Along these
lines: “[i]f, at the commencement of the action, a
plaintiff does not have standing to invoke the court’s
jurisdiction, the plaintiff cannot cure the lack of
standing by [subsequently] obtaining an interest in
the subject of the litigation and substituting itself as
the real party in interest.” Fed. Home Loan Mtge.
Corp. v. Schwartzwald, Slip Opinion No. 134 Ohio St.3d
13, 2012 Ohio 5017, 979 N.E.2d 1214.
36. Thus, “a retroactive assignment cannot be used
to confer standing upon the assignee in a foreclosure
action commenced prior to the execution of an
assignment.” Wells Fargo Bank, N.A. v. Marchione, 69
A.D.3d 204, 210, 887 N.Y.S.2d 615 [2d Dept 2009].
37. “A plaintiff’s lack of standing at the time a
complaint is filed in a foreclosure action cannot be
cured by substituting the real party in interest for an
original party.” Wells Fargo Bank, N.A. v. Jordan, 8th
Dist. No. 91675, 2009 Ohio 1092, ¶ 24. “[I]n a foreclosure
action, a bank that was not the mortgagee when suit
was filed cannot cure its lack of standing by subsequently

App.394a
obtaining an interest in the mortgage.” Id. at ¶ 24; See
also: Deutsche Bank Natl. Trust Co. v. Triplett, 8th
Dist. No. 94924, 2011 Ohio 478, ¶ 12; Wells Fargo
Bank N.A. v. Byrd, 178 Ohio App.3d 285, 2008 Ohio
4603, 897 N.E.2d 722 (1st Dist.).
38. “A plaintiff cannot rely on procedural rules
similar to cure a lack of standing at the commencement
of litigation,” Davis v. Yageo Corp., 481 F.3d 661, 678
(9th Cir. 2007) (“whether or not Dux was the realparty-in-interest, it does not have standing, and it
cannot cure its standing problem through an invocation
of Fed. R. Civ. P. 17(a)”); Clark v. Trailiner Corp., 242
F.3d 388 (10th Cir. 2000) (table), opinion reported at
2000 U.S. App. LEXIS 29006, 2000 WL 1694299 (noting
that the plaintiff cannot “retroactively become the
real-party-in-interest” in order to cure a lack of
standing at the filing of the complaint [emphasis sic]);
State v. Property at 2018 Rainbow Drive, 740 So.2d
1025, 1027-1028 (Ala. 1999) (rejecting the argument that
a lack of standing can be cured after the filing of the
complaint); Consumer Fedn. of Am. v. Upjohn Co., 346
A.2d 725, 729 (D.C. App. 1975). See also: McLean v.
JP Morgan Chase Bank Natl. Assn., 79 So.3d 170, 173
(Fla. App. 2012) (“a party is not permitted to
establish the right to maintain an action retroactively
by acquiring standing to file a lawsuit after the fact”).
39. In other words, “the plaintiff’s lack of standing
at the inception of the case is not a defect that may be
cured by the acquisition of standing after the case is
filed.” Progressive Exp. Ins. Co. v. McGrath Comty.
Chiropractic, 913 So.2d 1281, 1286 (Fla. 2d DCA
2005). “Thus, a party is not permitted to establish the
right to maintain an action retroactively by acquiring
standing to file a lawsuit after the fact.” Id. at 1286.

App.395a
40. “Where a valid cause of action is not stated,
the party moving for judgment is not entitled to the
requested relief, even on default.” Green v. Dolphy
Constr. Co. 187 A.D.2d 635, 590 N.Y.S.2d 238 (2nd
Dep’t, 1992); Citigroup Global Mkts. Realty Corp. v.
Smith, 33 Misc. 3d 1234(A); 943 N.Y.S.2d 790; 2011
N.Y.
41. Thus, “it becomes essential to establish that
the person who demands payment of a negotiable note,
or to whom payment is made, is the duly qualified
holder. Otherwise, the obligor is exposed to the risk of
DOUBLE PAYMENT, or at least to the expense of litigation incurred to prevent duplicative satisfaction of
the instrument. These risks provide makers with a
recognizable interest in demanding proof of the CHAIN
OF TITLE.” Adams v. Madison Realty & Development, Inc. (C.A.3, 1988), 853 F.2d 163, 168.
42. “Standing is a threshold question for the
court to decide in order for it to proceed to adjudicate
the action.” State ex rel. Jones v. Suster, 84 Ohio St.3d
70, 77, 1998 Ohio 275, 701 N.E.2d 1002.
43. “If a plaintiff lacks standing to sue, the
plaintiff may not proceed in the action.” Stark v.
Goldberg, 297 A.D.2d 203, 746 N.Y.S.2d 280 (1st Dept
2002). “Even without opposition, a plaintiff in a
foreclosure action must satisfy a court that it has
proper standing or title to bring the action, that the
mortgage and note was actually funded by the plaintiff,
and that the transaction itself, the one sued upon, has
the indicia of reliability and is free of fraud.” Kluge v.
Fugazy, 145 A.D.2d 537, 536 N.Y.S.2d 92 (2nd Dep’t
1988); Katz v. East-Ville Realty Co, 249 A.D.2d 243,
672 N.Y.S.2d 308 (1st Dep’t 1998).

App.396a
44. In U.S. Bank National Association vs. Antonio
Ibañez, 941 N.E.2d 40 (Mass, 2011), it was determined that: the plaintiffs did not demonstrate that
they were the holders of the Ibanez and LaRace
mortgages at the time that they foreclosed these
properties, and therefore the trial court ruled the

foreclosure sales were invalid.

45. “Today, with multiple (and often unrecorded)
assignments of mortgage obligations and multiple
securitizations often related to the same debt, the
court should carefully scrutinize the status of the
parties who claim the right to enforce these mortgage
obligations.” Deutsche Bank National Trust Company
v. McRae, 27 Misc3d 247, 894 N.Y.S.2d 720, [Sup Ct,
Allegany County, 2010].
46. A plaintiff who has no standing in an action
is subject to a jurisdictional dismissal since (1) courts
have jurisdiction only over controversies that involve
the plaintiff, (2) a plaintiff found to lack “standing is
not involved in a controversy, and (3) the courts
therefore have no jurisdiction of the case when such
plaintiff purports to bring it.” Security Pac. Natl.
Bank v. Evans, 31 A.D.3d 278, 820 N.Y.S.2d 2.
47. In Puerto Rico, jurisdiction is the primary
source of authority of the courts to interpret and enforce
the laws in our system of government. Jurisdiction is
governed by the application of the various doctrines
which give life to the principle of justiciability: standing, mootness and political questions, P.P.D. vs.
Gobernador I, 139 D.P.R. 643, 666 (1995).
48. It is an oft-repeated standard that our jurisdiction is governed by the constitutional concept of
justiciability, which establishes as a requirement the

App.397a
existence of a real case or controversy for the valid
exercise of judicial authority. Ortiz v. Panel F.E.I., 155
D.P.R. 219 (2001). With this in mind, the courts must
ensure that the matters brought before their consideration are “justiciable”, which means that: (1) they do
not involve aspects related to any public policy determined by the executive branch; (2) the parties have
legal capacity or standing to bring the lawsuit; 3) that
the controversy is not moot or advisory; and 4) the controversy is ripe for adjudication. Acevedo Vilá v.
Meléndez Ortiz, 164 D.P.R. ___, 2005 T.S.P.R. 79,
2005 JTS 80; Com. de la Mujer v. Srio. de Justicia, 109
D.P.R. 715, 720-725 (1980).
49. One of the axioms derived from this reasonable approach is that of standing, which relates primarily to the person pursuing the action and secondarily
to the issues to be adjudicated. Hernández Torres v.
Hernández Colón, 129 D.P.R. 824 (1992). One of the
requirements for justiciability of controversies is that
the parties must have the legal capacity to be parties.
Hernández Agosto v. Romero Barcelli, 112 D.P.R. 407,
413 (1982).
50. Lack of jurisdiction cannot be cured, and no
court may arrogate jurisdiction to itself, as the courts
have the inescapable duty to examine their own jurisdiction. Pagán Navedo v. Alcalde Mun. de Cataño, 143
D.P.R. 314, 326 (1997), Vázquez v. A.R.P.E., 128 D.P.R.
513, 537 (1991); Pueblo v. Miranda Collin, 115 D.P.R.
511, 513 (1984).
IN VIEW OF THE DISPUTE OVER KEY
MATERIAL FACTS, THE DISCOVERY STAGE IN
PROCESS AND THE EXPERT EVIDENCE ON THE
COURT RECORD, we respectfully petition the Honorable Court to overturn its Judgment and order the

App.398a
continuation of the proceedings in the above-captioned
case.
RESPECTFULLY REQUESTED.
In San Juan, Puerto Rico, on August 14, 2018.
I CERTIFY: That a true and exact copy of this
document was served by certified mail and/or email to
all the attorneys and parties on record to their addresses
on the court record.
MONGE LA FOSSE
ATTORNEY & COUNSELLORS AT LAW, P.S.W.
PO Box 192053
San Juan, Puerto Rico 00919-2053
Telefono: (787) 765-9090
TeleFax: (787) 765-9035
Celular: (787) 413-1135
Lic: 12496
Email: mongelafosselaw@gmail.com

Grace Monge La Fosse

App.399a
====================================
CERTIFICATE OF TRANSLATOR
# JF-2020-001_APP J
I am a United States court-certified interpreter,
and I CERTIFY that the above is a faithful translation
of the Spanish source, which I have performed to the best
of my ability. It consists sixty-one (61) pages, including
this certification sheet, and contains no changes or
erasures.
The content of this translation is a Motion to Reconsider in the Commonwealth of Puerto Rico Civil Case
No. ECD2015-1017 [Re: Collection of Monies, Mortgage
Foreclosure].
In Cambridge, Massachusetts, on January 20, 2020.
/s/ Joaquín Font
Joaquín Font
Font Translations
Calle Calaf 400, Suite 268
San Juan, PR 00918
Toll-Free Tel. & Fax: 1-877-JOAQUIN (562-7846)
e-mail: fonttranslations@gmail.com

